<html>
<title> - REVIEW OF THE FISCAL YEAR 2019 STATE DEPARTMENT BUDGET REQUEST</title>
<body><pre>[Senate Hearing 115-830]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-830

                  REVIEW OF THE FISCAL YEAR 2019 STATE 
                    DEPARTMENT BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS
                     
                             SECOND SESSION
                               __________

                              MAY 24, 2018

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov                         
                         
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-669 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman 
                
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                           C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3

Pompeo, Hon. Mike, Secretary of State, U.S. Department of State..     1
    Prepared Statement...........................................     6

              Additional Material Submitted for the Record

Responses of Secretary of State Michael Pompeo to Questions 
  Submitted by Senator Bob Corker................................    73

Responses of Secretary of State Michael Pompeo to Questions 
  Submitted by Senator Robert Menendez...........................    74

Responses of Secretary of State Michael Pompeo to Questions 
  Submitted by Senator Marco Rubio...............................   102

Responses of Secretary of State Michael Pompeo to Questions 
  Submitted by Senator Ben Cardin................................   108

Responses of Secretary of State Michael Pompeo to Questions 
  Submitted by Senator Todd Young................................   115

Responses of Secretary of State Michael Pompeo to Questions 
  Submitted by Senator Tom Udall.................................   116

Responses of Secretary of State Michael Pompeo to Questions 
  Submitted by Senator John Barrasso.............................   120

Responses of Secretary of State Michael Pompeo to Questions 
  Submitted by Senator Cory Booker...............................   122

Statement From Refugees International............................   128

Statement From Catholic Relief Services OPED in the HILL 
  Newspaper......................................................   129

Letter Submitted by Senator Young to the Appropriations Committee 
  Reiterating Bipartisan Support for the Fiscal Year 2019 
  International Affairs Budget...................................   130

                                 (iii)


 
                REVIEW OF THE FISCAL YEAR 2019 STATE 
                       DEPARTMENT BUDGET REQUEST

                              ----------                              


                        THURSDAY, MAY 24, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Gardner, 
Young, Barrasso, Isakson, Portman, Paul, Menendez, Cardin, 
Shaheen, Coons, Udall, Murphy, Kaine, Markey, Merkley, and 
Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Foreign Relations Committee will come to 
order. I thank everybody for being here.
    Because of developments that have occurred, we are going to 
go a little out of order, if it is okay, and let Secretary 
Pompeo read a letter. I want to thank him for his service. I 
really, truly believe he has the opportunity to be a historic 
Secretary of State. And I thank him for all the things he has 
been doing since he was sworn in, immediately going to the NATO 
Summit.
    But, with that, Mr. Secretary, out of respect for what has 
just occurred, if you would like to read the letter, I would 
appreciate it.

    STATEMENT OF HON. MIKE POMPEO, SECRETARY OF STATE, U.S. 
                      DEPARTMENT OF STATE

    Secretary Pompeo. Thank you, Mr. Chairman, and thank you, 
Senator Menendez, for allowing me to do this. The President 
asked that I begin this hearing today by reading a letter that 
the State Department recently transmitted to Chairman Kim and 
North Korea.
    The letter is to Chairman Kim Jong Un, Chairman of the 
State Affairs Commission of the Democratic People's Republic of 
Korea, and it reads as follows:

        ``Dear Mr. Chairman, We greatly appreciate your time, 
        patience, and effort with respect to our recent 
        negotiations and discussions relative to a summit long 
        sought by both parties which was scheduled to take 
        place on June 12th in Singapore. We are informed that 
        the meeting was requested by North Korea, but that to 
        us is totally irrelevant. I was very much looking 
        forward to being there with you. Sadly, based on the 
        tremendous anger and open hostility displayed in your 
        most recent statement, I feel it is appropriate at this 
        time to have this long-planned meeting''--or 
        ``inappropriate,'' excuse me--``I feel it is 
        inappropriate at this time to have this long-planned 
        meeting. Therefore, please let this letter serve to 
        represent that the Singapore Summit, for the good of 
        both parties but to the detriment of the world, will 
        not take place. You talk about your nuclear 
        capabilities, but ours are so massive and powerful that 
        I pray to God they will never have to be used. I felt 
        that a wonderful dialogue was building up between you 
        and me, and ultimately it is only that dialogue that 
        matters. Someday, I look very much forward to meeting 
        you. In the meantime, I want to thank you for the 
        release of the hostages, who are now home with their 
        families. That was a beautiful gesture and was very 
        much appreciated. If you change your mind having to do 
        with this important summit, please do not hesitate to 
        call me or write. The world, and North Korea in 
        particular, has lost a great opportunity for lasting 
        peace and great prosperity and wealth. This missed 
        opportunity is a truly sad moment in history. Sincerely 
        yours, Donald J. Trump, President of the United States 
        of America.''

    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir
    We want to thank you for joining us today. And, you were 
here just 6 weeks ago for your confirmation hearing. Now you 
are back in just a month, again, and I want to commend you on 
an energetic and forceful start to your tenure.
    We hold a budget hearing each year, and that is the formal 
subject of today's meeting. But, as you and I have discussed, 
budgets coming from an administration, these days and for many 
years, are not really focused on that much. As you know, there 
is a process we go through here to really determine what 
expenditures are going to be made. So, since it really does not 
have a great effect on the outcomes here, it would be my guess 
that there really will not be many questions around the budget. 
And I think you know that, even though you are going to present 
it, fulfilling your responsibilities.
    While discussing the budget is not a productive use of our 
time today, in all likelihood, I am hopeful that your remarks 
will outline your management plan for the State Department and 
steps that you have taken thus far on that front. I also want 
to discuss with you our efforts to update authorities we use to 
fight terror abroad. And, just for members on both sides of the 
aisle, today we have agreed to two rounds of questions, if 
necessary. And we realize that there have been questions around 
the AUMF. And so, I know many questions may focus on the AUMF 
we have been discussing in recent times.
    Our bipartisan legislation would replace 2001 and 2002 
AUMFs with an updated AUMF against al-Qaeda, the Taliban, and 
the Islamic State in Iraq and Syria. It provides the 
administration the flexibility necessary to win this fight 
while strengthening the rightful and necessary role of 
Congress. And I believe it is the best chance we have to 
finally address this issue in a constructive way for the first 
time in almost 17 years.
    Since last June, our committee has held four public 
hearings, a classified briefing, and a number of meetings on 
authorizing the use of military force. We have heard testimony 
from legal scholars, policy experts, and Secretaries of State 
and Defense twice. During your confirmation hearing, you 
testified that you believe that we should update the AUMF and 
that you would welcome continuing to work with us towards that 
end. I know you have had experience working on this topic when 
you served in the House, and I appreciate your support for 
Congress's appropriate role with respect to this important 
issue.
    I also hope while you are here that you can speak to our 
strategy to get a new and better Iran deal now that we have 
withdrawn from the Joint Comprehensive Plan of Action. As you 
know, along with a majority of the colleagues on this 
committee, we staunchly opposed the JCPOA because it allowed 
Iran to maintain an enrichment capacity, and the limits on that 
enrichment capacity expired after only 10 or 15 years. While I 
am disappointed, no doubt, that the Europeans were unable to 
reach an arrangement with the administration to address the 
serious flaws in the JCPOA, I am hopeful that moving forward a 
new agreement that addresses Iran's nefarious nuclear and non-
nuclear activities can be reached. With Iran's proxies 
performing well in the recent Iraqi and Lebanese elections; 
Iran's rising threat to our partner, Israel; and the war in 
Syria; transatlantic alignment and countering Iran 
comprehensively have never been more important. I know you 
share that belief and have spoken to that recently. So, I am 
eager to hear your thoughts on what can be done to build on the 
negotiations with the Europeans that preceded the decision to 
withdraw from the JCPOA.
    We thank you again for appearing before us. I thank you 
very much for accessibility and transparency, and look forward 
to your testimony.
    Thank you very much.
    And I will turn to our distinguished Ranking Member, my 
friend, Senator Bob Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for coming to the committee again 
and agreeing to two rounds of questions so we can discuss the 
budget, the administration's views on the new proposed AUMF, 
and other pressing issues.
    As you know, I strongly believe that frequent, open, and 
frank exchanges are critical for this body to conduct effective 
oversight and for informing the American people. And, to that 
end, I appreciate our call of last week.
    Let me depart, for a moment, because, since we started this 
hearing with current events, let me just remark on them 
briefly.
    The art of diplomacy is a lot harder than the art of the 
deal. The reality is, is that it is pretty amazing that the 
administration might be shocked that North Korea is acting as 
North Korea might very well normally act. And, while we applaud 
robust diplomatic efforts to try to denuclearize the Korean 
Peninsula, many of us were deeply concerned that the lack of 
deep preparation that is necessary before such a summit is even 
agreed to was not taking place. And now we see the consequences 
of that. And I am not sure that constantly quoting the Libya 
model is the diplomatic way to try to get to the results that 
we seek in North Korea, because that did not work out too well 
for Gaddafi. So, I look forward to having an opportunity--I am 
sure other members will, as well--to discuss that further.
    I was pleased to hear, Mr. Secretary, that a recent town 
hall at the State Department, you said that we are--quote, ``We 
are fortunate that our President values and understands the 
power of diplomacy and knows that we must use every tool in the 
diplomatic toolkit.'' So, surely, Mr. Secretary--I am sure you 
cannot be here to actually defend this budget, which runs 
completely counter to that very assertion, runs counter to the 
very goals and ideals that you championed in your confirmation 
hearing and those that the administration defined in its own 
National Security Strategy: robust diplomatic engagement, 
maintaining our position of global leadership, and the 
President's ambiguously defined political goal of putting 
America first.
    The budget that President Trump presented for promoting the 
foreign policy interests of the United States is, instead, 
stunningly irresponsible. In my view, it undermines our 
abilities to promote American foreign policy, it betrays our 
values, and it makes our citizens in the world less safe. Far 
from America first, it will leave America isolated and behind.
    I am sure I do not need to tell you that you have inherited 
a Department with a prevailing sense of plummeting morale, a 
corps of senior career diplomats whose expertise cannot be 
replaced overnight, one career Ambassador left. So, I 
completely support your efforts and will be a willing partner 
to fully staff the Department with qualified, appropriate 
nominees. However, as we discussed, Mr. Secretary, some of the 
nominees who have been put forward are, themselves, the cause 
of delays. We have a responsible, transparent vetting process. 
Some of these nominees have failed to disclose not just 
campaign donations or organizational affiliations, but some 
have failed to disclose significant lawsuits of which they have 
been the subject. It is extremely important that every nominee 
be completely honest and straightforward with the committee. 
And with a significant number so far, this simply has not been 
the case.
    So, I commend the initial steps you have taken to lift the 
hiring freeze and open positions to eligible family members, 
but I understand that some bureaus are still not hiring. And, 
without a successfully operational agency, I do not know that 
we can possibly successfully promote our national security 
interests on behalf of all Americans.
    But, we also cannot hope to secure our interests when our 
senior administration officials contradict one another in 
public, act impulsively, and offer more support to our 
adversaries than our allies. Senior members of the intelligence 
community, which were--which included you, until recently--
continue to point to incontrovertible proof of Russia's 
interference in our 2016 elections. Yet, the President refuses 
to even acknowledge their attack on our democracy, and the 
budget request includes a 63-percent decrease in funding to 
counter Russian aggression. The administration's National 
Security Strategy talks about the challenge of a revisionist 
China, yet the President charges the United States Department 
of Commerce with saving Chinese jobs while the budget request 
decreases funding for promoting American interests and 
alliances in East Asia and the Pacific by nearly 50 percent. In 
the Middle East, even as Iran's proxy fighters inch ever close 
to the Israeli border from Syria and Lebanon, the budget 
proposes massive cuts for critical assistance throughout the 
region. And in the western hemisphere, while the President says 
combating drug trafficking and confronting the opioid epidemic 
are priorities, we have a derogatory, hateful, and racist set 
of tweets and confounding reports that your predecessor ignored 
warnings that rescinding TPS designations would leave the 
United States and our citizens more at risk, while the budget 
proposes cutting critical funding to Mexico and to 
counternarcotic and law enforcement operations.
    Let me just say, the administration takes alarming steps to 
erase the importance of core American values, not only in terms 
of what they are asking for in this budget, or not asking for, 
but literally erasing the words, ``these values: democracy, 
governance, labor, and human right.'' And so, Mr. Secretary, as 
we discussed, these are not merely ideals, they are critical 
enablers for our foreign policy success.
    Let me just close. I do hope to hear from you on the AUMF. 
I understand that the administration believes it has all the 
authorities it needs. But, since the Chairman and other 
distinguished members of the committee are moving forward on an 
AUMF and there is a proposed AUMF, the Corker-Kaine AUMF, I 
would like to hear the administration's views on that AUMF as 
part of your presentation.
    We look forward to your remarks, and thank you again for 
joining us.
    The Chairman. Mr. Secretary, again, thank you so much for 
being back before us within a matter of 6 weeks. And we look 
forward to your comments and, as you know, questions 
thereafter.
    Secretary Pompeo. Great. Thank you, Mr. Chairman. Thank 
you, Senator Menendez, as well.
    You were gracious enough to allow me to read that 
statement. I will--I have prepared remarks. They have been 
submitted for the record. I will save a couple of minutes here 
this morning. A couple of other items that I want to mention 
off the top, things that have happened recently that I think 
are important to our diplomatic efforts around the world that I 
want to share with you and explain to you. And then I want to 
spend a couple of minutes--you asked, Senator Corker, about 
what I have tried to do in my first, now, 3 weeks or 3 and a 
half weeks, to get the team back on the field. And I am happy 
to share both what we have done and what I have in the queue 
and how I am thinking about that, that problem set, now that I 
have had a chance to get onboard and see a little bit more of 
the challenge that is in front of me.
    First, you would have seen, in the last 48 hours, that we 
had two officers declared persona non grata in Venezuela. We 
have responded reciprocally by expelling two senior Venezuelan 
officials from the United States. We are deeply worried about 
what is taking place as a result of the sham election that 
occurred on Sunday the 20th. We are doing all the right things. 
We have an American there that we desperately want to get back: 
Joshua Holt. And so, know that we are engaged. We are--we were 
disappointed that the Maduro regime kicked our folks out, 
although, frankly, not surprised. We have been trying to do the 
good work that diplomacy brings to a country like--that is 
occupied by the great people of Venezuela. And Maduro found 
that unacceptable.
    Second, also in the last 48 hours, there--we notified our 
workforce in China about a medical incident that took place 
there in Guangzhou. We had an officer who suffered a medical 
incident that is consistent with what we had happen to American 
officers that were serving in Havana. We informed the Chinese 
government about that. They took--they said all the right 
things and are--have demonstrated their willingness to help us 
identify the vector which led to this medical incident. We have 
medical teams heading there. We have all the appropriate folks 
heading to help all of the officers--American officers serving 
there in China, and doing the things we can to mitigate the 
risk that we have another incident like this there or, frankly, 
for that matter, anyplace else in the world.
    And then, thirdly, my first 3 and a half weeks, we have 
taken steps to allow our team to go effectively conduct their 
jobs. Two actual announcements. We allowed the team to hire 
family members, a very ready source of very capable officers to 
serve alongside our--my current colleagues. We think that will 
help our families a great deal.
    And then the hiring freeze, itself, was lifted. Senator 
Menendez said some of the bureaus are not hiring. We still have 
a little bit of guidance that needs to be issued, but most of 
that is now out. We have end-strength goals, we have a plan for 
how we will do that in a thoughtful way so that resources are 
expended appropriately. But, know that it is now the case that, 
where there are demand signals, we need additional talent. The 
State Department employees are empowered to bring those 
additional team members on board.
    The third piece is, I have spent a fair amount of my time, 
personally, and have big teams working to get America's senior 
officials on board. There are still big gaps at the Assistant 
Secretary level, at the Under Secretary level. We are--where 
there were nominees, we are pushing to make sure they move 
quickly. And where there were not, we are working to develop 
nominees to come across so that we can, in fact, engage all 
over the world, sharing American ideals and values in the way 
that the State Department has done historically well. And I 
look forward to being the leader of the organization that is 
back on the playing field leading America's diplomacy abroad.
    With that, Mr. Chairman, I will yield back.
    [The prepared statement of Secretary Pompeo follows:]

                   Prepared Statement of Mike Pompeo

    Chairman Corker, Ranking Member Menendez, and distinguished members 
of the Committee: I appreciate the opportunity to discuss the 
Administration's FY 2019 budget request for the State Department and 
USAID.
    Last December the Trump administration released the National 
Security Strategy. The four pillars of the strategy are protecting the 
American people, the homeland, and our way of life; promoting American 
prosperity; preserving peace through strength; and advancing American 
influence.
    In order to achieve these national security objectives, the 
Administration has submitted our FY 2019 budget request of $39.3 
billion for the State Department and USAID. The proposed request 
reflects our obligation to use taxpayer dollars wisely and effectively.
    Our request also makes clear the United States must exert a 
proportional financial commitment in the pursuit of goals shared by the 
international community. It is time for other nations--especially those 
with high GDP--to assume greater responsibilities and devote greater 
resources toward common objectives, whether it's crushing terrorists, 
stopping Iran's malign behavior, strengthening the NATO alliance, 
eradicating infectious diseases, and so much more. We expect greater 
burden sharing for our allies and partners.
    The President is committed to diplomacy as the primary means of 
achieving the United States' foreign policy objectives, which are 
further detailed in our State/USAID Joint Strategic Plan. We will use 
every dollar to deliver on our duty to serve the American people and 
the enduring foreign policy victories that are within sight.
    Our top national security priority has been the de-nuclearization 
of North Korea. The maximum pressure campaign of diplomatic and 
economic sanctions is bearing fruit with the historic meeting set to 
take place on June 12th. This campaign has been undertaken in concert 
with an unprecedented number of allies and partners. Our posture will 
not change until we see credible steps taken toward the complete, 
verifiable, and irreversible de-nuclearization of the Korean peninsula. 
We are clear-eyed about the regime's history. It's time to solve this 
once and for all. A bad deal is not an option. The American people are 
counting on us to get this right. If the right deal is not on the 
table, we will respectfully walk away.
    On May 21st I unveiled a new direction for the President's Iran 
strategy. We will apply financial pressure, coordinate with our DoD 
colleagues on deterrence efforts, support the Iranian people, and hold 
out the prospect of a new deal for Iran--if it changes its behavior. We 
seek to work with as many partners, friends, and allies as possible to 
achieve the common objective of stopping all of Iran's nuclear and non-
nuclear threats.
    The progress against ISIS has been predominantly accomplished 
through military action. But there is a very important role for 
diplomacy and assistance in ensuring the permanent defeat of ISIS. We 
must continue robust stabilization activities with our Coalition 
partners in order to prevent ISIS from resurfacing. We are also 
countering ISIS's attempts to gain safe havens in areas such as 
Afghanistan, the Philippines, and Africa. In addition to providing 
targeted security sector assistance funding, we are working with our 
allies and partners to stop foreign fighter travel, cut off sources of 
revenue, attack ISIS online, share intelligence, and prosecute those 
who come off the battlefield.
    We know Russia poses a challenge to our strategic interests and the 
security of our allies. This is evident from the chemical weapons 
attack in the UK, for which we imposed consequences in concert with 
several partners and allies. We've been clear with Russia it must honor 
its commitments under the Minsk Accords if peace is to prevail in 
Ukraine. As a guarantor of the Assad regime, Russia has a 
responsibility to be a constructive actor for stability and peace in 
Syria, which includes stopping the regime's use of chemical weapons. We 
are holding Russia accountable to its commitment to the Geneva process.
    China is a rising strategic competitor. We must work constructively 
with a nation of China's importance, as we are doing on North Korea, 
but we cannot sacrifice the interests of the American people and our 
economic competitiveness, relinquish freedom navigation and the law of 
the sea in the South China Sea and elsewhere, or passively watch as 
American intellectual property is stolen. We are making clear to China 
that the protection of human rights is integral to any country that 
wishes to be regarded as a great nation. Elsewhere in Asia, we are re-
affirming and expanding partnerships in the Indo-Pacific region with 
nations that share our commitment to security, economic freedom, 
sovereignty, and liberty.
    Finally, in our own hemisphere, we are embracing the ``Year of the 
Americas,'' by re-affirming our commitment to longstanding partnerships 
grounded in shared interests and values. On Venezuela, we have imposed 
new economic pressure on the Maduro regime to help steer that country 
back toward democracy, and we are rallying like-minded regional 
partners to do the same.
    Across the world, we have encouraged nations to assume greater 
responsibilities for maintaining their own and our shared security and 
stability. In the face of a resurgent Russia, and in response to our 
urging, many NATO members are newly meeting their commitments to 
funding deterrence and defense initiatives. President Trump's call to 
leaders of Middle East countries in Riyadh, Saudi Arabia, rallied 
leaders of those nations to more aggressively combat terrorism inside 
their own borders and to counter violent extremism abroad. And as part 
of the new South Asia strategy, we have been clear with Pakistan that 
ensuring reconciliation, peace, and security in Afghanistan in large 
part depends on Pakistan's willingness to crack down on terrorist safe 
havens and instigators of terrorist activity in its own country.
    Our highest priority is keeping the American people safe. The FY 
2019 budget request for $7.3 billion in security assistance will help 
protect Americans at home and overseas. The State Department will 
continue to lead international efforts to denuclearize North Korea, and 
to prevent Iran and other actors from unlawfully acquiring weapons of 
mass destruction and their means of delivery, while strengthening the 
capacity of partner nations to do so as well.
    This budget request calls for $5.7 billion in support for Coalition 
efforts to defeat ISIS and other transnational terrorist and criminal 
groups that threaten the American homeland. The State Department and 
USAID will sustain programs that address the conditions that give rise 
to these threats, including poor governance, weak institutions, lack of 
economic opportunity, corruption, and persistent human rights abuses, 
and attract additional donor nations' support for these efforts.
    America's prosperity and national security depends on a strong and 
growing U.S. economy that can maximize trade and investment 
opportunities in a free, fair, open and stable international market. 
This budget request seeks $2.2 billion to help stimulate American 
economic growth, expand markets for U.S. investment, and ensure partner 
countries can fully participate in a global economy.
    This budget request includes an important proposal for a new 
standalone development finance institution (DFI) broadly consistent 
with S. 2463, the Better Utilization of Investments Leading to 
Development Act of 2018 (BUILD Act of 2018), being considered by this 
Committee. Like the BUILD Act, the Administration proposal consolidates 
existing functions now spread across various agencies to improve 
efficiencies and better mobilize private sector resources. If approved 
by Congress, the DFI will advance U.S. national security and 
development objectives by deploying reformed and modernized development 
finance tools that support, without displacing, the private sector. The 
Administration shares the goals of this Committee to foster sustainable 
development in developing countries and provide strong alternatives to 
state-directed initiatives. With the consolidation we have both the 
opportunity for greater impact but also the responsibility to create 
strong interagency coordination with USAID and other development 
agencies to advance development outcomes, promote self-reliance among 
partner countries, and advance U.S. interests and values. To this end, 
the budget requests $56 million for State and USAID to collaborate and 
coordinate programming with the DFI and leverage its tools.
    Americans benefit from sustained engagement with the rest of the 
world that serves our interests and those of our allies. This budget 
upholds our commitments to our allies, including $3.3 billion in 
support of the recent, 10-year Memorandum of Understanding between the 
United States and Israel regarding U.S. military assistance, a 6.5% 
increase from last year's request. In recognition of our critical 
strategic partnership and new 5-year Memorandum of Understanding with 
Jordan, the budget also strengthens our high level of support by 
requesting $1.275 billion for Jordan in FY 2019.
    In light of continuing significant humanitarian needs, largely 
driven by ongoing conflicts in Syria, Yemen, and elsewhere, the FY 2019 
request includes $6.4 billion for humanitarian assistance, an increase 
of $1.1 billion, or 21 percent, from the FY 2018 request. We will use 
these resources strategically as part of a new approach to relief to 
increase burden sharing by other donors, improve U.S. government 
internal humanitarian assistance coordination, and catalyze reforms and 
efficiencies at the U.N. and other implementing partners. The ultimate 
objective is to maximize the impact of hard-earned U.S. tax dollars and 
deliver the best outcome for those dollars.
    The President's budget continues global health funding at a level 
that will sustain our work and our leadership in this area, including 
through flagship programs like PEPFAR and the President's Malaria 
Initiative.
    We sustain our support for these assistance programs because we 
know they are a projection of American leadership and they contribute 
to economic growth, and social and political stability. They are not 
only measures of the values of the American people, but they contribute 
to our interests. As we have seen with outbreaks of Ebola and other 
diseases in the past few years, these health programs have provided a 
foundation to prevent, detect, and respond to infectious diseases of 
epidemic potential, which helps protect the American people.
    America's message must be shared with the world at all times. The 
FY 2019 budget request further defends and advances America's values by 
devoting $565 million to public diplomacy programs. These programs are 
essential to informing public opinion abroad and communicating American 
values like respect for human rights and the rule of law. The people of 
the world must know not only the policies, but also the principles for 
which the United States stands. Even as our public diplomacy budget 
calls for greater burden-sharing of long-standing programs, the $55.4 
million requested for the Global Engagement Center covers both its 
original counter-extremist mission, plus an increase of $20 million to 
counter state-sponsored disinformation campaigns. We will not tolerate 
Russian interference in the 2018 elections, and we must take 
countermeasures in response to an effort to do so.
    Finally, I would like to update you on what is happening inside the 
Department. The Department's workforce is our most valuable asset. 
Since becoming Secretary, one of my highest priorities has been 
ensuring that the finest diplomatic corps in the world is fully 
prepared and empowered to achieve our mission. I am unleashing our 
teams to do what they do best on behalf of the American people.
    Just last week I held my first town hall in which I laid out my 
leadership vision, and committed to working as one team with all our 
personnel. I'm listening to their expertise and counsel.
    With so many challenges before us, the State Department needs a 
full team on the field, from locally employed staff around the world to 
senior leaders in Washington. That's why I lifted the Eligible Family 
Member hiring freeze as one of my first acts as Secretary, and also 
lifted the hiring freeze for all Foreign Service and Civil Service 
personnel last week. All Foreign Service and Civil Service hiring will 
be consistent with the funding levels that Congress recently enacted.
    Additionally, I know that our career professionals work best when 
the goals are clear and the leadership team is at full strength. I have 
devoted a great deal of time to filling vacancies at the Under 
Secretary, Assistant Secretary, and Ambassador levels. We need our men 
and women on the ground, executing American diplomacy with great vigor 
and energy, and representing our great nation. We need the best tools 
as well: this budget would also invest $150 million for IT 
modernization. We need to work at the speed of 21st century diplomacy.
    As I have said many times, my great goal is to restore the 
trademark State Department swagger that has been instrumental in 
advancing American security, prosperity, and liberty for centuries. I 
define swagger this way: we must be everywhere with the best ideas. We 
must create value during the policy formation process. We must outwork 
and out-hustle others. We must be aggressive in working with our allies 
and ferocious in defending American values against our adversaries.
    Today I ask for your support to ensure that our diplomatic, 
development and organizational initiatives are successful for the State 
Department and USAID, and, most importantly, for the American people
    Thank you for your time. I will be glad to answer any questions you 
may have.

    The Chairman. Thank you.
    And I am going to yield for a moment and will interject 
along the way. We turn to Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for the insights of the most 
recent things.
    Let me start with North Korea, understanding that the 
summit is not going forward at this point, but hopefully at 
some point there will be an opportunity to seek the appropriate 
type of meetings necessary to denuclearize the Korean 
Peninsula. But, since I have heard different statements coming 
out of the administration, I want to see if we can go through a 
sense of what it is that we might mutually agree is the essence 
of the elements that are essential to any deal with North 
Korea. So, I am going to ask you to give me a sense of ``yes or 
no.'' Do you--on some of these questions--do you believe that 
the current nuclear-test suspension must continue and that 
denuclearization means the dismantlement and removal of all 
nuclear weapons facilities, technology, and material from North 
Korea?
    Secretary Pompeo. There are two questions there. The second 
one is with respect to dismantlement. I think the answer to 
that is yes. You--we are looking for the complete dismantlement 
of their weapon systems, the delivery capability associated 
with that, and all of the elements of their program that would 
lead them to have material--enriched material, fissile material 
that could be used at some time to build out a weapon system.
    Senator Menendez. So--but, I think----
    Secretary Pompeo. I think the answer to that is yes, but I 
wanted to make sure I clarified.
    Senator Menendez. Okay. I appreciate that.
    Do you believe that any deal must include an agreement that 
North Korea must end the production and enrichment of uranium 
and plutonium for military programs?
    Secretary Pompeo. Yes, but, as we begin to head down this 
path, I have to tell you, I have had discussions with Chairman 
Kim personally. There have been other discussions. I am going 
to reserve some space for us to be able to conduct these 
discussions outside of the public sphere. I think that is 
important. I think it is important for our eventual ability to 
achieve the outcomes that I think everyone in this room hopes 
we can achieve.
    Senator Menendez. Well, I certainly want to give you 
negotiating space, but I at least want to understand, as a 
committee responsible for oversight, what is our standards that 
we are going into? That is what I am trying to determine. What 
is the standard that----
    Secretary Pompeo. No. Sir, I think we have made very clear 
what our objectives are.
    Senator Menendez. Okay. So, let me ask you, then, further, 
would a deal have to include an agreement that North Korea must 
permanently dismantle and disable its nuclear weapons 
infrastructure, including test sites, all nuclear weapons 
research and development facilities, particularly with respect 
to advanced centrifuges and nuclear weapons enrichment and 
reprocessing facilities?
    Secretary Pompeo. That is certainly our objective, Senator.
    Senator Menendez. Would any deal have to include agreement 
that North Korea put forward a full, complete, and verifiable 
declaration of all its nuclear activities?
    Secretary Pompeo. Yes. I only wish the Iranians had done 
so.
    Senator Menendez. Would any deal include robust 
restrictions to assure that nuclear material, technology, and 
expertise are not exported?
    Secretary Pompeo. Sir, we have a deep aim, wholly apart 
from denuclearization of the North Korean Peninsula, and a lot 
of work underway to ensure that proliferation does not occur.
    Senator Menendez. Does any deal have to include an 
agreement that North Korea continue its current ballistic 
missile test suspension, including any space launches, and that 
any agreement must include the dismantlement of all ballistic 
missiles and a prohibition on all ballistic missile 
development?
    Secretary Pompeo. Sir, I think I--I said this in my 
confirmation hearing. I am happy to reiterate it. It is the 
case that it is our objective--and I shared this with Chairman 
Kim when I met with him, as well--that the missile program is a 
central component of their capacity to hold America at risk, 
and that it is our aim that, as part of this agreement that we 
would reach, that they would no longer possess the capacity to 
achieve those kinds of launches that I think you are speaking 
to in your question.
    Senator Menendez. And, to be truly, completely verifiable 
and irreversible, any agreement with North Korea should be 
permanent in nature, with no sunsets on its provisions?
    Secretary Pompeo. Yes, sir.
    Senator Menendez. Okay.
    Well, those are all very helpful, understanding the 
standards of what we are trying to achieve.
    Let me ask you. So, as we walk away from the summit, where 
does that put us with the rest of the world? Do you believe 
that somehow we are strengthened in this regard, or are we 
weakened as a result of walking away, ourselves, because of 
some statements?
    Secretary Pompeo. Senator, I do not believe, in that sense, 
that we are in a position to believe that there could be a 
successful outcome. I think that is what the President 
communicated pretty clearly in his letter. I can add to that. 
Over the past many days, we have endeavored to do what Chairman 
Kim and I had agreed, was to put teams--preparation teams 
together to begin to work to prepare for the summit. And we had 
received no response to our inquiries, from them. So, we--in 
addition to what the President laid out in his letter, it is 
also the case that the--I disagree what you said in your 
opening statement. I think the American team is fully prepared. 
I think we are rocking. I think we are ready. I think we are 
prepared for this meeting. I think President Trump is prepared 
for this meeting. We were fully, fully engaged over the past 
weeks to prepare for this meeting. So, I disagree with your 
assessment that the Americans are not ready. It----
    Senator Menendez. Well, when I say ``not ready,'' I am 
talking about, you know, the--we needed to test all of the 
propositions and lay out all of the elements of what was----
    Secretary Pompeo. Yes, sir.
    Senator Menendez. --ultimately to----
    Secretary Pompeo. Yeah.
    Senator Menendez. --to be decided in a way to find out 
whether the North Koreans were truly true. But, I----
    Secretary Pompeo. Yes, sir. That has been done----
    Senator Menendez. --gather----
    Secretary Pompeo. --that has been done three times before 
in American history, and Kim Jung Un today possesses the most 
robust nuclear program he has ever had.
    Senator Menendez. And as a result of us canceling the 
summit, he still possesses them.
    Let me ask you this. In your confirmation hearing, you 
noted that Russian bad behavior is the driver behind the 
currently acrimonious bilateral relationship, and this behavior 
presents a clear danger to the United States. We have seen a 
whole host of actions, decisions, undisputed findings of the 
intelligence community. We saw Russia deploy a chemical weapons 
attack on the soil of a NATO ally. We saw a chemical attack, 
that Russia supported, by Assad. Can you tell me why it is that 
the President seems unable to speak of Russia in a way that 
acknowledges that there was an attack against our own country, 
in terms of a cyberattack on our elections, and actions that--
we have noted others that were active this way that were put as 
a terrorist state, and yet we see no such action as it relates 
to Russia. Give--I am trying to understand the administration's 
views on Russia.
    Secretary Pompeo. Yeah. Senator, you just said that there 
have been no actions. I fundamentally disagree with that. I am 
happy--I brought a list of the actions this administration has 
taken to push back against Russian aggression of all forms--
their cyber efforts, their election-meddling efforts, their--
the chemical attack that took place in Skripal. The list is 
long. I think the record ought to properly reflect that it is 
far more than took place under the previous administration. 
Indeed, most of this meddling took place during the previous 
administration. And this administration is now working to deter 
that from ever happening again. And I think our administration 
ought to be very proud of the work we have taken, sanctions and 
otherwise, against Russia.
    Senator Menendez. I will be happy to----
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Secretary, thanks for your service.
    In your answers to Secretary--or to Senator Menendez's 
questions, you sure seemed to make clear what your definition 
of ``dismantlement'' really means. You said you made it also 
clear to Chairman Kim Jong Un. Did you?
    Secretary Pompeo. Did I make it clear to him?
    Senator Johnson. Yeah. I mean, how----
    Secretary Pompeo. Yes, sir.
    Senator Johnson. --how clear? How many times did you repeat 
it?
    Secretary Pompeo. Sir, I spoke in English. There was a 
translator. But, our team confirmed that the translator said 
what I said. I do not know. I had two meetings, maybe 3 hours-
plus total, enough that I understood him to have understood 
what it was I was saying. Indeed, put aside what I said. When I 
heard back from him----
    Senator Johnson. That is what I wanted to ask you.
    Secretary Pompeo. --when I heard back from him, there was--
it was little doubt in my mind that he understood the scope of 
what it was we were asking for, what it--the nature of what 
would have to take place, the verification that we would need 
to undertake in order to be comfortable that we could begin to 
deliver the assurances that he, in return, asked for. And so, I 
think we were having a real--a conversation where there was 
real understanding between the two of us. It is what caused me 
to recommend to the President that I thought the time would, in 
fact, permit us to have a real opportunity to do something 
historic. I am still optimistic that we will reach that point. 
I know the President is, as well.
    Senator Johnson. So, you have no doubt that you made it 
crystal clear, and he fully understand exactly what 
``dismantlement'' means, in terms of these negotiations.
    Secretary Pompeo. To the best of my ability, Senator.
    Senator Johnson. So, he understood it. Did he have any 
reaction whatsoever?
    Secretary Pompeo. Yes. And, while I have----
    Senator Johnson. Did he resist it? Did he seem welcoming to 
it? I mean, what was his--as best you can determine through 
translators, what was his reaction to what really was table 
stakes?
    Secretary Pompeo. He was unsurprised. There would be no 
surprise what Secretary Pompeo's brief was going to be when he 
walked into that room. We had made this abundantly clear 
through multiple channels over months of this administration. 
So, there was no surprise. It was--the conversation revolved 
around how it is we would achieve that, what the mechanisms 
might be to begin to achieve that, and how the United States 
would demonstrate, in return, that we were committed to the 
assurances that we were prepared to provide to him.
    Senator Johnson. So, you would say he, basically, accepted 
those terms of a negotiation, that what he knew the U.S. side 
would be pressing for was that--your definition of 
``dismantlement.''
    Secretary Pompeo. Yes, Senator. I do not know how--why--
yes, I believe that is true. I do not know how you would read 
the administration's statements over the past months and then 
have Secretary of State walk in and repeat them, and not at 
least understand--be careful. Yes. Yes. I think the answer is 
yes.
    Senator Johnson. Okay. So, with that understanding, he 
still released three hostages.
    Secretary Pompeo. Yes, that is correct. And agreed to have 
a summit on June 12th, as well. And agreed to send teams to 
prepare for the June 12th meeting between the two leaders, as 
well.
    Senator Johnson. Well, the point I am trying to make is, 
the administration has been crystal clear, completely 
consistent. The result of your meeting was still the release of 
three hostages. So, what has changed here is Kim Jong Un's 
approach to this thing, correct? Very disappointingly so.
    Secretary Pompeo. I regret the statements that the North 
Koreans have made over the past few days, and the fact that we 
have not been able to conduct the preparation between our two 
teams that would be necessary to have a chance for a successful 
summit.
    Senator Johnson. Do you believe the Chairman also believed 
President Trump's offer of assistance in return for that 
complete dismantlement? Do you think--do you have doubt of 
that, as well?
    Secretary Pompeo. Senator, I always--my wife always reminds 
me that I should be careful about knowing what is in someone 
else's mind.
    Senator Johnson. Mine, too. Yeah, I am just trying to get 
your understanding of how those talks----
    Secretary Pompeo. Yes, I communicated very clearly that 
this was a sincere commitment on behalf of the President of the 
United States, that we were prepared to make that transaction 
happen in a way that would allow his regime to have the 
assurances it needed in order to make this fundamental 
strategic shift in the history of North Korea--in the North 
Korean trajectory to make this fundamental shift, where, for 
decades, it has been that these nuclear weapons were the thing 
that provided them security, and to convince him that, in fact, 
his security was best assured by going through this process and 
working with the United States to achieve that.
    Senator Johnson. So, what conversations now have you had 
with the Chinese officials on this topic? Are you convinced 
that they are going to continue to cooperate and maintain those 
sanctions, which is the only thing that has been--or going to 
bring Kim Jong Un to that negotiating table in good faith to 
actually agree to dismantlement in exchange for all the 
benefits to his economy and his people?
    Secretary Pompeo. I met with the Chinese Foreign Minister 
yesterday afternoon. He assured me that they would continue to 
abide by all the U.N. Security Council resolutions relating to 
this, and that they understood that those needed to remain in 
place, not until June 12th--at this point, we were talking 
about in the context of there being a summit on June 12th--but 
not only through June 12th, but until such time as we achieved 
what it was the Americans believed and, I think, frankly, that 
China agrees would be the outcome that is best for the world 
and the best for North Korea, as well.
    Senator Johnson. Are you aware of--are you getting any 
hints that there is any relaxation of those sanctions, more 
goods crossing between the border between China and North 
Korea?
    Secretary Pompeo. Senator, we have not seen anything to 
suggest they have violated the Security Council resolutions in 
a substantial way. I always--I am a--I worry about everyone. 
The globe--the global pressure campaign that is put in place is 
important and needs to continue, perhaps even this morning more 
than yesterday, that that is--that is very important--so that 
we can ultimately get to the right place there.
    Senator Johnson. What gave me some measure of optimism is, 
from my standpoint, I think it is entirely in China's best 
interest to achieve exactly what the administration is 
demanding, here.
    Secretary Pompeo. Senator, that is what their Foreign 
Minister told me yesterday, as well, unambiguously. 
Unambiguously believes that--he told me that China believes 
that the denuclearization of North Korea is in China's best 
interest.
    Senator Johnson. Well, let me just say, I support President 
Trump's letter. I think it is an excellent letter. We need to 
make sure that Kim Jong Un understands that this--we are 
completely consistent, we will absolutely demand that, and that 
all the benefits that can flow to North Korea will not occur 
until we achieve our definition, that he is well aware of, you 
know, crystal clear, the--of complete dismantlement.
    So, again, thank you, Mr. Secretary.
    Secretary Pompeo. Yes, sir.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Secretary.
    I would ask consent that statements from Refugees 
International and Catholic Relief Services be made part of our 
record.
    The Chairman. Without objection.
    [The information referred to above can be found at the end 
of this document.]
    Senator Cardin. Mr. Secretary, let me just follow up on 
North Korea for one moment. And that is, in response to Senator 
Johnson, you indicated that you are trying to convince the 
North Koreans that their security is going to be better served 
without nuclear weapons. And I fully support that. It is very 
possible, if diplomacy is successful, it will require action by 
the United States Congress in order to deal with some of these 
issues.
    During the discussions on the Iran nuclear agreement, my 
Republican colleagues thought that this should be a treaty type 
of an arrangement, which would require the two-thirds vote of 
the United States Senate. My question to you is, how do you 
intend to keep Congress informed during these negotiations, 
considering the questions that Senator Menendez asked were ones 
that I would have asked also, and we have not had the in-depth 
type of briefings that would be, I think, required in these 
types of negotiations? So, how do you envision keeping us 
informed, recognizing that, during the Iran nuclear agreements, 
Congress felt compelled to pass a statute in order to make sure 
that we were kept informed?
    Secretary Pompeo. Senator, I appreciate the question. I was 
but a junior Member of Congress at the time. I do not remember 
being kept informed at all, for the record, with respect to the 
JCPOA, in spite of what I think the record would show were 
constant efforts to be so informed. I am going to do better.
    Senator Cardin. Yeah, I can tell you, speaking for--and I 
would welcome my Republican colleagues--we had numerous 
discussions with the Obama administration during the 
negotiations. Does not mean we were satisfied with what we were 
told. We had numerous discussions.
    Secretary Pompeo. Yes, Senator, I point that out only 
because I think the bar is low, and I am going to beat that. We 
will do our best to keep you fully apprised. But, let me state 
what I think is even more important. It is absolutely the case 
that it is our intention to achieve an agreement that would be 
put before the United States Senate. That is our goal. Our goal 
is to actually do what I had hoped would happen with the Iran 
deal if the United States Senate would get to----
    Senator Cardin. Just to clarify, you are talking about----
    Secretary Pompeo. --conduct its constitutionally 
appropriate duty----
    Senator Cardin. So, you are talking about submitting it to 
the United States Senate as a treaty?
    Secretary Pompeo. Yes, sir.
    Senator Cardin. Okay, thank you.
    Secretary Pompeo. It is a--look, there is a lot of work to 
do. We are--as you can see, we are at the early stages, here. 
But, we believe that, if we get this right and we are 
successful, that it would be appropriate to do----
    Senator Cardin. I would just----
    Secretary Pompeo. --and important for the North Koreans, as 
well.
    Senator Cardin. And I appreciate that response. I would 
just caution you, as far as timing, that the record of the 
Senate taking up treaties and passing them is----
    Secretary Pompeo. I understand.
    Senator Cardin. --it is----
    Secretary Pompeo. I----
    Senator Cardin. Just urge you to----
    Secretary Pompeo. Thank you, Senator.
    Senator Cardin. That is why I say it would be well-served 
if we have the----
    Secretary Pompeo. Yes.
    Senator Cardin. --discussions during the course of these 
negotiations----
    Secretary Pompeo. I do appreciate that.
    Senator Cardin. --in a venue where we can talk freely and--
--
    Secretary Pompeo. Yes, sir.
    Senator Cardin. --openly.
    Secretary Pompeo. I do appreciate that. And I get the 
challenge. That is why I left a little room for an agreement 
that did not quite make it there. But, I think--but, Senator, 
you hit on an important point. It is important for America, it 
is important for our constitutional democracy to try and do 
that. It will also prove important for the North Koreans.
    Senator Cardin. And let me change----
    Secretary Pompeo. And so----
    Senator Cardin. I agree.
    Secretary Pompeo. --I just think it is important, among 
multiple dimensions, sir.
    Senator Cardin. I want to change focus to Iran for one 
moment, if I might. President Trump was pretty clear that he 
intended to terminate our involvement, but then listed three 
conditions that, if the agreements were modified, one, to 
include ballistic missiles within the agreement, even though 
Congress had passed statutes giving the President the authority 
to impose new sanctions against Iran for ballistic missile 
violations; he also mentioned he wanted inspections more 
intrusive, even though the IAEA had said that they were 
satisfied with the inspection regime; and, lastly, he said that 
we needed to deal with the sunset provisions, which dealt with 
limitations, even though the agreement did--had no sunset on 
it, but it was certainly unclear as to when tripwires would 
cause violations of the agreement. Is the administration still 
in that mode--these are the three changes that must be made in 
the agreement for it to be satisfactory--or has there been a 
change in position?
    Secretary Pompeo. Let me speak to the former and then 
latter. The first was, I was--I will concede, it was only a 
couple of weeks the State Department had been working to try 
and get those agreements from three European countries prior to 
the President's decision. We were never able to get there. The 
same problem that existed when I came in--on my--I guess it 
would have been my fourth day in office, when I was briefed on 
it, existed until the very end. We--it simply--there was no 
evidence that the Europeans had any intention of actually 
agreeing to those three provisions----
    Senator Cardin. But, is that still our position, that these 
are the three changes that must be made?
    Secretary Pompeo. Sir, we have now laid out a series of 
things that we are working diligently to get the whole world to 
sign up for, a series of 12 things that we are demanding the 
Iranians do. They are simple things, each of them. I think you 
would agree with each of those 12 items. And that is what we 
are looking for Iran to achieve, and that is the mission 
statement the President set out for the State Department.
    Senator Cardin. So, let me just drill down on that. Are 
we--is regime change part of our objective, here?
    Secretary Pompeo. No, sir.
    Senator Cardin. Do we want to include, in a nuclear type or 
JCPOA type of commitment, Iran's activities in regards to 
terrorism?
    Secretary Pompeo. Yes.
    Senator Cardin. And is there a reason why the Trump 
administration has not used the additional tools that Congress 
provided to deal with terrorism and human rights violations?
    Secretary Pompeo. I do not know the answer to that 
question.
    Senator Cardin. Is there a reason why we have not engaged 
the Europeans, which have offered to join us in these matters 
prior to us pulling out of the Iran agreement, where now we do 
not have their attention?
    Secretary Pompeo. Senator, I have to be honest with you, 
the Europeans have told us, it is true, that they are prepared 
to engage on missiles and, for 3 years--right?--through JCPOA, 
almost 3 years--did nothing. Nothing.
    Senator Cardin. I agree with----
    Secretary Pompeo. And, second--I will give you a second: 
terror. They have talked about agreeing to things on terror. We 
said--they said they would do it. They are--what happened--and 
this is my judgment--what happened is--and you saw this 
yesterday--the Iranians made an announcement. I do not know 
that you saw this. They said, ``If the Europeans do anything on 
missiles, we will withdraw from the JCPOA.''
    Senator Cardin. I saw their--I saw that----
    Secretary Pompeo. This is what happened. The Iranians 
viewed this JCPOA as not just nuclear.
    Senator Cardin. I am not--my--the question----
    Secretary Pompeo. That is important. That is very 
important, Senator.
    Senator Cardin. The question I am trying to get answered is 
that--we gave you additional tools to deal with these areas. 
They have not been used. And the Europeans, you had their 
attention, because they did not want the United States to pull 
out of the nuclear agreement. Now we do not have their 
attention, because they are worrying as to whether there are 
going to be sanctions imposed against companies located in 
their country. So, I am not sure what the strategy is now in 
regards to going after them for their terrorist activities and 
their human rights violations and ballistic missile violations.
    Secretary Pompeo. The strategy is to develop a global 
consensus that says that we are simply asking the Iranian 
regime to do what we ask every other country to do: behave like 
a normal nation.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much for your time and 
testimony and the work that you have been able to carry out 
over the brief tenure you have had there at the State 
Department.
    And congratulations on bringing home three Americans and 
the work that was taking place to lead to the summit on June 
12th. I think Kim Jong Un has walked away from a historic 
opportunity for peace and should be held accountable for his 
decision.
    In the internal debate that must be taking place within Kim 
Jong Un's mind, between Kim, the propagandist, and Kim, the 
peacemaker, it is clear that Kim, the propagandist, prevailed 
internally and that the peace lost out to that propaganda. I 
believe President Trump acted with eyes wide open throughout 
this entire process, knowing, at any point, he would have the 
choice of continuing with a summit or walking away from it, 
should denuclearization not be on the agenda, or at least not 
be something that Kim Jong Un was willing to entertain at that 
moment. He made the right choice, because clearly, in the past 
weeks, we have seen Kim Jong Un walk away from what seemed to 
be a commitment toward denuclearization.
    It is the policy of the United States--and I think this 
answers some of the questions that have been asked already on 
this panel--when this body passed and this President signed--
President Obama signed into law the North Korea Policy 
Sanctions Enhancement Act, it clearly lays out, under U.S. law, 
when sanctions against North Korea can be terminated. Section 
402 of that act, Termination of Sanctions and Other Measures: 
Any sanction or other measure required under Title 1, 2, or 3 
may only be lifted when the President determines and certifies 
to the appropriate congressional committee that the Government 
of North Korea has met the requirements set forth of complete, 
verifiable, irreversible denuclearization. It goes on and on 
and on. So, we have already put into law what we expect of 
North Korea, and that sanctions--maximum pressure--cannot be 
lifted until these conditions, under U.S. law, have been met.
    Mr. Secretary, is it your opinion that this decision by Kim 
Jong Un is a result of a weak leader who lacks the internal 
support to go forward with a meeting on denuclearization, or 
was this just poor negotiating strategies by Kim Jong Un?
    Secretary Pompeo. I do not think it is the former. I do not 
think it is a weak leader. In fact, he has demonstrated an 
enormous capacity to lead his country and his team. So, I do 
not think that it is. And I--and, frankly, I do not really know 
that I want to speculate as to why it is they took the actions, 
because I do not think we know. What I am hopeful is that we 
can continue to have conversations and put this back on track 
so that we can get to a place where we can achieve the outcome.
    But, I think it is worth--we talk a lot about summits and 
deals and the like. It is not about the deal. It is about the 
outcome. Right? It is about achieving this permanent physical 
change and transformation that will have the opportunity to 
change the world. And it is--a corollary to that is a 
fundamental change in North Korea that would lead North Korea 
to have this opportunity for prosperity and good things, all 
the things that their neighbors to the south have. There will 
have to be a deal to get us to that point, but we should not 
spend all our time thinking about ``the deal'' without focusing 
on where you began your question, Senator, which is, here is 
what this needs to look like in order to do what President has 
said, to keep Americans safe from the threat that North Korea 
presents today.
    Senator Gardner. Thank you, Mr. Secretary.
    And I think that the--I hope the North Korean people will 
know what Kim Jong Un walked away from and what he should walk 
back to, and that is this opportunity for peace and prosperity 
on the Peninsula, the entire Peninsula, as they look to the 
south and see the opportunities that they could have if they 
rejoined the global community of responsible nations.
    With this decision, though, is it the determination of the 
State Department, the commitment of the President, to again 
continue the full implementation of the maximum pressure 
doctrine?
    Secretary Pompeo. Yes.
    Senator Gardner. Does Congress need to take additional 
steps, including perhaps a full economic embargo of North 
Korea?
    Secretary Pompeo. I do think we should--I think Congress 
and the executive branch should work together to do everything 
we can to continue--I do not believe it ever ended--but to 
continue the campaign, which I am hopeful will lead to the good 
outcome that we have described here this morning.
    Senator Gardner. And so, in addition to that economic 
embargo on North Korea, that we must continue to pursue any 
enablers who wish to help violate sanctions, or help North 
Korea violate those sanctions.
    Secretary Pompeo. Yes, sir, that is correct.
    Senator Gardner. Thank you.
    Mr. Secretary, turning to the issue of Taiwan, quickly, 
Burkina Faso has announced a decision, this morning I believe, 
that it would no longer recognize Taiwan. The World Health 
Assembly meeting has again excluded Taiwan. Senator Markey and 
I have introduced legislation to encourage--to make it the 
policy of this country that we will pursue involvement of 
Taiwan in international organizations, and pursue high-level 
visitation by the United States. The Asia Reassurance 
Initiative Act, which you and I have talked about at length, 
reiterates our important relationship with Taiwan and our full 
support of Taiwan, and that we continue around the globe to 
build support for Taiwan and their acceptance and involvement 
in international organizations. What is your sense of what is 
happening and how we can pursue such a policy with Taiwan?
    Secretary Pompeo. I think your point about you and Senator 
Markey working together demonstrates the long history of 
consistent U.S. policy with respect to Taiwan over multiple 
administrations from both parties. That has not changed under 
President Trump. The same One China policy, along with the 
three communiques, is still American policy. I am very aware of 
the Taiwan Relations Act, which was passed during this 
administration. I do not see that there has been any change 
there in those commitments.
    Senator Gardner. Thank you. And as it relates to China and 
South China Sea activities, Mr. Secretary, could you talk a 
little bit about the administration's actions as it relates to 
China's further militarization?
    Secretary Pompeo. So, I will leave the details to Secretary 
Mattis, but yesterday this Department of Defense made the 
decision to disinvite the Chinese from an exercise, RIMPAC, 
that they had previously been invited to participate in, in a 
direct response to the strategic weapon systems that have been 
put on islands that the Chinese had agreed not to do. And so, 
we are working along multiple fronts, not the least of which is 
my diplomatic efforts to work to convince the Chinese that it 
is not in their best interest, nor the world's, for them to 
continue to expand throughout the South China Sea. It is an 
important American interest to make sure that those sea lanes 
and our access to them remain available to us.
    Senator Gardner. Thanks, Mr. Secretary.
    And finally, I look forward to working with you on passage 
of the Asia Reassurance Initiative Act, bipartisan legislation 
introduced by members of this committee.
    Thank you.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Mr. Secretary, I want to thank you for your work on 
bringing Americans home from North Korea. One of them was a 
Virginian, and we appreciate it. So, thank you for that.
    Secretary Pompeo. Thank you, Senator Kaine. It was an 
amazing day.
    Senator Kaine. Yeah.
    Secretary Pompeo. Three great Americans.
    Senator Kaine. Very--I am--you were deservedly proud on 
that day, and we were grateful.
    I was listening to some of your testimony in response to 
questions from Senator Cardin. So, to return to a conversation 
that we have had before, I think you testified that regime 
change in Iran is not an administration policy at this point.
    Secretary Pompeo. That is correct.
    Senator Kaine. Thank you.
    When you were before us in April, at your hearing, I asked 
you a question about trying to have this committee receive a 
legal memo that had been done in April 2017 regarding U.S. 
airstrikes in Syria. And you said, at that time, quote, ``I 
promise I will work alongside you to do the best I can to get 
you that information, and, if it is a classified version of it 
that you have a right as a member of the legislative branch to 
see, I will work to get you that. And if it is an unclassified 
version, will work to get you that, as well.'' Two days after 
that hearing, we once again carried out airstrikes in Syria 
against the Assad regime. We have not received the memo, in any 
version, yet. And I would like to ask why. And will you work 
with us so that we can see the appropriate version of that 
memo?
    Secretary Pompeo. I will accept responsibility. I have not 
turned to that.
    Senator Kaine. Yeah.
    Secretary Pompeo. I will.
    Senator Kaine. You have been busy, but it----
    Secretary Pompeo. Sir, I----
    Senator Kaine. --I do want your commitment that we----
    Secretary Pompeo. --I made a commitment to you that I would 
do it. I will turn to it this week.
    Senator Kaine. Thank----
    Secretary Pompeo. I may have an extra day now.
    Senator Kaine. Okay, thank you, Mr. Secretary.
    I want to ask you about something you said in your opening. 
You were talking, in your opening, about the recently reported 
instance of an American serving in Guangzhou who was hit by 
what appeared to be a sonic attack. You spoke yesterday and 
said it bore signs that were very similar to those that were 
inflicted upon Americans serving in Cuba.
    Now, the Cuban situation has been very significantly 
studied, including by a medical team at the University of 
Pennsylvania. The reported incident in China apparently started 
in Guangzhou in late 2017, and continued through just recently. 
And the State Department, I guess, has done some study, and you 
have reached the conclusion that the symptoms experienced by 
this American are very similar to the symptoms experienced by 
the Americans in Cuba. Is that correct?
    Secretary Pompeo. Yes, Senator, that is correct. There has 
been a great deal of work done. And I will try to stay inside 
the technical term. The term is ``consistent with.'' That is, 
the symptoms are very, very similar. That may be a Mike term 
and not a medical term, but----
    Senator Kaine. Yeah.
    Secretary Pompeo. --but very consistent with----
    Senator Kaine. So, here is a significant concern. When 
these things were happening in Cuba, we were speculating about 
what was going on, and the speculations were pretty naturally: 
Is it the Cuban government that is doing it? Is it a rogue 
element in the Cuban government that is doing it, maybe to try 
to upset a bromance between Cuba and the United States? Or is 
it some third party, a foreign government, possibly Russia, 
that is trying to do it, maybe to achieve the same thing?
    Now that something very similar has happened in China, the 
question about motivation and attribution gets much more 
complicated. We have been talking about this on the Armed 
Services Committee, as well, and I know there has been an FBI 
investigation, as well. State has got part of this, the DoD is 
looking at this, the FBI is looking at it, the medical teams 
from the University of Pennsylvania are looking at it. Who is 
in charge, in the administration, of trying to figure out, (a) 
what is going on? Who is behind it? And what advice should be 
given to Congress? Or what we should be doing to counter it.
    Secretary Pompeo. Right.
    Senator Kaine. Because it seems like there is a lot of 
cooks right now.
    Secretary Pompeo. Senator, that is a very good question. 
Opening up a second venue, where we have consistent--I do not 
want to overstate----
    Senator Kaine. Yeah.
    Secretary Pompeo. --I do not want to overstate the nature 
of that. They could be separate, independent activities. It is 
possible. But, knowing what we know now, this has really 
changed. It has gone from a localized incident to one that is 
much broader. And now the question is, where? Where all might 
we see this? I think those are reasonable questions to ask.
    So, the State Department will lead the effort. Because it 
is an overseas security issue, the State Department will lead 
the effort. But, you should know we will lead that effort. My 
Deputy will be in charge of the team. Deputy Secretary----
    Senator Kaine. Sullivan.
    Secretary Pompeo. --Sullivan will run the team. And we will 
have it--soup to nuts, if you will--we will have it from what 
was the vector that led to it. There will be folks from the 
Department of Energy trying to do work to figure out what could 
lead to these symptoms. There will be multiple agencies 
involved. But, the responsibility ultimately will fall to the 
State Department to lead this effort to resolve this and to 
protect our officers serving overseas.
    And, too, if it is the case this was a--bad behavior, 
something that was intentionally done by someone, there will 
be--others do a lot of that work, but the State Department will 
lead the effort to identify----
    Senator Kaine. Sitting here today, Mr. Secretary, are you 
aware of U.S. diplomatic personnel in any countries other than 
Cuba and China who have experienced attacks of this kind?
    Secretary Pompeo. No, sir.
    Senator Kaine. Well, I think this matter is really, really 
critical. I just came from a closed briefing of the classified 
portion of the NDAA annex. And, without getting into what was 
said there, this was part of the discussion. And I asked the 
same question there. Actually, I am not sure I asked them--it 
might have been Senator McCaskill: Who is in charge of this? If 
we have got----
    Secretary Pompeo. Did we give the----
    Senator Kaine. --the FBI----
    Secretary Pompeo. --same answer?
    Senator Kaine. Basically--they did not say you were in 
charge of it, they did not say who was in charge of it. I am 
glad you have said somebody is in charge of it, and it is going 
to be the State Department, because it is very critical. But, 
the ability to inflict damage upon U.S. personnel who are out 
patriotically serving their country in a way that is sort of 
hard to attribute and hard to measure should really, really 
scare us. And again, happening in one country leads to a set of 
hypotheses you have got to run down, but now happening in a 
second country really raises the stakes, I think, in terms of 
trying to get to the bottom of it.
    And I would hope, Mr. Chair, that, as the State Department 
investigation of this continues, that, in an appropriate 
setting, we would be briefed upon this, because I think it 
would have some significant bearing upon all kinds of decisions 
we might need to make as a Foreign Relations Committee.
    I do not have any other questions.
    Secretary Pompeo. Senator, I am personally prepared to do 
that. I am prepared to do the piece that we can do in this 
forum, and I am prepared to provide you information in 
classified settings as we continue to develop what it is we 
know.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Young.
    Senator Young. Mr. Secretary, welcome. Good to have you 
here.
    Let me start with Afghanistan. I support the goal of 
ensuring that Afghanistan is never again used as a launching 
pad for terrorist attacks, like those we saw on 9/11. I know 
you support that objective, as well. I also support making sure 
that we are constantly assessing our progress there and, 
frankly, revisiting our objectives, as well.
    And so, this morning, as you are likely aware, the Special 
Inspector General for Afghanistan Reconstruction published a 
report on stabilization efforts in Afghanistan. And the report 
looks at 17 years of reconstruction efforts there. They 
identify seven key findings, 10 lessons, 11 actions that be--
can be taken to increase the likelihood of success in future 
stabilization missions.
    My sense--I know how busy you are. You--it will take some 
time, I suspect, to digest the findings and so forth. I only 
ask that you review this and provide a written response to this 
committee by the 1st of October on what actions the State 
Department plans to take and not take in response to this 
report. Can I get your agreement?
    Secretary Pompeo. You can, sir. I have seen the 
recommendations. We have a team. It is a report that is very 
sobering.
    Senator Young. So, by October----
    Secretary Pompeo. Yes. You have my commitment, yes.
    Senator Young. All right. Thank you so much.
    Secretary Pompeo. Yeah.
    Senator Young. I would like to pivot to China's predatory 
economic policies. In your prepared testimony, you referenced 
the National Security Strategy. And a couple of pillars of that 
strategy relate to promoting American prosperity and preserving 
peace through strength. I know you will agree that these are 
related pillars on--there is a lot of overlap there. Our 
economic competitiveness impacts our prosperity, but also our 
national security.
    I chaired a Senate Foreign Relations Subcommittee hearing 
on May 9th pertaining to predatory international economic 
practices. We heard from three thoughtful witnesses and 
discussed China's troubling use of force, technology transfer, 
intellectual property theft, you know, denial of access to 
Chinese markets, state-owned enterprises, and related topics. I 
hear from Hoosiers at home about this topic all the time, 
typically about the economic implications, but, as you know, 
the--there are a major national security implications 
associated with this.
    The National Security Strategy says the Trump 
administration will no longer tolerate economic aggression. And 
I just want to know whether you agree that, for us to have an 
effective response to these ongoing practices of the state 
capitalist model, it is going to require a multilateral 
approach, a strategic approach, and one that is understood not 
just by those in the administration, but also those of us here 
in Congress. To that end, first, do you agree with everything I 
just said--multilateral, strategic, and understood by the 
administration and those of us in Congress?
    Secretary Pompeo. I do.
    Senator Young. Okay. Well, based on that common 
understanding and--of the nature of the threat and a consensus 
about, sort of, generally, what needs to be doing--done, moving 
forward, I introduced legislation, along with Senators Merkley, 
Rubio, and Coons, the National Economic Security Strategy Act 
of 2018, S. 2757. And so, I will just say, by--I would hope 
that your team could review this legislation. I look forward to 
working with you and your team, moving forward, to see if we 
can advance this important legislation. This would create a 
written strategy analogous to the National Security Strategy to 
deal with predatory international economic practices, whether 
they are--they emanate from China or other countries. So, look 
forward to working on that with you, moving forward.
    In my remaining time, I just want to emphasize what we are 
here, in part, to discuss, which is the international affairs 
budget funding. I know you agree that today's national security 
challenges require the U.S. to utilize our full range of 
nonmilitary tools to keep us safe and secure and to advance our 
values and interests. I know you also agree that diplomacy and 
development can help avert conflict, shorten its duration, 
prevent its return, and, frankly, keep our men and women off of 
the battlefield, wherever possible.
    So, I helped lead a bipartisan letter to the Appropriations 
Committee last month. I was encouraged that 42 Senators signed 
on to it. They do not typically do that as it relates to State 
Department funding. But, there is a growing sense, here in this 
body, I know, that we need robust funding for FY19. And I just, 
here again, look forward to working with you and your team to 
do whatever we can to ensure that the State Department gets 
that funding, moving forward.
    Mr. Chairman, I request unanimous consent to enter this 
letter into the record.
    The Chairman. Without objection. Thank you.
    [The information referred to above can be found at the end 
of this document.]
    Senator Young. Okay.
    So, I just want to encourage you. And I will join the 
others in congratulating you and the administration for the 
recent prisoner release. That is--that was a great early 
morning for our country.
    Secretary Pompeo. Yeah.
    Senator Young. Well done.
    Secretary Pompeo. Yes, sir. Thank you.
    Senator Young. I yield back.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for being here.
    Secretary Pompeo. Senator.
    Senator Shaheen. And let me begin by thanking you for 
lifting the hiring freeze at the State Department and moving to 
address some of the morale issues there. That is a commitment 
you made to this committee, and I appreciate you following 
through on that.
    I understand that you are going to be meeting with the 
Turkish Foreign Minister in early June. And, as I am sure you 
are aware, the Turkish Foreign Minister could decide to release 
Pastor Brunson from jail and send him directly back to the 
United States. Pastor Brunson has been held there since October 
of 2016. Do you intend to raise that issue when you meet with 
the Foreign Minister?
    Secretary Pompeo. Yes.
    Senator Shaheen. And can you also give us some insights 
into how you might discuss the issue of Turkey's decision to 
buy the Russian S-400 missile defense system?
    Secretary Pompeo. Certainly, Senator Shaheen.
    So, I have spoken with the Turkish Foreign Minister at 
least once, maybe twice, in my first 3 weeks. On many topics 
that we have covered, certainly, in each case, have talked 
about the incredible need for them to return Pastor Brunson. It 
is just deeply wrong, immoral, unjust. No success, so far, but 
you can be assured that we are working diligently on that.
    Second, we have spoken to them--I have spoken, in each 
case, and will again next week, about the S-400. We have 
implored them not to take that weapon system, for a host of 
reasons I will not belabor today. You know them well. The 
other--there are several, but the other major topic that we are 
going to be working on is trying to achieve a resolution about 
the Turkish activities in northern Syria in and around Afrin 
and Manbij. My predecessor began a process, called the Roadmap, 
and it is our effort to put the details together surrounding 
that. We have a team--I think there is a team in Ankara now, or 
this week, to work on that. And I am hopeful, during his visit 
here, we can resolve that so that we do not end up in a 
situation where we have two NATO allies too close together, 
creating risk.
    Senator Shaheen. Thank you. I appreciate that.
    Mr. Secretary, were you part of the decision-making around 
the President's letter this morning about pulling out of the 
summit with North Korea? And were there discussions, as part of 
that decision, about what should happen next? And what do you 
expect to happen next? Are we going to see a return to the 
volatile rhetoric that increased most Americans' concerns about 
the potential for a threat of nuclear war with North Korea? Or 
is there something else in mind for how to move forward next?
    Secretary Pompeo. I was part of the discussion, both last 
night and then this morning. Obviously, it was the President's 
decision, ultimately. And we did talk about what the path 
forward would look like, the negotiating path that is the path 
that we hope will resolve this, as well as the things we would 
need to do in the days and weeks ahead to prepare for the 
eventuality that we were back where we were 6 or 8 or 12 weeks 
ago. And I--there is still lots of discussion going on inside 
the administration about exactly how to proceed on that. But, I 
am confident, in the coming days, we will have laid that out in 
some detail.
    We always knew, too, that there could be a summit that did 
not work, that ultimately was unsuccessful. And so, there has 
been a great deal of work to think about what happens when you 
are at a moment when you do not have the opportunity sitting 
right in front of you. I hope that we do. I hope we quickly are 
able to get back to that place. But, ultimately, Chairman Kim 
will have that decision to make for himself. As the President 
said, we welcome their call, their outreach to head back down 
that path.
    Senator Shaheen. So, can you share with us any other 
insights about how the administration is looking at what should 
happen next?
    Secretary Pompeo. Yeah. In some ways, it is situation 
normal. The pressure campaign continues.
    Senator Shaheen. Not a lot of insight there.
    Secretary Pompeo. Well, I mean, it is what--I do not know 
what to say, other than there will--has been an incredibly 
effective global campaign to create pressure on the North 
Korean regime so that we could resolve the issue of Chairman 
Kim's regime threatening the United States of America. That 
existed yesterday, it exists today, it is likely to exist 
tomorrow. And so, our process remains the same.
    Senator Shaheen. There is a story that just came out that 
said that the South Koreans were completely surprised by this 
decision. Did we consult with our allies about the decision 
before making it public?
    Secretary Pompeo. I do not want to get----
    Senator Shaheen. Or at least advise them that this was 
coming?
    Secretary Pompeo. I do not want to get into who all we 
notified. The White House, I think, will speak to that at the 
appropriate time.
    Senator Shaheen. Well, apropos of that----
    Secretary Pompeo. But, may I say just one more thing, 
Senator Shaheen? I--Chairman Moon was here. We have had 
extensive discussions. We are locked in with the Republic of 
Korea. We have spoken to the Japanese. Foreign Minister Kono 
was here. I spoke with him yesterday afternoon at 1630 hours. 
We are----
    Senator Shaheen. To advise him----
    Secretary Pompeo. We are----
    Senator Shaheen. --that this is----
    Secretary Pompeo. We are in lockstep with them.
    Senator Shaheen. And did----
    Secretary Pompeo. And we----
    Senator Shaheen. --we advise them that this was coming?
    Secretary Pompeo. We told them that we hoped that the 
summit would proceed, that there would be discussions, but we 
always knew there was a risk that they would not move forward. 
We have been consistent with that privately and, as you well 
know, publicly, as well. President Trump has said repeatedly he 
is very hopeful it would proceed, but----
    Senator Shaheen. Sure. No, I understand that.
    Secretary Pompeo. --but, it might not.
    Senator Shaheen. But, that is a very different situation 
than saying, ``This letter is coming tomorrow. The President is 
pulling out of the summit.'' And that is the question that I am 
really asking. And it goes to the approach to Iran's behavior, 
as well, because, as America was trying to negotiate the Iran 
deal, there was a real effort to work cooperatively with our 
European allies. The President's response to pulling out of the 
nuclear agreement with Iran has, to some extent, blamed our 
European allies who are part of that negotiation for the 
failure to get a stronger agreement. Do you think that is going 
to have lasting impact on our relations with the Europeans?
    Secretary Pompeo. A couple of hundred years of history 
would suggest that the answer to that is no.
    Senator Shaheen. So, we are moving forward with them on a 
united front for how to approach Iran?
    Secretary Pompeo. I think, throughout history, there have 
been differences between not only Europe and the United States, 
but individual European countries amongst themselves. This is 
no exception. They are in a different place. They have stated 
publicly their intent to work to try and remain inside of the 
JCPOA framework. When I saw Foreign Minister Mas on Wednesday--
I think it was yesterday--of this week, he indicated that that 
was continuing to be their policy. I explained to him why I 
thought this makes sense. I urged him--I urged him to 
acknowledge that the Iranians are launching missiles into 
Riyadh, and there is a German going to get killed, and one 
ought to think that that should be a condition that would be 
unacceptable to the people of Germany. And I am hopeful that 
they will join us to push back against what we would ask from 
Iceland: Do not launch missiles into Riyadh. Right? We ask 
this--this is--people have said that what the President laid 
out and what I spoke to on Monday is a fantasy. If you go look 
at the 12 items, it is nothing that we do not ask of every 
civilized nation in the world. It is--join the league of normal 
nations. This does not--it does not seem like too tall an order 
for any European----
    Senator Shaheen. Well, I am----
    Secretary Pompeo. --country to join us----
    Senator Shaheen. --I am not taking issue with what you----
    Secretary Pompeo. Yeah, but I--but, to my----
    Senator Shaheen. --would like to add.
    Secretary Pompeo. --to your point, I think the Europeans 
share our value set and our interests. I think they would agree 
with our assessment of that bad behavior. And so, I am very 
hopeful that they will join us in our effort to cease that bad 
activity by the Islamic Republic of Iran.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Thank you very much, Mr. Secretary. Appreciate you being 
here.
    You--we are so appreciative of your efforts and the 
President's efforts to achieve complete, verifiable, 
irreversible denuclearization of North Korea. And I know we are 
going to continue to work toward that goal and continue our 
efforts to impose maximum pressure on North Korea, especially 
in light of the--today's announcement.
    As we continue to impose sanctions and conduct joint 
military exercises, keep the regime fully aware of the 
consequences of their actions, I was just going to ask a little 
bit about China. And do you believe China is embracing maximum-
pressure strategy in order to get North Korea to abandon its 
nuclear weapons program and, just in terms of what we can 
expect of China in regard to North Korea for future activities, 
and have they responded in our efforts to continue along this 
line?
    Secretary Pompeo. So, I have not spoken to him since this 
letter was released, but I did speak to him as recently as 
yesterday afternoon. And they made every commitment that they 
were prepared to continue in the way that they have. And I wish 
we would give the Chinese full credit for what they have done. 
It is historic. It is different than what they had done in 
previous iterations of this. So, we are very appreciative of 
that. I made clear we were going to need them to continue even 
while these negotiations take place, and they agreed that that 
made sense, for them and for the world.
    Senator Barrasso. Yeah. You have been very clear on our 
ultimate goal with regard to North Korea. Could you speculate 
on what your view is on China's ultimate goal in North Korea or 
what they have expressed to you?
    Secretary Pompeo. Yeah. I can tell you precisely what they 
said to me. They agree that CVID is the correct answer for the 
Korean Peninsula.
    Senator Barrasso. Okay, move to Iran. And I think, on 
Monday, you really gave a--I thought, outstanding remarks at 
The Heritage Foundation on Iran. Two weeks ago, the President 
ended participation of the United States in this flawed Iranian 
deal. I strongly support the decision. You know, you stated, 
``First, we will apply unprecedented financial pressure on the 
Iranian regime.'' You said, ``The leaders in Tehran will have 
no doubt about our seriousness, and, thanks to our colleagues 
at the Department of Treasury, sanctions are going back in full 
effect, new ones are coming.'' So, will the administration be 
on track to have these sanctions fully re-imposed by the 
November deadline? And are there--can you talk a little bit 
about what additional sanctions may be considered? And are 
there things that Congress can do to be helpful?
    Secretary Pompeo. So, the answer to the last one is always 
yes. I am sure there are tools that we will contemplate, that 
we will need assistance with. That is, there will be some 
authority, although you have given us, through CAATSA and other 
tools, enormous capability and breadth there. And we appreciate 
that.
    Second, I think the second question, Can I lay out for you 
what the next set of actions will be? No, only to say that 
there are--the preparations are well along for rolling those 
out, here, before too long. You saw some initially against the 
Central Bank of Iran and some of its officials in that same 
vein. The effort--the core effort with respect to the sanctions 
is to deny Iran the wealth to do the bad stuff that they have 
been out doing during the JCPOA.
    Senator Barrasso. Right.
    Secretary Pompeo. People forget that all of this bad 
activity took place during the JCPOA. And so, it is not the 
case that the withdrawal caused the Iranians to launch missiles 
into Riyadh and into the Golan Heights, but, rather, this 
activity occurred during the JCPOA. And so, we have got a 
serious on--we are hopeful. My task is to build a consensus 
around the world so that the world begins to join in those 
sanctions, as well, so they are not simply U.S. sanctions, but 
global and U.N. sanctions, in addition to those that the United 
States puts in place.
    Senator Barrasso. In addition to--talk about some of the 
bad things that you said Iran is doing, certainly in the 
region. I have concerns about what is going on in Lebanon with 
regard to Hezbollah, the recent elections. In May, Lebanon held 
its first legislative election in 9 years, resulting in 
electoral gains by Hezbollah. It is a--Hezbollah is a U.S.-
designated foreign terrorist organization. The leader of 
Hezbollah has promised thousands of foreign fighters deploying 
to Lebanon to fight Israel in the next war. Congress has put in 
place restrictions on U.S. funding for the Lebanese internal 
security forces in the Lebanese Armed Forces if either body, it 
says, is controlled by a U.S.-designated foreign terrorist 
organization.
    So, has the Lebanese state become indistinguishable from 
Hezbollah? And should we continue to provide assistance to the 
Lebanese Armed Forces?
    Secretary Pompeo. I do not believe that it is, although we 
are reviewing that to be sure--to make sure that the actions 
that we take, the funding that is provided, is provided 
appropriately and consistent with the law. We have reviewed 
that for our--well, certainly, the time that I have been in 
service in this administration. So, we will continue to review 
that.
    The Lebanese election was not what America would have 
hoped; I think, what most of the Lebanese people would have 
hoped, either. But, I do hope that, when the--when it all 
shakes out, that we can continue to provide support to the 
Lebanese Armed Forces in a way that is appropriate, and do our 
best to help return Lebanon to what everybody knows it once 
was.
    Senator Barrasso. The jewel of the Mediterranean, as it was 
once called. So, yeah, things are different.
    Could I move to Turkey? I think, during your testimony this 
week before the House Foreign Affairs Committee, you said we 
need to get Turkey to rejoin NATO. Others have called Turkey 
and NATO a troubled marriage. Turkey has increasingly taken 
steps, to me, that undermine the NATO alliance, from 
cooperating with Russia to attacking the Kurds, fighting ISIS. 
You know, in December, Turkey announced it is going to be 
purchasing these S-400 antiaircraft defense system. It is not 
compatible with the NATO system, like the Patriot system. Could 
you talk a little bit about our strategy to bring NATO back--
Turkey back into the NATO fold and, you know, the areas where 
we could actually be working cooperatively with President 
Erdogan?
    Secretary Pompeo. So, there are places, right? They were in 
support of the efforts that we took in--some of the efforts we 
took in Syria. There are pockets where we still are able 
there--continue to allow us to operate out of airbases there, 
so there are pieces that are very important to the Department 
of Defense, as well. But, the trend is wrong, to be sure. 
They--their actual possession of the S-400 causes multiple 
levels of challenges between us and between Turkey and NATO. We 
are pressing, diplomatically, to make clear we are trying to 
offer them alternatives, as well. We are trying to provide for 
what are legitimate defense needs, to assist them with 
legitimate defense needs, as well. We are trying to do the 
things that will encourage them to come back.
    If I said ``rejoin NATO'' yesterday, I may have misspoken. 
They are obviously still a member of NATO. I hope that their 
actions will prove to be more consistent with what it is NATO's 
primary objectives are.
    Senator Barrasso. There is a whole question about their 
request to buy 100, I think, F-35s, and how that would stand. 
It is taking us in the wrong direction, and worth its way to 
bring them back in.
    Secretary Pompeo. It is still--and it is still very much a 
live issue, the Turks' capacity to have access to the F-35.
    Senator Barrasso. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Booker.
    Senator Coons.
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Menendez.
    Secretary Pompeo, it is good to be with you again. Thank 
you for your service as Secretary.
    I want to commend your recent decision to lift the ill-
considered State Department hiring freeze, and congratulate you 
on securing the release of three American detainees from North 
Korea.
    Although I recognize you did not craft the State Department 
budget for FY19, I will just second the terrific comments by 
Ranking Member Menendez, who offered a detailed criticism of 
how it undermines our values and our security. I am frustrated 
that the administration ignored the bipartisan, bicameral will 
of Congress and submitted, again, a budget request that would 
cut, by 30 percent, much of the State Department and AID 
activity that I think would weaken our global standing and 
reverse bipartisan progress.
    Today, I want to focus, not just on that budget request, 
but on some important foreign policy issues challenging us. And 
I also want to make sure I thank you for your strong 
endorsement, in your written testimony today and in your spoken 
testimony before House Foreign Affairs, of the BUILD Act, a 
genuinely bipartisan bill that I think could help us step up 
around the world to crowd in American private capital and to 
confront the challenge of China's mercantile activity in the 
developing world. I think that is a promising bipartisan 
initiative. And I want to make sure we work together to use 
that to strengthen international development and advance our 
foreign policy interests.
    Let me ask you about Ebola, if I might. In 2014, I visited 
Liberia and saw the devastation of an epidemic that cost over 
11,000 lives before it was finally halted, at a cost of more 
than 5 billion to the United States. Thousands of volunteers 
and government employees were deployed. Folks went there 
because of their strengths and skills in medicine and nursing, 
their religious faith, from across a wide range of groups and 
countries. But, in the end, American action in Liberia was key 
to turning the tide and to restoring some semblance of health 
and stability to Liberia. And I think, in many ways, that 
response represented the best of American leadership.
    But, today I am concerned. The President is considering 
rescinding funds to fight the new Ebola outbreak in the DRC. 
There are cases, in a city of over a million people, that have 
alarmed, I think, many of us who were involved in the response 
in 2014. Reportedly, the President is close to closing part of 
the NSC designed to help lead U.S. and international responses 
to pandemics and cutting funding, as I mentioned, in the budget 
for global health security. Do you agree with these steps? Do 
you think this is a responsible response, including the 
rescissions to Ebola funding?
    Secretary Pompeo. Senator Coons, thanks for the question. 
It is an important issue. The--we are watching closely. I think 
the good news, with respect to the situation in the DRC, is, I 
think we are further out in front than we were last time. 
Having said that, as you well know, you are on top of it until 
you are not. And so, we are deeply focused on making sure that 
we try and stay out in front and do everything we can.
    We also believe we have enough resources today. That is, we 
do not think there are funding shortfalls that prevent us, in 
the near term, from doing the things we need to do. So, we 
think we are okay there.
    You asked directly about the rescission. I have had many 
discussions about that. And my push has been: This is 
important, we need to make sure we have the resources, not only 
for the current issue, the one that we know about, the one that 
is in the news today, but, rather, for each of these global 
health challenges, these risks, in a way that is appropriate. 
And so, there are still live discussions. I was a little late--
I was a little late to the debate, but I am on the scene now. 
And I did not receive any pushback, generically, from my 
request to make sure we had the right number of resources. 
Now----
    Senator Coons. My----
    Secretary Pompeo. --it is a matter of----
    Senator Coons. My sense is that the rescission package 
continues to include rescissions to the Complex Crises Fund, 
which has been critical in allowing a rapid response to major 
humanitarian crises, as well as funds from the Millennium 
Challenge Corporation, despite the President just signing into 
law a bipartisan bill that grants that agency new authorities. 
I hope you will really look at these rescissions. My impression 
is that our response, as of now, is significantly underfunded 
and puts us at some risk of repeating what happened in 2014, 
where, as you said, we thought we were on top of it, and then 
it emerged, and then it----
    Secretary Pompeo. Yes, sir.
    Senator Coons. --became a regional tragedy.
    I will also just reference that President Trump, then a 
private citizen, in 2014 tweeted that the U.S. cannot allow 
Ebola-infected people back. Quote, ``People that go to faraway 
places and help out are great, but must suffer the 
consequences.'' Many of the folks who were on the front lines 
in responding in 2014 were U.S. Public Health Service, USAID, 
U.S. military. Do you think health and development 
professionals who risk their lives to contain an outbreak 
should bear the consequences and be kept out of the United 
States, as that suggestion in a different context from our now-
President might lead one to believe?
    Secretary Pompeo. Boy, there have been no discussions about 
that. Yes, I think they need to, obviously, be able to come 
back after doing the great work that they did.
    Senator Coons. I would hope we could work together to 
ensure that anybody who deploys is certain that they can safely 
return home.
    Now, let me move to Iran strategy. There has been a 
vigorous discussion about it. You gave a speech Monday at The 
Heritage Foundation. You laid out 12 demands of the Iranian 
regime. I would agree with you that we should expect no less of 
nations that are part of the community of civilized countries, 
but I am struggling with exactly how we are going to get there. 
This is an ambitious agenda, and, other than threats to impose 
secondary sanctions that I am concerned will distance us from 
our European allies, I am wondering about how exactly we are 
going to push back on Iran in Syria, push back on Iran in other 
places in the region, in Yemen.
    One of the lines of effort you mentioned included 
supporting the Iranian people, which I was intrigued by. Are 
you advocating that President Trump remove Iran from the list 
of countries whose citizens cannot come to the United States 
through the travel ban? And help me with whether the Trump 
administration's visa policy is consistent with outreach to the 
Iranian people.
    Secretary Pompeo. So, there are many pieces of this that I 
will concede we still have work to do to figure out. I would 
say that, more broadly, that set of policies is under review to 
try and make sure we get that right. What I was speaking to was 
not actually that. I was speaking to a broader understanding, 
where it is important to know--for the Iranian people to 
understand that they will not be on their own. It was--some 
have suggested--there was a question from Senator Kaine earlier 
about whether our motive is regime change. Right? Out--outside 
external was implicit in that. It is certainly not. It is the 
case that we are convinced that the Iranian people do not 
support the adventurism that it has been engaged in. And so, 
the efforts we have--we talked about the GEC, we talked about 
other public diplomacy tools that America has and, I think, has 
fallen into disrepair, getting those back out and being 
effective communicating with the Iranian people there, as well.
    But, I am happy to take onboard to consider what we ought 
to do with respect to visa policy, as well. But, my--I would 
have to think about the--there are second-order effects to 
that, as well. But, I am happy to consider----
    Senator Coons. I think it might send an important signal in 
that area of effort. And I respect the complexity of the 
undertaking, but look forward to asking more questions about 
how we are going to move forward----
    Secretary Pompeo. Yes, sir.
    Senator Coons. --with our European allies.
    Thank you, Mr. Secretary.
    The Chairman. Thank you.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    And, Secretary, thank you for being back with us.
    I am disappointed but, frankly, not surprised by the summit 
being canceled, given the nature of the regime. And seems to me 
that the reason they were willing to come to the table in the 
first place was because of the maximum-pressure campaign, 
because of the sanctions, and because you were able to 
internationalize those sanctions; in particular, having China 
play such a central role. I guess, a couple of questions.
    First, it seems to me that the maximum-pressure campaign 
has been somewhat paused over the last several weeks. Do you 
intend to reengage, to ramp that back up? And what do you 
intend to do with regard to our international sanctions, 
specifically with regard to China getting back engaged?
    Secretary Pompeo. So, I did not--my sense was, we had not 
taken much of a pause. We were still out, working around the 
world to convince others to do the things we needed them to do 
to--when there were North Korean workers there, to send them 
back to North Korea, to stop remittances, go back--there were 
lots of activities. We still had extensive work on ship-to-ship 
transfers. We were still building out that capacity, as well, 
to stop refined products from entering North Korea, as well. 
So, I think we have been continuing that even up and through 
today in--as were contemplating the June 12th summit. That will 
not change. We have still got work to do to build out each of 
those. I am sure there are additional sanctions that we will 
seek to put in place. The United States, I am sure, will go 
back to others, asking them to do more, as well.
    You had a second question. I am sorry, Senator Portman, it 
slipped my mind.
    Senator Portman. Yeah, I think--I think you had answered 
it, with regard to the international pressure.
    Secretary Pompeo. Senator Portman, if I can say----
    Senator Portman. Yeah.
    Secretary Pompeo. --one more thing. It is, Senator Portman, 
very, very important that the world observes that this effort 
continues. It is one thing for the United States to be out 
after it. We need our partners, who have done so much good 
work, at economics--at economic pain to their own countries but 
stay with us until we achieve the outcome.
    Senator Portman. I think that is absolutely essential and, 
you know, again, key to the apparent success you had at one 
point in getting them to talk. And you have had conversations, 
direct negotiations. As you know, I spent a couple of years 
trying to get Otto Warmbier back to the States, and, during 
that time period, talked about the need for direct 
negotiations. You have now done that. And so, there has been a 
step forward, even though the summit has been canceled. And I 
think that is appropriate. Again, given the nature of the 
regime, it is not surprising that they have canceled.
    You talked, at the State Department, about ``getting its 
swagger back.'' And you and I talked about--a lot about this 
during your confirmation process, private meetings and public 
testimony. I think that is important. I think morale is higher. 
One of the ways you can get your swagger back is to do exactly 
what you said a moment ago in response to the question from 
Senator Coons. You talked about using the GEC, which is the 
Global Engagement Center, in an effort to communicate directly 
to the Iranian people more aggressively.
    You even said, a moment ago, that you thought that some of 
our efforts to do so have fallen into disrepair. I could not 
agree with you more, as you know. And, based on legislation, 
Senator Murphy, who is with us today, and I wrote, a couple of 
years ago, you now have the ability to do that, because we have 
invested in the State Department this responsibility to 
coordinate all of our international efforts on pushing back 
against disinformation, propaganda, but also be more effective 
at getting our narrative out. I am encouraged by your budget 
request, 53.5 million bucks, also encouraged that DoD funding 
is finally coming your way. I do think that DoD funding perhaps 
should be looked at as a 2-year funding source now that we are 
so close to the fiscal year. I hope you will look into that. I 
think that would be helpful.
    You also talked about ensuring that the right people are in 
place, not just contractors, but having folks who are there who 
are senior members of your Foreign Service organization who can 
really make this GEC the effective body that I think you 
believe it ought to be.
    So, first, I appreciate your personal commitment to this 
that you made during the confirmation process. And, second, 
just want to ask you, Where are we with regard to GEC? What 
more could we be doing here to help you?
    Secretary Pompeo. I have, sadly, little progress to 
identify for you this morning. But, we now--we now can hire. 
There are 13 full-time positions that were frozen out from 
being hired. We are working that. I agree with you, we need 
career professionals working, leading parts of that 
organization. It is going to take me a bit to get where we need 
to be. So, a little forbearance. But, know that we are working 
hard at it.
    I want--I would like to put that in the context of what I 
think is an incredible priority. So, it is not just the GEC. 
That is an important place. It has a lot of money. As 
publicly--public diplomacy goes, $60 million is a lot of money. 
We should be able to do some incredibly effective work there. 
But, we have got the BBG, which, too--right?--the Broadcasting 
Board of Governors, that I am an ex officio member of--it, too, 
has--there is just a lot of places. And I will tell you, I do 
not believe it is well coordinated inside the State Department. 
It sits in at least two different places--four bureaus, two 
secretariats. There is a lot of work to be done to get that 
right so that we can begin to--that important piece of American 
diplomacy. And I am focused on it. I have got, oh, one of my 
seniors coming to me with a plan. I have believed this for a 
long time. When I was a young member from Kansas, I spent some 
time thinking, trying to get it going, and it overwhelmed me. 
Now I have the opportunity to do it. I am looking forward----
    Senator Portman. Well, we----
    Secretary Pompeo. --to building it out.
    Senator Portman. --appreciate your prioritizing it, and we 
do think, based on the fact that Congress has now given you 
this mandate, that State Department is the right place to do 
it. And so, let that swagger work. And let us go for it.
    By the way, I was in the Czech Republic visiting Radio Free 
Europe and Radio Liberty about a month ago. One of the issues 
that came up there was CFIUS. And I know----
    Secretary Pompeo. Yeah, sure.
    Senator Portman. --you are on the CFIUS board. When I was 
at--in the Trade Reps's office, I was on that board. I hope you 
are involved in that. The ZTE sanctions issue has put more 
light on the fact that, particularly with regard to China, and 
also Russia and other countries, there is an effort to 
influence and try to obtain more access to our key 
technologies. One thing they said in the Czech Republic is, 
they do not have a CFIUS there, and there can be backdoor, as 
you know, efforts by China and other countries to get into our 
technology through Europe.
    One question I have for you is whether you would be willing 
to work with our European allies so that the EU can have an 
effective CFIUS regime in place, as well, and that we can work 
with them and other allies. Because, by multilateralizing this, 
I think it is going to be much more effective as we begin, 
finally, to engage, not just on pushing back on the 
disinformation and propaganda we talked about, and getting our 
narrative out there, but dealing with the reality that the 
technological race is on, and other countries are accessing our 
technology in ways that is harmful to our national security.
    Secretary Pompeo. Yes. Yes, sir, I agree. We should help 
other countries get the same CFIUS-related--CFIUS regime put in 
place, as well, much like ours. They are--some of them are 
begging for help. We need to get out there and do it.
    Senator Portman. Great.
    Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman.
    Mr. Secretary, again, I want to echo some of the comments 
that my colleagues have said in thanking you. You spoke to me 
personally and privately, as well as publicly to the committee, 
about doing things about the morale. As I was traveling around, 
I heard a lot of disturbing comments, especially the effects 
the hiring freeze was having on the families of people that 
were committing themselves to serve our country. You have 
addressed some of those things, and I just wanted to let you 
know how grateful I am for you sticking to what you said you 
would do.
    Secretary Pompeo. There is a lot more work to be done. I 
hope--a handful of things I hope I can roll out, here, in a 
handful of weeks. There will be some that will take months. 
But, I intend upon honoring the commitment that I made, not 
only to this committee, but to the workforce, when I spoke to 
them last week.
    Senator Booker. Well, I expected you to fix all the 
problems in the first 2 months, sir, and a little disappointed 
that you have not moved that quickly.
    [Laughter.]
    Senator Booker. You and I both share a--not only a 
patriotic bent, but a humanitarian bent, as well. And I know 
that you are personally disturbed by what is going on in South 
Sudan. Since 2013, the civil war, 50,000 human beings have been 
killed. You have 4 million people displaced, 7 million people 
who have had to receive aid to survive. And now we are seeing a 
level of a humanitarian crisis where 5 million people are on 
the brink of starvation. And what is painful in this is, it is 
compounded by the challenges that we are seeing with epic 
levels of violence against women. About 65 percent of the women 
in the country have experienced violence of a sexual nature, 
and rape and the like.
    In addition to this, if you--the crisis in South Sudan has 
allowed for almost a proxy battle between other regional 
countries. It is causing destabilization in the entire area. 
You have Uganda, you have Ethiopia, you have Kenya, who are all 
now seeing effects of this civil war and undermining a lot of--
some of the important work that we are doing in a security 
nature. This is just a situation that is growing worse and 
worse and worse, both from the humanitarian concerns as well 
as--I know you know this, as well, better than I do--as well 
as, sort of, a--regional interests, counterterrorist interests 
in the region, as well.
    And I say all that to say I have had some constructive 
conversations with Chairman Corker about our diplomatic focus 
in the area. I know where there are some issues where we were 
withholding support for an Ambassador in the region. But, I 
just would like to get your frank opinion on some of the things 
that the Chairman and I have been discussing, given the--sort 
of the transnational nature of the crisis. I am just wondering 
if you share our concerns that we do not have a special envoy 
that is getting up every single day and focusing on this issue 
and trying to address the grievous humanitarian, diplomatic, 
political, and security consequences that this crisis is 
causing.
    Secretary Pompeo. Senator Booker, I cannot--your factual 
statement about the situation is spot-on. You characterized the 
risk and the--there are not words to capture a tragedy that is 
taking place there perfectly. I will also say, I saw this issue 
a little bit in my previous role. I have had a chance to dig 
into it only a little bit here in this one. There may be some 
fundamental rethinking--maybe this is your point--about our 
approach to this. We have been at, sort of, the same diplomatic 
line for an awfully long time, with--I do not know--I would say 
marginal success. But, perhaps if we had not been doing that, 
it would be far worse. But, somehow we have to create a 
situation that is fundamentally different than the set of 
incentives that sit on the ground today and spill over into the 
regions that you describe. You talked about some Sudan, too. 
This risk is real.
    As for whether there is a requirement for a special envoy, 
I have not given it any serious consideration, and I will do 
so. We do need our team focused on this issue every day. And 
whether it requires a special envoy to do that, I do not know 
the answer to. I am certainly willing to consider it.
    Senator Booker. I am grateful for that. And my team also 
made me aware that the--a director--the previous director was 
moved from the South Sudan office into a different office, 
without explanation. So, at least from standing outside of your 
agency and organization, it looks like we are pulling back on 
the people that are--have the specialty and the focus, and not 
sure what is filling that void at a time where I think, as you 
have heard, sort of, my bias, we should be ramping up 
attention, focus, energy into that region.
    Secretary Pompeo. Senator, you are informationally ahead of 
me. I regret that.
    Senator Booker. Okay.
    Secretary Pompeo. But, thank you. I will dig into it.
    Senator Booker. I am grateful, sir.
    And, again, I--you know, observing you and feeling like I 
know your core values, and we had a--some private conversations 
about this, the great power that your position holds. And I 
know that there is --your attention--we all have the same 24 
hours--with Asia and with Europe, with the Middle East, that 
demand so much right now. Senator Coons, Senator Flake, a 
number of the folks I have had the privilege of serving on this 
committee, have shown me what attention to issues going on in 
Africa can do in literally relieving human suffering. What we 
have done--you know, PEPFAR, USAID, as I am now learning, and 
as--joining this committee--is stunning. The--and every 
American should be proud in understanding that not only is it 
humanitarian, but you--as--what Martin Luther King said for our 
Nation is true for the globe, injustice anywhere is a threat to 
justice everywhere, that these issues, allowed to fester, do 
become issues to our national security. And infectious 
diseases, especially, we are now learning, with transnational 
flights and the like, that injustice anywhere--we do not deal 
with contagions in a proactive way, they have a chance of 
spreading.
    And so, I just want to echo what Senator Coons said with 
more eloquence than me about, sort of, my grievous concerns 
about the growing crises in--that we see in the DRC, in 
general, which I think is an area in need of more diplomatic 
attention, more American pressure, more guts and swagger that 
we are talking about in other areas of the world that we should 
be focusing in the same areas with some of our African nations 
and brothers and sisters in humanity. And it does, to me, send 
out a stunning reflection of our values--as you know, budgets 
reflect values--when we are announcing rescission packages that 
do things that just do not seem to make economic sense as well 
as moral sense. And I know you operate with strong moral core 
and also an understanding of fiscal conservatism about making 
investments that can save our country money. And the rescission 
of the 232 million for Ebola funding just took--struck me as 
staggering, when we know, from past experience with outbreaks, 
a small amount invested could save us a tremendous amount on 
the back end on a fiscal manner, but just the human suffering 
alone that the United States has something to do--and I just 
appeal to you, not just as a fellow American, but a fellow 
humanitarian, to give some focus to the DRC, give some focus to 
what is going on with American posture and resources in dealing 
with the Ebola virus. We have so much power in this country, 
and this is a place where, if we make the investment, if we 
apply the focus, we can make a tremendous impact on human 
suffering. And it is not going to be on the front page of the 
New York Times, will not be talked about in--on CNN when they 
want to talk about what they seem to be distracted by these 
days, but, when you and I are towards the end of our lives, you 
are in a position right now where you can make a difference 
in--on these issues in such a substantive way.
    Secretary Pompeo. Thank you, Senator Booker.
    Senator Booker. Thank you, sir.
    The Chairman. Thank you.
    Senator Paul.
    Senator Paul. I think many people would admit that the Iran 
agreement had some deficiencies. One of the largest 
deficiencies might have been that the $100 billion was released 
all at once instead of maybe gradually to help modulate 
behavior over a longer period of time. That being said, the 
$100 billion that was released was a great inducement to get 
Iran to sign the agreement. That was a carrot. And that carrot 
is gone. They have gotten the good thing, and now we want 
compliance. Now we are pulling out. And so, the question is, 
you know, what are the next inducements to get them to sign 
things, or will there not be?
    I think there is a question with--there are two 
possibilities, basically, of what will happen. So, you 
reintroduce the strongest sanctions ever. They either do not 
work--that is one possibility--because they are unilateral, and 
some say unilateral sanctions will not work. Let us say they do 
not work. That means Europe, China, and Russia continue to 
trade with them, and Iran says, ``Well, they are going to 
continue to trade with us, we will just keep abiding by the 
agreement.'' They do not develop any more nuclear weapons or 
technology towards that, but they do not do anything else that 
you would like--ballistic missiles, less terrorism. So, really, 
basically, we do not get what we want if the sanctions do not 
work.
    Second possibility. Let us say the sanctions do work. We 
have enough manipulation of money that flows through us from 
Europe, Europe does a lot of trade with us, Europe buckles. I 
think Russia and China still will trade with them, but let us 
say Europe buckles. And let us say it works and it puts enough 
pressure on Iran. Then there are two possibilities of what Iran 
does. The first possibility is, they say, ``Oh, Secretary 
Pompeo--we love Secretary Pompeo's 12-point strategy, and we 
are going to accept that.'' I think that is unlikely. The 
second possibility, if the sanctions work and they put enough 
pressure on them, Iran feels the pressure--is that they restart 
their nuclear centrifuge program. So, those are two 
possibilities.
    But, what I would like to do is go through the 12 steps 
that you would like Iran to do and sort of explore what these 
would mean if we thought about them in terms bigger than Iran.
    So, one of your first things is--and this was--came up 
during JPOH, but nobody really could really get this done--
they--you want Iran to reveal the military dimensions of its 
nuclear program. Well, let us substitute Israel for Iran there. 
Does anybody think Israel is going to reveal the military 
dimensions of their nuclear program? Well, you will say, 
``Well, they are our friend.'' Well, yeah, but, from Iran's 
perspective, they say--they see Israel as a rival, and a 
regional rival. Let us put Saudi Arabia in there. Will Saudi 
Arabia reveal the military dimensions of its nuclear program? 
Well, some might say, ``Hmmm, they do not really have it.'' 
But, I am guessing there are files over at the CIA that say, 
``Well, you know what? They have talked to people about 
purchasing it. Some say they have purchased nuclear 
technology.'' I guarantee we know that, and you probably cannot 
admit it, but let us put Saudi Arabia in there. Are they 
willing to discuss anything they have done to develop nuclear 
weapons?
    So, really what you are asking for is something that they 
are never going to agree to. Okay? You can try to cripple them. 
It is sort of like unconditional surrender. You are not getting 
that.
    Let us move on. Proliferation of ballistic missiles. I do 
not like them threatening surrounding countries or us with 
ballistic missiles. Nobody does. But, they respond, not just to 
us, they respond to Saudi Arabia. There is 1,000-year-old war 
over there, there is a 1,000-year-old religious war over there, 
and there is hostility between the two. So, when we supply 
weapons, and the Saudis buy ballistic missiles--the Saudis have 
a ballistic missile program--they respond to that. The Saudis 
and their allies, the Gulf shiekhdoms, spend eight times more 
than Iran. So, when you tell Iran, ``Oh, well, you will have to 
give up your ballistic missile program,'' but you do not say 
anything to the Saudis, you think they are ever going to sign 
that? They would have to be crippled and starving people in the 
streets for them ever to agree to give up their ballistic 
missile program.
    Had we kept the Iran agreement with them, and you said to 
the Iranians, ``Well, we want less of an arms race over there. 
We would like to have peace with Saudi Arabia,'' could we get 
Saudi Arabia to the table with Iran to discuss either a freeze 
of ballistic missiles--you know, when we went to Russia, we did 
not just succumb and say we would give up our weapons. Neither 
did Russia. We did it in parity, we had an agreement. If you 
leave Saudi Arabia out of it, and you leave Israel out of it, 
and you look at Iran in isolation, that is not the way they 
perceive it. So, I do not think they are going to jump at your 
12 notions, here, of what you would----
    Secretary Pompeo. Senator----
    Senator Paul. --like them to do.
    Secretary Pompeo. Senator, may I just make--may I make just 
one----
    Senator Paul. Go ahead.
    Secretary Pompeo. --point? I think the example of Saudi 
Arabia is a reasonable one. We have told the Saudis exactly 
what I asked from the Iranians.
    Senator Paul. To talk about their nuclear program?
    Secretary Pompeo. We have--they have said they want a 
peaceful nuclear energy program, and we have told them we want 
a gold standard Section 123 agreement from them, which would 
not permit them to enrich. That is simply all I have asked of 
Iran, as well.
    Senator Paul. Do we have information that the Saudis have 
talked to actors in Pakistan and other places about purchasing 
nuclear technology?
    Secretary Pompeo. Senator, I cannot answer that here this 
morning.
    Senator Paul. Which is to say----
    Secretary Pompeo. Senator----
    Senator Paul. --we probably--in all likelihood do have that 
information. And so, the thing is, it is a one-way playing 
field. Unless we understand that there are two big players over 
there--really, three big players--you have got Iran, you have 
got Israel, and you got Saudi Arabia--we want Iran to do things 
that we are not willing to ask anybody else to do, and that we 
would never do.
    Secretary Pompeo. Senator, I----
    Senator Paul. So----
    Secretary Pompeo. --I disagree with you. I think we ask 
most nations to do precisely what we are asking Iran to do.
    Senator Paul. Let us move on to another one your 12 points. 
End the military support for the Houthi rebels. Well, once 
again, you are asking them to end it, but you are not asking 
the Saudis to end their bombardment of Yemen. I mean, if you 
look at the humanitarian disaster that is Yemen, it is squarely 
on the shoulders of the Saudis. And so, we are going to ask the 
Iranians to quit supplying it--and they, in all likelihood are 
the ones supplying the missiles--and you--we get reports, and 
the Defense Department comes in and says, ``There has been a--
you know, 32 missile strikes in Saudi Arabia.'' Well, there has 
been like 16,000 bombings of Yemen by Saudi Arabia. Nobody even 
mentions that. We act as if it did not even happen. If we are 
so ignorant that there are two sides to this war, we are never 
getting anywhere. Iran is not going to stop doing that. But, 
they might, if you sat them down with the Saudi Arabians and 
said, ``This arms race does not make sense,'' and Saudi Arabia 
is willing to sit down at the table. You know, is Saudi Arabia 
willing to stop--another one is ``withdraw all forces under 
Iran's command throughout the entirety of Syria.'' Well, dozens 
of groups in there, even ISIS, that were getting weapons from 
Qatar and Saudi Arabia. In fact, one of the leaked emails from 
WikiLeaks was from Podesta to--or from Clinton to Podesta, 
saying, ``My goodness, we have got to stop Saudi Arabia and 
Qatar from funding ISIS.'' That is a direct email. They were 
acknowledging they knew about it, and they were acknowledging 
it was a problem, but weapons were flowing in to all kinds of 
radicals in there. So, if you want Iran to stop--and, I mean, 
Saudi Arabia and Qatar, 10 times the problem. You know, the 
whole Syrian war has all of these radical jihadists. The people 
who attacked us came from Saudi Arabia. We ignore all that, and 
we lavish them with more bombs.
    So, really, until we acknowledge there are two sides to the 
war--or three sides to the war in the Middle East, you are not 
going to get the agreement. I think it was naive to pull out of 
the Iran agreement, and I think, in the end, we will be worse 
off for it.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    And thank you, Secretary Pompeo, for being here today with 
us.
    As you know, the--ZTE, the Chinese cellphone company, was 
hit with a $1.9 billion fine for violating U.S. law. The 
Department of Defense has also warned about the security 
vulnerabilities in these phones. Soon after ZTE reported its 
resulting financial problems, the Metallurgical Corporation of 
China made a decision to support a half-billion-dollar project 
in Indonesia, which included Trump-branded properties. Then, 
soon after President Trump sounded the alarm on behalf of the 
Chinese company ZTE, tweeting, and I quote here, ``President 
Xi, of China, and I are working together to give massive 
Chinese phone company ZTE a way to get back into business, 
fast. Too many jobs in China lost. Commerce has been instructed 
to get it done.'' That is the end of the quote on the tweet.
    Many observers have found these events and their timing 
strange. I would say, very strange. As you know, the Trump 
organization owns assets around the world, in India, the Middle 
East, Panama, and have pursued a project in Russia well into 
2016. Members of Congress and the executive branch are under an 
ethical duty to avoid even the appearance of a conflict of 
interest. Do you agree that there is at least an appearance of 
a conflict of interest with this sequence of events with China?
    Secretary Pompeo. Senator, I have not seen any indication 
that would support the connection that you seem to be drawing. 
I was part of the conversation early and then, frankly, more 
recently, about ZTE. I knew about ZTE in my previous role, I 
knew about it when I was a Member of Congress, as well. This 
administration takes the threat that ZTE poses incredibly 
seriously. Indeed, it is the first administration to take any 
action against ZTE, in spite of the fact that it has been a 
known threat to the United States of America for years. 
Previous administration chose to do literally nothing against 
ZTE. And so, the critiques that this administration has done--
not done enough and the ``many others'' that you refer to--I do 
not know who they are--are not reflective of the deliberations 
that I have seen this administration undertake with respect to 
how to respond to ZTE.
    Senator Udall. Given that the President refuses to disclose 
his tax returns, how can you assure the American people that 
American foreign policy is free of his personal conflicts of 
interest?
    Secretary Pompeo. Senator, I find that question bizarre.
    Senator Udall. I did not--you do not want to answer it, 
then.
    Secretary Pompeo. Senator, after you--you just said----
    Senator Udall. You just want to describe it as bizarre----
    Secretary Pompeo. Yes, I do. I think----
    Senator Udall. --and not give me an answer.
    Secretary Pompeo. --I think that is indicative of my 
answer, Senator. I have been incredibly involved in this 
administration's foreign policy now for some 16 months, and I 
have seen literally no evidence of what you are----
    Senator Udall. Well, that is what I want to ask you----
    Secretary Pompeo. --spuriously suggesting.
    Senator Udall. --ask you specifically----
    Secretary Pompeo. Spuriously, Senator.
    Senator Udall. No, it is not----
    Secretary Pompeo. Is it----
    Senator Udall. --spuriously----
    Secretary Pompeo. It is an outrageous suggestion.
    Senator Udall. My friend, it is not spuriously. This has 
been raised by a number of people----
    Secretary Pompeo. Yes, sir.
    Senator Udall. --out there.
    Secretary Pompeo. Yes, sir, it has. You want me to tell you 
who those folks are and what their----
    Senator Udall. No, it is----
    Secretary Pompeo. --political interests may well be?
    Senator Udall. No, I know. It is fake news.
    Now, let me ask my question.
    Secretary Pompeo. Yeah.
    Senator Udall. Okay. Back to the specific case with ZTE. Do 
you believe that it is in the U.S. interest to help the 
problematic ZTE phone company get back into business, fast? 
That is the Trump tweet. And is the State Department using any 
resources to work with the Commerce Department on this issue?
    Secretary Pompeo. Senator, I do not know the question to--
the answer to your second question. I have certainly been 
involved. So, yes, the State Department is using some resources 
to work with the Department of Commerce, some part of my time, 
for sure. There may be others. Certainly, my team members have 
been involved in this along the way, as well.
    Senator Udall. But, you--and then, the first question was, 
do you believe that it is in the U.S. interest to help the 
problematic ZTE phone company get back into business, fast?
    Secretary Pompeo. I am convinced this administration will 
make a decision that is in the best interest of the United 
States of America with respect to ZTE and all things.
    Senator Udall. Now, the former Ambassador to Panama 
recently told The New Yorker that the President asked him, 
quote, ``What about the hotel?'' That is the quote from the 
Ambassador in the Oval Office meeting to discuss the U.S.-
Panama relationship. Does the President ever discuss overseas 
Trump properties when discussing foreign policy issues with 
you?
    Secretary Pompeo. I have never seen us make any decision 
based on anything like you are suggesting, Senator. So, I do 
not know how else to answer that question.
    Senator Udall. Well, good. I just want a straight answer.
    Secretary Pompeo. Well----
    Senator Udall. That is great. I want to offer my----
    Secretary Pompeo. I am not sure----
    Senator Udall. --condolences ----
    Secretary Pompeo. --that is--I am not sure that was exactly 
your point there, Senator----
    Senator Udall. No, no. I wanted----
    Secretary Pompeo. --to get a straight answer.
    Senator Udall. I wanted a straight answer from you. We will 
see how history plays this out.
    I want to offer my condolences to the people of Cuba and to 
those who perished on the flight from Havana last week. This is 
the--yet another example, over 50 years, failed isolationist 
policies towards Cuba. And it just continues on and on. The 
United States embargo prevents Cuba from leasing U.S. planes 
and parts. This is a safety hazard that may have led to a 
disaster on the island last week. The plane--the crashed plane 
was an inter-Cuba flight, a route that generally is not 
serviced by U.S. air carriers. This means that Cubans and 
American tourists alike are subject to the same dangers of a 
poorly regulated airline industry. There is no doubt that the 
U.S. companies would benefit from business with Cuban airlines. 
And Cubans as well as American tourists, I think, would be 
safer because of it. Unfortunately, this administration 
continues to backtrack on efforts to engage with Cuban 
officials. Would the State Department be open to a dialogue 
with Cuban officials to help improve air safety and upgrade 
aircraft to avoid another catastrophe?
    Secretary Pompeo. Senator, the implicit suggestion there is 
somehow that the responsibility for this aircraft's failure did 
not rest with Cuba and its people. I simply disagree with that. 
I am happy to consider whether there are useful and appropriate 
mechanisms for the State Department to engage with Cuba on 
civil aviation. I do not know the answer to the question.
    Senator Udall. Yeah. Well, the point the question was 
trying to make is, when there is cooperation on all fronts in 
Cuba, I think Americans do better and Cubans do better. And 
that is what the last policy of the last administration was, to 
uplift everyone. And I--and when I had a discussion with you in 
my office, you talked about, ``We are going to try to have a--
have an engaged policy with Cuba. We are not going to go 
backward.''
    But, my time is up, Mr. Chairman, so I would wait for the 
second round. Thank you.
    Secretary Pompeo. Thank you, Senator.
    The Chairman. Thank you.
    I--on the ZTE issue, we had a--there were a few of us that 
were part of a briefing last night, and I do think that having 
nothing to do with other countries' interests, I think that--I 
do think the administration is using trade policy and some of 
these other sanctions issues maybe too transactionally--I know 
that does not happen at the State Department--and sometimes 
based on just feelings about a--an individual that they are 
dealing with. And I do think that inconsistency is creating 
problems. I--the thing they have discussed over the last 24 
hours relative to autos, to me, is an abuse of the authority 
granted to the President in Section 232, absolutely an abuse of 
that authority and, to me, feels like it has more to do with 
domestic politics or some other issue. And I hope that will be 
abandoned quickly. I think it is dangerous and destabilizing 
and should end immediately.
    But, I have to say, I would agree with the Secretary, I saw 
nothing whatsoever enough that related to some kind of personal 
conflict that may have taken place. But, I do think the 
inconsistencies are creating problems for our Nation.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chair.
    It has been a long hearing, I know, and I am--my dad used 
to tell me the mind can only absorb what the seat can ensure. 
So, I think, if you are like me, we are both enduring a extra-
long hearing. But, it is an important hearing, and it is about 
the budget, and I want to ask about that for--briefly, if I 
can.
    One, Senator Coons raised the question of the Ebola 
outbreak in Liberia. And he was right on point, because the 
rescission that the administration has put together includes 
removing part of the emergency money that went to Ebola in the 
crisis response of the United States, which, in part, the State 
Department is responsible for. And, by reducing that, it raised 
a point I want to make sure you were aware of, because I know, 
since you and I talked, a month ago, when you were--we went 
through a confirmation. You have had Iranian deals fall 
through, you have had changes in the Korean deal, you have had 
all kinds--you have been a busy man. I do not expect you to 
know about all of it. This is important.
    We had 16 isolation beds in the United States of America 
that met the standard necessary to try and stop an Ebola 
outbreak from expanding in the United States of America. We did 
not have enough, but we had just enough. And we saved 16 lives 
by having those isolation beds at--and they were at Emory 
University, in Atlanta. They were at the National Institute of 
Health, in Maryland. And there were two other locations. I 
cannot remember where they were. But, there were four in each 
place, where we brought back the Samaritans Purse doctors who 
went in there and contracted Ebola, brought them back to the 
United States, put them in those isolation chambers to ensure 
that we were not spreading the disease around, and we curtailed 
the growth of--potential growth of Ebola in the United States. 
And a few months later, we stopped Ebola's outbreak in Nigeria, 
which is a country of 50 million people. So, it is an important 
response that you have got to have, and you cannot just all of 
a sudden build it when the problem comes. You have to be 
prepared for it. So, I would hope--I would just ask that, as 
you go through all the many things you have to look at--in this 
rescission, we are making--we are playing a dangerous game if 
we are reducing our preparedness for something like Ebola or a 
pandemic. We are just passing the pandemic bill out of the HELP 
Committee this week, and we will get it to the floor soon. But, 
I hope you will take a look at that. I think Senator Coons was 
absolutely right to bring it up. And we have tangible proof 
in--we know we have got the Democratic Republic of Congo having 
a problem now with an outbreak--potential outbreak. And we know 
how we stopped the last one, but we are going to need to be 
prepared again. And being prepared early is going to be very 
helpful.
    Secretary Pompeo. Yes, Senator. I will absolutely look at 
it.
    Senator Isakson. And I would say--and that is a State 
Department diplomatic issue. You talk about having----
    Secretary Pompeo. It absolutely is.
    Senator Isakson. --diplomatic problems. You need a--you get 
a hunger--a famine or a disease pandemic, and you got a 
problem. And it is a political problem to have. So, I wanted to 
point that out.
    The second thing I want to talk about, or just ask about, 
is the--you lifted the hiring freeze, I think, in May 15th. Is 
that not correct?
    Secretary Pompeo. Yes, Senator, I believe that is correct--
15th or 16th, it went into effect.
    Senator Isakson. I think the impact initiative that the 
Department has got going, which is a $246 million request for 
any number of areas you want to make changes in the State 
Department, is that enough to do--implement the impact that you 
want to have on the Department? And will you be able to get it 
in place or--as quick as possible?
    Secretary Pompeo. That is the right question, Senator. I do 
not know the answer to that. There are pieces of that 
initiative that are incredibly worthy and will have a high ROI, 
that will get us a good return, for sure. I have not had a 
chance to dig into it enough to know if we have hit the mark on 
the number or if there is additional resources needed.
    Senator Isakson. I asked you, in the--your confirmation 
hearing--I have been told, and it has been reported by many 
people, that the job you did at the CIA in restoring morale and 
swagger, if you will, was remarkable. And you got high marks 
for that. And I told you, on the confirmation hearing, that my 
take on the State Department was that they were having a morale 
problem, and you were going in to a second challenge on that 
talent that you have. So, I know it has been--with all the 
things you had going on, and you have not had a chance to 
implement a lot of programs that you would like to that would 
deal with that subject, but I do urge you to work on ensuring 
that we have got the best morale possible in our diplomacy, in 
our diplomats around the world, and on the responsibility of 
the State Department. You are a great leader, and they need 
that swagger, and they need it back quick.
    Secretary Pompeo. Great. Thank you, Senator. I will work on 
it. I work on it a little bit every day. There is important 
components of getting that right, returning their authority to 
them, giving them all the room they need to go do the great 
work they came to State Department to do. And we are getting 
along the way to achieving that.
    Senator Isakson. Well, thank you for coming, and thanks for 
a great start on your new challenge.
    Secretary Pompeo. Thank you, Senator.
    The Chairman. It is good to be with you all.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Secretary, were you involved in the drafting of this 
letter?
    Secretary Pompeo. Yes.
    Senator Markey. Then maybe you can help me answer some 
questions about it. The President wrote, quote, ``Based on the 
tremendous anger and open hostility displayed in North Korea's 
most recent statement, I feel it is inappropriate at this time 
to have this long-planned meeting.'' Mr. Secretary, how did you 
expect North Korea to react to comparisons between North Korea 
and Libya, between the fates of Kim Jong Un and Gaddafi? Why 
would you expect anything other than anger and hostility in 
reaction to these comparisons?
    Secretary Pompeo. I actually--I really appreciate this 
question, because there is this misunderstanding that has taken 
place with this idea of a Libya model. I have not had a chance 
to go do the work to find out what that really was, what 
transpired when the Libyans chose to give up their nuclear 
weapons. It was quick, decisive diplomatic work negotiated 
over--it is all--all things relative, a relative short period 
of time in 2003. That is the Libya model.
    Senator Markey. Well, the Libya----
    Secretary Pompeo. That is the Libya model. It was some----
    Senator Markey. The Libya model----
    Secretary Pompeo. --it was some 8 years later----
    Senator Markey. The Libya model, as Kim Jong Un has been 
interpreting it, is that it is one where the leader of the 
country surrenders their nuclear capability, only to then be 
overthrown and killed. Why would you not think that Kim would 
not interpret that, as it continued to escalate with John 
Bolton on the Sunday shows, with the Vice President talking 
about the Gaddafi model--why would you think that there would 
be any other interpretation than what happened to Gaddafi at 
the end of his denuclearization, which is that he wound up 
dead? Why would you think that that would not, in fact, elicit 
hostility from a negotiating partner only 3 weeks from sitting 
down across the table from him?
    Secretary Pompeo. There are probably several reasons that I 
think that. The first is, that is not what they were talking 
about when they spoke about Libya. Right? I----
    Senator Markey. No, not right. Not----
    Secretary Pompeo. It was----
    Senator Markey. --right. Not right.
    Secretary Pompeo. Ambassador Bolton----
    Senator Markey. That is not how Kim would be interpreting--
this is----
    Secretary Pompeo. Senator----
    Senator Markey. --diplomacy.
    Secretary Pompeo. Senator, I am telling you what they said, 
so we hope that they would--he would hear----
    Senator Markey. I am sorry, what who--what who said?
    Secretary Pompeo. Give me a second.
    Senator Markey. With what who said?
    Secretary Pompeo. I heard Ambassador Bolton speak to this. 
I cannot quote them back, but he was speaking about the nuclear 
negotiation, itself. Let me----
    Senator Markey. But, what John Bolton said----
    Secretary Pompeo. Let me----
    Senator Markey. I will quote to you what he said. Here----
    Secretary Pompeo. Okay.
    Senator Markey. --is what John Bolton said. He said, ``We 
have very much in mind the Libyan model of 2003-2004.'' That is 
what he said.
    Secretary Pompeo. Yes.
    Senator Markey. Now, how----
    Secretary Pompeo. Exactly.
    Senator Markey. Well, how would you----
    Secretary Pompeo. That is my point.
    Senator Markey. How----
    Secretary Pompeo. Do you recall when Gaddafi was killed?
    Senator Markey. I think perhaps Donald Trump is the only 
person in America who would not be interpreting that to mean 
that, at the end of the story, the leader of that country dies. 
So, why would President Trump think that that was a good model 
to be used----
    Secretary Pompeo. I actually think you made my point, 
Senator.
    Senator Markey. What is that?
    Secretary Pompeo. 2003 and 2004. Gaddafi survived long 
after 2004.
    Senator Markey. Right.
    Secretary Pompeo. Right. And, Senator--and Ambassador 
Bolton spoke to 2003 and 2004. Let me give you the second 
reason I think----
    Senator Markey. No, no, no, no, no, no, no, no. The model 
is, he gives up the weapons in 2003 and 2004, and then he 
ultimately gets killed. Okay? That is what we are saying went 
by using the Gaddafi model. Why would that be a good way of 
having a conversation with someone who we are asking to engage 
in denuclearization?
    Secretary Pompeo. Let me----
    Senator Markey. I do not understand what you are talking 
about.
    Secretary Pompeo. I do not--we apparently are having a--
difficulty in communicating this morning, Senator, because I am 
doing my best to articulate, and I am clearly incapable of 
communicating to you adequately. I apologize for that.
    Senator Markey. I think you are. I think you are trying to 
divide----
    Secretary Pompeo. I am just----
    Senator Markey. --this Gaddafi question----
    Secretary Pompeo. I am describing----
    Senator Markey. --into a negotiation in 2003 and 2004 to 
give up the nuclear weapons, and then what happened to him 
subsequently, as though it is two separate story lines. Well, 
in the mind of Kim, it will not be two separate story lines. It 
will be the Gaddafi story as it is understood by, I think, 
everyone but this White House, that winds up with him dead. So, 
I do not--why are we not understanding that that is the story 
of Libya from 2003 and '04 on to the day he gets killed?
    Secretary Pompeo. You will recall that is not what Senator 
Bolton said. He talked about specifically to--if you quoted it 
correctly--I do not have it; you have got it written down----
    Senator Markey. Yeah.
    Secretary Pompeo. --he spoke specifically to 2003 and '04. 
But, let me give you one more reason that Chairman Kim should 
understand it differently. He and I spoke about--he and I spoke 
about what assurances were going to be provided to him. These 
were assurances that would clearly have to be capable, in the 
same way that we are demanding a permanent, irreversible 
denuclearization--verifiable denuclearization. In that same 
way, we have to provide him assurances that extend beyond the 
end of the negotiations, as well. And so, we had exactly--we 
had a discussion exactly in this vein. It is the case that we 
are going to have to make commitments that will extend----
    Senator Markey. All right. So----
    Secretary Pompeo. --well beyond that. But, there----
    Senator Markey. Did you----
    Secretary Pompeo. --is a second reason that I think----
    Senator Markey. Did you agree--did you agree that using the 
Gaddafi model was a good way to incentivize Kim to 
denuclearize? Did you agree with that decision?
    Secretary Pompeo. Senator, I did not make that decision.
    Senator Markey. No, I am asking you. Did you agree with the 
decision to use the Gaddafi model as a way to get him to 
denuclearize?
    Secretary Pompeo. Senator, I think what--I do not want to 
speak for--I have tried--I have----
    Senator Markey. No, you are our chief diplomat, Mr. 
Secretary. Did you agree with that approach?
    Secretary Pompeo. Senator, I have given you my approach. 
You are trying to characterize what Ambassador Bolton said. We 
clearly have a disagreement about how----
    Senator Markey. And Vice President Pence said--he made 
reference to Gaddafi, as well. Does insulting, Mr. Secretary, 
our negotiating partner now a pass for American diplomacy?
    Secretary Pompeo. Senator, we have done everything we can 
to get us closer than America has been under previous 
administrations to achieving a really good outcome. We are 
determined to continue to work down that path.
    Senator Markey. Right. Well, do you think moving from 
``fire and fury'' to ``let us talk'' and then, in this letter, 
moving to ``You talk about your nuclear capabilities, but ours 
are so massive and powerful that I pray to God that we will 
never have to use them''--that is talking about using nuclear 
weapons again, as we were 3 weeks from sitting down with them, 
based upon a response to our use of Gaddafi as a model for 
denuclearization of the country. So, we should be negotiating 
peace, Mr. Secretary, but you seem to want to negotiate war. 
You seem to be--really to miss this opportunity to defend the 
Gaddafi approach here before this committee today. And I just 
think that you have missed an opportunity. You have missed a 
chance to actually give some confidence to the American people 
and the world that we are on a pathway towards reaching a 
negotiated settlement with North Korea.
    Thank you, Mr. Chairman.
    The Chairman. Yeah.
    I want to use some of my time, here. I will say that one of 
the reasons I oppose so strongly what the Obama administration 
did in Libya was exactly the argument you are laying out right 
now. I think you opposed it, too, if I remember correctly. I 
may be wrong. But, to have someone like Gaddafi, who gave up 
their nuclear weapons, and then to go kill him, to me, sent 
exactly the signal that you are laying out right now. So, we 
may be reprocessing his materials, maybe we are doing it in 
Tennessee right now. Gaddafi is now a dead man, and it sent to 
me a strong signal that Secretary Pompeo is having to overcome 
right now to give assurances that, in the event Kim Jung-Un 
gives up his weapons, the same thing will not happen to him.
    So, I hear what you are saying, but it was, in fact, let us 
face it, the doctrine of the last administration to take out a 
leader that gave up their nuclear weapons. And that does make 
it more difficult for us down the road. I stated that at the 
time. I will state it again now.
    I would like to give Secretary Pompeo the opportunity to 
talk a little bit about what happened in '03 and '04, just to 
edify a little bit what the Libya model could have meant if 
that is what was referred to.
    Secretary Pompeo. Yeah. So, we had a very robust 
identification of the systems that were in place. Concededly, a 
much smaller challenge than is faced in North Korea, so a more 
difficult verification problem we are faced in North Korea than 
we were in Libya. But, ultimately, weapons transshipped, left 
the country, and we continued to believe successfully got all 
of the nuclear capability out from Libya at that time. It was--
I know the negotiators that did really hard, painstaking work. 
It was not straightforward, either. There were bumps and 
hurdles along the way. But, they achieved that outcome, the 
outcome that they had set out to achieve.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    My only comment on this exchange is that I think you may be 
providing a little bit more pushback than is necessary on 
Senator Markey's foundational point, which is that, as much as 
it matters what you think you mean, in the context of 
diplomacy, it matters more what the actor on the other side 
thinks you mean. And so, its relevance, but not dispositive, as 
to what Ambassador Bolton thought he meant when he said that--
we need to think about what the other actor interprets that as. 
And I just think it strains credibility to suggest that it is 
outside of the realm of possibility or completely unfair or 
unwarranted for Kim to read that as an advertisement that we 
are going to repeat the mistake that we made years ago.
    I want to come back to the budget for a second, and I will 
probably go off the budget if I have time, as well.
    I want to talk to you about the consequences of some of 
these cuts. We regularly read reports of Russian money and 
influence flowing into the Balkans at rates that, frankly, we 
did not see before the Trump administration. They see an 
opportunity, as we withdraw from the Balkans, to essentially 
set up a new front, a new hybrid scenario, like we have seen in 
Ukraine. They are buying up media companies, they are securing 
contracts for oil and gas, they are bribing government 
officials, they are funding biker gangs, martial arts clubs, 
all sorts of pseudo-militaries. It really looks a lot like the 
lead-up to what happened in eastern Ukraine. But, this budget 
that you are presenting to us calls for governance funding cuts 
of 91 percent in Albania, 75 percent cuts in Macedonia, 69 
percent in Serbia, 67 percent in Bosnia. I mean, they are 
catastrophic withdrawals of funding, and another signal, a very 
clear signal, to the Russians that, ``We are out, and you 
should fill the void.''
    So, my question is, why? Why are you proposing these big 
funding cuts to governance programs in the Balkans?
    Secretary Pompeo. You are talking about the budget numbers, 
the budget numbers that were sent out for FY 2019. Is that 
where the DSF comes from?
    Senator Murphy. Yeah.
    Secretary Pompeo. Well, we have a 2-year agreement on what 
we are going to spend, and I am confident that the Russians can 
see that we are not, in fact, doing what you describe. We are--
we are active. I have had, I promise, per capita, more than its 
fair share of time in my first 3 weeks spent on this set of 
issues. They are very important. I know them well. They are not 
just State Department issues. There are others involved, too. 
But, I agree with you, the threat there of the Russians 
continuing to move aggressively is very real, and one that we 
have an obligation to counter.
    Senator Murphy. But, how can you do that when you are 
cutting----
    Secretary Pompeo. But, we are not going----
    Senator Murphy. --funding to those programs?
    Secretary Pompeo. But, we are not going to, Senator. We are 
going to have the resources we need.
    Senator Murphy. But, why propose it?
    Secretary Pompeo. I--FY 2020. I was not around. I cannot--I 
can only speak to what I am going to endeavor to do. I am going 
to try and make sure we have every dollar we need to deliver, 
not only on that mission in the Balkans, but each of our 
missions around the world.
    Senator Murphy. I want to bring you--and I appreciate your 
verbal commitment to the region. I think if we do not pay some 
attention to it now, we are going to be really sorry.
    Secretary Pompeo. I completely agree.
    Senator Murphy. Let me bring you back to Yemen. You have 
had a couple of questions on Yemen. Maybe let me ask the 
questions Senator Paul might not have gotten to.
    So, there is no evidence that we have had any success in 
changing the trajectory of civilian deaths on the ground. In 
fact, it is the exact opposite. April was the worst month for 
civilian deaths inside Yemen. Since we had the debate on the 
Senate floor, a private residence in Sa'dah was bombed, killing 
20; a residence in Hudaydah was bombed, killing 12--seven kids; 
a gas station in Najah, killing 24; a commuter bus in Taiz, 
killing 20. The civilian death count is getting worse, not 
better. And so, what evidence can you provide to the committee 
that we are having success in our efforts to try to make sure 
that civilians are not the casualties of a bombing campaign 
that we continue to assist the Saudis and the Emirates in?
    Secretary Pompeo. I do not know the data the same way you 
did. I will take it at its face value. There is a lot of work 
to do. There is no doubt about that. We still have risks. We 
have humanitarian risks, too, that remain. You talked about the 
civilians deaths. There are still real risks of outbreaks of 
disease. Those are all very real. I have met with the new Envoy 
there. It is a long, hard negotiation road that is in front of 
him. I am hopeful that some of the things that have transpired, 
that he has been able to do with all the parties, both the 
Houthi government, the Saudis, the Emirates, will yield a 
political outcome that will stop this death, which, at the end 
of the day, is the only way that really gets fixed.
    Senator Murphy. But, with all due respect, there is no 
political process. In fact, very much the opposite. We had a 
hearing with your Acting Assistant Secretary for the region, 
Mr. Satterfield, in which we asked about the planned assault on 
Hudaydah. The coalition has been wanting, for a long time, to 
march on Hudaydah. The United States has pressed the coalition 
to refrain from taking that course, because 80 percent of the 
humanitarian relief supplies come through Hudaydah. Mr. 
Satterfield said, in front of this committee, we would not view 
such an action as consistent with our own policy upon which our 
support is based, suggesting that we might pull our support if 
they go for Hudaydah. They are going for Hudaydah. They are 
marching on Hudaydah as we speak. They are planning to launch 
an assault. So, why were we not successful in convincing them 
to refrain from an assault on Hudaydah? And will we contemplate 
pulling our support if they continue with a military campaign 
that will turn a nightmare into a cataclysm, from a 
humanitarian perspective?
    Secretary Pompeo. So, we have made clear our view on that. 
I think Ambassador Satterfield sounds like he adequately 
communicated that to you. Our primary objective there--well, 
there is multiple, but we certainly are concerned about what 
the humanitarian outcomes are of such a thing, and we have 
articulated that to them, as well.
    Senator Murphy. But, why continue to be part of this 
coalition if we have no effect on the most important decisions 
that are being made by the coalition?
    Secretary Pompeo. You assume a status quo, absent our 
involvement, that might not be the case. Right? It is the case 
that our involvement may well--however bad things are today, it 
could be that our involvement has made them less worse than 
they would be. That is bad grammar, but the truth.
    Senator Murphy. Yeah, it is a--it is--I----
    Secretary Pompeo. You have to concede that there have been 
many cases where our involvement has absolutely improved the 
lives, reduced the humanitarian catastrophe that was taking 
place. There are absolutely places where our involvement has 
made a material difference. And so, as bad as it is, it is our 
judgment today that it is still worth engaging.
    Senator Murphy. I think that is a hard case to be made, 
given the reality of the conflict on the ground in Yemen, that 
our involvement has made things better for the Yemeni people.
    Thank you, Mr. Chairman.
    Senator Menendez [presiding]. Thank you.
    Senator Corker has asked me to preside while he is voting. 
And, since I believe in democracy and not coups, I will not ask 
for unanimous consent to do something I want to do. So, with 
that, I will just simply do what he would have done, which is 
recognize Senator Merkley.
    Senator Merkley. Well, thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary.
    Just to follow up. In terms of our involvement in refueling 
both Saudi bombers that are dropping bombs in Yemen, it makes 
sense, if we are providing this assistance, for us to 
understand what is being hit. Could you work with us to provide 
a monthly report of the--our best understanding of the impact 
of those bombs on either civilians or civilian installations, 
infrastructure?
    Secretary Pompeo. I am pausing, Senator. Certainly work 
with you on that. It may be that there--I will need help from 
the Department of Defense to get that, as well as their--some 
of that information would probably be only in their possession, 
but I will personally work with you to try and see if we can 
get the information that you are looking for.
    Senator Merkley. Thank you very much. I sure appreciate 
that.
    And during your nomination hearing, I raised a question 
about the work of the UNFPA and how important it was around the 
world to the health of women. We have cut off its funding, 
based on concern that they are involved in providing abortions. 
Every evidence is that that is not the case. And I had asked if 
you would consider looking into that. And you responded that 
you would be willing to look into it. And I realize you have 
been on the position a very short period of time. In the State 
Department Human Rights Report, there is no mention of the 
UNFPA in the pages that address China's coercive family 
planning practices. And I may be wrong in assuming you have not 
had time to look into this yet, but would you be able to follow 
up on that in the weeks ahead?
    Secretary Pompeo. Yes. I will do so in a timely manner. We 
are now at the end of May. It seems, by the end of June, I 
could have a response to you.
    Senator Merkley. Thank you very much.
    We have, currently, Ambassador Brownback, who is working 
hard, in partnership with the Bureau of Populations, Refugees, 
and Migrations--and I think they are the lead--to put together 
a report on the atrocities that occurred on the Rohingya 
villages, Rohingya people, in Burma. I would like to get a 
sense of when that report is going to be completed, if we have 
a date for that.
    Secretary Pompeo. Senator, I do not know the answer to 
that.
    Senator Merkley. I have heard that it could well be very, 
very soon. And when it--we do receive that report, will that be 
a public report, or is there a reason it could not be made 
public?
    Secretary Pompeo. Sir, there is no reason that I know of 
that it could not be made public.
    Senator Merkley. I think that may be a moment for us to 
retake up this discussion, to have that report from the State 
Department. This committee has voted out sanctions against the 
military, based on all the reports that we had about what had 
occurred. We have also voted out a resolution related to 
standards for repatriation so that there is not 
revictimization. And we are sitting right now with more than 
700,000 new refugees--and by that, I mean from this last 
conflict, from August through now, in Bangladesh. Bangladesh 
needs a lot of support to help provide services. And can the 
U.S. be--the U.S. has been a significant factor of that--can 
the U.S. continue to be of assistance?
    Secretary Pompeo. Yes. And may I say one more thing? I 
think I answered the question incompletely about the report. 
Not only do I see no reason it could not be published--and I am 
happy to be told I am wrong for some reason--but it would be 
important that it be published. I actually think--I agree with 
you, I think it would be very, very important that we make that 
public.
    Senator Merkley. And I move that--well, let me just express 
it this way. We have the humanitarian conflict or--that is of--
ethnic cleansing that is enormous in its scale. And I am hoping 
the U.S. will help summon an international response after this 
report comes out, because to fail to do so is to fail in our 
moral leadership in the world. And also, to fail to do so 
encourages other countries that may have belittled and 
denigrated a minority to proceed to engage in ethnic cleansing 
if they do not see the world respond to this situation. Do you 
anticipate being in this dialogue as we go forward?
    Secretary Pompeo. I do.
    Senator Merkley. Thank you very much.
    And, finally, I wanted to turn to special immigrant visas. 
Last year, Congress worked together to authorize additional 
visas for qualified Afghans who come under threat because of 
their service to the United States. But, over this fiscal year, 
admissions have plummeted from roughly 1800 Afghan wartime 
partners and their families per month to roughly 500 per month. 
Do you have any sense of the reason for this sudden drop-off?
    Secretary Pompeo. I do not.
    Senator Merkley. These are the folks who were the key 
partners to our ability to function.
    Secretary Pompeo. Yeah.
    Senator Merkley. And is there a possibility that the State 
Department could work to accelerate their ability to come to 
the U.S.? Because, quite frankly, they are at enormous risk.
    Secretary Pompeo. I know the--I mean, I know the--who these 
folks are. I know the service they have provided. I am happy to 
dig in and figure out. I am sorry I do not have the answer. I 
do not know the answer. But, I will certainly come to 
understand the answer, and then work towards resolving it.
    Senator Merkley. I appreciate that. And I mentioned the 
Afghans, but there is also a tremendous----
    Secretary Pompeo. Absolutely.
    Senator Merkley. --number of Iraqis that are in the same 
exact situation. And they knew that, when they signed up, that, 
if we did not partner with them to protect them and their 
families afterwards, they were in deep trouble. And I do not 
know what sort of explicit support or assurances we have, but 
it was kind of an implicit understanding from previous 
conflicts of our responsibility. So, I would really appreciate 
your attention to this.
    Thank you.
    Secretary Pompeo. Thank you, Senator Merkley.
    Senator Menendez. Thank you, Senator Merkley.
    So, as I understand it, there are no members who have not 
had a first round, so, in the interest of time, we will start 
the second round.
    Secretary Pompeo. Yes, sir.
    Senator Menendez. And--as the Chairman comes back. So, I 
will recognize myself.
    Mr. Secretary, before I ask you a question, let me just say 
I join in the expression of sympathy for those who were lost on 
the airplane in Cuba, with Senator Udall. But, for the record, 
that plane was a Boeing 737 leased to Cuba's flagship carrier, 
Cubana, by a Mexican company, which clearly could have kept it 
updated. And so, I think we have to recognize that reality.
    And one other comment before I return to some questions I 
would like to ask you, Mr. Secretary. I have listened to my 
Republican colleagues question you, Mr. Secretary, on North 
Korea. And I have heard your responses. And it seems to me that 
there is an effort here to create alternative facts in which 
North Korea walked away. But, it is rather clear to me that 
this was President Trump's decision. He walked away and, from 
my perspective, my only observation is, likely because he maybe 
finally came to the conclusion that the challenges that dawn on 
him of the full nature of the negotiations with the North, and 
that his approach was setting us up for failure. And I think, 
again, as I expressed earlier, this was a direct failure of the 
administration to have a credible and pragmatic policy and 
strategy and lay out the foundations before you ever got to 
that point. And I am afraid that the--that failure and the 
President's impulsive decisions have lost us leverage. I hope 
we can regain it, as well as reassure allies.
    I would like to go to the AUMF, because part of the reason 
we asked you for two rounds was to be able to deal with that. 
So, let me ask you, Mr. Secretary, knowing, as a premise, that 
the administration fully believes it has all of the authorities 
it needs and, therefore, does not need an AUMF, but also having 
heard, as my good friend Senator Kaine has said various times, 
that Secretary Mattis and others have said, that it would be 
good to have the United States Congress in full support of the 
actions being taken across the globe by having Congress weigh 
in. So, recognizing that, that you feel you have all the 
authorities, but if Congress is going to vote on an AUMF, does 
the State Department support the Corker-Kaine AUMF?
    Secretary Pompeo. We still are seeking some additional 
changes to it. I will give you Mike's view, which is, it is 
better than what we have seen before, but we are still hopeful 
that some of the terms--there is a lower threshold for the 
quadrennial review, there are issues surrounding associated 
forces, and a couple of others that we would still like to work 
on language. Maybe it is just technical, but certainly things 
that we would like to work on you before we say that we support 
it.
    Senator Menendez. Okay. So, let me ask you this. 
Specifically under the text as it is, it theoretically is 
possible that Congress could pass a resolution disapproving the 
use of force against a new associated force after kinetic 
action by the administration has begun. Would the 
administration comply with such a congressional resolution of 
disapproval, if this was the law?
    Secretary Pompeo. I do not know the answer, Senator. I do 
not know the answer. I mean, if it is the law, well, we always 
comply with the law, if that is your point. But, I--but, you 
are asking me to interpret a piece of legislation--to give a 
legal interpretation of a piece of legislation----
    Senator Menendez. No, I am not asking your legal 
interpretation. So, it is very----
    Secretary Pompeo. But, if you are asking----
    Senator Menendez. --clear that----
    Secretary Pompeo. --we would comply with the law----
    Senator Menendez. --comply with the law----
    Secretary Pompeo. --sign me up.
    Senator Menendez. Okay. Well--all right, good, because I am 
afraid----
    Secretary Pompeo. Try to do that every day, sir.
    Senator Menendez. Well, good. I appreciate that. But, we 
also have the ability to have interpretations or to invoke 
other powers--other powers--to suggest that that action is 
going to take place. So, I worry about that. It is the same 
type of question that I would ask you about the administration 
complying--it is possible, under this text, that the Congress 
could pass a resolution disapproving the use of force in a new 
country----
    Secretary Pompeo. Country, sure.
    Senator Menendez. --after kinetic action. And so, when you 
said you are not ready to give your unqualified support, I was 
wondering--and you mentioned associated forces--I am wondering 
----
    Secretary Pompeo. The new-country provision is----
    Senator Menendez. --whether that----
    Secretary Pompeo. --is identically troubling.
    Senator Menendez. Okay.
    Let me ask you--let me go back, finally, to Russia. So, 
from my own point, let me be clear that, until the President 
publicly declares that Russia interfered in our election and 
lays out a clear strategy to counter Russian aggression, 
questions will remain about his commitment to promoting the 
U.S. national security interests, vis-a-vis Russian. Now, you 
say the administration has taken actions against Russia. But, 
Section 1239(a) of the FY18 National Defense Authorization Act 
required the Departments of Defense and State to produce a 
strategy to counter Russian malign influence. I understand the 
Department of Defense has finalized its portions of the 
strategy, but State has yet to complete it. It was due on April 
12th of this year. Now, I recognize you have not been here that 
long. Will you commit to completing this report? And can you 
give us a sense of the timeframe?
    Secretary Pompeo. I will commit to repeat--completing the 
report. And if you will give me until the beginning of next 
week, I will get you a date.
    Senator Menendez. I appreciate that.
    Secretary Pompeo. I am happy----
    Senator Menendez. Fair enough.
    Secretary Pompeo. I am happy to commit to working 
diligently on it and not dragging it out, but----
    Senator Menendez. Good.
    Secretary Pompeo. --I try to give dates to folks when I 
know it is in my control. This one is bigger than me.
    Senator Menendez. That is fair enough.
    Let me just say, I understand the administration has 
designated, under authorities laid out in the Obama era, 
executive orders some individuals--and we are still speaking 
about Russia--but, in my view, the administration has ignored 
the will of Congress and the CAATSA law by not imposing 
sanctions under the new mandatory provisions of the law.
    And, to make sure everyone is on the same page, let me run 
through the mandatory provisions that I believe have been 
ignored. Section 225, sanctions on special Russian crude oil 
products. Section 226, sanctions on Russia and other foreign 
financial institutions. Section 227, sanctions on significant 
corruption in the Russian Federation. Section 228, sanctions on 
certain transactions with sanctions evaders and serious human 
rights abusers. Sanctions--Section 231, sanctions on persons 
engaging in transactions with the intelligence and defense 
sectors of the Government of the Russian Federation. And 233 
and 234, just not to belabor, sanctions on the transfer of arms 
and related material to Syria. This is pretty clear.
    Can you commit to us that you will follow the law--I 
appreciated what you said earlier, in a different question--
follow the law--that you seek to follow the law every day--and 
impose sanctions under these mandatory provisions? Let me tell 
you, as someone who has been the architect of a lot of the 
sanctions policy, both on Iran and Russia and others, I never 
saw the Congress actually come to moment where they made it 
mandatory without waivers. They did here. And yet, those 
mandatory provisions are not being followed. Will you commit to 
pursuing them?
    Secretary Pompeo. I will. Will you make a commitment that 
you will help Secretary Mattis get the waivers that he needs in 
order to make sure that these sanctions do not hit folks that, 
I think, were not intended to be harmed by these sanctions? I 
know it is not my day to ask questions, but it is my day----
    Senator Menendez. I am----
    Secretary Pompeo. --it is my day to ask for things that I 
think----
    Senator Menendez. I am happy----
    Secretary Pompeo. --we need.
    Senator Menendez. --to have you ask questions. I do not 
know how well the Chairman would let me get--to that. But, in 
any event, I will just--the quick response is that, look, I 
have to see the specifics----
    Secretary Pompeo. I understand.
    Senator Menendez. --that Secretary Mattis wants.
    Secretary Pompeo. Yeah.
    Senator Menendez. But, I also have to say, if we are going 
to allow countries that are sanctioned because we believe in 
the sanctions policy, and they want to get off the hook because 
there is some other benefit, well, then we begin to erode the 
sanction policies, and we pick and choose, and other countries 
will seek the same question. So, I am open to listen to it, but 
it has to follow, in essence, what our policy is trying to 
achieve.
    Secretary Pompeo. Senator, I appreciate it, and I hope I 
answered your first question with respect to my commitment to--
--
    Senator Menendez. You did.
    Secretary Pompeo. --those sanctions.
    Senator Menendez. Thank you.
    The Chairman [presiding]. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Secretary, Senator Kaine asked you about, and you 
announced, the attack in China that is consistent, or seems to 
be consistent, in terms of symptoms, with what we have seen 
from Embassy personnel in Cuba, and also pointed out that you 
were the person in charge of that investigation. I assume that 
you are working with our intelligence agencies in that 
investigation. Are you also working with the Department of 
Defense?
    Secretary Pompeo. Yes. Indeed, I had--I guess, this week, I 
had my former agency in to brief me on the situation, because--
anyway, I had them in to brief me, yes. Department of Defense 
will be working alongside of us, as well, to be sure. It could 
well be that we end up with other agencies, too. It could be 
that there are----
    Senator Shaheen. Good.
    Secretary Pompeo. --other investigative bodies that will 
need to be part of it, as well.
    Senator Shaheen. It seems to me that this is the kind of 
situation where it is very important to have interagency 
cooperation to see what----
    Secretary Pompeo. We have had great----
    Senator Shaheen. --how we find out as much information as 
possible.
    Secretary Pompeo. We have actually received great help from 
across the Department of Energy, and some of their lobs are 
trying to figure out. So, there are--it is a multi-agency 
process.
    Senator Shaheen. Okay, thank you.
    This week, there were reports of renewed fighting in 
eastern Ukraine between Russian-backed separatists and the 
Ukrainian military. How are we working to de-escalate this 
situation? And how did--how does the current unrest in eastern 
Ukraine factor into the budget request?
    Secretary Pompeo. Senator, I do not know--that budget 
request would have preceded that timing. But, there has been 
unrest there for a significant period.
    Senator Shaheen. No, I understand.
    Secretary Pompeo. Yeah. Not----
    Senator Shaheen. But, this is some renewed----
    Secretary Pompeo. Yeah.
    Senator Shaheen. --fighting in a way that we have not seen 
for a little while.
    Secretary Pompeo. Yeah. So, there are--the State Department 
has a part of this, other agencies do, as well, working, 
frankly--trying to work with all sides to get the violence to 
stop. It has proven intractable for a long time. There has 
been--I am not familiar with what happened this week, but 
sporadic violence----
    Senator Shaheen. Right.
    Secretary Pompeo. --for an extended period of time. I do 
not know if you can characterize this as sporadic today, but 
suffice it to say there are diplomatic efforts with all the 
parties. There are U.N. agencies that are hard at work at it, 
as well. It is a multilateral effort. I wish we could get even 
more support from our European partners to help us take down 
this effort, as well. It is going to take a lot of us to 
resolve the conflict there in southeast Ukraine.
    Senator Shaheen. And does that not also speak to continuing 
to implement the CAATSA sanctions as expeditiously as possible?
    Secretary Pompeo. It does, yes, ma'am.
    Senator Shaheen. And I--are you pushing to do that?
    Secretary Pompeo. Yes, ma'am.
    Senator Shaheen. You may be aware that, in the Senate, we 
have restarted the Senate NATO Observer Group to try and 
continue to support efforts in--that NATO is undertaking, given 
the renewed threat from Russia and cyber and other threats we 
are facing. And there is an upcoming NATO summit in Brussels. 
Can you----
    Secretary Pompeo. Well, I----
    Senator Shaheen. --talk about what the U.S. goals are, what 
we are hoping to achieve, and how you think we might be helpful 
in the Senate?
    Secretary Pompeo. Sure, although I will leave you all to 
make your own choices. But, I can talk to you about what we are 
hoping to achieve.
    First--so, my first trip, literally 13 hours after I was 
sworn in, was to the----
    Senator Shaheen. Right.
    Secretary Pompeo. --Foreign Ministers' meeting there in 
Brussels, spent a day and a half on the ground there. Really, 
maybe half a dozen things, three or four of which are worth 
recounting.
    First, lots of discussion about everyone's continued 
commitment that has a burden-sharing element to it, so a real 
focus on making sure that people are honoring the commitments 
that they have made, including getting to the levels of support 
for NATO that they have committed to.
    Second, there are other NATO missions being contemplated--a 
training mission in Iraq. There was a lot of talk about how we 
would put that together, what that ought to look like, what the 
external face of that ought to look like, as well.
    I certainly went there to make a statement about my 
personal commitment--indeed, to America's commitment--to 
Article 5 and to NATO. And then there are a number of 
discussions about new potential members and how to successfully 
continue to keep an open door at NATO. And so, there will be 
discussions around each of those.
    I think Secretary Mattis is either there or going there 
soon for the Defense run-up to the leaders meeting. And then, 
in July, there will be the NATO summit itself, where I am very 
hopeful we will get some of those accomplished.
    Senator Shaheen. Great, thank you.
    I know that several Senators asked you about Yemen and what 
is happening there. I am not going to reiterate that. I was 
part of the effort to try and get something done in this 
committee. But, I do hope that, if this legislation is signed 
into law, and even if it is not, that you will take the 
opportunity to try and continue to work with our allies to 
encourage them to think about how they can help with the 
humanitarian situation there and bring the various parties to 
the table in Yemen. Because, ultimately, there is no military 
solution, there is only a political solution there. And 
whatever we can do to encourage that, I think will be very 
important. So, I will take your nodding as a yes, that you will 
work----
    Secretary Pompeo. I am happy----
    Senator Shaheen. --at that.
    Secretary Pompeo. --for the record, yes, ma'am.
    Senator Shaheen. Thank you.
    We saw, over the last couple of weeks, a lot of unrest in 
the Middle East as the result of the move--moving our Embassy 
to Jerusalem. And I know that President Trump has suggested 
that moving our Embassy has brought us closer to peace. But, 
given what we have seen, in terms of the unrest, given the 
administration's efforts to stop bilateral assistance to the 
West Bank and Gaza, to cut off our contributions to the United 
Nations Relief and Works Agency for Palestinian Refugees, I do 
not understand how this is helping to move us closer to a 
lasting peace between the Israelis and Palestinians. So, can 
you try and share with us the strategy of how this helps?
    Secretary Pompeo. Well, I think the decision that many on 
this panel voted for to move the Embassy was what the President 
just simply felt was the right thing to do. He felt like the 
recognition of Jerusalem as the capital of Israel was the right 
thing to do. And, frankly, vast majority of Members of Congress 
have voted that way, some of them many times. So, I think that 
is what the aim was.
    Senator Shaheen. But, the President has said that that has, 
in fact, moved us closer to peace. Can----
    Secretary Pompeo. So ----
    Senator Shaheen. --you explain how ----
    Secretary Pompeo. I will walk you ----
    Senator Shaheen. --how that ----
    Secretary Pompeo. I will walk you through the efforts that 
the administration is engaged in. So, it is fair to say that, 
for decades, the existing policies when this administration 
took office had failed. I do not think--I think that is 
indisputable. Lots of efforts, a lot of energy, lots of people 
running around, lots of envoys, and a lot of time in airplanes, 
and each of those had failed. So, this administration is 
seeking to take an approach that is different to try and work 
quietly to develop an outline of a solution, and then to find 
partners--certainly, the Israelis and Palestinians will 
ultimately be the decision-makers here--to find willing 
partners who are prepared to--and we have talked about this in 
other regions before--to conclude that there is a better way--
that there is a better way, that these fights over these 
historic things are perhaps worthy and important, but that 
there is a better solution, that people everywhere--the Gaza, 
West Bank, Israel--can all be better if we achieve an outcome. 
And so, we are working diligently. Mr. Kushner is still in the 
lead and working on the project. But, this administration is 
committed to finding a solution that the Israelis and 
Palestinians can ultimately each sign up for. You have to have 
willing partners from each of those two places.
    Senator Shaheen. Well, I am out of time, but I would argue 
that, so far, we have not seen that the move has suggested that 
that has been an improvement for the peace process.
    Thank you, Mr. Chairman.
    The Chairman. You are welcome.
    Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    Mr. Secretary, I just checked with our staffs in regards to 
the consultations during the Iran nuclear agreement, and there 
were regular updates to the committee and to staffs after each 
of the negotiating sessions. There was also classified 
briefings that we were part of. There were part of the 
negotiators who came in for classified briefings for us, and we 
had many meetings in the White House at the National Security 
Council level, bipartisan, with both Democrats and Republicans. 
So, just pointing that out.
    Secretary Pompeo. I do remember them. Sound and fury, 
signifying not a whole lot of learning, as I recall them.
    Senator Cardin. Well, we may have different views on that. 
But, look, I--at the end of the day, you know, I voted against 
the agreement, but I think it is critically important that we 
speak as one voice as strongly as we can, and you are going to 
need--we are going to need to be on the same page. I would 
just----
    Secretary Pompeo. Yes, sir.
    Senator Cardin. --urge us to understand your strategies as 
you are going through it, and have confidence, as you used to 
be a member of the House, as to the appropriate roles between 
the administration and the legislative branch.
    Secretary Pompeo. Yes, sir.
    Senator Cardin. What--in regards to the AUMF, the 
Authorization for Use of Military Force, the plain reading of 
the 2001 authorization, it is impossible to understand how that 
was intended to apply to our military campaign against Syria. 
That is a statement. I am not asking your view on that. I do 
understand that President Bush, after he got the authorization 
for the use of force in regards to those who were responsible 
for the attack on our country, came to Congress shortly 
thereafter to seek another Authorization for Use of Military 
Force in regards to Iraq, because President Bush understood 
that the 2001 did not apply to Iraq. And yet, there is a closer 
nexus between the 9/11 attack and our military campaign in Iraq 
than there is between one now in Syria against ISIS.
    So, my point is this. We need an Authorization for Use of 
Military Force in regards ISIS. Three administrations now have 
taken the convenient way out in saying, ``Look, if we can get 
our lawyers to say we have the authority, why bother with 
Congress?'' And I understand that. And there is no way that we 
can enforce the interpretation of the 2001 authorization. 
Congress cannot do that. But, now the administrations are 
running into problems with court cases in regards to detainees, 
so now there is--we are getting your attention. We should pass 
a new AUMF. I think everyone agrees on that. But, I am just 
going to make a plea, because I voted for the 2001 
authorization, and I never thought, in my wildest 
interpretations, it would be used 18 years later, in a campaign 
against ISIS, particularly since al-Qaeda has disavowed any 
interest in ISIS.
    So, we need to pass an AUMF, but I am very concerned about 
voting for any AUMF as to how it will be interpreted three 
administrations from now in regards to campaigns somewhere else 
than in Syria. So, I would just urge you to consider this 
offer. And that is to give the authority you need, without 
restrictions, to conduct your campaign in Syria or a campaign 
against ISIS, but put a hard sunset on it so that we do not put 
into place an authorization that will be--could be 
misinterpreted and will never get off the books, with plenty of 
lead time so that we are not putting you against any deadline, 
so it is not clear--it is clearly not a deadline, but a way in 
which we can keep these authorizations currently available. 
That is a plea I make to you. And if you want to respond, fine. 
But, I would just urge us to find a common ground, where we can 
do what is right for the American people.
    Secretary Pompeo. I would only respond, Senator, by saying 
that--maybe it is because of my previous role--I have 
enormous--sympathy is not the right word, but I have a deep 
understanding of why you feel this way, why you think it is 
important. There is no recourse for enforcement of the 
definition, which presents a conundrum for our constitutional 
democracy. I accept that as a fact. I am happy to try and work 
to get to a place where we get what we think we, collectively, 
need to move this forward.
    Senator Cardin. And I thank you for that. And I am not 
going to----
    Secretary Pompeo. Yeah.
    Senator Cardin. --drill down more than that at this 
particular hearing, other than to say there is a lot of us who 
want to vote for an authorization, and we hope we could find a 
time and a place--we can, but currently we are not heading in 
that direction. And I am afraid we are going to end up doing 
nothing, and there will be this legal issue that will be 
hanging over. But, worse than that, we are using a contorted 
interpretation that, in history, will show that it was just not 
what should have been done by administrations or Congress.
    One last question, if I might, and that deals with the 
Syrian--with President Assad being held accountable for his war 
crimes. And there is legislation that is pending here, that has 
passed throughout this--through this committee on bipartisan 
basis. There has been appropriations made. I know you were 
asked, on the House side, about the funds that were made 
available in regards to our cooperation with the United Nations 
in collecting the information necessary. And we have had 
hearings in this committee before with administration 
witnesses, and we have always said, ``You have got to hold 
these people accountable, otherwise we are just going to repeat 
history.'' The--President Assad needs to be held accountable 
for what he has done. And the United States needs to be in the 
leadership of making sure that option is available, because, as 
we move through this campaign, it is--becomes more and more 
difficult to preserve information. So, I would just like to get 
your help in regards to making sure we hold those who commit 
these war crimes accountable.
    Secretary Pompeo. You have my commitment. I agree, there 
are lots of challenges. We now do not--we no longer have even 
the joint investigative mechanism available, because of Russian 
bad behavior at the U.N. So, yes, we need to find a mechanism, 
a process by which accountability can be achieved. Assad is a 
good example. There are many others around the world, as well.
    Senator Cardin. I thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I have some questions that I would have done in writing to 
keep this from going much longer, but as a courtesy, Senator 
Kaine wanted to come back and ask a few questions. So, I have a 
series of questions that, again, I would have sent in by 
writing. But, before I do so, is there anything you wish you 
clarify about any comments you have made over the last almost 3 
hours?
    Secretary Pompeo. No. Just that I--I did not get a chance 
to fully respond to Senator Menendez's statement he views the 
United States as having made the decision to withdraw from the 
summit. I just--just for the record, I have a fundamentally 
different view of how it came to be that we, unfortunately, 
cannot have a meeting between our two leaders on June 12th.
    The Chairman. And I would like to emphasize what you 
briefly passed over earlier. It was your sense, as we were 
moving along, that--you can tell when something is coming 
together and people are getting back quickly and the logistics 
are all being worked out--it was your sense, over the course of 
the last week or so, that that was diminishing. Is that 
correct?
    Secretary Pompeo. We got a lot of dial tones, Senator.
    The Chairman. So, obviously, there was not a lot of 
momentum towards this prior to some of the things that have 
happened over the last 48 hours.
    Secretary Pompeo. Yes, sir, that is correct.
    The Chairman. If I could--I know you said, to Senator 
Menendez or maybe Senator Cardin, that you understood where he 
was coming from on a sunset. On the other hand, as I understand 
it, there were three things that the administration had put 
forth, that a new AUMF must not sunset, it must not be 
geographically constrained, and it must be enacted before the 
repeal of the 2001 or 2002 AUMFs--it must be enacted before the 
repeal of those. Are those still the three major premises that 
the administration is looking for in an AUMF?
    Secretary Pompeo. They are. What I think Senator Cardin was 
driving to, and what I am sympathetic to, as well, is to try 
and find a mechanism that is a forcing mechanism that sort of 
does not let this sit out in perpetuity. We have to do that. 
And he suggested this, at least a bit, which is, you cannot 
have a hard stop, you cannot run into something where, you 
know, we now have a--we have the clock running at the lower 
right-hand screen of TVs all across America, where there is a 
hard stop and the authorities go away, when we have got folks 
committed. We cannot tolerate that. That is why the sunset 
provision is something that does not work. And so, somewhere in 
there, if there is a way to drive that these do not just sit 
out there forever while not risking pulling the rug out, that 
was what I was trying to get to.
    The Chairman. Yeah. So, something like a quadrennial 
review--something along those lines, where Congress weighs in 
periodically.
    Secretary Pompeo. Yes. And so long as it is the case that 
the authorities, as they exist at that time, continue until 
such time as there has been a change in that. Right? That is 
a--that is the sunset risk, is that we have got an active 
effort ongoing, and we hit a hard stop. That just does not 
work.
    The Chairman. Is it your understanding that the AUMF that 
we have presented includes express language to avoid any legal 
uncertainty following the repeal of the 2001 AUMF, including 
language stating that our new AUMF shall provide uninterrupted 
authority for ongoing military operations?
    Secretary Pompeo. I believe that is correct. Yes, Senator.
    The Chairman. And I understand that lawyers can always file 
lawsuits, but have you considered the legal risks of continuing 
to rely upon the 2001? I think we have preferred to just being 
able to hold people. Is that correct?
    Secretary Pompeo. Yeah, that is where--we are concerned 
about the shift, when it jumps, that we will have some 
discontinuity that will be--that will present legal challenges.
    The Chairman. But, there are risks that are starting to 
build on relying solely on the 2001, too. Is that correct?
    Secretary Pompeo. That is also correct. Yes, sir
    The Chairman. And it is true that the President's authority 
to detain a member of ISIS, and whether the 2001 AUMF applies 
to ISIS, is currently being challenged in court today. Is that 
correct?
    Secretary Pompeo. Believe that is correct. Yes, Senator.
    The Chairman. Is there not a growing risk, the further we 
get from September 11, 2001, that the courts could call into 
question or limit the authority provided by the 2001 AUMF?
    Secretary Pompeo. Yes. We would argue vigorously against 
that, but----
    The Chairman. So----
    Secretary Pompeo. --I have----
    The Chairman. --there are some significant legal risks with 
the status quo.
    Secretary Pompeo. Yeah. Senator, I--having been around this 
long enough, there is legal risk, yes.
    The Chairman. And let me say this. I agree that the 
administration has the legal authorities necessary to conduct 
operations against ISIS. Would you agree that enacting our new 
AUMF providing refreshed statutory authority for the use of 
force against al-Qaeda, the Taliban, and associated forces, and 
explicitly authorizing the detention of members of ISIS, would 
help put to rest these legal uncertainties?
    Secretary Pompeo. Yes, I think that is true, Senator.
    The Chairman. So, I will stop here. Thank you for that.
    And I will turn to Senator Coons.
    Senator Coons. Thank you, Chairman Corker.
    And thank you, Secretary Pompeo. You have shown great 
endurance in engaging with this committee today, and I look 
forward to continued rigorous engagement with you.
    Let me--on the topic of the AUMF, the particular issue I 
want to talk through for a moment is guidance around drone 
strikes. President Obama provided an unclassified fact sheet to 
summarize his policy guidance on drone strikes overseas in 
support of our counterterrorism operations. News outlets have 
reported that President Trump signed off on a revised guidance 
last year, but he has not made any version or summary of that 
public. I would be interested in whether you think that is wise 
or unwise, and whether you would commit to publishing an 
unclassified fact sheet so that the American people and our 
allies would understand these operations and their constraints. 
And I intend to offer this as an amendment if and when we take 
up and debate an AUMF.
    Secretary Pompeo. Senator, I would rather not--I will say 
only this. I know that there--it has not been published. It 
will not be the Secretary of State's decision whether or not to 
do so. I am happy to talk to you about issues surrounding that.
    Senator Coons. I would welcome that, in whatever----
    Secretary Pompeo. Yeah.
    Senator Coons. --setting is appropriate. I just am 
concerned that, in the absence of our making a public 
pronouncement on what we are doing, where, when, and why, that 
less charitable views of our actions proliferate in ways that 
are not helpful to us.
    I know this has been covered, but I think it bears 
repeating. I think we are currently, as a country, ill-served 
by the absence of Ambassadors in dozens of posts around the 
world. The country of Zimbabwe has just emerged from the 
strongman rule of Robert Mugabe for decades. There is a new 
President there. A group of us went, a number of months ago, to 
both South Africa and Zimbabwe. These are counties that would 
significantly benefit from the presence of an American 
Ambassador. South Korea, Egypt, Honduras, Turkey, Saudi 
Arabia--there is a long list. Chairman Corker has done a great 
job, with the Ranking Member, of moving nominees quickly. I 
just wanted to see if you had any views on whether we are going 
to be able to move forward, in a timely way, nominees, 
particularly in countries like Zimbabwe, where there is an 
upcoming election and a critical opportunity for the voice of 
the United States in a country that has at times looked to 
China and at times looked to the West, and where I think we can 
and should play a real role in their transition to restoring a 
real democracy there.
    Secretary Pompeo. Careful what you ask for.
    Senator Coons. Yup.
    Secretary Pompeo. I am hoping to make you all real busy.
    Senator Coons. Look forward to being busy.
    Secretary Pompeo. That is a little bit too jovial. It is a 
serious matter. We need to get the Ambassadors out in place. I 
am working through them. I have prioritized to try and make 
sure that places like South Korea and Saudi Arabia are front 
and center.
    Senator Coons. And South Africa and Zimbabwe.
    Secretary Pompeo. There you go. Yes, Senator, absolutely.
    Senator Coons. Two other----
    The Chairman. If I could--and we agreed to what we agreed 
to. I know there is beginning to be a little bit of a freakout 
by staff as it relates to time, not by the Secretary, himself, 
I am sure. But, if there are things that we really need to 
ask--I agreed to have two rounds--let us ask them. If there are 
things that we might do by QFR, that would be great, too. If we 
could just realize we have been going for about 3 hours. I am 
not reprimanding anyone. I am saying that, to the extent they 
really do not need to be asked in person, if we could not do 
so, that would be great.
    Senator Coons. I have a number of questions I wanted to ask 
about China. I will submit them as QFRs.
    Could I simply say, we have not discussed the U.S.-India 
relationship at all. I think it has huge strategic 
significance. I will make my closing question, Mr. Secretary, 
if you would like to say anything about how we can work with 
this most populous democracy, a potential strategic partner, to 
strengthen that relationship. I will make that my last 
question.
    Secretary Pompeo. For scores of reason, India needs to be 
central to what we do. Issues--Pacific issues, Asia--South-
Central Asia issues, Southeast Asia issues, they ought to be 
one of our closest partners, and we ought to do everything we 
can to make sure that we achieve that. Secretary Mattis and I 
will jointly meet with our Indian counterparts in a dialogue 
that the two countries have had. I do not know that the date 
has been set, but we are looking to do it. I think it is yet 
this summer. Very important.
    Senator Coons. Great. I think sustaining a strategic 
dialogue and then closing our partnership with them is 
something that would enjoy strong support here.
    Let me yield to Senator Udall.
    Senator Udall. Thank you very much.
    And thank you for being with us so long and an extended 
time here.
    I am going to stick, Mr. Chairman, to the AUMF sequence 
that I have, and give everything else on the record.
    Mr. Chairman, we have a presidency that has not only pushed 
back on the oversight responsibilities of Congress, which many 
administrations have done, but that is actively hostile to any 
sort of congressional oversight, including a new Authorization 
for Use of Military Force. Congress has failed to exert its 
legitimate constitutional authority, even in the face of the 
most clearly unauthorized use of military force to date. This 
administration's use of military force against the Government 
of Syria, Congress has not declared war on, or authorized the 
use of military force against, this nation's government. The 
executive's legal analysis justifying force is still being 
withheld from the public. While lobbing cruise missiles at 
Syrian targets may have a short-term political gain, the risk 
of escalation was absolutely unacceptable and could have 
dragged the U.S. into a wider war with greater--with great 
policy implications.
    And now, Mr. Secretary, you laid down points of contention, 
at The Heritage Foundation, which could lead to an even wider 
war in the Middle East against Iran. I tend to agree with Susan 
Maloney, at The Brookings Institution, who said this strategy 
is, quote, ``not a strategy at all, but rather a grab bag of 
wishful thinking wrapped in a thinly veiled exhortation for 
regime change in Iran,'' end quote.
    Of course, Congress has not approved the use of military 
action against Iran, but, more importantly, the power to wage 
war was intentionally restrained by writers of the 
Constitution. Neither you nor the Secretary of Defense nor the 
President have the constitutional power to declare war on Iran 
or any other country.
    I spoke to the Chief of Staff of the Army, General Milley, 
recently, and he had the opportunity--and had the opportunity 
to question him during the Defense Subcommittee hearings on 
appropriations. As a threshold, he reminded all of us of the 
nature and character of war, that the traditional idea is that 
war, at its base, is an extension of politics. War forces our 
will on an opponent or through military means to reach a 
political objective. And taking an expansive view of what we 
approved after 9/11, the political objective is to stop 
terrorism at a broad level. However, at a more restricted view, 
and the view that was sold to Congress when I voted in favor of 
the 9/11 AUMF, was that we aimed to punish and deter the 
perpetrators of the 9/11 attacks, specifically al-Qaeda and the 
Taliban.
    Which view do you believe is the appropriate political 
objective for today, or is there something in between that 
Congress should consider? We must be clear about the baseline 
we are considered--considering approving so that we do not end 
up in the situation where we are today with AUMFs being 
stretched to the point of breaking.
    Secretary Pompeo. Thank you. I am sorry, which point of 
view, with respect to Iran?
    Senator Udall. Yeah. The--yeah. Yeah.
    Secretary Pompeo. So, there--I--trying to recall--I do not 
recall any of the items that I spoke of that day having 
anything to do with the U.S. strikes in Iran.
    Senator Udall. Well--okay. Well, then let me----
    Secretary Pompeo. And I spoke for some half hour.
    Senator Udall. Yeah. Let me rephrase it here. In your 
opinion, do you believe that the 12 points you laid out earlier 
this week represent political objectives worthy of war? Should 
the United States send its sons and daughters to war to coerce 
Iran to capitulate on these demands if the President's 
violation of the JCPOA fails to garner worldwide support?
    Secretary Pompeo. I spoke at great length, as the Secretary 
of State, talking about how I am going to diplomatically 
achieve each of the 12 things that I laid out.
    Senator Udall. Yeah. And, as a matter of sequence, should 
the President seek the assent of Congress before engaging in 
hostilities inside countries, especially where such actions 
could lead to a wider conflict, such as in Syria or Iran? Is 
that not the role of Congress that the Constitution calls for?
    Secretary Pompeo. Well, it is a little more complicated 
than a yes-or-no question.
    Senator Udall. Please. Explain it.
    Secretary Pompeo. So, there is--there are volumes of 
articles written on the intersection between the power between 
these two branches. And yes, it is very clear what the 
Constitution says about the power to declare war, but multiple 
administrations have taken similar positions, certainly with 
respect to the actions we have taken in Syria, very similar 
activities undertaken across a broad swath of previous 
administrations. I think what--this administration was wholly 
lawful and wholly consistent with past practices.
    Senator Udall. And the--and is the President going to ask 
Congress, if he wants to go to war with Syria? As President 
Obama did? Is--if he is deciding to engage in a war with Syria, 
is he going to ask Congress to declare war?
    Secretary Pompeo. I have seen no indication the President 
has any intention of going to war with Syria. What the 
President did was to respond to the use of chemical weapons, 
which was, in my judgment, in--I--certainly lawful, but, in my 
judgment, the right thing to have done.
    Senator Udall. Since President Trump announced the United 
States withdrawal from the JCPOA, there has been a lot of talk 
about the possibility of the U.S. using military force against 
Iran, a possibility that is concerning to me and many of my 
colleagues. In your view, does the 2002 or 2001 AUMF provide 
President Trump with the congressional authorization to use 
military force against Iranian militias present in Iraq or 
Syria?
    Secretary Pompeo. Senator, I would--someone would have to--
I would have to take a look. I do not know the answer to that.
    Senator Udall. Okay. Well, if you could answer that----
    Secretary Pompeo. Happy to----
    Senator Udall. --for the record----
    Secretary Pompeo. Happy to have----
    Senator Udall. --for me----
    Secretary Pompeo. --lawyers stare at it----
    Senator Udall. --that would be great.
    Secretary Pompeo. --and----
    Senator Udall. Yeah.
    Secretary Pompeo. --solve it. Yeah.
    Senator Udall. Thank you.
    Senator Coons [presiding]. Senator Kaine.
    Senator Kaine. Thank you, Mr. Secretary.
    We covered a little bit of this ground during your hearing 
a month or so ago, and I do not need----
    Secretary Pompeo. I hope I give the same----
    Senator Kaine. --to repeat it.
    Secretary Pompeo. --answers to you.
    Senator Kaine. Yeah. Well, I am actually not going to make 
you even try to give the same answers. But, basically, if I 
could sort of summarize where we are as a committee. We have 
heard from both administrations, the Obama and now the Trump 
administrations, fairly similar things from diplomats and 
military leaders, that--and the basic message has been this, 
while we think we have the authority to do what we need to do, 
the idea of a--an updated authorization for military activities 
against non-state terrorists would be a good thing, if we could 
agree upon----
    Secretary Pompeo. Yes, sir.
    Senator Kaine. --the basic language. And your predecessor, 
Secretary Tillerson, and Secretary Mattis delivered a letter to 
us--I think Senator Corker talked about it--where they sort of 
put out ``thou shalt nots'' while, again----
    Secretary Pompeo. Yeah.
    Senator Kaine. --supporting the notion their ``thou shalt 
nots'' they did not want to have a hard sunset, they did not 
want to have a hard geographic limitation, and they wanted the 
2001-2002 authorizations to be in place until something--until 
a replacement was passed. And I gather that Secretary--Senator 
Corker has asked you that question, and you said that is your 
general point of view.
    Secretary Pompeo. It is. May I just say----
    Senator Kaine. Absolutely.
    Secretary Pompeo. --the solution you have drafted has taken 
an--it is a--it is an approach that has moved considerable way 
towards that. I--what is the right word?--I applaud that, 
slash, concede that.
    Senator Kaine. And I understand, from your earlier 
testimony, that you are sharing with staff some thoughts that 
the State Department or administration, more generally, might 
have about the draft. And this is a good time to do it. 
Because, I will tell you where we are right now on this 
committee. And my colleagues will speak for themselves. But, I 
think there is near unity--maybe not unanimity, but near 
unity--that we should be engaged in military action still 
against ISIS, the Taliban, and al-Qaeda. There is near unity 
that it would be a good idea to have an updated authorization. 
Some of us believe it is legally mandatory, others believe it 
may not be, but that it would be a good idea. There is near 
unity on the proposition that, if we are going to do an 
authorization, it should be bipartisan rather than just one 
side supporting military action and one side not, for purposes 
of the troops. You served in the military, you understand why 
that is important. And there is near unity--and this is the 
hardest one--that, of course, if we are going to do it, we 
should try to do as good a job as we can, because we could be 
living with it for a long time, there are consequences that we 
can predict, there are consequences we might not predict. And I 
would suffice to say, based upon my knowledge of your record 
when you were a House member and your testimony last month, you 
sort of share those propositions: We ought to be engaging in 
military action, it would be a good idea to update the 
authorization, it ought to be bipartisan, and we ought to take 
the time to get it right. Is that fair?
    Secretary Pompeo. Yes, sir. I am part of the community.
    Senator Kaine. Yeah. Great. Well, then here is where we are 
right now. We had a hearing last week with, sort of, 
constitutional experts who like--you know, one who liked--sort 
of liked the proposal, but had some suggestions, one who did 
not like the proposal, but had suggestions. It was a very 
productive discussion. I think members of this committee have a 
lot of ideas about things they might want to do to make it 
better. Some might want to move it left or right, some might 
want to--or maybe some might want to be more restrictive of the 
administration, some less, and some want to add in provisions 
that are not in now that probably are not either more or less 
restrictive, but just more comprehensive. The Chair has 
indicated a willingness, after we have a hearing and hear from 
the administration, to sort of tackle this.
    The suggestions that you referenced earlier, are you 
communicating those to the committee, sort of, in writing so 
that if--we are going to be on recess next week, but, if we 
come back the following week and we want to start grappling 
with amendments by members--I do not believe that Congress 
needs to play ``Mother may I?'' with the administration on 
anything, but----
    Secretary Pompeo. But----
    Senator Kaine. --but we want your advice and suggestions. 
Are you communicating those in some kind of a formal way to us?
    Secretary Pompeo. If we have not, we will.
    Senator Kaine. Okay. That would be very helpful. And again, 
it is the Chair and Ranking that will decide when we might take 
it up, but I think that--that day may be coming, and we would 
want to know what your points of view are.
    Secretary Pompeo. Yes, sir.
    Senator Kaine. And--good. If we could get your commitment 
on that, that is really, again, all we need. And I state the 
point that I made earlier. We--our Article 1 job is not to play 
``Mother may I?'' with the Article 2 branch. We need not ask 
permission to exercise oversight. However, the advice of our 
diplomats, the advice of our military leadership about ongoing 
conflict, what would be helpful, what would be harmful, is very 
important to us. So, we will take those under consideration.
    The last thing I want to say, just switching back to an 
earlier topic. Both Senator Shaheen and I have now had the 
experience on the sonic-disturbance issue, Cuba and China, of 
sitting in a closed meeting with Armed Services staff and them 
not knowing who is in charge of this investigation. There are 
investigative agencies, at least two, there is the Department 
of Defense, there is the State Department. And when we asked, 
in that setting--and I am not revealing any classified 
information--but just who is in charge, they basically said 
nobody was in charge. We--both Senator Shaheen and I are very 
heartened that, at this hearing, you said--because it is your 
personnel, it is your personnel who have been involved--that--
--
    Secretary Pompeo. Those security issues are my 
responsibility.
    Senator Kaine. Yeah. And Embassy security of these 
personnel is paramount. But, then also what it might say about 
activities and technologies and expertise of our adversaries is 
paramount for us to know. So, that----
    Secretary Pompeo. Yes, sir.
    Senator Kaine. --that was a heartening part of the take 
testimony. I appreciate it.
    The Chairman [presiding]. So, I just had a discussion with 
the Secretary's staff. I know he is late--15 minutes late for a 
meeting now. He has been here for 3 hours and 15 minutes. I am 
glad to let a couple of comments be made, but I am going to 
hard stop it in 5 minutes. Okay?
    Senator Markey. I do not think that--what is the--who is 
the meeting with, Mr. Secretary----
    Secretary Pompeo. I----
    Senator Markey. --that you are not going to stay here and 
answer questions from us?
    Secretary Pompeo. I do not know.
    Senator Markey. Can you not push that back 15 more minutes?
    Secretary Pompeo. Senator, I would--I will go look and see. 
Let us proceed, if we may.
    Senator Markey. Well, he is only giving us 5 minutes. You 
have----
    Secretary Pompeo. Senator, can we----
    The Chairman. You are burning up your 5 minutes right now, 
and I--look, this is getting a little bit--this type of 
discourse--I am sorry, I am the one doing this. I have been 
very generous.
    Senator Markey. But, we agreed to two 7-minute question 
periods, Mr. Chairman. And it is just being ended here for the 
two members at the end. Okay, thank you.
    Mr. Secretary, I would like to go back to our earlier 
conversation, which I think is a microcosm of this 
administration's approach to foreign policy. Diplomacy is not 
simply sharing your position and demanding that the other party 
accept it. Diplomacy is a process of working with others to 
create real leverage that can meaningful change the status quo.
    So, let us be clear. North Korea is a significant and 
pressing threat, and we need to get them to denuclearize. And 
we share that goal. In the letter that was sent by the Trump 
administration, with your participation, as you testify, in 
drafting it, the letter says, at the end, ``If you change your 
mind having to do with this most important summit, please do 
not hesitate to call me or write.'' Well, President Trump is 
the one who pulled out of the summit. So, what does President 
Kim have to change his mind about in order to get back to a 
summit? Does he have to change his mind about whether or not 
the Gaddafi model in Libya is an apt analogy to use for a 
negotiation on the denuclearization of North Korea, Mr. 
Secretary? What does he have to change--what does he have to 
change his mind on?
    Secretary Pompeo. He--we are hopeful that we will see 
behavior that indicates that there is some real opportunity for 
a successful summit. I think you were here, perhaps you were 
not, when I indicated that we had reached out, in accordance 
with what Chairman Kim and I had agreed to, to conduct the work 
that would prepare our teams across a broad spectrum of issues 
for that summit. And we did not get responses, indicating that 
the opportunity for a successful summit was significantly 
reduced. And we are hopeful that he will engage in a way, and 
use language in a way, that is indicative of there being a real 
opportunity, not just to meet, but to achieve a historic 
outcome that----
    Senator Markey. Well, Vice--the----
    Secretary Pompeo. --that I know that--and that I know you 
share, Senator.
    Senator Markey. Well, the Vice Foreign Minister of North 
Korea said that Mr. Pence had made unbridled and impudent 
remarks that North Korea might end up like Libya. Does he have 
to change his mind about that? Does Kim have to accept that 
analogy?
    Secretary Pompeo. I----
    Senator Markey. Would you recommend that the--that Mr. 
Bolton and the President continue to use Libya as an analogy 
that would further our ability to reach a negotiated settlement 
with this issue with North Korea? Would you recommend that?
    Secretary Pompeo. We have been very clear about what we are 
asking Chairman Kim to do. Unambiguous, I believe.
    Senator Markey. Do you want him to accept this analogy? And 
do you feel that you should be continuing to use it as an 
analogy? That is all I am asking you.
    Secretary Pompeo. And I am telling you what we have 
communicated.
    Senator Markey. No, you have not.
    Secretary Pompeo. Yes----
    Senator Markey. Should--no. Answer my question. Do you----
    Secretary Pompeo. Senator, I was in Pyongyang. I know 
precisely what I communicated.
    Senator Markey. No--you communicated. Would----
    Secretary Pompeo. Yes, sir.
    Senator Markey. --you recommend that Mr. Bolton and 
President Trump not communicate a Libyan analogy, a Gaddafi 
analogy, as something that is helpful to your efforts to 
negotiate?
    Secretary Pompeo. Senator, I think this administration has 
behaved incredibly well with respect to encouraging and get us 
closer to a solution, certainly than the last administration 
did. Certainly. There was the previous administration--Senator, 
just for the record, this guy built this out and had the 
infrastructure to build this out over the last 15 months that 
occurred over the last 8 years. This just--this is just simply 
factually indisputable, Senator.
    Senator Markey. Wait, who is debating that? No one is 
debating that. We are debating----
    Secretary Pompeo. Senator, we are----
    Senator Markey. --we are not----
    Secretary Pompeo. The diplomacy this administration is 
engaged in has gotten us this far. I am confident that we will 
move forward in a way that will continue to give us the 
opportunity to achieve this.
    Senator Markey. Well, where did it get us? We are not going 
to the table. We are walking away from the table. We are 
walking away from the table----
    Secretary Pompeo. We did not----
    Senator Markey. --in the week----
    Secretary Pompeo. Senator----
    Senator Markey. --in which there has been----
    Secretary Pompeo. --we did not walk away from this.
    Senator Markey. --a Gaddafi-Libya analogy used, a 
repudiation by the North Korean government, and then President 
Trump saying, ``Well, we are walking away, because we are not 
happy with the North Korean response to that language,'' 
meaning the North--the Libyan and Gaddafi language. So, I do 
not understand what you are talking about, the progress that we 
have made up until this point. The whole world was looking 
forward, with great anticipation, to this summit, and it has 
collapsed over a misuse, in my opinion, of an analogy that has 
the likelihood of precisely zero of getting to the result which 
we all sincerely hope is the case.
    The Chairman. Time expired.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Secretary and Mr. Chairman.
    So, during the confirmation hearing, I asked a question 
about whether there--whether the War Powers Act, which lays out 
three foundations for the President to take the country to war, 
represented the spectrum of activity; and that is a declaration 
of war, a specific authorization for a specific action, or a 
third, emergency powers that involve an attack directly on U.S. 
assets, military, so on and so forth. And you said, no, that 
you--that Article 2 exceeded that. Can you give us a sense of 
how broad Article 2 is, in your opinion?
    Secretary Pompeo. Boy, sitting here today, I hate to give 
you my legal analysis in 2 minutes on the scope and breadth of 
Article 2.
    Senator Merkley. Okay.
    Secretary Pompeo. It is a power that is clearly enumerated. 
It is broad. But, to begin to scope that and define that in--I 
do not think I can do that for you.
    Senator Merkley. Okay. I would love to follow up on that, 
because, essentially, the witness we had on the--in support of 
a new drafted AUMF, the Corker-Kaine AUMF, indicated that there 
were virtually no limits on it, but he liked the idea of us 
doing an AUMF specifically because it is helpful to have the 
backstop, if you will, of congressional sanction of support. 
So, that--in essence, if it is completely broad, then it makes 
our whole discussion of authorization of war, as envisioned 
under the Constitution, kind of irrelevant. But, I will just 
make that point and move on.
    We have the 2001 AUMF that was very specific, in terms of 
attacks on us on 9/11, or those who harbored those attackers on 
9/11, but it has now been stretched, as people say, to 
activities by different counts in 14 to 18 different countries, 
some of--in some cases, forces that had no known association or 
connection with 9/11 and no connection with the forces who 
attacked us on 9/11 or who harbored it--harbored the forces 
that attacked us on 9/11. So, when we look at that, stretching, 
and now we are looking at a new AUMF that has a much broader 
definition than the 2001 AUMF, what is to prevent future 
Presidents from simply stretching that authorization in a 
similar fashion?
    Secretary Pompeo. Well, there are always constraints. I am 
not sure I would characterize the stretching of the current one 
in the same way you do, as egregious as you do. I know it has 
occurred across both administrations, in your view. I think you 
shared that with me last time. But, I am not sure I would 
characterize it that way.
    Look, there are all sorts of political constraints on 
political actors' power, including the President of the United 
States. That power is not unbridled. We have elections, we have 
all kinds of things that continue to provide constraints. So, 
it is--no, it is not unlimited. The founders clearly understood 
that. You can read it in the Federalist Papers. They understood 
precisely the language they were using in the Constitution. And 
I will concede, as a former Member of Congress, I saw a piece 
of legislation that I thought had been grossly misinterpreted. 
I sat on the Energy and Commerce Committee and watched the EPA 
walk over language that was very clear about carbon and issues 
that I did not like and I thought they had used 
inappropriately.
    Senator Merkley. Okay.
    Secretary Pompeo. So, what constrains executives from doing 
that? Politics.
    Senator Merkley. Okay. So, very clear uncertainty about 
what constraints exist on that and how an administration could 
stretch that definition in the future.
    Let me ask you this. If the Quds Force or the Iranian 
Revolutionary Guard were to transport themselves into Syria and 
be engaged in activities that are hostile to our forces 
currently there, would you see that as a situation where they 
are now in a--potentially, an associated force under the 
Corker-Kaine draft of an AUMF?
    Secretary Pompeo. Well, we do not have to imagine the Quds 
Force in Syria. There is no need to transport them. They are 
there as we sit. I do not know. I would have to think about the 
legal ramifications.
    Senator Merkley. Okay. It would be completely----
    Secretary Pompeo. Certainly would have the right to 
defend--our forces would have the right to defend themselves. I 
would have to have someone----
    Senator Merkley. Okay.
    Secretary Pompeo. --help me through the legal framework.
    Senator Merkley. Okay. Because the point I would make here 
is that it is very easy to imagine that this could be--a 
President could say that this does meet the definition of 
associated forces in the legislation we are considering, which 
means we would have given clear authorization for unlimited 
action in Syria, which is a challenge. It is a challenge on 
where we draw these lines. The----
    The Chairman. Time is up.
    Senator Murphy. And I know he is late for a meeting. And 
you said you wanted to talk just a little bit, if that is----
    Senator Murphy. Thank you very much, Mr. Chairman.
    Just one question. I know you have heard some concern from 
this committee, not unsurprising, about some of the 
extraordinary means by which foreign governments may be trying 
to gain influence in this administration. I just wanted to 
raise one report with you and get your response to it.
    There is a report from the BBC that the Ukrainian 
government paid $400,000 to Michael Cohen as a means of 
securing a meeting with the President. The--I--my question is 
simply, Have you looked into that report? I know the Ukrainians 
have denied it. And what would be your message to governments 
that were considering trying to pay nonregistered lobbyists, 
friends of the President, to gain access to you or to the 
President? I imagine you would not look on that kindly, but I 
think, given that the report is out there, and that others are 
maybe thinking that that is the way that business is done, it 
might be important for you to comment on that.
    Secretary Pompeo. It is not how business is done. I have 
not seen that be the way business is done, certainly with me, 
but I have not seen it in this administration, either. I saw 
the report. I--going to try to--I think there is an 
investigation related to that. I am going to try not to talk 
about it. But, yes, I would tell the world that this is not how 
one engages with America.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    You have some closing comments?
    We thank you very much for your----
    Secretary Pompeo. Thank you, Senator.
    The Chairman. --generosity of time.
    The meeting is adjourned.
    [Whereupon, at 1:28 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


      Responses of Secretary of State Michael Pompeo to Questions 
                    Submitted by Senator Bob Corker

    Question. With regard to the lifting of the hiring freeze, can you 
please tell me precisely how many FTEs were assigned to the Office to 
Monitor and Combat Trafficking in Persons prior to the hiring freeze 
and how many FTEs are now assigned to the TIP Office?

    Answer. Consistent with FY 2017 hiring plans, prior to the hiring 
freeze there was a total of 63 FTEs assigned to J/TIP (56 Civil Service 
and 7 Foreign Service). Currently J/TIP is authorized to hire up to 49 
FTEs (42 are Civil Service and 7 Foreign Service), consistent with FY 
2018 Ceiling Allocations.

    Question. As you finalize the Trafficking in Persons Report, will 
you ensure that the situation of Rohingya in Bangladesh is fully and 
accurately reflected in the report?

    Answer. The annual Trafficking in Persons (TIP) Report reflects the 
State Department's assessment of whether foreign governments' efforts 
comply with the minimum standards for the elimination of trafficking in 
persons established under U.S. law. The Department strives to make the 
report as objective and accurate as possible, documenting the successes 
and shortcomings of government anti-trafficking efforts measured 
against the minimum standards. We remain concerned about Rohingya 
communities' vulnerability to human trafficking and continue to address 
those issues. As in prior years, this critical issue and the relevant 
government responses to the crisis will be covered in this year's 
Report.
                                 ______
                                 

      Responses of Secretary of State Michael Pompeo to Questions 
                  Submitted by Senator Robert Menendez

    Question. North Korea: I would like to ask you some yes/no 
questions today about elements that I see as being essential to any 
deal with North Korea. So, yes or no, do you believe: a) That any 
agreement must include sufficient safeguards to assure that no 
ballistic missiles and associated technology are proliferated or 
exported?

    Answer. Our goal for a diplomatic solution is to achieve the 
complete, verifiable, irreversible denuclearization of the Korean 
Peninsula including delivery systems. Any agreement must also include 
carrying forward the restrictions, as contained in relevant DPRK-
related U.N. resolutions (beginning with UNSCR 1718), prohibiting the 
export of ballistic missiles and associated technology from North 
Korea.

    Question. b) That any deal must include a commitment by North Korea 
to robust compliance inspections including a verification regime for 
its nuclear and ballistic missile programs, including complete access 
to all nuclear related sites and facilities with real time verification 
including ``anywhere, anytime'' inspections and snap-back sanctions if 
North Korea is not in full compliance?

    Answer. Our goal is to achieve the complete, verifiable, 
irreversible denuclearization of the Korean Peninsula including 
delivery systems.

    Question. c) That to be truly complete, verifiable and 
irreversible, any agreement with North Korea must be permanent in 
nature, with no sunsets on its provisions?

    Answer. Complete, verifiable, irreversible denuclearization of the 
Korean Peninsula including delivery systems is the goal of the 
diplomatic efforts. Irreversible is, by nature, permanent.

    Question. d) That progress on sanctions relief should be dependent 
on dismantlement and removal of North Korea's nuclear weapons and 
ballistic missile programs?

    Answer. We are not interested in granting concessions for every 
North Korean action and will maintain the maximum pressure campaign 
until North Korea denuclearizes.

    Question. e) That any deal that gives North Korea sanctions relief 
for anything other than the verifiable performance of its obligations 
to dismantle its nuclear and missile arsenal is a bad deal?

    Answer. We are not interested in granting concessions for every 
North Korean action and will maintain the maximum pressure campaign 
until North Korea denuclearizes.

    Question. China, I believe, will continue to play a critical role 
as North Korea moves to halt, dismantle, and remove its nuclear 
weapons. Will you maintain a tough approach to China to assure that it, 
in turn, delivers North Korean performance?

    Answer. Acknowledging China's unique leverage and influence on this 
issue, I will continue to engage with China as we work towards the goal 
of denuclearizing the DPRK. The United States will continue to hold all 
nations including China accountable to fully implement UNSCRs and keep 
the pressure on North Korea until denuclearization is achieved.

    Question. To be successful in such an ambitious undertaking our 
regional allies--in particular the Republic of Korea and Japan--are 
foundational . . . to our success. No concessions should be granted 
that threaten to undermine our core alliance commitments or our posture 
in the region. Do you agree with that principle?

    Answer. Our commitment to our regional allies--the Republic of 
Korea (ROK) and Japan--remains unwavering. It is through our continued 
joint commitment to further strengthen these alliances that we can 
address together the significant security challenges we face in the 
region. I look forward to enhancing our relationships with the ROK and 
Japan as we work together even more closely on regional and global 
issues of concern.

    Question. Will you commit to establishing a full and robust set of 
regular congressional briefings, consultations, and engagements [on our 
DPRK efforts]?

    Answer. The Department is fully committed to ensuring Congress has 
the information necessary on the North Korea summit discussion and 
negotiations to conduct its oversight role.

    Question. Mr. Secretary, as we have discussed, I strongly support 
diplomatic efforts to pursue a peaceful denuclearization of the Korean 
peninsula. I have expressed concerns, however, that there was not 
enough careful, thoughtful and smart diplomatic groundwork in place 
before the hastily announced summit with North Korean dictator Kim Jong 
Un. The Administration has been adamant that it has not made any 
``concessions'' to North Korea for this meeting, which seems to ignore 
that the meeting itself is the concession by granting the acceptance 
and legitimacy Kim Jong-un is seeking for his brutal, evil, dangerous 
regime. He has already benefitted from an enormous propaganda victory, 
and as we have watched the President second guess his meeting and the 
Administration scramble this week to develop a strategy, Kim seems to 
be calling all the shots. In the meantime, I agree that it's essential 
we maintain maximum pressure on North Korea until and unless they take 
concrete steps to verifiably denuclearize.
    a) So, please explain to me your diplomatic strategy and where you 
are in your negotiations with Kim Jong Un?

    Answer. The United States and North Korea have been holding direct 
talks in preparation for a summit and North Korea has confirmed to us 
its willingness to talk about denuclearization. Now is the time for 
bold action and concrete steps toward denuclearization. The Trump 
administration has been working to create the conditions so that the 
President and Kim Jong Un can sit together to begin to resolve this 
incredibly difficult challenge. We hope this will set us down the 
course of achieving a diplomatic outcome that America and the world are 
seeking. If North Korea is unwilling to denuclearize, we will be ready 
to intensify the maximum pressure campaign.

    Question. b) Is it still your position that North Korea must 
completely dismantle its nuclear program?

    Answer. Our goal is to achieve the complete, verifiable, 
irreversible denuclearization of the Korean Peninsula including 
delivery systems.

    Question. c) Can you be specific about what that means?

    Answer. Denuclearization means the complete, verifiable, and 
irreversible abandonment by North Korea of its nuclear weapons and all 
existing nuclear and delivery programs.

    Question. Since President Trump took office, North Korea has 
conducted three ICBM tests (which it had never done before) and their 
largest nuclear test, which some experts have stated was a hydrogen 
bomb.
    d) Would you say over the last 12 months under President Trump the 
threat to the United States from North Korea has increased, decreased, 
or stayed the same?

    Answer. North Korea's unlawful nuclear and ballistic missile 
programs pose a grave threat to the United States and to the world. 
This threat has grown more serious with time. The Administration is 
making efforts to maintain pressure on North Korea while holding direct 
talks to address this threat.

    Question. e) How meaningful is the proposed test moratorium North 
Korea has proposed given their declaration after their last IBCM test 
that ``we have finally realized the great historic cause of completing 
the state nuclear force''?

    Answer. The United States and North Korea have been holding direct 
talks in preparation for a meeting between our two leaders, and North 
Korea has confirmed to us its willingness to talk about 
denuclearization. The Administration has been working to create the 
conditions so that the President and Kim Jong Un can sit together to 
begin to resolve this incredibly complex and difficult challenge. The 
moratorium declared by North Korea is a welcome development and has 
helped created an environment conducive to dialogue, but much work 
remains to keep our nation and the world safe.

    Question. f) Isn't North Korea beginning these talks from a greatly 
strengthened position due to the technological breakthroughs it has 
achieved over the last 12 months? As you look at significant steps that 
North Korea can undertake, isn't it a concern that because of the size 
of their current program they actually have a lot more now that they 
can ``give away'', making denuclearization look real, while retaining 
core capabilities?

    Answer. The United States and North Korea have been holding direct 
talks in preparation for a meeting between our two leaders, and North 
Korea has confirmed to us its willingness to talk about 
denuclearization. Our goal for a diplomatic solution is to achieve the 
complete, verifiable, irreversible denuclearization of the Korean 
Peninsula including delivery systems. We are not interested in granting 
concessions for every North Korean action and will maintain the 
pressure campaign until North Korea denuclearizes.

    Question. Just 4 days after your confirmation hearing on April 16, 
Washington and London issued a joint alert about continued Russian 
cyber-attacks on governments, businesses, and critical infrastructure 
around the globe. Also in April, Russia supported a chemical weapon 
attack by the Assad regime in Syria that killed at least 70 people. In 
March, Russia deployed a chemical weapons attack on the soil of a NATO 
ally which injured several people; when a chemical weapon was used by 
the North Korean government against Kim Jong Un's half-brother, the 
Trump administration quickly designated the DPRK a state sponsor of 
terrorism. And in February, reports indicate that the Kremlin was 
directly involved in authorizing an attack against American forces in 
Syria. Threats emanating from the Russian government against democratic 
processes and U.S. national interests around the globe are acute, 
constant, and lethal--begging the question, what is the State 
Department doing about it?
    a) Do you consider the Russian government responsible for the 
incidents I have just described?

    Answer. Yes. The U.S. government has been clear in both its 
statements and its actions that Russia is responsible for all forms of 
destabilizing behavior. Our long-term goal is for Russia to choose to 
play a constructive role internationally and not to be the revisionist 
power it is today. The Administration has made clear to President Putin 
that if Russia is serious about ending the Syrian conflict, it must 
stop fueling Assad's ruthless assault on his own people and stop 
shielding its ally at the United Nations, the Organization for the 
Prohibition of Chemical Weapons (OPCW), and in other international 
fora. In response to the April 4 attack on a UK citizen and his 
daughter, the United States along with the UK, 27 other countries, and 
NATO collectively expelled more than 150 Russian intelligence officers. 
We will continue to work with allies and partners to hold the Russian 
government to account over its failure to fulfill its international 
commitments.

    Question. b) Has President Trump convened any cabinet level 
meetings to design a strategy to stop these Russian threats?

    Answer. The Administration is actively working to counter Russia's 
aggressive behavior through numerous strategies. The Department is 
strengthening deterrence and defense for NATO Allies in the Baltic 
region and working with partners and allies to strengthen their 
resilience to malign influence and hybrid threats. The Department also 
currently participates in NSC-led interagency efforts to counter 
Russian malign influence abroad and at home and leads efforts to 
strengthen our partnerships and alliances across Europe, the Middle 
East, and Asia. As seen with the coordinated international response to 
the Salisbury attack, we are strongest when we resist Russian 
aggression through collective action with our allies.

    Question. c) Has the Trump administration developed any responses 
to punish and prevent Russian attacks on U.S. service members? Russian 
support for Assad regime atrocities in Syria? Russian cyber-attacks on 
the U.S. or other countries? Russian interference in our 2018 elections 
or electoral processes in our European allies?

    Answer. From Russia's flagrant violation of international law in 
the March 4 Salisbury attack to its continued support for the Syrian 
regime and ongoing malign activities across Europe, Moscow's behavior 
is a serious threat. The Administration is actively working to counter 
Russia's aggressive behavior through numerous strategies such as the 
March sanctions against 5 entities and 19 individuals for a wide range 
of Russia's destabilizing activities, ranging from interference in the 
2016 U.S. election to conducting destructive cyber-attacks, including 
NotPetya, the most costly cyber-attack in history. The U.S. government 
has been clear with the Russian government at the highest levels that 
there will not be an improvement in the bilateral relationship if 
Russia continues its destabilizing activities, including interference 
in U.S. elections. I will continue to press Russian officials against 
further intrusion in the democratic processes of the United States and 
those of our allies and to adhere to its international commitments.

    Question. d) Using the same logic applied to the North Korea case, 
has President Trump determined that Russia is a state sponsor of 
terrorism?

    Answer. As a matter of law, in order for any country to be 
designated as a state sponsor of terrorism, the Secretary of State must 
determine that the government of that country has repeatedly provided 
support for acts of international terrorism. State sponsor of terrorism 
designations are made after careful review of all available evidence to 
determine if a country meets the statutory criteria for designation. I 
have not determined that Russia meets the statutory criteria for 
designation as a state sponsor of terrorism. The U.S. government has 
already taken a number of significant and effective steps to indicate 
our concern and respond to Russian aggression and destabilizing 
behavior. We will continue applying pressure against this behavior 
until Russia chooses to become a responsible member of the 
international community.

    Question. The last time this Committee held a hearing on Russia was 
on February 9th of last year and there was not one administration 
witness at that hearing.
    e) Mr. Secretary, can you commit to me that you will return as a 
witness for a hearing on Russia policy?

    Answer. I support the work of the Senate Committee on Foreign 
Relations, which covers many important foreign policy issues around the 
world to include Russia. The Department's leadership has fielded 
numerous questions and provided written questions for the record on 
this key priority. Additionally, I responded to the committee's 
invitation to testify on the FY 2019 budget within 3 weeks of assuming 
office and look forward to continuing engaging with the Committee for 
meetings, briefings, and hearings on topics of importance to the 
Committee.

    Question. This Administration's budget is an outright assault on 
democracy and governance funding . . . . For example, you slash funding 
for the National Endowment for Democracy (NED) by 60 percent. Congress 
has viewed the NED as a vital instrument in the global competition for 
ideas and values . . . . a) At a time when competitors like China and 
Russia are seeking to fill power vacuums and weak and failed states 
offer fertile openings for our adversaries and for extremists seeking 
to exploit despair, why would you deconstruct and defund the NED?

    Answer. Democracy, human rights, and governance (DRG) programs are 
critical for defending national security, fostering economic 
opportunities for the American people, and asserting U.S. leadership 
and influence. The National Security Strategy (NSS) makes clear that 
respect for human rights and democracy is more likely to produce peace, 
stability, and prosperity at home and abroad, and is therefore integral 
to our national security. Furthermore, the Department values the good 
work of the NED and its commitment to advancing democracy, human 
rights, and good governance. The President's FY 2019 budget request 
factors in the Administration's commitment to restraining overall non-
defense discretionary spending, including foreign assistance resources. 
Therefore, the FY 2019 budget request is a reflection of U.S. national 
priorities while remaining within an overall budget topline. The 
request for DRG assistance encourages the four core institutes to 
compete for U.S. government funding in alignment with the 
Administration's goal to centrally manage and streamline how 501(c)(3) 
organizations are funded. The FY 2019 budget request upholds U.S. 
commitments to key partners and allies through strategic, selective 
investments that enable America to retain its position as a global 
leader while relying on other nations to make greater contributions 
toward shared objectives, including advancing democracy worldwide.

    Question. b) Why take an ax to an organization that has made 
successful long-term investments in like-minded civil society actors, 
political parties, workers and business entrepreneurs in almost every 
country in the world?

    Answer. The FY 2019 President's Budget Request supports the value 
that the National Endowment for Democracy (NED) and its four core 
institutes provide, evidenced by substantial government funding from 
the Department of State and USAID. The budget request recognizes that 
the core institutes' regional expertise and presence are valued by the 
international community and are used by many organizations, including 
the U.S. government, to achieve programmatic objectives. The FY 2019 
request continues to support NED's competitive grant making programs. 
The NED's four core institutes are separate non-profit organizations, 
which are eligible to compete for the $1.4 billion in U.S. democracy, 
human rights, and governance foreign assistance requested as a part of 
the FY 2019 budget.

    Question. Mr. Secretary, CAATSA also required that the 
Administration transmit a comprehensive Iran strategy to Congress by 
January 2018. I am aware of the speech you made earlier this week, and, 
like your predecessors, you lay out a series of objectives: contain 
Iran, go after supporters of terrorism, stop Iran from getting a 
nuclear weapon. I share all those goals. We all do, but they require an 
operational strategy.
    a) When will we get that strategy?

    Answer. The Regional Strategy for Countering Asymmetric Iranian 
Threats in the Middle East and North Africa is in the final stages of 
clearance by the interagency. The Department apologizes for the delay. 
The Administration's commitment to the Iran strategy President Trump 
laid down in October 2017 remains. It will now be executed outside of 
the JCPOA. We will bring unprecedented financial pressure to bear on 
Iran, coordinate with DoD on deterrence efforts, support the Iranian 
people, and perhaps most importantly, hold out the prospect for a new 
deal with Iran if it changes its behavior. We seek to work with as many 
partners, friends, and allies as possible to achieve the common 
objective of stopping Iran's nuclear and non-nuclear threats.

    Question. As I look at President Trump's approach to Syria, Mr. 
Secretary, I am concerned that although it may not be his intent, the 
effect of his Administration's approach is to empower Iran throughout 
the region and to create space that has allowed Iranian proxies to 
operate ever-closer and with ever-greater impunity and lethality 
against Israel. As Prime Minister Netanyahu stated at the Munich 
security conference just this past weekend, ``Through its proxies, 
Shiite militias in Iraq, the Houthis in Yemen, Hezbollah in Lebanon, 
Hamas in Gaza, Iran is devouring huge swaths of the Middle East.''
    b) Can you help me to understand how your approach is leading to a 
diminution of Iranian power and reach in the region, as opposed to Iran 
devouring ever-larger swaths of it?

    Answer. We will contain, constrain, and roll back Iranian influence 
throughout the region. Crucial to pushing back on Iran's regional 
ambitions will be shoring up Iraq's unity and realizing sustainable and 
genuine political solutions in Syria and Yemen. We continue to work 
extensively with our Gulf partners and Israel to deter and disrupt 
Iranian threats. Examples of such cooperation include military and 
diplomatic efforts to prevent Iranian weapons shipments from going into 
Yemen. We also have numerous domestic authorities--including 
sanctions--to counter Iran's support for terrorism and its 
destabilizing activities in Iraq, Syria, and Yemen. We will continue to 
vigorously use these authorities.

    Question. Conflict in South Sudan has resulted in a humanitarian 
and human rights catastrophe. People are dying every day, and the 
prospects for a diplomatic solution seem grim. The Administration has 
announced its plans to ``review assistance.'' You committed to evaluate 
the need for a Special Envoy for Sudan and South Sudan in your response 
to questions in advance of your confirmation, and yet all that seems to 
have happened is the departure from the Sudan and South Sudan team of 
the Senior Advisor, who was leading our diplomatic efforts. a) What is 
our plan for South Sudan and how does this budget support that plan?

    Answer. The United States is working with regional leaders to bring 
peace and stability to South Sudan. We support regional efforts to 
conclude a negotiated arrangement for an inclusive transitional 
government that reflects South Sudan's diversity and provides checks 
and balances on political and economic power. As announced by the White 
House on May 8, the United States is undertaking a comprehensive review 
of its assistance programs to South Sudan to ensure our assistance does 
not contribute to or prolong the conflict or facilitate predatory or 
corrupt behavior. The FY 2019 request reflects the U.S. commitment to 
helping the people of South Sudan and provides resources to advance 
U.S. foreign policy goals.

    Question. b) You mentioned in a response to a question during 
today's hearing that you had not looked into the issue of a Special 
Envoy. When do you plan to look into the issue, and when will you begin 
consultations with Congress about the need for a Special Envoy?

    Answer. I am committed to helping the people of Sudan and South 
Sudan achieve the security, stability, and development they deserve. I 
will analyze the diplomatic tools available to achieve this goal 
effectively and efficiently, including by analyzing the value and 
impact of a special envoy.

    Question. The U.N. Secretary General warned late last year that 
``violent extremist and radical armed groups are asserting control over 
increasingly large areas'' of Mali. In your response to questions in 
advance of your confirmation, you stated that you would ``urge all 
Malian parties to fully implement the peace accord, especially through 
good governance, respect for human rights, and provision of services to 
affected populations.'' That's a bit vague, and seems like exactly what 
we've been doing for 3 years with no effect. Can you be more specific 
about what efforts you will undertake to support implementation of the 
2015 peace agreement and counter violent extremism, and how does this 
budget support it?

    Answer. Establishing sustainable peace and reconciliation in Mali 
and countering the terrorist threat in that country are long-term 
projects that require commitment over time. Together with our 
international partners, we continue to press the parties to implement 
their obligations under the Algiers Accord. Our embassy in Bamako is 
particularly active as an observer to the international mediation, and 
we send representatives to engage in the Accord Monitoring Commission's 
subcommittees. We also provide assistance to strengthen defense 
institutions and build the capacity of Mali's security forces so the 
Government of Mali is better able to respond to the grave and growing 
terrorist threats it faces.

    Question. DRC: The U.N. said earlier this year that the situation 
in the Democratic Republic of Congo is a ``humanitarian disaster of 
extraordinary proportions.'' UNICEF released a report on May 11 that 
said that as a result of violence between the government and militia, 
up to 400,000 children are at risk of starving to death unless 
humanitarian aid efforts are ramped up. World Health Organization 
officials have sounded the alarm at the spread of Ebola from a rural 
area to a city with a population of over 1 million. Twenty-three deaths 
are reported thus far. Aside from actively pushing a reduction in the 
number of U.N. peacekeepers, what is our plan to address the political 
and humanitarian disaster in DRC and how does this budget request 
support it?

    Answer. I share your concerns about the Democratic Republic of the 
Congo (DRC). The Administration seeks to consolidate peace and 
security, provide humanitarian assistance, foster good governance, 
reduce extreme poverty, improve health and education outcomes, ensure 
accountability for human rights violations, and respond to serious 
pandemic threats in the DRC such as the recent Ebola outbreak. These 
priorities are reflected in our FY 2019 budget request, which totals 
approximately $214 million for our work in the DRC. The United States 
is the largest bilateral humanitarian donor in the DRC, having provided 
a total of nearly $277 million in life-saving humanitarian aid for DRC 
and Congolese refugees in the region since FY 2017. While the causes of 
the humanitarian crisis are complex, the situation has been exacerbated 
by the ongoing political impasse. We are actively pressing for credible 
elections in December 2018, as now scheduled, leading to a democratic 
transition that is key to averting violence and strengthening long-term 
stability and development. While elections will not solve all of DRC's 
challenges, they are essential to stabilize the country, support 
development, create opportunities for U.S. businesses, and scale down 
the most expensive U.N. peacekeeping mission in the world.

    Question. Nigeria: In response to a question for the record 
submitted in the wake of your confirmation hearing, you said that ``If 
confirmed, I will underscore to the Nigerian government that human 
rights abuses and impunity for such violations tarnish Nigeria's 
international reputation, undermine the trust of its citizens, impede 
counterterrorism efforts, and hinders U.S. ability to partner with 
Nigeria.'' There is no indication in the public readout (attributable 
to Spokesperson Heather Nauert) of your May 17 phone conversation with 
President Buhari that you raised those issues. Have you looked into any 
of the reports alleging human rights abuses by the Nigerian military?

    Answer. I take all reports of human rights violations and abuses 
seriously. The Department of State continues to raise our concerns 
about human rights and accountability at all levels of the Nigerian 
government and to offer assistance to support improvements in defense 
institutions, security sector forces, and other institutions. The 
Nigerian Army is taking some action to hold to account soldiers found 
guilty of abuse, in particular through court-martial proceedings in the 
northeast, though more needs to be done to improve the number and 
quality of these proceedings. In his remarks in the Rose Garden on 
April 30, President Buhari committed to ensuring accountability for 
human rights violations. I will press the Nigerian government to live 
up to that commitment.

    Question. Did you discuss the need for accountability for human 
rights abuses with President Buhari? In a question for the record 
submitted in the wake of your confirmation hearing, I asked how you 
would work with the Government of Nigeria to address bureaucratic 
obstacles to the effective delivery of humanitarian aid to northeastern 
Nigeria. Your answer was unclear.

    Answer. The Nigerian government is taking some tangible steps to 
improve accountability for human rights violations and protect 
civilians. I am encouraged by the statements President Buhari made 
during his April 30 official working visit to the White House 
highlighting the importance of human rights and accountability and the 
increased emphasis his administration seeks to place on transparency 
and accountability for allegations of human rights violations and 
abuses. Building on his leadership, I will continue to encourage the 
Nigerian government to expand and improve efforts to protect human 
rights and ensure accountability.

    Question. Did you discuss this [bureaucratic obstacles to 
humanitarian assistance] with President Buhari? Do you plan to raise 
this issue through formal diplomatic channels?

    Answer. U.S. officials frequently raise the important issue of 
bureaucratic obstacles to humanitarian assistance with the Nigerian 
government, including during President Buhari's April 30 visit to 
Washington. Our Mission in Nigeria continues to work with the Nigerian 
government to reduce bureaucratic impediments to the international 
humanitarian response, in particular related to visas, work permits, 
importation of relief supplies, and access to vulnerable populations. 
The United States is the largest humanitarian donor to those affected 
by terrorism in the Lake Chad region, providing more than $649 million 
for the region in fiscal year 2017, and the Department of State will 
continue to support this life-saving assistance.

    Question. Staffing of the Africa Bureau: You mentioned in your 
answer to a question for the record for your confirmation that you 
``support full staffing of positions in the Africa Bureau.'' You 
committed to work ``to identify qualified candidates.'' Have you begun 
work on this issue?
    If not, when will you do so?

    Answer. I support full staffing in the Bureau of African Affairs 
(AF). Of AF's 46 missions, the bureau has 36 confirmed ambassadors, two 
missions to which we do not send ambassadors but have permanent Charges 
d'Affaires in place, and eight missions for which I am working with the 
White House to identify candidates. The President has nominated Tibor 
Nagy to serve as Assistant Secretary for African Affairs. I recently 
announced an end to the Department's hiring freeze on Foreign Service 
and Civil Service positions, in accordance with the law to hire to 
attrition and maintain the onboard Foreign Service and Civil Service 
staff levels at the Department of State and USAID as of December 31, 
2017.

    Question. You mentioned in your answer to a question for the record 
for your confirmation that you would ``examine staffing needs . . . 
including in the Office of the U.S. Global AIDS Coordinator and Health 
Diplomacy.'' a) Have you met with Ambassador Birx yet? b) Have you 
begun the process of examining vacancies in the Office of the U.S. 
Global AIDS Coordinator and Health Diplomacy? If not, when will that 
process begin?

    Answer. I recently met with Ambassador Birx to receive an update on 
the President's Emergency Plan for AIDS Relief (PEPFAR). We also 
discussed what support and resources are needed to continue our 
trajectory toward epidemic control, including filling vacancies in the 
Office of the U.S. Global AIDS Coordinator and Health Diplomacy (S/
GAC). I lifted the hiring freeze on May 15 and am addressing vacancies 
at the Department of State to fill critical staffing gaps.

    Question. Your lifting of the hiring freeze earlier this month was 
a welcomed positive first step in starting to rebuild the morale and 
capacity of the State Department. We understand, however, that hiring 
managers still cannot hire and fill gaps in their respective bureaus 
thanks to a December 2017 cap on all positions mandated by then-
Secretary Tillerson. Will you be raising these position caps now that 
you have lifted the hiring freeze so that bureaus can hire and fill 
positions that were previously frozen? If not, why?

    Answer. My intention is to comply with the Consolidated 
Appropriations Act of 2018, allowing us to return to Foreign and Civil 
Service staffing levels that were in place on December 31, 2017. 
Bureaus were notified of employment caps, or ceilings, based on the 
Act. Bureaus now have the flexibility to hire the most qualified people 
with the right skills in positions that are essential to promoting the 
Department's mission and the United States' foreign policy goals. The 
lifting of the hiring freeze will result in hiring at or above 
attrition levels for the remainder of FY 2018.

    Question. Will you work with Congress to ensure that the Department 
can hire civil service positions as well as Foreign Service positions?

    Answer. The Civil Service is critical to the State Department's 
operations. The lifting of the hiring freeze will result in hiring at 
or above attrition levels for the remainder of FY 2018. Within the 
funded level, as determined by the Consolidated Appropriations Act, 
Bureaus may laterally hire Civil Service employees, hire from outside 
(e.g., Presidential Management Fellows), or convert Pathways interns to 
meet mission priorities. It is essential that we ensure that both our 
domestic bureaus and overseas missions have the flexibility to hire the 
most qualified people with the right skills in positions that are 
essential to promoting the Department's mission and the United States' 
foreign policy goals. I will continue to consult and work with Congress 
to ensure that all critical priorities are met within the funded levels 
for FY 2018, and as Congress considers the FY 2019 budget.

    Question. Last month, when the State Department released its annual 
human rights report, a State Department spokesperson justified the 
elimination of a long-standing section on Reproductive Rights by 
stating that this term is not derived from treaty law and that 
reproductive rights as used in the U.S. means only freedom from 
coercion and involuntary sterilization . . . . Can you explain why the 
State Department is now taking a position on reproductive rights that 
appears to be in direct conflict with international human rights law?

    Answer. In the 2017 Human Rights Report, the ``Reproductive 
Rights'' subsection was renamed to ``Coercion in Population Control'' 
in accordance with the requirement of U.S. law that we report on 
``wherever applicable, practices regarding coercion in population 
control, including coerced abortion and involuntary sterilization.'' 
Additional material on maternal mortality, contraception, etc., is 
available via hyperlink in each country chapter and in an appendix to 
the reports.
    As every U.S. administration has said, the term ``reproductive 
rights'' as used in the Cairo Program of Action and the Beijing 
Platform for Action does not include a right to abortion. But activists 
on both sides of the abortion issue have claimed it does, so we chose 
not to use that term but revert to the requirements of U.S. law. There 
is no incompatibility between the language of the reporting requirement 
established in U.S. law and the terminology used in Cairo and Beijing. 
The essence of the Cairo and Beijing usage of ``reproductive rights'' 
is the element in its definition (Cairo para 7.3 and Beijing para 95) 
about the basic rights of all couples and individuals to decide freely 
and responsibly the number and spacing of their children free of 
discrimination, coercion, and violence. The revisions to this year's 
Human Rights Report to bring it back to the requirement in U.S. law 
that we report on ``practices regarding coercion . . . '' is fully 
consistent with the Cairo and Beijing definitions of reproductive 
rights.

    Question. Global Gag Rule: During your confirmation process, you 
were asked about the expanded Mexico City Policy, and your 
understanding that the Secretary of State may authorize case-by-case 
exemptions to the policy. a) What process are you putting in place to 
regularly review service disruptions due to the policy?

    Answer. The vast majority of foreign NGOs to which the U.S. 
government has provided global health assistance funding subject to the 
Protecting Life in Global Health Assistance (PLGHA) policy are 
accepting the conditions on awards required under the policy and 
continue to participate in U.S. government-funded global health 
assistance programs. Departments and agencies providing global health 
assistance routinely monitor all of their programming to ensure 
transitions to different partners are as smooth as possible, regardless 
of the reason for the transition.

    Question. b) How will you determine the impact of the policy on 
underserved, marginalized, or hard-to-reach populations?

    Answer. Under the Department of State's leadership, the relevant 
departments and agencies conducted a review of the first 6 months of 
implementation of the policy. We plan to conduct another review of the 
implementation of the policy by the end of 2018.

    Question. How will you ensure transparency in the next review of 
the policy, and will you publicly release stakeholder comments provided 
for the 6-month review and in advance of the December 15 review?

    Answer. It is our intention to continue to be transparent. The 
review of the first 6 months of implementation of the policy was 
published on the Department of State's website, as well as USAID's. We 
do not plan to release stakeholder comments, as we did not inform 
stakeholders that their comments would be made public when they 
submitted them. Stakeholders, however, are free to make their own 
comments public.

    Question. What is the rationale for halting assistance intended to 
help bring some semblance of safety to the people of Syria?

    Answer. In line with the President's request to review all 
bilateral foreign assistance for Syria, we continually reevaluate 
stabilization assistance levels and how best they might be utilized. We 
do this on an ongoing basis, as we do elsewhere around the world. The 
Department of State and USAID continue to work with the international 
community, members of the Global Coalition to Defeat ISIS, and our 
partners on the ground to provide much-needed stabilization support to 
vulnerable areas in Syria.

    Question. How does withholding this funding fit into the 
administration's strategic objectives in Syria? This is not the first 
time that Congressionally-approved funds and sanctions mechanisms have 
gone unused or unimplemented by this administration.

    Answer. In line with the President's request to review all 
bilateral foreign assistance for Syria, we continually reevaluate 
stabilization assistance levels and how best they might be utilized. We 
do this on an ongoing basis, as we do elsewhere around the world. Our 
objective in this review is to ensure our assistance is targeted, 
effective, and set at the appropriate level.

    Question. What guarantee can you offer that, once approved, funding 
will be used as authorized/ appropriated?

    Answer. We continually reevaluate appropriate bilateral assistance 
levels and how best they might be utilized. We do this on an ongoing 
basis. Our objective in these reviews is to ensure our assistance is 
targeted, effective, and set at the appropriate level.

    Question. Humanitarian Assistance for Iraq: Earlier this year the 
Department announced a U.S. commitment to the private sector in Iraq 
through a $3 billion MOU signed between the Iraqi government and the 
Export-Import Bank, as well as $250 million in ongoing projects 
supported by the Overseas Private Investment Corporation (OPIC). 
Although a healthy private sector is essential to creating the jobs and 
stability that are needed in Iraq, the private sector alone cannot 
address the country's ongoing long-term humanitarian needs. As you 
correctly noted, ``We must continue to clear unexploded remnants of war 
left behind by ISIS, enable hospitals to reopen, restore water and 
electricity services, and get boys and girls back in school.'' a) How 
much funding will the State Department provide to achieve those goals, 
and in particular, will you commit U.S. funding and support to fulfill 
Iraq's Humanitarian Response Plan (HRP) in Fiscal Years 2018 and 2019?

    Answer. The U.S. government is committed to supporting the 
Government of Iraq's efforts to create the conditions for the safe and 
voluntary return of Iraqis to their homes. Clearing explosive remnants 
of war (ERW) is a top priority. The President's FY 2019 budget requests 
$40.0 million to support these efforts. Our request also includes up to 
$96.5 million in order to help the Iraqi government restore essential 
services in areas liberated from ISIS. Since FY 2014, the U.S. 
government has provided more than $1.7 billion in humanitarian 
assistance for the Iraq response. We will continue to provide 
assistance to help the displaced and returnees in the coming years, 
including programs and needs outlined in the U.N. Humanitarian Response 
Plan.

    Question. Complex Crises Fund: The White House Budget recognized 
the need for ``rapid response capabilities to prevent or respond to 
emerging or unforeseen complex crises.'' However, the final budget 
numbers indicate a diminishment of funding in this area as well as 
generate obstacles that will limit rapid response capabilities, 
particularly as it concerns the Complex Crises Fund (CCF). Given the 
risks related to the outbreak of violence globally coupled with a 
Budget request that decreases resources, how can you successfully 
accomplish the stated goal of rapidly responding to emerging or 
unforeseen complex crises?

    Answer. The FY 2019 Request attempts to eliminate overlapping and 
duplicative contingency accounts. The Department and USAID can and do 
provide significant support to address complex crises from a variety of 
funding accounts that Congress provides, including the Peacekeeping 
Operations (PKO) and Transition Initiatives (TI) accounts. The FY 2019 
Request for the TI account provides resources directly to the Office of 
Transition Initiatives, which manages TI and has been an implementer of 
the Complex Crisis Fund, which improves efficiency.

    Question. The Administration recently announced that it is 
withholding the bulk--approximately 83%--of the U.S.'s annual 
contribution to the U.N. Relief and Works Agency for Palestine Refugees 
(UNRWA). Despite other countries pledging millions more than last year, 
this is not enough to fill the gap, and UNRWA expects to shut down this 
summer if new funding does not materialize. a) When does the 
Administration plan to decide whether it will commit any more funding 
to UNRWA?

    Answer. U.S. assistance to the Palestinians remains under review. 
Despite the generosity of the United States, which has been UNRWA's 
largest single donor for decades and provided $60 million to UNRWA in 
January, UNRWA continues to face financial crises year after year. It 
is essential that donors work together to create a fairer, more 
equitable, and more predictable funding mechanism for UNRWA. UNRWA has 
reported approximately $200 million in new voluntary pledges so far 
this year as part of the ongoing work to increase and diversify its 
funding. The United States welcomes the new voluntary pledges made to 
UNRWA.

    Question. b) If the U.S. does not provide more funding for UNRWA, 
what is the Administration's plan to ensure services are not disrupted 
for the 3.5 million Palestinians served by UNRWA's programming?

    Answer. The United States remains committed to addressing the needs 
of the most vulnerable, as demonstrated by a voluntary contribution of 
$60 million to UNRWA in January to keep schools and health systems 
operating in Jordan, the West Bank, and Gaza. The United States should 
not be asked to bear a disproportionate share of these costs. The 
Department of State has called on other donors to do their part and 
respond as needed, including those that have contributed in the past as 
well as those that have the means but have not yet lent their support.

    Question. Refugee Resettlement: On January 29, new procedures were 
announced to process refugees from certain countries for resettlement, 
in addition to new data-collection and processing requirements put in 
place over the last year. I would imagine all of these new systems, and 
the lengthened time it takes to process refugees, takes resources.
    a) How will the Department of State utilize federal funding for the 
rest of FY18 to ensure the U.S. refugee admissions program resettles 
45,000 refugees this fiscal year, including supporting refugee vetting 
agencies where possible?

    Answer. The President authorized the admission of up to 45,000 
refugees in FY 2018. Over the 18 months, U.S. government agencies have 
worked to strengthen the U.S. Refugee Admissions Program's security 
measures. While necessary to improve national security and public 
safety, these reviews and enhancements have lengthened processing times 
for some cases, initially slowing the rate of admissions. In addition, 
the United States is focusing resources on the domestic asylum backlog, 
which is over 300,000 cases and growing. Vetting agencies have their 
own budgets to conduct refugee security checks separate and apart from 
the Department of State's budget.

    Question. Rohingya Resettlement: What are your plans to use 
resettlement to address the Rohingya refugee crisis?

    Answer. I will continue to work with the international community in 
the ongoing humanitarian efforts to support the many vulnerable 
Rohingya in need as we search for durable solutions that include the 
assurance that any returns to Rakhine State are fully voluntary, safe, 
and dignified.

    Question. Resettlement of Iraqis: More than 50,000 Iraqis who have 
close affiliations with U.S. government in Iraq and who have faced 
risks as a result are waiting for interviews in USRAP. a) How do the 
Administration's plans for refugee resettlement ensure that these Iraqi 
allies continue to have a path to safety, given that only 36 Iraqi P2s 
have arrived this FY?

    Answer. The United States continues to resettle vulnerable people 
who are fleeing persecution and conflict while upholding the safety and 
security of the American people. Additional vetting procedures 
announced in October 2017 and January 2018 are enabling departments and 
agencies to more thoroughly review applicants to identify threats to 
public safety and national security. We continue to operate the Direct 
Access Program for Iraqis who have a close affiliation with the United 
States, although processing time may be slower as we implement 
additional security vetting procedures.

    Question. Lautenberg Program: For decades, the Lautenberg Program 
has provided persecuted religious minorities with a path to 
resettlement in the U.S. This year, an unprecedented percentage of 
Lautenberg asylum-seekers are being rejected. In light of the 
Administration's public commitment to aiding persecuted religious 
minorities, what is your plan for continuing the Lautenberg Program?

    Answer. Since FY 2004, Iranian religious minorities have fallen 
within the scope of the Lautenberg Amendment. Applicants under this 
program are subject to the same rigorous process for resettlement as 
all refugee applicants. Since January 2017, more than 800 Iranian 
religious minorities have been approved for admission in the United 
States through this program and have been successfully resettled in the 
United States. This Administration remains committed to supporting the 
Iranian people and is deeply concerned about the situation of Iranian 
religious minorities. The Lautenberg Amendment was renewed on March 23, 
2018 and we continue to accept applications.

    Question. Trafficking: The Trump administration has declared that 
human trafficking is a priority issue. The Atlantic recently published 
an article on the trafficking of domestic workers by diplomats in the 
United States. Federal law requires suspension of countries from the A-
3/G-5 domestic worker visa program where there is: 1) evidence of 
exploitation of a domestic worker; and 2) evidence that the diplomat's 
sending state has tolerated the abuse. NGOs are calling for the 
suspension of three countries: Malawi, Bangladesh, and India. a) Will 
you suspend these countries from the A-3/G-5 visa program? The State 
Department's Protocol Office deserves credit for the pilot program to 
interview domestic workers in the United States on A-3/G-5 visas. These 
welfare checks allow Protocol to screen for abuse and exploitation.

    Answer. The Department is committed to implementing all applicable 
provisions of the William Wilberforce Trafficking Victims Protection 
Act of 2008 (``the Act'') and related law as reauthorized, including 
those provisions relating to the suspension of A-3 and G-5 visas. 
Although there has not yet been a case of visa suspension under the 
Act, the law has been a factor in motivating foreign mission and 
international organization personnel to address allegations of abuse, 
and in some cases, to settle civil cases brought by former domestic 
workers. Consistent with the expectation that mission members comply 
with U.S. law, the Department is committed to diplomatic engagement 
that assists in obtaining payment of final court judgments awarded to 
A-3 and G-5 visa holders, including payment from sending states 
directly to victims.

    Question. b) When will this program [the domestic worker In-person 
Registration Program] be expanded to cover New York? And when will the 
program be expanded to cover the entire United States?

    Answer. To strengthen protections for domestic workers employed by 
foreign personnel at foreign missions and international organizations, 
the Office of the Chief of Protocol manages an annual In-person 
Registration Program. The program currently operates in the Washington, 
DC area. A-3 and G-5 visa holders employed by accredited personnel in 
the metropolitan region are registered with Protocol upon arrival and 
annually thereafter. The launch of a national In-person Registration 
program to include New York is under review, as the expansion of the 
program would have budgetary implications.

    Question. c) Expansion of this prevention program [the domestic 
worker In-person Registration Program] is long overdue. Is there a 
schedule for its expansion?

    Answer. Now that the program is fully operational in Washington, 
the Department is reviewing expansion to other cities, including New 
York. The treatment of domestic workers employed by foreign mission 
personnel in the United States is a matter of great importance, and the 
Department of State is committed to protecting the welfare of these 
workers, both to prevent abuse and to address allegations of 
mistreatment when they arise. The In-person Registration Program serves 
as an important prevention tool and provides domestic workers an avenue 
by which they can bring to the Department's attention matters of 
concern related to their employment.

    Question. Trafficking in Persons: Secretary Pompeo, combatting 
human trafficking has been a major bipartisan priority for this 
committee. The President's budget proposes a drastic 68 percent cut for 
anti-trafficking programs. a) How does the administration propose to 
lead in fighting modern slavery while cutting those programs at the 
same time? b) What signal about American priorities do you think your 
proposed cut sends to the countries we are encouraging to more 
vigorously fight human trafficking?

    Answer. The Administration is committed to addressing human 
trafficking, a crime that robs millions of their freedom, undermines 
the rule of law, distorts global markets, and enriches transnational 
criminal and terrorist organizations. The Department prioritizes 
bilateral and multilateral diplomacy, targeted foreign assistance to 
build sustainable capacity of foreign governments, and partnerships 
with civil society and the private sector to lead the fight against 
modern slavery. The reduced request for human trafficking as compared 
to appropriated levels is partly because the Department has never 
requested funds for the Program to End Modern Slavery, which was funded 
from congressional directives in FY 2016, FY 2017, and FY 2018. The 
Department appreciates the robust support Congress has shown for ending 
modern slavery. The Department and the Administration will continue to 
prioritize combating human trafficking as a key component of our 
diplomatic efforts around the globe.

    Question. Myanmar/Bangladesh: Recent reports show that the 
government and military of Burma continue to destroy Rohingya villages 
and have no accountability for the vast human rights violations that 
have driven the Rohingya across the border into Bangladesh. What kinds 
of accountability mechanisms will you support to ensure that military 
and other leaders are held accountable for their actions and to ensure 
that refugees are not forced to return to an unsafe context?

    Answer. Justice and accountability are critical to changing the 
behavior of bad actors in Burma to prevent future atrocities, abuses, 
and violations and to help create the conditions for a safe, voluntary, 
and dignified return of refugees and other internally displaced 
persons. The United States is working with our allies and partners to 
explore further all options to help ensure that those responsible for 
ethnic cleansing, as well as other human rights violations and abuses, 
face appropriate consequences, including consideration of all options 
available under U.S. and international law. At the same time, we 
continue to press the Government of Burma to cooperate with the 
independent international U.N. Fact-Finding Mission and other U.N. 
mechanisms.

    Question. USAID's Disability Policy recognizes that development 
programs are more impactful if the estimated 15% of the world's 
population that has a disability are included. However, Special 
Protection and Assistance Needs of Survivors is again zeroed out in the 
President's budget request.
    Please detail how the President's budget gives a voice to people 
with disabilities, particularly through global democracy and governance 
programs.

    Answer. The U.S. Agency for International Development (USAID) 
shares the Committee's commitment to giving voice to people with 
disabilities. The President's FY 2019 budget request included funding 
for activities directed at supporting children in adversity, victims of 
war and torture, and people with disabilities. USAID is committed to 
maximizing resources to further inclusive development practices and to 
provide support to marginalized populations. USAID also strives to be 
more efficient and effective with its resources and to leverage funding 
from other sources. USAID continuously works to make our programming 
inclusive not only in democracy, human rights and governance programs 
but across all sectors. Our approaches to achieve this include 
disability-related provisions required for contracts and grants; 
disability-inclusive sector strategies and programming; the development 
and dissemination of training materials; and designated expert staff 
who serve as a resource to USAID on these important issues. Moreover, 
USAID has recently decided to initiate a review and update of the 
Agency's 20-year-old Disability Policy.

    Question. U.S. leadership was critical in averting famine across 
Africa last year. Despite some improvements, many of these same crises 
persist, and new ones have arisen, such as with the Rohingya refugee 
crisis. The President's budget request calls for cuts of roughly 18% as 
compared to FY17 to key accounts funding agencies such as PRM and OFDA.
    a) How can the administration ensure U.S. assistance continues to 
reach those in need?

    Answer. Under the FY 2019 request, the United States will continue 
to show global leadership in responding to the needs of millions of 
refugees, disaster and conflict victims, internally displaced persons 
(IDPs), and other vulnerable populations around the world through 
critical programs that provide protection, water, sanitation, 
healthcare, food, and other essential services. However, to manage 
taxpayer dollars properly while balancing competing priorities across 
the federal budget, it is imperative we grow the global pool of 
humanitarian resources by encouraging others to step up, do more, and 
contribute their fair share. This is particularly important in light of 
increasing humanitarian need. We will also continue to focus on 
improving the efficiency and effectiveness of humanitarian operations, 
both that of our implementing partners, including international 
organizations, as well as U.S. government agencies.

    Question. b) Wouldn't a reduction in funds for the famine response, 
for example, mean going backward on the investment, successes and lives 
saved in the past year?

    Answer. In FY 2017, the United States provided more than $2 billion 
in humanitarian assistance to alleviate severe food insecurity in 
Nigeria, Yemen, South Sudan, and Somalia, as well as in Kenya and 
Ethiopia. On March 6, 2018, we announced more than $372 million in 
additional assistance for humanitarian responses in South Sudan, 
Somalia, and Nigeria. Additionally on April 3, 2018, we announced 
nearly $87 million in additional humanitarian assistance for Yemen. 
Through programs like Feed the Future, the U.S. government also 
continues to make long-term investments in Nigeria, Somalia, South 
Sudan, Ethiopia, Kenya, and other countries across East Africa and the 
Sahel to strengthen the resilience of vulnerable communities and 
improve their food security and nutrition. While humanitarian aid is 
helping save lives, we urge leaders and political actors in countries 
such as Nigeria, South Sudan, and Yemen to support and implement 
resolutions that address the underlying drivers of conflict and end 
violence.

    Question. There continues to be a threat of famine in Nigeria, 
South Sudan, Yemen, and Somalia, and that threat will remain until the 
conflicts are resolved. While it is important that the U.S. provide 
humanitarian assistance in these countries, we are expecting the needs 
will continue to increase until peace is found. Can you provide the 
committee with your diplomatic engagement plans to resolve these 4 
conflicts?

    Answer. In Nigeria, our diplomatic engagement seeks to strengthen 
democratic institutions, improve transparency and accountability, 
promote good governance, and professionalize security forces. In South 
Sudan, we support regional efforts to conclude a negotiated arrangement 
for an inclusive transitional government that reflects South Sudan's 
diversity and provides checks and balances on political and economic 
power. As announced by the White House on May 8, the United States is 
undertaking a comprehensive review of our assistance programs in South 
Sudan to ensure they do not contribute to or prolong the conflict, or 
facilitate predatory or corrupt behavior.
    In Yemen, we strongly support U.N. Special Envoy to Yemen Martin 
Griffiths and his efforts to revive political negotiations on an 
accelerated timeline. I have met with Special Envoy Griffiths and 
offered him our full support. I will continue to engage with key 
regional partners, including the Saudis and Emiratis, to reinforce his 
work. Finally, in Somalia, the United States works closely with its 
international partners to support the efforts of the Federal Government 
of Somalia and its member states to expand legitimate governance, 
promote reconciliation, develop capable security forces, and advance 
economic growth and job creation.

    Question. I am deeply concerned by what appears to be drastic cuts 
from for funding for gender programs. These are critical investments to 
ensure that development is effective, and that women and girls are 
included and respected. How do you justify shrinking the request by 52% 
from last year, which was already a large cut from FY17?

    Answer. Societies that empower women to participate fully in civic 
and economic life are more prosperous and peaceful. The United States 
will continue to support efforts to advance women's equality, protect 
the rights of women and girls, and promote women and girls' empowerment 
programs across the globe. I look forward to leading the Department as 
it continues to address critical issues including women's access to 
finance and protection from violence. Even as we have to make difficult 
trade-off decisions in a challenging budget environment, funding for 
gender programs remain a priority.
    The State-USAID's FY 2018 request for gender programs (including 
all women's leadership; gender based violence; women, peace, and 
security; and women's economic empowerment programs) totaled just more 
than $781 million. The State-USAID FY 2019 request for the same array 
of programs comes to more than $875 million, reflecting a 12 percent 
increase. We look forward to continuing to that empower and protect the 
rights of women and girls around the world through these invaluable 
programs.

    Question. As of January, the mention of gender equality integration 
was taken out of the State Department's Foreign Affairs Manual (FAM). 
This language is important because it enabled the Global Women's Office 
Ambassador to coordinate with the Chief of Missions, Principal Deputy 
Assistant Secretaries, and other leadership to ensure gender 
considerations are integrated into our diplomacy and programs around 
the world.
    Why was this language taken out of the FAM?

    Answer. The advancement of gender equality and the full empowerment 
of women and girls remains a priority for this administration. The 
section of the FAM that addresses the promotion of gender equality as a 
foreign policy objective, like other sections of the FAM, is in the 
process of being updated and streamlined through the standard internal 
clearance processes. While this process is underway, the Office of 
Global Women's Issues continues to play a central role in ensuring the 
Department has the know-how and the appropriate processes to 
strategically incorporate gender equality concerns into bilateral, 
regional and multilateral diplomacy as well as public diplomacy and 
programming. Department efforts strive to encourage our counterparts to 
support progress toward gender equality and the advancement of the 
status of women and girls.

    Question. What will be done to include in the FAM guidance for 
integrating the promotion of gender equality and the advancement of the 
status of women and girls into the full range of Department planning 
and activities?

    Answer. I will continue to lead the Department in advancing the 
status of women and girls and advancing gender equality through the 
formulation and conduct of U.S. foreign policy. We are continuing to 
incorporate gender-related issues into training at the Foreign Service 
Institute. Such training ensures our officers gain the essential skills 
and knowledge to apply these values in the field and operationally and 
are able to make the essential connections between advancing women's 
rights and foreign policy as fundamental to building peace, security, 
and prosperity. These efforts, as well as the updated FAM guidance, 
maximize the potential and effectiveness for U.S. diplomacy while 
advancing American values of women's empowerment and equality.

    Question. The National Security Strategy and the State-USAID Joint 
Strategic Plan both recognize the need for the U.S. to advance gender 
equality for global security and progress.
    a) What are you doing as Secretary to nominate a highly qualified 
and broadly supported Ambassador for Global Women's Issues and to 
promote Gender Equality at the G-7?

    Answer. The Secretary's Office of Global Women's issues (S/GWI) 
leads the Department's work to empower women and girls socially, 
politically, and economically in the communities and societies in which 
they live. I am committed to finding a qualified person to serve as the 
ambassador-at-large for global women's issues and working to ensure 
his/her confirmation as quickly as possible.
    In the G-7 and other multilateral fora, the Department continues a 
long tradition of U.S. leadership in promoting the rights and 
empowerment of women and girls. In coordination with the White House, 
which leads on G-7 policy, the Department has advanced women's economic 
empowerment as a U.S. priority for the G-7 this year, building on the 
Administration's broader policy initiatives on this topic. In April, G-
7 foreign ministers also announced a new commitment to promoting women, 
peace, and security (WPS), which will reinforce the Department's 
implementation of the WPS Act of 2017.

    Question. The United States has been a historic leader on providing 
humanitarian assistance on the basis of need--if people face crises, we 
generally respond.
    a) As you look to allocate humanitarian assistance in FY18 and 
beyond, will there be any adjustment to how vulnerable populations are 
assessed?

    Answer. As the National Security Strategy states, ``the United 
States will continue to lead the world in humanitarian assistance.'' 
Providing lifesaving assistance to those who need it most has been and 
will remain a commitment of the U.S. government, led by the Department 
of State. In light of increasing humanitarian need, it is more 
important than ever that we work to grow the global pool of 
humanitarian resources by encouraging others to step up, do more, and 
contribute their fair share.

    Question. b) Is there any distinction to be made between the needs 
of a persecuted Rohingya in Myanmar or Bangladesh, a persecuted Yazidi 
in Iraq, and a child at risk of starvation in Yemen?

    Answer. All are vulnerable populations that the U.S. government 
seeks to assist.

    Question. It is our understanding that the Central European 
University (CEU) Board of Trustees will make its final determination on 
moving all operations out of Hungary 1 month from now when they convene 
in late June. As you know, since the Hungarian government's passage of 
a law last year curtailing academic freedom and foreign institutions in 
the country, CEU has sought the Hungarian government's agreement on a 
Memorandum of Understanding with the state of New York that would allow 
the university to remain in Budapest. But with no response from the 
Hungarian government side, CEU has been forced to develop contingency 
plans to relocate its campus to another country.
    Do you commit at the earliest available opportunity to raising this 
issue with Foreign Minister Szijjarto, and directing State officials to 
raise with their Hungarian counterparts, to encourage an agreeable 
resolution of this issue?

    Answer. I commit to raising the issue of the Central European 
University (CEU) with Foreign Minister Szijjarto. The State Department 
Bureau of European Affairs and our embassy in Hungary have been in 
regular contact with CEU and have raised this issue with Hungarian 
officials for some time. We will continue to do so until CEU's status 
is resolved. The United States relies on its Allies and partners to 
uphold the values shared by members of NATO and of the Organization for 
Security and Cooperation in Europe. I will encourage our Allies and 
partners to stand by those commitments, both privately and, when 
needed, publicly.

    Question. There are growing concerns that the Good Friday Agreement 
will be further jeopardized by the United Kingdom's departure from the 
European Union, and U.S. engagement to encourage full implementation of 
the agreement remains critical.
    a) Will the Trump administration appoint a Special Envoy for 
Northern Ireland, as we understand it has expressed intent to do?

    Answer. The United States remains firmly committed to the Northern 
Ireland Peace Process including the 1998 Good Friday Agreement and 
subsequent agreements. We will continue to engage all parties and 
communities to work together to build a better, shared future. Through 
our consulate in Belfast we promote reconciliation, two-way trade and 
investment, and cultural exchanges. We will work with the British and 
Irish governments, as co-guarantors of the Good Friday Agreement, and 
the European Union to ensure 20 years of gains in the peace process are 
not sacrificed by the exit of the UK from the EU.
    We are looking into the possibility of naming an envoy to the 
region. No personnel decision has been made.

    Question. Does this Administration commit to a policy to never 
recognize the illegal annexation of Crimea by the Russian Federation, 
similar to the 1940 Welles Declaration in which the U.S. refused to 
recognize the Soviet annexation of the Baltic States?

    Answer. When Russia invaded Ukraine in 2014 and announced its 
purported annexation of Crimea, it directly challenged and undermined 
bedrock international principles, including the obligation to refrain 
from the threat or use of force against the territorial integrity or 
political independence of any state. These principles constitute the 
foundation upon which Europe's security and safety rests.
    The United States will never recognize Russia's purported 
annexation of the Crimean peninsula and never accept anything less than 
the full restoration of Ukraine's territorial integrity. Respective 
U.S. sanctions on Russia for its aggression in Ukraine will remain in 
place until Russia fully implements the Minsk agreements and returns 
control of the Crimean peninsula to Ukraine. I will continue to work 
closely with our European Allies and partners to maintain unity on 
Russia sanctions and their implementation. Crimea is Ukraine.

    Question. What will you do to raise human rights concerns in Crimea 
with your counterparts in the Russian government, and to advocate 
specifically for the release of political prisoners from Crimea?

    Answer. The United States is deeply concerned by Russia's campaign 
of coercion and violence in Crimea, targeting any voice that questions 
Russia's occupation. Abuses have become increasingly frequent over the 
past 4 years as Russia has further consolidated its occupation of the 
peninsula. We recognize Russia uses its judicial system to suppress 
dissent in Crimea and the number of political prisoners--now over 60--
is growing.
    I will continue to work with allies and partners to call on the 
government of Russia to uphold its international obligations to promote 
and protect human rights and fundamental freedoms, including in 
occupied Crimea. This includes continuing to raise concerns about the 
health of filmmaker Oleh Sentsov and farmer Volodymyr Balukh, two 
imprisoned Ukrainian patriots who are now on hunger strike, as well as 
calling on Russia to release Ruslan Zeitullayev, Emir Ussain Kuku, and 
the dozens of other Crimean Tatars it has imprisoned on baseless 
terrorism charges.

    Question. The Cuban people have long suffered under a regime that 
suppresses their freedom and fails to respect human dignity. The 
President has acknowledged this fact and yet your FY 2019 budget has 
slashed democracy and human rights assistant funding for Cuba by 50% 
from FY 2018 reducing it to $10 million. How do you expect to continue 
the critical work of promoting free and democratic Cuba with such a 
reduced budget?

    Answer. The Department of State continues to support and engage 
with human rights and democracy activists in Cuba and to work with 
regional partners to support respect for human rights and fundamental 
freedoms for those in Cuba, including freedoms of expression, peaceful 
assembly, and association. In announcing a new Cuba policy in June 
2017, President Trump made clear his intention to show solidarity with 
the Cuban people and promote human rights and democracy, while 
maintaining engagement that serves U.S. national security and foreign 
policy interests.
    As the Department of State and USAID work within a reduced topline 
funding level to ensure efficiency and effectiveness of U.S. taxpayer 
dollars, we have had to make some tough choices about the programming 
for which we requested funding in FY 2018. The requested foreign 
assistance funding levels were reduced globally; Cuba was not singled 
out. We plan to continue to support the above-described democracy and 
human rights promotion efforts with the many tools we have, including 
through our embassy, engagement in multilateral fora and with 
international partners, and through bilateral talks.

    Question. The Cuban people have long suffered under a regime that 
suppresses their freedom and fails to respect human dignity. The 
President has acknowledged this fact and yet your FY 2019 budget has 
slashed democracy and human rights assistant funding for Cuba by 50% 
from FY 2018 reducing it to $10 million. Does this represent a shift in 
our support for democracy on the island and the region writ large?

    Answer. No. Our priorities in promoting democracy and human rights 
in Cuba, and in the entire Western Hemisphere, remain as strong as 
ever. The requested foreign assistance funding levels were reduced 
globally. Neither Cuba nor the region writ large was singled out. The 
Administration's Cuba policy announced June 16, 2017 makes clear our 
continued support of democracy and human rights on the island and the 
intention to demonstrate solidarity with the Cuban people in the face 
of a repressive regime.

    Question. At your hearing on House Foreign Affairs Committee on May 
21, you noted that the Accountability Review Board's report on the 
Departments handling of the Cuba health attacks would be finalized in 
the next week. Do you commit to briefing Congress on the results of the 
ARB findings?

    Answer. The Department will be happy to brief appropriate 
Congressional committees regarding the Accountability Review Board's 
(ARB) findings and recommendations as well as how the Department 
intends to address the recommendations. In accordance with the law, 
within 90 days of receiving the ARB's report, I will submit a report to 
Congress summarizing the ARB's recommendations and providing an 
overview of the actions the Department will take in response. If the 
ARB determines that serious injury was a result of misconduct or 
unsatisfactory performance of any individuals employed by the U.S. 
government or any entities under contract with the U.S. government, the 
Department or affected federal agency will report those findings to 
Congress within 30 days of the ARB's report.

    Question. At your hearing on House Foreign Affairs Committee on May 
21, you noted that the Accountability Review Board's report on the 
Departments handling of the Cuba health attacks would be finalized in 
the next week. Do you commit to implementing any recommendations from 
the Board to ensure the safety of our diplomats not just in Havana, but 
worldwide?

    Answer. The Department takes seriously all Accountability Review 
Board (ARB) recommendations. As with prior ARBs, we will review the 
Cuba ARB's findings and recommendations and assess how best to 
implement them to ensure the safety of our diplomats worldwide.

    Question. Do you assess that ending TPS for El Salvador, Honduras, 
and Haiti poses a risk to U.S. national security?

    Answer. No, the decision to end TPS does not pose a risk to U.S. 
national security. We have longstanding relationships with these 
countries. We will continue to work with these respective governments 
to dismantle transnational criminal organizations, combat drug 
trafficking, halt illegal immigration, and promote sustainable economic 
growth by addressing the underlying causes of insecurity, impunity, and 
lack of economic opportunity.

    Question. Do you believe that the Governments of El Salvador, 
Honduras, and Haiti have the capacity to effectively repatriate more 
than 400,000 people, in total?

    Answer. With respect to El Salvador, Honduras, and Haiti, the 
Secretary of Homeland Security determined that the adverse conditions 
that served as the basis for their respective TPS designations had 
ceased to exist and therefore the designations had to be terminated. 
DHS announced a delayed effective termination date of 18 months for El 
Salvador, Honduras, and Haiti to permit an orderly transition, both for 
those returning home and for the country receiving them. The phase-out 
period will provide time for TPS beneficiaries to arrange for their 
departure and for the countries to prepare for the reception and 
reintegration of their citizens.

    Question. Is it your assessment that the repatriation of more than 
400,000 people to El Salvador, Honduras and Haiti--if not handled 
effectively--would threaten the stability and security of these 
countries?

    Answer. It is unclear how many individuals with TPS ultimately will 
return to their home countries as they may still receive other 
protections under our immigration system for which they are eligible. 
Further, I do not believe that the stability and security of El 
Salvador, Honduras, or Haiti is threatened by the return of its 
citizens. Our embassies in El Salvador, Honduras, and Haiti have met 
with host government counterparts to encourage the further development 
of programs to reintegrate their citizens. I will continue to encourage 
strengthening the region's ability to reintegrate its returning 
nationals, including former TPS beneficiaries.

    Question. In the event that the more than 400,000 TPS beneficiaries 
are accompanied by their more than 270,000 U.S. citizen children, do 
you believe that the Governments of El Salvador, Honduras, and Haiti 
can guarantee the safety and well-being of these American children?

    Answer. Our embassies and consulates overseas stand ready to 
provide appropriate consular services for U.S. citizens. We encourage 
parents to apply for a passport for their U.S.-born children prior to 
departing the United States to document citizenship and identity. We 
are conducting outreach to foreign missions and other community 
stakeholders in the United States about the importance of documenting 
U.S. citizen children before traveling outside the United States. In 
addition, we are engaging host governments on programs and resources 
that can help reintegrate their returning citizens, including those 
with U.S. citizen children.

    Question. In his October 31, 2017 letter to Acting DHS Secretary 
Duke, Secretary Tillerson cautioned that ending TPS for El Salvador and 
Honduras could jeopardize U.S. foreign policy objectives in those two 
countries. Do you agree with that assessment?

    Answer. The United States' support for Central America remains 
unchanged. A secure and stable Central America contributes to a safer 
and more prosperous United States by helping to secure our borders, 
protect U.S. citizens, and increase opportunities for U.S. and other 
businesses. The multi-year U.S. Strategy for Central America addresses 
the underlying economic development, security, and governance 
challenges that contribute to illegal immigration. We will continue to 
work with Central American governments to dismantle transnational 
criminal organizations, combat drug trafficking, halt illegal 
immigration, and promote sustainable economic growth.

    Question. In his October 31, 2017 letter to Acting DHS Secretary 
Duke, Secretary Tillerson cautioned that ending TPS for El Salvador and 
Honduras could jeopardize U.S. cooperation with both governments to 
combat transnational organized crime. Do you agree with that 
assessment?

    Answer. The United States' support for Central America remains 
unchanged. A secure and stable Central America contributes to a safer 
and more prosperous United States by helping to secure our borders, 
protect U.S. citizens, and increase opportunities for U.S. and other 
businesses. The U.S. government partners with law enforcement agencies 
in El Salvador, Guatemala, and Honduras to facilitate real-time 
information sharing and inform law enforcement operations to combat 
transnational organized crime. We will continue to work with Central 
American governments to dismantle transnational gangs, such as MS-13 
and 18th Street, and other transnational criminal organizations.

    Question. In diplomatic cable San Salvador 860, dated July 7, 2017, 
the U.S. Embassy in El Salvador warned that U.S. citizen children 
accompanying TPS beneficiaries returning to the country could be 
vulnerable to gang recruitment or other forms of illicit employment. Do 
you agree with that assessment?

    Answer. I remain concerned with the security situation posed by 
gangs in El Salvador and the region, including gang recruitment of 
minors. Through the U.S. Strategy for Central America, the Department 
of State and USAID implement programs to empower youth by supporting 
educational, social, and employment opportunities for at-risk and 
disadvantaged youth and violence prevention activities. We will 
continue to work with our in-country partners on programs to address 
gang recruitment of youth. We will continue to provide all available 
consular services to U.S. citizens, including U.S. citizen children of 
TPS beneficiaries.

    Question. In diplomatic cable San Salvador 860, dates July 7, 2017, 
the U.S. Embassy in El Salvador warned that repatriating more than 
260,000 TPS beneficiaries to El Salvador could accelerate ``illegal 
immigration'' to the United States. Do you agree with this assessment?

    Answer. The multi-year U.S. Strategy for Central America addresses 
the underlying economic development, security, and governance 
challenges that contribute to illegal immigration. Our embassies in 
Honduras and El Salvador have met with host government counterparts to 
encourage the further development of programs and services that will 
facilitate the effective reintegration of their citizens into their 
respective societies. USAID has hosted migration workshops in El 
Salvador and Honduras to explore challenges and best practices in 
reintegration. We will continue to work with the Government of El 
Salvador to strengthen its ability to reintegrate all migrants, 
including TPS returnees.

    Question. In diplomatic cable Tegucigalpa 618, dated June 29, 2017, 
the U.S. Embassy in Honduras warned that U.S. citizen children 
accompanying TPS beneficiaries returning to the country could be 
vulnerable to gang recruitment or other forms of illicit employment. Do 
you agree with that assessment?

    Answer. I remain concerned with the security situation posed by 
gangs in Honduras and the region, including gang recruitment of minors. 
Through the U.S. Strategy for Central America, the State Department 
implements programs to empower youth by supporting educational, social, 
and employment opportunities for at-risk and disadvantaged youth and 
violence prevention activities. One example of these programs aimed at 
preventing youth from joining gangs is the Gang Resistance Education 
and Training (GREAT) program. The GREAT program supports nationwide 
prevention of violence and youth gang involvement through the 
development of a positive relationship between Honduran law 
enforcement, families, and young people. Since INL launched the GREAT 
program in 2013, more than 375 Honduran National Police officers have 
been trained as GREAT instructors and more than 240,000 students have 
participated in the program. I will continue to work with our in-
country partners to continue GREAT and other similar programs to 
address gang recruitment of youth.
    We will continue to provide all available consular services to U.S. 
citizens, including U.S. citizen children of Temporary Protected Status 
beneficiaries.

    Question. In general, what steps will you take to guarantee that 
U.S. foreign policy objectives are not undermined by the decision to 
end TPS for El Salvador, Honduras, and Haiti?

    Answer. The multi-year U.S. Strategy for Central America addresses 
the underlying economic development, security, and governance 
challenges that contribute to illegal immigration, including a number 
of the reasons why individuals with TPS left Central America in the 
first place. I will continue to work with these governments to help 
them dismantle transnational criminal organizations, combat drug 
trafficking, halt illegal immigration, and promote sustainable economic 
growth by addressing the underlying causes of insecurity, impunity, and 
lack of economic opportunity.

    Question. What resources and what amount of resources from the FY 
2019 budget request will the State Department dedicate to ensuring the 
effective repatriation of more than 400,000 TPS beneficiaries to El 
Salvador, Honduras, and Haiti?

    Answer. The Department does not pay for repatriations of 
individuals from the United States and does not have estimated 
repatriation costs.

    Question. How is the State Department working with these three 
governments to mitigate the massive upheaval if 400,000 people are 
returned to their country of origin, as well as guarantee the safety of 
these individuals and that of their U.S. citizen children that will be 
accompanying them?

    Answer. USAID has hosted migration workshops in El Salvador and 
Honduras to assist both governments in their evaluation and adoption of 
best practices in reintegration for their citizens. Our embassies in El 
Salvador, Honduras, and Haiti have met with host government 
counterparts to encourage the further development of programs to 
reintegrate their citizens, particularly in light of the imminent 
return of their citizens who have benefited from Temporary Protected 
Status. Additionally, our embassies and consulates overseas stand ready 
to provide appropriate consular services for U.S. citizens.

    Question. Will you reconsider the recommendations of your 
predecessor to DHS in order to draw on the expertise of the State 
Department, as you stated in your response to the question for the 
record from the Foreign Relations Committee?

    Answer. No, I do not intend to reconsider the Department's 
recommendations on decisions that DHS has already taken. The 
Department's role in Temporary Protected Status (TPS) is advisory. 
Section 244 of the Immigration and Nationality Act provides the DHS 
Secretary with sole authority to designate a foreign state for TPS or 
to extend or terminate its designation, after consultation with 
appropriate government agencies. DHS has traditionally consulted with 
the Department of State. As the Department develops its TPS input for 
DHS, all relevant information received from different parts of the 
Department is considered. The Department's internal TPS review process 
is comprehensive and well established. As requested, the Department 
will continue to contribute its input to DHS for use by Secretary 
Nielsen as she makes future determinations.

    Question. What contact did the State Department's Office of Policy 
Planning and Secretary Tillerson's immediate Staff have with the White 
House Domestic Policy Council prior to Secretary Tillerson issuing his 
October 31, 2017 recommendations?

    Answer. We do not comment on internal or interagency deliberations.

    Question. Did the State Department's Office of Policy Planning and 
Secretary Tillerson's immediate Staff lend more credence to the 
recommendations and guidance of the White House Domestic Policy Council 
than the recommendations and warnings of U.S. diplomatic personnel?

    Answer. We do not comment on internal or interagency deliberations.

    Question. Did the State Department's Office of Policy Planning and 
Secretary Tillerson's immediate Staff provide direct policy guidance to 
the Bureau of Western Hemisphere Affairs as to how it should formulate 
its recommendation to Secretary Tillerson? If so, what was the nature 
of that guidance?

    Answer. The Department of State has established internal processes 
by which bureaus and offices, including the Bureau of Western 
Hemisphere Affairs and the Office of Policy Planning, advise the 
Secretary of State on foreign policy matters. We do not comment on 
internal deliberations.

    Question. You recently submitted a Congressional notification for 
rebranding of the Broadcasting Board of Governors.
    a) Do you commit to ensuring editorial independence at the BBG/U.S. 
Agency for Global Media (or any successor name of this organization)?

    Answer. Yes, I commit to working to ensure editorial independence 
at the BBG/U.S. Agency for Global Media (or any successor name of this 
organization) under the current structure, including respecting the 
legislatively mandated firewall between BBG's management and its 
independent journalists.

    Question. b) Will you commit to ensuring that the CEO cannot breach 
the ``firewall'' with political influence between journalists who work 
under any of the BBG/U.S. Agency for Global Media/ any successor name 
affiliate networks--Voice of America, RFE, RFA, OCB, and MEBN?

    Answer. Yes, I commit to protecting the integrity of U.S. civilian 
international broadcasting by maintaining the legislatively mandated 
``firewall'' between the management of BBG/U.S. Agency for Global 
Media, including its CEO, and its affiliated networks and independent 
journalists, under the current structure.

    Question. In a March 1st speech Russian President Vladimir revealed 
several new nuclear weapons including a nuclear powered cruise missile 
and a nuclear powered underwater drone. If deployed these weapons would 
be dangerous and destabilizing. In addition, Russia recently cancelled 
the latest round of the U.S.-Russian Strategic Dialogue. On the other 
hand, last month Russia meet their obligations in the New START treaty 
to limit their strategic nuclear forces.
    a) Can you explain to me whether the nuclear systems President 
Putin announced are covered under the New START Treaty?

    Answer. Russian President Vladimir Putin's March 1 announcement of 
new strategic nuclear weapons systems--including an intercontinental-
range nuclear-powered cruise missile, an intercontinental-range 
underwater drone, and a maneuverable hypersonic glide vehicle--confirm 
what we have long suspected: the Russian Federation has been developing 
destabilizing strategic systems since at least 2004. The New START 
Treaty permits parties to raise questions about potential ``new kinds 
of strategic offensive arms'' within the Treaty format, should the need 
arise. We will continue to monitor Russia's nuclear weapons 
developments to assess its compliance with Russia's treaty obligations 
and respond appropriately. This is an ongoing process.

    Question. In a March 1st speech Russian President Vladimir revealed 
several new nuclear weapons including a nuclear powered cruise missile 
and a nuclear powered underwater drone. If deployed these weapons would 
be dangerous and destabilizing. In addition, Russia recently cancelled 
the latest round of the U.S.-Russian Strategic Dialogue. On the other 
hand, last month Russia meet their obligations in the New START treaty 
to limit their strategic nuclear forces.
    b) Will these new systems impact the overall strategic balance 
between the United States and Russia?

    Answer. The 2018 Nuclear Posture Review makes clear that the 
highest priority of the Department of Defense is deterring nuclear 
attack and maintaining the nuclear capabilities to do so. The United 
States is committed to maintaining flexible, adaptable, and resilient 
nuclear capabilities required to protect the United States and our 
allies and partners and to promote strategic stability. President 
Putin's announcement in no way changes this commitment. We have sought 
to engage Russia in meaningful discussions to clarify our policies and 
doctrines related to the strategic relationship but regret that Russia 
decided to postpone the second round of these talks.

    Question. In a March 1st speech Russian President Vladimir revealed 
several new nuclear weapons including a nuclear powered cruise missile 
and a nuclear powered underwater drone. If deployed these weapons would 
be dangerous and destabilizing. In addition, Russia recently cancelled 
the latest round of the U.S.-Russian Strategic Dialogue. On the other 
hand, last month Russia meet their obligations in the New START treaty 
to limit their strategic nuclear forces.
    c) What steps should we take to maintain strategic stability with 
Russia, should we extend the New START Treaty for another 5 years?

    Answer. The Administration is committed to fully implementing New 
START. The United States and Russia met the Treaty's central limits on 
February 5. The Treaty contributes to strategic stability, as its 
verification regime permits the United States to verify information 
about Russia's strategic nuclear arsenal. We have offered to engage 
Russia in discussions to clarify our policies related to the strategic 
relationship but regret that Russia decided to postpone the second 
round of these talks.
    As the 2018 Nuclear Posture Review states, the United States will 
consider effective and verifiable arms control measures with Russia 
that benefit U.S. national security. The Administration will consider 
next steps related to the New START Treaty at the appropriate time, 
taking this into account.

    Question. I am also concerned that the Administration has failed to 
impose Iran-related sanctions under the mandatory provisions of The 
Iran section of the Countering American Adversaries Through Sanctions 
Act--CAATSA.

  <bullet> Section 104 Imposition of additional sanctions in response 
        to Iran's ballistic missile program. In particular, Section 
        104(b)(6) provides the authority to impose sanctions on any 
        person who knowingly provides or attempts to provide financial, 
        material, technological, or other support for goods or serves 
        related to Iran's ballistic missile program.

  <bullet> Section 107 Enforcement of arms embargos, which provides the 
        authority to impose sanctions on persons who have knowingly 
        engaged in activities that violate the arms embargo against 
        Iran.

    Since the enactment of CAATSA, how has the Administration 
specifically used these new authorities and what new designations have 
been imposed?

    Answer. The Administration continues to support the goals of the 
Countering America's Adversaries Through Sanctions Act (CAATSA) and is 
actively implementing this legislation. With respect to Iran, we 
implement CAATSA sanctions where possible through existing executive 
orders, such as E.O. 13382, which we have continued to use to target 
Iran's missile proliferation activities. Since the Administration took 
office in 2017, State and Treasury have combined to designate more than 
110 persons and entities for their involvement in Iran's malign 
activities. These designations reflect our strong commitment to 
imposing costs on Iran for these activities, including its support of 
terrorism and its development of a ballistic missile program.

    Question. Putin's aggressive foreign policy to undermine democratic 
processes and values in Europe and the United States is a function of 
his domestic policy to eliminate dissent and shore up his brittle, 
corrupt regime. So part of our response to Russian aggression must be 
to support to those Russians pushing for reform, transparency, and 
human rights in their own country . . .. What is the State Department 
specifically doing to engage the Russian people and support their human 
rights and their hope for transparent, accountable governance?

    Answer. Department officials at all levels, including officials at 
the U.S. Embassy in Moscow, regularly meet with civil society groups. 
We believe that the Russian people, like people everywhere, deserve a 
government that supports an open marketplace of ideas, transparent and 
accountable governance, equal treatment under the law, and the ability 
to exercise their rights without fear of retribution. We will continue 
to call on the Russian government to uphold its international 
obligations and commitments to protect human rights and fundamental 
freedoms and to cease restrictions on the work of civil society 
organizations. We will also continue to support and uphold laws enacted 
by Congress such as the Sergei Magnitsky Rule of Law Accountability Act 
to hold human rights abusers in Russia accountable. Although the space 
for civil society and free media in Russia has become increasingly 
restricted, Russian organizations and individuals continue to express a 
desire to engage with the United States. As long as this continues to 
be the case, we will support opportunities for direct interactions 
between Russians and Americans, including through peer-to-peer, 
educational, cultural, and other regional programs that provide 
exchanges of best practices and ideas on themes of mutual interest.

    Question. State-USAID Relationship/F Bureau Holds: Mr. Secretary, I 
will reiterate my steadfast support for a strong and independent USAID, 
specifically their development efforts, which are a necessary and equal 
element within the Diplomacy--Defense and Development approach to smart 
power. That said, the State Department has had considerable impact on 
this Agency's ability to successfully fulfill its mission. For example, 
the Office of Foreign Assistance Resources, (F Bureau), is withholding 
FY17 appropriated funds for a variety of USAID's Democracy, Conflict 
and Humanitarian Assistance programs. In fact, there are several USAID 
programs facing similar funding crises not for lack of congressional 
appropriations for FY17 but because State Department, specifically F 
Bureau, will not release the funds to USAID. Members of this committee 
have heard you and others on your leadership team repeatedly profess 
support for USAID's autonomy, yet over the course of the last 15 months 
you've take actions to the contrary.
    a) Why wasn't the original final draft Mission Statement the USAID 
Administrator submitted to the Secretary in August approved?

    Answer. USAID remains a critical part of achieving U.S. national 
security goals. Since I became Secretary, Administrator Green and I 
have had a productive dialogue on a wide range of issues. I fully 
support USAID's mission and their new Mission Statement.

    Question. b) What did State do to precipitate USAID's withdrawal 
from participating in the development of the Joint Strategic Plan (JSP) 
just weeks before the final JSP was due to OMB?

    Answer. The JSP process was co-led by a joint State and USAID team 
and every part of the process involved both State and USAID 
participants as appropriate. USAID never withdrew from the JSP process. 
At the working level, State staff continued to coordinate and work 
closely with USAID representatives in Goal, Objective, and Performance 
Goal Working Groups throughout every stage of the JSP process from 
beginning through publication. The final draft of the JSP was reviewed 
by USAID and approved by Administrator Green and Secretary Tillerson. 
Even now, as we move forward tracking and reporting progress on our JSP 
Performance Goals, our efforts remain closely coordinated.

    Question. c) How many USAID FY17 Spend Plans and Operations Plans 
remain unapproved at F Bureau? Are any of these delays related to 
policy or political disagreements to congressionally-mandated programs?

    Answer. The vast majority of the FY 2017 Operational Plans and 
Spend Plans are approved and completed. The Department of State and 
USAID will continue to work diligently to ensure that funds 
appropriated by Congress are obligated as quickly as possible while 
assuring compliance with applicable legal and other requirements.

    Question. d) Has the State Department's Foreign Assistance Bureau 
delayed the obligation of any FY17 funds at the request of the Office 
of Management and Budget?

    Answer. The Office of U.S. Foreign Assistance Resources is working 
quickly and diligently to ensure that FY 2017 funding appropriated by 
Congress is obligated consistent with applicable law. The vast majority 
of FY 2017 funds are currently in the process of being notified and 
obligated.

    Question. e) Will you provide a timeline outlining the State 
Department's Foreign Assistance Bureau's steps to apportion and approve 
operation plans for FY16 and FY17 funds?

    Answer. The vast majority of the FY 2016 and FY 2017 Operational 
Plans are completed and approved. The Department of State and USAID 
will continue to work diligently to ensure that funds appropriated by 
Congress are obligated as quickly as possible while assuring compliance 
with applicable legal and other requirements.

    Question. f) Explain how, based on the various delays in obligating 
FY17 funding, the Administration has not violated the Impoundment 
Control Act of 1974.

    Answer. FY 2017 funding appropriated by Congress is in the process 
of being obligated consistent with applicable law, including the 
Impoundment Control Act.

    Question. In January, Secretary Tillerson traveled to California 
and announced the Trump administration's policy for Syria--which sounds 
to me like the making of another ``forever war.'' He stated that U.S. 
forces will remain indefinitely in Syria, using the term ``conditions-
based,'' which as many us who have been on this side of the oversight 
effort know means whatever you want it to mean in order to keep U.S. 
forces from returning home. The objectives, according to the 
Administration, of U.S. military presence in Syria are (1) preventing 
the re-emergence of ISIS and fighting Al Qaeda, (2) paving the way for 
legitimate local governance and the departure of Assad, (3) denying 
Iran the opportunity to further strengthen its position in Syria, and 
(4) creating conditions for the safe return of refugees. Only one of 
these objectives is arguably covered by the 2001 AUMF. In his State of 
the Union address, President Trump said ``I'm proud to report that the 
coalition to defeat ISIS has liberated very close to 100 percent of the 
territory just recently held by these killers in Iraq and in Syria.''
    a) If ISIS has been pushed out of the territory it used to control 
like President Trump says, is it defeated?

    Answer. The President has made clear and repeated on March 29 that 
we are in Syria to defeat ISIS and that the group's enduring defeat 
remains a top priority of the Administration. Although we are close to 
recapturing the critical territory that ISIS used to claim as its so-
called physical ``caliphate,'' the mission is not over. ISIS remains in 
pockets of Syria in regime-held territory and will continue to seek to 
resurge in the areas liberated by the Coalition in a continuing threat 
to Syrians in these areas. Once major operations are complete, the work 
of stabilizing liberated communities and preventing ISIS resurgence 
will continue as we ensure ISIS's enduring defeat. The U.S.-led Global 
Coalition to Defeat ISIS is committed to helping to stabilize liberated 
communities through activities, including restoring basic essential 
services, de-mining, and facilitating our partners' transition to 
sustainable, credible, inclusive governance.

    Question. b) What is the Administration's working definition of 
``defeat'' so that we have a benchmark against which to measure 
progress?

    Answer. ISIS will be defeated in Iraq and Syria when ISIS is no 
longer able to exploit safe havens and control critical populations and 
key terrain and when local governance, security, and law enforcement 
can detect and disrupt its violent activities. ISIS as a global network 
will be defeated when it can no longer direct or enable threats against 
the U.S. homeland or U.S. persons or interests and no longer function 
as a unified, global organization, including its ability to exploit 
safe havens and control populations and terrain. For ISIS branches and 
networks, we seek that these regress into smaller, disaggregated 
organizations that can be disrupted by local and regional governance, 
security, and law enforcement. Key to this definition are a range of 
activities to prevent ISIS re-emergence by the Global Coalition to 
Defeat ISIS, including stabilizing liberated communities and addressing 
ISIS's narrative of hate.

    Question. If we are so close to ISIS's defeat, does the 
Administration plan to seek new authority from Congress in order to 
keep U.S. forces in Syria to accomplish your non-ISIS objectives?

    Answer. ISIS has not been fully defeated and the continued military 
presence in Syria is critical to ensure that the Coalition can complete 
the eradication of ISIS and prevent its resurgence. Our military's 
purpose for being in Syria remains unchanged: defeating ISIS and 
degrading al-Qa'ida.
    The Administration has sufficient legal authority to prosecute the 
campaign against al-Qa'ida and associated forces, including against 
ISIS. Therefore, we have no plans to seek additional authority from 
Congress.

    Question. Our budget for the State Department Human Resources 
bureau has a line about its responsibilities to recruit and manage a 
talented diverse workforce. As you have said before, we need a State 
Department that reflects the American people and unfortunately we 
currently have a huge diversity gap in our Foreign and Civil Service 
workforce, especially at the higher ranks.
    a) How much of the State Department budget request prioritizes 
diversity and inclusion efforts at the State Department?

    Answer. The Department prioritizes its diversity and inclusion 
efforts by funding hiring and recruitment programs, mentoring 
initiatives, and outreach to veterans. For example, more than half of 
the budget for the Office of Recruitment, Examination, and Employment 
in the Bureau of Human Resources is focused on recruiting and including 
diversity in our workforce. Funded programs include the U.S. Foreign 
Service Internship program, Minority Summer Internship Opportunities, 
Don Bosco High School Corporate Work Study Program, the IT Fellows 
Program, the Workforce Recruitment Program for employees with 
disabilities, the Pickering and Rangel Fellowships, and the 
International Career Advancement Program.

    Question. b) In particular how much of the human resources budget 
focuses on retention at the State Department with professional 
development, unconscious bias training, and career advancement 
opportunities?

    Answer. Funding for professional development, unconscious bias 
training, and career advancement opportunities is spread across several 
bureaus in the Department. The Bureau of Human Resources' budget funds 
the Career Development Resource Center that provides professional 
career counseling services to Department employees, professional 
development courses not available through the Foreign Service Institute 
(FSI), and funding to support travel so employees can take mandatory 
training.
    FSI offerings include several courses that address diversity and 
mitigating unconscious bias as part of the broader leadership and 
management curriculum. A stand-alone course on mitigating unconscious 
bias will be rolled out in 2019.

    Question. I am deeply concerned by this Administration's systematic 
assault on women's rights and health. There appear to be drastic cuts 
from the FY18's budget request for funding for gender programs. These 
are critical investments to ensure that development is effective and 
that women and girls are also included and respected. How can you 
justify shrinking the request by 52% from last year, which was already 
a large cut from FY17?

    Answer. Societies that empower women to participate fully in civic 
and economic life are more prosperous and peaceful. The United States 
will continue to support efforts to advance women's equality, protect 
the rights of women and girls, and promote women and girls' empowerment 
programs across the globe. I look forward to leading the Department as 
it continues to address critical issues, including women's access to 
finance and protection from violence. Even as we have to make difficult 
trade-off decisions in a challenging budget environment, funding for 
gender programs across all sectors, including health, remains a 
priority.
    The Department and USAID's FY 2018 request for gender programs 
(including all women's leadership; gender based violence; women, peace, 
and security; and women's economic empowerment programs) totaled just 
more than $781 million. The State and USAID FY 2019 request for the 
same array of programs comes to more than $875 million, reflecting a 12 
percent increase. We look forward to continuing to empower and protect 
the rights of women and girls around the world through these invaluable 
programs.

    Question. The Trump administration has repeatedly appealed for 
greater international burden-sharing. U.N. peacekeeping is a prime 
example of this type of burden-sharing in action. The U.S. is the 
largest financial contributor to U.N. peacekeeping operations, 
currently assessed at 28% of the U.N.'s annual peacekeeping budget. At 
the same time, as a permanent member of the U.N. Security Council, the 
U.S. has final say over the decision to deploy peacekeeping missions in 
the first place. In addition, we provide very few personnel to these 
endeavors (currently just 57 personnel). This gap is filled by 120 
other countries.
    a) Do you agree that the deployment of U.N. peacekeeping operations 
helps the U.S. to share the responsibility for protecting international 
peace and security with other countries?

    Answer. It is essential for other nations to share the burden for 
protecting international peace and security and United Nations 
peacekeeping is an important means of leveraging international support 
to address these challenges. U.N. peacekeeping is an example of burden-
sharing by countries across the globe, and provides a collective 
benefit to the entire international community. However, the shared 
responsibility of peacekeeping also means shared burdens and shared 
costs. One country should not shoulder more than one quarter of the 
U.N. peacekeeping budget and I am committed to a more equitable 
distribution of the budget among member states in a fair and sensible 
manner that improves the efficiency and effectiveness of U.N. 
peacekeeping.

    Question. In light of the fact that the President is so keen to 
ensure that the U.S. is not burdened with such responsibilities, do you 
think it is in our national interest to continue to support U.N. 
peacekeeping missions?

    Answer. Peacekeeping is absolutely in the U.S. interest and remains 
a national security priority. For 70 years, U.N. peacekeeping has 
proven to be a powerful tool to address global challenges to 
international peace and security, and an important mechanism for 
sharing the costs of collective security. Today's peacekeepers are 
addressing some of the most challenging conflicts across the globe 
through missions that seek to protect civilians, prevent atrocities, 
and create space for political solutions to take hold. However, reform 
is needed to achieve better, smarter peacekeeping operations that are 
able to more effectively and efficiently address conflicts, support 
political solutions, and meet the needs of people on the ground.

    Question. Currently, the State Department estimates that the United 
States was likely to accumulate $274.6 million in peacekeeping arrears 
in FY 2017.
    Do you think failing to pay our bills in full and on time 
undermines our ability to work constructively with other members and 
with the U.N. management to pursue U.S. interests?

    Answer. The United States is accumulating peacekeeping arrears as 
the result of not exceeding the rate of 25 percent of total 
peacekeeping assessments. This rate reflects the principle that no one 
country should pay more than one quarter of U.N. peacekeeping 
assessments. The 25 percent rate for peacekeeping assessments mandated 
under U.S. law is not new, having been first enacted into law in 1994.
    As long as the actual U.S. peacekeeping assessment rate exceeds 25 
percent and current law caps U.S. contributions at 25 percent, U.S. 
peacekeeping arrears will continue to grow. There is an effort underway 
to obtain General Assembly agreement to place a 25 percent ceiling on 
any country's peacekeeping assessment rate. This will not alleviate the 
current level of U.S. peacekeeping arrears, but it will arrest any 
further growth.

    Question. Last month, the U.N. Panel of Experts on Yemen reported 
to the Security Council that it had ``identified missile remnants, 
related military equipment, and military unmanned aerial vehicles that 
are of Iranian origin and were brought into Yemen after the imposition 
of the targeted arms embargo.'' The experts concluded that Iran 
violated sanctions by failing to prevent the supply, sale, or transfer 
of the missiles and unmanned aerial vehicles to the Houthis in Yemen. 
This seems like a clear opportunity where there is international 
consensus that Iran has unclean hands in destabilizing the region, and 
yet it does not appear that there is an action plan for imposing U.S. 
or U.N. sanctions in response to the regime's violations beyond words 
and tweets. Can you inform the Committee as to the Administration's 
plan to ensure that there are consequences for Iranian violations of 
the arms embargo?

    Answer. We continue to ask the U.N. Security Council to hold Iran 
accountable for weapons shipments into Yemen in defiance of U.N. 
Security Council resolutions 2231 and 2216. On May 21, the United 
States imposed sanctions on five Iranians (including four with ties to 
the Islamic Revolutionary Guard Corps) who facilitated the transfer of 
missile technology and expertise to the Houthis that was later used to 
attack Saudi Arabia. We are working to expand missile defense 
cooperation and interoperability with Israel, the GCC countries, and 
others--many of whom are purchasing significant missile defense 
capabilities from U.S. companies--and to deter and disrupt Iranian 
threats and to interdict ballistic missile technology destined for 
Iran.

    Question. Mr. Secretary, the U.S. is currently suffering an opioid 
epidemic that is one of the worst public health crises in our country's 
history. According to the Center for Disease Control, more than 42,000 
Americans lost their lives to opioid overdoses in 2016--more than 
20,000 of those deaths were related to fentanyl and more than 15,000 
were related to heroin. As you know, the majority of the heroin coming 
into the U.S. originates from Mexico and much of illicit fentanyl 
entering the U.S. comes from China. While the President signed an 
emergency declaration on the opioid crisis, alarmingly, your budget 
proposes a 30 percent cut of $375 million for our international 
counternarcotics budget and, in the specific case of Mexico, you've 
proposed a 38 percent cut. a) Can you explain to this Committee and the 
American people why you want to cut funding to programs that seek to 
stop illegal drugs before they get to our border--cuts that literally 
put the lives of our fellow citizens at risk?

    Answer. The FY 2019 budget request focuses resources on the highest 
national security priorities, including combating the opioid epidemic. 
Within the request for International Narcotics and Law Enforcement 
(INCLE), we increased funding to counter opioids for counternarcotics 
programs targeted at reducing the flow of heroin and fentanyl to the 
United States. These efforts focus on curtailing the sale of illicit 
opioids on the internet, disrupting the supply via mail, attacking drug 
trafficking organizations, and expanding the global tools available for 
law enforcement to combat the opioid crisis. The Department of State 
maintains strong cooperation with Mexico and China to disrupt the 
production and trafficking of heroin and illicit fentanyl and I commit 
to continue this effort and seek more opportunities where we can be 
more effective.

    Question. How do you plan to effectively address the opioid crisis 
in our country with such a reduced budget?

    Answer. The Department's FY 2019 budget request focuses resources 
on U.S. national security priorities, including efforts to combat the 
opioid epidemic. The request includes increased funding for countering 
opioids by focusing on programming that can directly help reduce the 
flow of heroin and fentanyl to the United States. The Department of 
State continues to work closely with key international partners, 
including Mexico and China, to reduce the production and availability 
of heroin, fentanyl, and other illicit drugs and to dismantle 
transnational criminal organizations fueling their illicit supply.

    Question. Do you believe the United States and Mexico must have a 
productive working relationship to address narcotics trafficking?

    Answer. Mexico is a critically important partner on 
counternarcotics and disrupting transnational organized crime. The 
Department of State must work closely with Mexico to reduce the 
availability and trafficking of heroin, fentanyl, and other illicit 
drugs to the United States.
    To protect American lives, we must curb U.S. demand that fuels the 
illicit drug trade; disrupt networks that smuggle drugs, cash, and 
weapons across our shared border with Mexico; partner with Mexico to 
achieve meaningful criminal justice outcomes that deny transnational 
criminal organizations the ability to act with impunity and profit from 
their crimes; and fight the corruption that undermines our efforts.

    Question. How will you ensure that the U.S. refugee resettlement 
program is at a minimum reaching the Administration's cap and will you 
advocate in favor of resettling the most vulnerable refugee 
populations?

    Answer. The President authorized the admission of up to 45,000 
refugees in FY 2018. Over the last year and a half, U.S. government 
agencies have worked to strengthen the U.S. Refugee Admissions 
Program's security measures. While necessary to improve national 
security and public safety, these reviews and enhancements have 
lengthened processing times for some cases thus initially slowing the 
rate of admissions. In addition, the United States is focusing 
resources on the domestic asylum backlog, which is over 300,000 cases 
and growing. Nevertheless, the United States continues to prioritize 
the resettlement of the world's most vulnerable refugees. We work 
closely with U.N. High Commissioner for Refugees and other partners to 
identify the refugees at greatest risk and in most need of resettlement 
in a third country.

    Question. I understand there is a push to move core functions of 
refugee resettlement into DHS and refugee funding from State into USAID 
and out of the State Department's diplomatic and policy-making purview. 
This would be a grave mistake. Do you believe that refugee support and 
resettlement should be considered in concert with broader U.S. foreign 
policy objectives?

    Answer. Yes, I believe assistance to refugees and refugee 
resettlement must be considered in concert with broader U.S. foreign 
policy objectives. I support the important work of the Bureau of 
Population, Refugees, and Migration, which manages U.S. refugee policy, 
assistance, and resettlement. PRM fulfills a critical role in providing 
humanitarian aid, durable solutions and other assistance for refugees, 
conflict victims, and stateless people around the world and is an 
integral part of State's efforts to prevent and respond to crises and 
conflict.

    Question. Should our refugee programs and policy therefore be 
housed under the State Department, which is responsible for making and 
executing foreign policy objectives?

    Answer. As I noted, the Bureau of Population, Refugees, and 
Migration, which manages U.S. refugee policy, assistance, and 
resettlement, is an integral part of State's foreign policy efforts to 
prevent and respond to crises and conflict, and promote regional 
stability. I understand that as part of E.O. 13781, the Administration 
is in the process of reviewing agencies throughout the executive branch 
in pursuit of increased efficiency, effectiveness, and accountability. 
The Department of State is working with USAID to optimize our overall 
humanitarian assistance efforts.

    Question. I look around the world and see humanitarian heartbreak . 
. . but I know that OMB has withheld greater levels of humanitarian 
assistance from one year to the next. a) How much of the funding that 
Congress provided for humanitarian assistance is the administration 
carrying over from FY17 to FY18 and FY18 to FY19?

    Answer. In FY 2017 and FY 2018, Congress generously provided 
significant resources to respond to humanitarian challenges and the 
tremendous growth in needs. Due to the timing of the generous 
appropriation that Congress provided in FY 2017, we carried over 
roughly $1.1 billion into FY 2018 from the IDA and MRA accounts that, 
when combined with this year's appropriation, will allow us to respond 
adequately to humanitarian challenges in FY 2018. As for carryover into 
FY 2019, the crises to which we are responding are evolving 
continuously. As such, we will not have a sense of the level of 
carryover until the end of the fiscal year. We will continue providing 
humanitarian assistance based on need; bureaus are not carrying over a 
specific amount of funding into FY 2019.
    We appreciate the no-year availability of humanitarian assistance 
funds and the flexibility it provides to respond to changing and 
evolving emergency contexts. The availability of carryover is integral 
to our ability to seamlessly continue ongoing responses or to mount a 
humanitarian response to an unexpected disaster at the beginning of the 
next fiscal year.

    Question. b) What is your plan to get those funds out the door in a 
responsible yet timely fashion to address the massive needs around the 
world?

    Answer. In FY 2017 and FY 2018, Congress generously provided 
significant resources to respond to humanitarian challenges and the 
tremendous growth in needs. The State Department and USAID will 
continue use all resources made available to support populations with 
the greatest humanitarian need while also focusing on improving the 
efficiency and effectiveness of humanitarian operations, both by the 
U.S. agencies and implementing partners, including international 
organizations. When making funding decisions, we carefully consider 
many factors, including the severity of needs, funding availability, 
contributions from other donors, access and security constraints in 
affected countries, as well as the absorptive capacity of implementing 
partners, all in order to ensure that humanitarian resources are 
programmed responsible, effectively, and in a timely manner.

    Question. China's official development assistance to African 
countries has increased by more than 780% since 2003. And last year, 
while the Trump administration proposed deep cuts in our diplomacy and 
development budget, President Xi of China pledged $124 billion for a 
new global infrastructure and development initiative called ``One Belt 
One Road.'' At the same time, the Administration is proposing to close 
USAID missions and eliminate economic and development assistance to 
numerous countries in Asia and to slash the budget of the East Asia and 
Pacific Bureau by over $380 million. Are you concerned that your 
cutbacks could provide an opening for China to exert additional 
influence in Asia and around the globe?

    Answer. The United States is advancing economic development and 
prosperity across the Indo-Pacific region and around the globe. The 
Administration will remain engaged internationally to maintain U.S. 
power and influence, work with allies and partners to address China's 
growing influence and ambitions, and identify ways to ensure America's 
continued presence and leadership.

    Question. China and ZTE: What is your view, knowing what you know 
from your previous position in this Administration, about the threat 
that ZTE poses to U.S. national security, and their actions in 
violating U.S. sanctions?

    Answer. It is a longstanding practice of the Department of State 
not to comment on matters of intelligence. ZTE's actions were clearly 
laid out in the civil and criminal cases presented by the Departments 
of Commerce, Treasury, and Justice. I refer you to those agencies for 
further comment.

    Question. Given that reality, do you think it is appropriate for 
the U.S., as President Trump expressed, to seek to work to get ZTE 
``back in business'' and to seek to support ZTE's Chinese jobs?

    Answer. For information about the Administration's response to ZTE, 
I refer you to the U.S. Department of Commerce.

    Question. Was easing off ZTE was a quid pro quo for a trade deal 
with China?

    Answer. This was an enforcement action and not a part of a trade 
deal. I refer you to the U.S. Department of Commerce for further 
information.

    Question. Was the President's action on ZTE an indication that we 
need China so much on North Korea that we're willing to give up other 
objectives?

    Answer. North Korea is a shared security threat. It is in the 
interests of America and China to work together on this issue. 
Acknowledging China's unique leverage and influence on the DPRK, I will 
continue to engage with China as we work towards the goal of 
denuclearizing the DPRK. Our goal for a diplomatic solution is to 
achieve the complete, verifiable, irreversible denuclearization of the 
Korean Peninsula. I would refer you to the White House for more 
information regarding the President's action on ZTE.

    Question. Do you think this sends a signal that the president is 
not willing to enforce legally mandated sanctions?

    Answer. No. The Administration is in the process of imposing the 
strongest sanctions in history on Iran, and the sting of sanctions will 
only grow more painful if the regime does not change course from the 
unacceptable and unproductive path it has chosen for itself and the 
people of Iran. Since President Trump took office in 2017, the 
Department of State and the Department of the Treasury have combined to 
sanction more than 110 individuals and entities for their involvement 
in Iran's malign activities, including the designation of 18 
individuals and entities this past week. The Administration has also 
sanctioned more than 148 individuals and entities under the North Korea 
sanctions program. These sanctions are part of the Administration's 
global maximum pressure campaign against North Korea launched in April 
2017, which will remain in force until complete denuclearization is 
achieved.

    Question. What implications does this have as we look to confront 
Iran? Or other nefarious actors?

    Answer. Our assessment is that the Administration's policies and 
decisions with respect to ZTE will not affect our ability to work with 
partners, allies, and others on Iran.

    Question. Today Burkina Faso broke its diplomatic relationship with 
Taiwan. This is now the third country to end its diplomatic ties to 
Taiwan in the past year under pressure from Beijing, a very troubling 
set of developments--and developments to which the Administration does 
not yet appear to have developed an effective policy or response. a) 
Can you share with me your perspective on these developments?

    Answer. I am aware of China's efforts to alter the status quo 
across the Taiwan Strait and undermine the framework that has enabled 
peace, stability, and development for decades is concerning. I am 
greatly disappointed in countries' decisions to switch diplomatic 
recognition from Taipei to Beijing, as well as China's increased 
efforts to entice Taiwan's remaining diplomatic partners to follow 
suit.
    Per longstanding policy, the United States opposes unilateral 
actions by either side that alter the status quo across the Taiwan 
Strait. Switching diplomatic recognition is destabilizing to that 
delicate balance.
    The United States continues to stand by Taiwan and to maintain 
cooperative and friendly relations with Taiwan in accordance with our 
one China policy set forth in the three Joint Communiques and Taiwan 
Relations Act.

    Question. b) What actions will you take to respond to and counter 
China's efforts to constrain Taiwan's international space?

    Answer. Although Beijing seeks to continue to constrain Taiwan's 
involvement in global affairs, I am committed to supporting Taiwan as 
it seeks to expand its already significant contributions to addressing 
global challenges.
    The United States supports Taiwan's membership in international 
organizations that do not require statehood. In organizations that 
require statehood for membership, we support Taiwan's meaningful 
participation. The most recent example of this was a multi-country 
effort to push for Taiwan's participation at the 2018 World Health 
Assembly as an observer. While the proposal was blocked, it sent a 
strong message to Beijing that the United States and like-minded 
partners support Taiwan's meaningful participation in the World Health 
Organization.
    Moving forward, I will continue working to find creative ways to 
expand Taiwan's international space, such as the Global Cooperation and 
Training Framework (GCTF), a joint U.S.-Taiwan effort that addresses 
emerging global and regional security challenges by providing training 
to third country nationals. Since its launching, the GCTF has served as 
a strong platform to advance common goals.

    Question. c) What concrete actions will the Administration take to 
engage with Taiwan's remaining diplomatic partners to encourage them to 
continue to maintain relations with Taipei?

    Answer. I have instructed our embassies to underscore the 
importance of cross-Strait stability to the United States and express 
our great disappointment with countries that fail to consider this 
critical factor in their decision to switch diplomatic recognition and 
destabilize the delicate balance in the Taiwan Strait.
    We also cautioned that China's financing practices can come at a 
steep price for recipient countries in terms of the negative effects on 
local labor and environmental conditions, debt sustainability, and rule 
of law.

    Question. The Administration's approach to Africa--to the extent 
that it has one--has for over a year appeared disjointed and 
uncoordinated. In key countries on the continent, the Administration 
does not appear to have embraced a whole of government approach which 
places equal emphasis on the three D's: Defense, Diplomacy and 
Development. The starkest example is Niger. We have troops there, we 
are building a base in Agadez, and our military has suffered 
casualties. What is not clear is our diplomatic strategy there. a) What 
is our strategy, and how does this budget support it? How do you plan 
to fill critical vacancies at Embassy Niamey?

    Answer. The U.S. strategy in Niger seeks to improve the country's 
ability to defend itself against terrorist and other transnational 
threats; counter radicalization to violence; strengthen democracy; 
promote good governance; and improve health, nutrition, and 
agriculture. The Department works closely with the Department of 
Defense and USAID to advance this strategy and coordinate programs with 
regional and other partner nations such as through the Trans-Sahara 
Counterterrorism Partnership. Since I lifted the hiring freeze, the 
Bureau of African Affairs and Embassy Niamey have been working to 
identify potential candidates among qualified Civil Service and 
Appointment Eligible Family Member applicants, in addition to Foreign 
Service Officers. We are optimistic that critical vacancies will be 
filled in the coming months.

    Question. b) Given the need to ensure balance between the three 
D's, will you support the establishment of a full USAID mission there?

    Answer. We regularly review our posture at all our overseas 
missions to facilitate appropriate allocation of resources and staff, 
which is dependent on the unique circumstances of each location.

    Question. The amount available for Democracy and Governance for 
Africa in 2017 was approximately $330 million. The Administration's 
request for the past 2 fiscal years has been less than half that 
amount. In advance of your confirmation, I asked how you propose to 
achieve the stated policy goals of the Administration for Africa in 
working with promising nations to promote effective governance, improve 
the rule of law, and develop institutions accountable and responsive to 
citizens with such a drastic reduction in the democracy and governance 
budget. You said, in part, that we would rely ``on other nations to 
make greater contributions toward shared objectives, including 
advancing democracy worldwide.'' a) Which nations were consulted about 
their contributions in this area in advance of finalizing the Fiscal 
Year 2019 budget request? What did they commit to provide?

    Answer. Democracy, human rights, and governance (DRG) programs are 
key to safeguarding national security, fostering global prosperity, 
asserting U.S. influence and leadership, and ensuring foreign 
assistance programs are sustainable and effective. DRG programs support 
rule of law and human rights, good governance, political competition 
and consensus building, and civil society. The Administration continues 
to have regular discussions with like-minded allies, including the EU, 
France, and UK, to discuss the need for greater assistance to Africa to 
support democracy, human rights, and good governance initiatives, 
specifically the need to coordinate assistance between foreign 
partners. Each of these countries has expressed a willingness to work 
with us to achieve shared goals related to democratic strengthening in 
the region.

    Question. b) To your knowledge, were discussions about their doing 
so held in advance of submitting the budget request?

    Answer. The Administration's FY 2019 budget request was developed 
over the course of many months of interagency deliberation, during 
which a number of factors contributed to the final decision-making 
process. Among the factors considered are the current development needs 
being met by foreign partners that advance U.S. government objectives 
across the globe. The FY 2019 request was submitted to Congress on 
February 12, 2018, several weeks prior to my confirmation; however, I 
know the Administration has had regular and ongoing discussions about 
shared objectives with like-minded partners since the President took 
office in January 2017.
                                 ______
                                 

      Responses of Secretary of State Michael Pompeo to Questions 
                    Submitted by Senator Marco Rubio

    Question. Do you believe that if the United States eases sanctions 
penalties against ZTE, it would risk making sanctions enforcement more 
difficult in the future?

    Answer. No. Regardless of the outcome in ZTE's current situation, 
ZTE has already experienced enormous consequences for its actions. For 
specifics on the ZTE issue, I refer you to the Department of Commerce, 
which has responsibility for enforcing denial orders. However, I do 
note that the ZTE denial order is an example of the significant 
consequences of violating or seeking to evade U.S. sanctions or export 
controls. The United States intends to continue to vigorously enforce 
our sanctions, including those related to Iran and North Korea, and has 
repeatedly demonstrated willingness to impose penalties on those who 
violate or seek to evade our sanctions, including third-country 
companies. In light of this, I do not anticipate any negative impact on 
our sanctions enforcement writ large.

    Question. If we ease the penalties against ZTE, are Chinese 
companies more likely to participate in U.S. sanctions-busting in the 
future?

    Answer. I am clear-eyed about Chinese companies' record on 
sanctions compliance and ZTE's record in particular. No company in 
China or elsewhere should be able to violate U.S. sanctions or export 
controls without consequence; whatever the final outcome of ZTE's 
current situation, they have experienced enormous consequences for 
their actions. The unprecedented actions taken against ZTE send a 
strong message to all companies worldwide that flout U.S. law that such 
behavior will not be tolerated and can have severe consequences.

    Question. A growing list of American companies have made 
concessions to the Chinese government in hopes of protecting their 
bottom lines, but doing so has only further emboldened Beijing. 
American and United Airlines are in the throes of navigating this. Just 
last week, Gap was forced to apologize for printing a T-shirt with a 
map of China on it that did not include Taiwan and the South China Sea, 
which Beijing illegally claims. How is the Department proactively 
engaging with American companies on this issue?

    Answer. I am very concerned by Beijing's attempts at economic 
coercion. We have told the Chinese government that the United States 
strongly objects to China's attempts to compel private firms, including 
airlines, to use specific language of a political nature in their 
publicly available context. We have called upon China to stop 
threatening and coercing American companies and citizens and have 
expressed concern over unspecified threats of punishment to airlines 
that do not implement the changes China has requested.
    We have requested consultations with China on the matter and also 
requested that China delay implementation of its order to airlines 
pending those consultations. We have also raised--and continue to 
raise--this issue with partner governments, urging them to express 
concerns to China as the United States has done. We remain in close 
touch with U.S. airlines and other federal agencies.

    Question. What, if anything, is the Administration willing and able 
to do to defend U.S. companies from this type of inappropriate Chinese 
aggression?

    Answer. We regularly press China in support of U.S. business 
interests. As part of our overall effort to ensure a fair and 
reciprocal economic relationship between the United States and China, 
we protest instances in which U.S. companies operating in China are 
subject to opaque rules, arbitrary imposition of regulations, and 
political interference in their business operations. As a general 
principle, we advise companies to use international best practices and 
their own internal procedures rather than allow China to dictate how 
they conduct their internal business. We deplore China's efforts to 
export its censorship and impose its political views on U.S. and other 
foreign companies. We will consider additional steps in response to 
coercion or pressure on a case-by-case basis.

    Question. What are our red lines for when a U.S.-based employee for 
Marriott is fired for accidentally liking a tweet on Tibet?

    Answer. We deplore China's efforts to impose its political views on 
U.S. and other foreign companies and advise companies to use 
international best practices and their own internal procedures rather 
than allow China to dictate how they conduct their internal business. 
We have strongly urged Chinese authorities to work constructively with 
company representatives to resolve business disputes in the spirit of 
openness, transparency, and without resort to coercion or threat. 
Official retaliation for clerical and other procedural issues sends a 
chilling signal about China's ability to ensure fair and predictable 
treatment for foreign investors and to sustain a welcoming investment 
climate. American companies are major investors in China and support 
millions of local jobs and other economic activity of direct benefit to 
China.

    Question. What is the State Department doing to encourage countries 
with diplomatic relations with Taiwan not to concede to efforts by the 
Chinese government and Communist Party to aggressively use their 
coercive ``long arm'' to target or isolate Taiwan, especially after the 
regrettable decisions by Panama, the Dominican Republic and Burkina 
Faso?

    Answer. China's efforts to alter the status quo across the Taiwan 
Strait and undermine the framework that has enabled peace, stability, 
and development for decades is concerning. I have instructed our 
embassies to underscore the importance to the United States of cross-
Strait stability and express our great disappointment with countries 
that fail to consider this critical factor in their decision to switch 
diplomatic recognition and destabilize the delicate balance in the 
Taiwan Strait.
    We have also cautioned countries that China's financing practices 
can come at a steep price for recipient countries in terms of the 
negative effects on local labor and environmental conditions, debt 
sustainability, and rule of law.
    Taiwan is a vibrant democracy and reliable partner that has made 
valuable contributions to addressing global challenges. The United 
States continues to stand by Taiwan and to conduct cooperative and 
friendly relations with Taiwan in accordance with our one China policy 
set forth in the three Joint Communiques and Taiwan Relations Act.

    Question. On May 23, 2018, the U.S. Embassy in Beijing acknowledged 
that a State Department employee in China had experienced a ``mild 
traumatic brain injury and permanent hearing loss, with such additional 
symptoms as loss of balance, severe headaches, cognitive disruption, 
and brain swelling.'' As you noted in your testimony, this is 
consistent with what U.S. diplomatic personnel experienced in Havana. 
Has a U.S. government employee been attacked in China?

    Answer. The health, safety, and well-being of U.S. government 
employees and their family members are our greatest concern. In March, 
an employee at the U.S. Consulate General in Guangzhou reported 
experiencing a variety of physical symptoms. The employee was screened 
by medical personnel at the consulate and in April went to the United 
States for further medical examination. On May 16, medical personnel in 
the United States informed the State Department that the employee's 
symptoms and clinical findings were consistent with the 24 previously 
identified cases from the U.S. Embassy in Havana.
    A State Department medical team is expected to arrive in Guangzhou 
on May 31 to begin medical screening for employees and their family 
members at the Consulate General, where more than 100 individuals have 
requested screening. We do not know what caused the symptoms, and an 
investigation is ongoing. The Department has undertaken a government-
wide effort to find the cause behind this incident.

    Question. How is the State Department investigating the incident? 
Does it plan to convene an Accountability Review Board (ARB) for this 
incident in China?

    Answer. The Department has undertaken a government-wide effort to 
find the cause behind this incident. We continue to gather information 
to determine whether the criteria have been met for convening an 
Accountability Review Board.

    Question. Are you viewing this as directly connected to the attacks 
in Cuba?

    Answer. The medical indications of the incident in Guangzhou are 
very similar and entirely consistent with the medical indications that 
have taken place to U.S. citizens in Cuba. However, a direct link among 
cases has not been made.

    Question. Have other U.S. government employees in China complained 
of these symptoms?

    Answer. A State Department medical team is expected to arrive in 
Guangzhou on May 31 to begin medical screening for employees and their 
family members at Consulate General Guangzhou, where more than 100 
individuals have requested screening.

    Question. How has the Chinese government responded to the situation 
so far?

    Answer. We have stressed our concern to the Chinese government, 
which has offered its support. The Chinese government has also assured 
us it will honor its commitments under the Vienna Convention to protect 
our diplomats. We are working with the Chinese government to look into 
this situation.

    Question. The human rights abuses occurring daily in the Xinjiang 
Uyghur Autonomous Region (XUAR) of China are deeply disturbing and 
include mass surveillance, the involuntary collection of biodata, 
severe violations of religious freedom, and arbitrary arrests. Some 
estimates have as many as 500,000 to 1 million Uyghurs, Kazaks, Kyrgyz, 
and Hui currently detained in ``political education camps.'' Among 
those detained are dozens of family members of Radio Free Asia Uyghur 
Service journalists. The crackdown has intensified since Communist 
Party Chief Chen Quanguo came to leadership in 2017, having previously 
served in the same role in the Tibetan Autonomous Region, where he 
imposed onerous restrictions on the Tibetan population, including the 
imposition of so-called ``convenience police stations.'' Is the State 
Department acting on my written request for Ambassador Branstad and the 
U.S. Embassy in China to begin compiling relevant information regarding 
specific XUAR officials who are responsible for the arbitrary mass 
detention and abuse of Uyghurs, for possible sanctions under Global 
Magnitsky?

    Answer. I am deeply concerned by reports of an ongoing and 
deepening crackdown on Uighurs and other Muslims in Xinjiang, China. 
The Department of State has a variety of tools to press for progress on 
human rights issues with China. We are looking at Global Magnitsky 
sanctions to combat serious human rights abuses and corruption on a 
global scale. We have used this authority in the past to sanction a 
Chinese official implicated in serious human rights abuses. I can 
assure you that we are committed to continuing our robust 
implementation of this program.

    Question. July 13 marks the 1-year anniversary of the death of 
Chinese political prisoner and Nobel Laureate Liu Xiaobo. His widow, 
Liu Xia, continues to languish unjustly under house arrest. A 
devastating audio recording of a phone call that she had with a friend 
in exile recently emerged in which she said: ``There is nothing I fear 
now. If I can't leave, I'll just die at home. Xiaobo has already left, 
there is nothing in this world for me. Dying is easier than living--
there is nothing simpler for me than to protest with death.'' What 
specifically is the State Department doing to secure her release?

    Answer. I remain deeply concerned about the well-being and freedom 
of Liu Xiaobo's widow, Liu Xia. I am also troubled by reports that her 
health is deteriorating. Ambassador Branstad and senior State 
Department officials are engaged in sustained public and private 
advocacy on behalf of Liu Xia in order to secure her freedom to 
movement, including in coordination with U.S. allies and partners.

    Question. Will you commit to issuing a public statement on the July 
13th anniversary of Liu Xiaobo's death that calls for Liu Xia's 
release?

    Answer. Liu Xiaobo remains a powerful symbol for all who fight for 
freedom, democracy, and a better world. I will continue to support 
public advocacy to press for Liu Xia's well-being and freedom of 
movement, including on the 1-year anniversary of Liu Xiaobo's passing.

    Question. Has Ambassador Branstad invited her [Liu Xia] to visit 
the embassy?

    Answer. Ambassador Branstad and senior State Department officials 
are engaged in sustained advocacy on behalf of Liu Xia in order to 
secure her release from 8 years of unjustified house arrest and her 
ability to leave the country according to her wishes. I am also willing 
to leverage whatever requests for access and visits that will help Liu 
Xia.

    Question. Is the prospect of renaming the street in front of the 
Chinese embassy after Liu Xiaobo under consideration if the Chinese 
refuse to allow her [Liu Xia's] freedom of movement and travel?

    Answer. I am committed to making use of all tools at my disposal to 
press for Liu Xia's well-being and freedom of movement.

    Question. In order to remove the Maduro regime from Venezuela and 
return the country to the democratic order, we cannot be the lone voice 
on the issue. I was heartened to see the Lima Group on May 21, 2018, 
issue a declaration after the sham elections in Venezuela in which 
members pledged not to recognize the election, to recall ambassadors 
from Venezuela for consultations, and, critically, to warn other 
countries from taking on Venezuelan debt that wasn't approved by the 
National Assembly. Is the State Department coordinating efforts with 
the Lima Group in order to place maximum pressure on the Maduro regime?

    Answer. Yes. The Department is coordinating closely with like-
minded democracies, including the Lima Group, to intensify the 
international community's efforts to urge the Maduro regime to restore 
peacefully Venezuela's democracy and resolve quickly the political, 
economic, social, and humanitarian crisis. We supported the Lima 
Group's condemnation of the May 20 presidential elections, which 
included concrete steps member countries will take to place additional 
pressure on the regime. At the Lima Group's invitation, the Department 
has participated in four of its six meetings, including my 
participation in the most recent one on May 14. I will continue to 
support future Lima Group activities as appropriate.

    Question. Following the latest round of U.S. sanctions, do you 
believe that countries like Russia and China will continue to take on 
Venezuelan debt?

    Answer. Russia and China have substantial investments in Venezuela. 
Both countries publicly congratulated Maduro following the sham 
election, making clear they intend to continue to protect and promote 
their interests in Venezuela, possibly at the expense of the Venezuelan 
people. Before this latest round of U.S. sanctions, however, and even 
before the August 2017 U.S. financial sanctions, it appeared neither 
China nor Russia was willing to take on large amounts of additional 
debt under current circumstances given the uncertainty of repayment and 
Venezuela's record of defaulting on debt. The Department follows this 
issue closely and sees no willingness on the part of other countries to 
add to Venezuela's unsustainable debt load. Other evidence, such as 
Venezuela's use of IMF special drawing rights to pay creditors and 
bartering natural resources for imports, indicates an absence of new 
credit.

    Question. Is the White House committed to not recognizing any debt 
not approved by the legitimate National Assembly?

    Answer. The Department is committed to supporting legitimate, 
democratic actors in Venezuela including the National Assembly, which 
is established under the Venezuelan constitution of 1999 and whose 
members were democratically elected, as it seeks to fulfill its mandate 
to review and approve any debt incurred by Venezuela. The Maduro regime 
continues to undermine the National Assembly's constitutional role. I 
support the Department's efforts to restore the National Assembly's 
duties and those of other legitimate democratic actors and institutions 
within Venezuela to help resolve the crisis.

    Question. Venezuela's economy is in a total freefall. The IMF 
forecasted in January that inflation would reach nearly 13,000% in 
2018, while other measurements indicate that prices double every 17.5 
days. The average Venezuelan has lost an average of 24 lbs. on the 
``Maduro diet.'' Because they can't cast a legitimate ballot at home, 
many Venezuelans have decided to vote with their feet, flee their 
country's crisis, and seek refuge in neighboring countries. Over the 
past 3 years, nearly 600,000 Venezuelans have sought asylum or received 
an alternative legal status from other Western Hemisphere nations, 
according to the U.N. Refugee Agency, which estimates that up to 
900,000 more may be residing in Colombia and other countries in the 
region without authorization. This massive migration is quickly burning 
through the available resources of their host countries. Is the Trump 
administration willing to provide assistance to the Venezuelan people?

    Answer. Since 2017 the United States has committed nearly $40 
million to the regional response to the Venezuelan crisis, mostly to 
support Venezuelans in Colombia and Brazil. In coordination with the 
Lima Group, the OAS, and others, I stand ready to do more to support 
Venezuelans fleeing their country. The Department is also prepared to 
offer humanitarian support within Venezuela should the Maduro regime 
allow vital assistance to reach its people. I support ongoing 
discussions regarding how the Department can increase its support and 
urge others in the international community to do the same. The 
Venezuelan people are the focal point of our assistance efforts, as 
they suffer the most from this terrible crisis.

    Question. Have you staffed a coordinated State Department and USAID 
strategy to address the immediate humanitarian needs of Venezuelans, 
both inside Venezuela and in neighboring countries?

    Answer. The Department and USAID are working together to organize 
our response to the humanitarian needs of Venezuelans inside and 
outside the country. As you are aware, the United States is unable to 
get urgently needed supplies into the country due to the regime's 
rejection of humanitarian assistance. We are coordinating efforts with 
our international partners to provide additional assistance beyond the 
nearly $40 million we have offered since 2017, mostly to support 
assistance to Venezuelans in Colombia and Brazil, and I will continue 
to support these efforts.

    Question. How are you working with our friends and neighbors in the 
region to address the humanitarian crisis?

    Answer. I support the Department's efforts to work alongside the 
Lima Group, the EU, the Vatican, and other partners in the 
international community to address the regime-orchestrated 
humanitarian, economic, political, and social crises facing the 
Venezuelan people. In order for our efforts to be successful, I will 
continue to coordinate our humanitarian response with others to prevent 
further regional instability. I also stand ready to support any Lima 
Group efforts to discuss the migration and humanitarian crisis.

    Question. Is there a plan for assisting the legitimate and 
democratic future government of Venezuela with reconstruction efforts?

    Answer. Yes. The Department is considering additional options to 
support democratic actors who wish to develop an alternative vision for 
Venezuela's future that would include political and economic 
restructuring and support for a consensus plan to restore Venezuela's 
democracy. I support this effort to ensure legitimate democratic actors 
are coordinating with each other and have the necessary mechanisms in 
place to promote an interim, inclusive government that would enable a 
return to democracy, including free and fair elections. I am also 
prepared to support the Venezuelan opposition and civil society as they 
solidify a plan to provide a democratic future for the millions of 
Venezuelans suffering under the regime.

    Question. One of the unintended consequences of the flawed peace 
deal in Colombia has been a large increase in cocaine coming towards 
our borders. This was easy to see coming. President Santos, at the 
request of the FARC, halted aerial eradication efforts. Jesus Santrich, 
one of the FARC's leaders who is now a member of parliament, was 
recently accused by the U.S. Drug Enforcement Administration of 
planning to smuggle eleven tons of cocaine into the United States. The 
FARC claims that if the Colombian government extradites Santrich, the 
peace deal would be at risk of ``truly failing.'' Do you believe there 
will be a large increase in cocaine entering the U.S. due to the 
Colombia peace deal?

    Answer. The success of the peace accord and our shared efforts 
against drug trafficking are inextricably linked. Increased coca 
cultivation can be attributed to multiple factors, including coca 
growers moving plantings to areas where aerial eradication was more 
difficult, FARC efforts to encourage new plantings from 2013 onwards, 
and the increasing use and effectiveness of social protests to block 
manual eradication. Colombia needs to do more to reverse the alarming 
growth in coca cultivation and cocaine production in Colombia. We are 
working with the Colombian government to reduce coca cultivation and 
cocaine production in Colombia to 50 percent of current levels by 2023.

    Question. Do you support the extradition of Jesus Santrich?

    Answer. I strongly support U.S. efforts to seek extradition of 
those who break U.S. laws wherever they might reside or travel so that 
they can be held accountable in U.S. courts, including FARC Secretariat 
member Seusis Pausivas Hernandez, alias Jesus Santrich. The United 
States and Colombia enjoy an outstanding law enforcement, security, and 
extradition relationship that has benefited the victims of 
transnational crime in both countries. Colombia extradited 2,124 
individuals to the United States from 1997 through April 2018--by far 
the largest number of extraditions to the United States from any 
country during that period.

    Question. Do you support the continued robust foreign assistance to 
Colombia in order to help stem the flow of cocaine to the United 
States?

    Answer. Yes. We are working with the Colombian government to reduce 
cocaine production and coca cultivation in Colombia to 50 percent of 
current levels by 2023. The Department will urge the incoming Colombian 
government to enhance its counternarcotics policies, particularly 
through approaches such as forced eradication and by expanding capable 
government services and economic opportunities to vulnerable regions.

    Question. By recognizing Jerusalem as Israel's eternal and 
undivided capital and moving our embassy there, the United States 
acknowledged reality and righted a historic wrong. Now that the embassy 
has officially opened, what are the State Department's plans going 
forward for a new permanent embassy facility in Jerusalem?

    Answer. The Department of State has started the process of site 
selection for a permanent U.S. Embassy to Israel in Jerusalem. We are 
looking at all sites we currently lease or own as well as other 
options. We expect site selection, design, planning and permitting, and 
construction of a permanent embassy in Jerusalem to take 7 to 10 years. 
That timeframe reflects our firm commitment to the safety and security 
of U.S. diplomats and citizens abroad.

    Question. Does the Administration intend to request funds in the FY 
2020 budget for building a permanent embassy?

    Answer. The construction of a new U.S. Embassy facility in 
Jerusalem is a high priority for the Administration. While decisions on 
the Administration's FY 2020 budget request have not yet been made, 
planning for the construction of a permanent facility for Embassy 
Jerusalem is ongoing and the Department intends to utilize available 
funding from the Capital Security Cost Sharing program, as necessary, 
to execute this project as design and construction plans are finalized.

    Question. There have been multiple reports of the Administration 
freezing about $200 million for Syria stabilization efforts, including 
assistance for landmine and rubble removal, restoring basic services, 
and to groups such as the White Helmets who are doing lifesaving work 
every day in the face of Assad's brutality. What was the reasoning for 
freezing these funds?

    Answer. In line with the President's request to review all 
bilateral foreign assistance for Syria, we continually reevaluate 
stabilization assistance levels and how they might best be utilized. We 
do this on an ongoing basis, as we do elsewhere around the world. The 
United States continues to work with our partners in the Global 
Coalition to Defeat ISIS to support immediate stabilization and early 
recovery efforts in areas liberated from ISIS control, including 
Explosive Remnants of War (ERW) removal, the restoration of essential 
services, and building local capacity to support longer-term 
sustainability. We appreciate the brave, life-saving humanitarian work 
the White Helmets undertake for the Syrian people and the sacrifices 
they have made.

    Question. What are the Administration's plans for these funds?

    Answer. In line with the President's request to review all 
bilateral foreign assistance for Syria, we continually reevaluate 
stabilization assistance levels and how best they might be utilized. We 
do this on an ongoing basis, as we do elsewhere around the world. Our 
objective in these reviews is to ensure our assistance is targeted, 
effective, and set at the appropriate level.

    Question. Do you expect assistance for stabilization efforts will 
resume in the near future?

    Answer. While we reevaluate appropriate assistance levels and how 
best they might be utilized, the Department of State and USAID continue 
to work with the international community, members of the Global 
Coalition to Defeat ISIS, and our partners on the ground to provide 
much-needed stabilization support to vulnerable areas in Syria.

    Question. Raif Badawi is a prominent Saudi blogger who was arrested 
in 2012 on charges of insulting religion through electronic channels 
and was sentenced to 10 years in prison and 1,000 lashes. I have long 
advocated for his release. If Crown Prince Mohammed bin Salman Al Saud 
is serious about reform, releasing political prisoners such as Mr. 
Badawi would be an important first step. Additionally, it would help 
strengthen the strategic partnership between the United States and 
Saudi Arabia as we confront a number of issues, including terrorism and 
the growing threats from Iran. Have you raised Raif Badawi's case in 
your meetings with senior Saudi officials?

    Answer. Human rights issues are part of the Department of State's 
conversations with the Saudi Arabian government, and Mr. Badawi's case 
is raised in those discussions. U.S. officials encourage the Saudi 
government to recognize and respect the rights of its citizens to 
exercise freedom of thought, conscience, and religion. The Department 
of State condemns any punishment for exercising those rights. I will 
continue to raise these issues with the Saudi Arabian government and 
encourage the government to afford all necessary legal and juridical 
guarantees to protect the rule of law and fundamental human rights of 
all citizens and residents.

    Question. Will you commit to making Raif Badawi's case and those of 
the many other political prisoners wrongfully detained by the Saudi 
government a priority in our bilateral relationship with Saudi Arabia?

    Answer. Human rights issues are part of the Department of State's 
conversations with the Saudi Arabian government, and Mr. Badawi's case 
is raised in those discussions. We also confer with like-minded 
countries on this and other related human rights issues. No one should 
be charged, prosecuted, or imprisoned for engaging in peaceful advocacy 
or political activities or freedom of expression, even when that 
expression is critical. We will continue to raise Mr. Badawi's case 
with the Saudi government at the highest levels and encourage the 
government to afford all necessary legal and judicial guarantees to 
protect the rule of law and fundamental human rights of all citizens 
and residents.
                                 ______
                                 

      Responses of Secretary of State Michael Pompeo to Questions 
                    Submitted by Senator Ben Cardin

    Question. What is your strategy to support the people of Iran? What 
is the status of U.S. democracy and broadcasting programs in Iran? Do 
you think we can do a better job of getting our message directly to the 
Iranian people?

    Answer. Supporting the long-suffering Iranian people is a top 
priority for the U.S. government. We regularly speak out on Iran's 
human rights abuses. We work with like-minded partners to raise 
international pressure on Iran. We use every opportunity to speak 
directly to the Iranian people, like my recent interview with VOA's 
Persian language television service. We support the free flow of 
information in Iran. Our democracy programming for Iran funds a range 
of government accountability, civil society, anti-censorship, and human 
rights initiatives. We continue to hold the Iranian government 
accountable through sanctions for human rights abuses.

    Question. In March of this year, the Treasury Department issued 
sanctions against Russian oligarchs, officials, and entities in 
response to Russia's meddling. Can you commit to us here today that you 
will comply with the spirit and letter of the law and implement further 
sanctions against Russia for its meddling in our election?

    Answer. Together with the Department of the Treasury, the State 
Department is implementing CAATSA to impose costs on Russia for the 
totality of its malign behavior. We remain committed to the 
comprehensive implementation of CAATSA to achieve this end. Since 
January 2017, the U.S. government has sanctioned 205 individuals and 
entities for their involvement in Russian malign activities; 136 of 
these designations were made under Ukraine-related sanctions 
authorities codified by CAATSA. This number includes the most recent 
action on April 6, 2018, in which Treasury designated 7 Russian 
oligarchs and 12 companies they own or control, along with 17 senior 
Russian government officials. In addition, on March 15, 2018, Treasury 
designated five entities and 19 individuals under relevant authorities, 
including CAATSA Section 224 as well as Executive Order 13694, 
``Blocking the Property of Certain Persons Engaging in Significant 
Malicious Cyber-Enable Activities'' for interference in the 2016 U.S. 
election and other malicious cyber-enabled activities.
    In coordination with the interagency, we continue to review 
potentially sanctionable activity and make appropriate determinations 
under mandatory provisions of CAATSA as well as related authorities.

    Question. Last month, our Committee held a hearing to examine U.S. 
policy in Yemen. During the hearing, I asked our Department of Defense 
witness how we are ensuring that our assistance to the coalition is 
helping to reduce civilian casualties when we don't in fact track those 
casualties. Mr. Karem responded that we have ``insight into Saudi 
targeting behavior,'' and that ``Saudi and Emirati targeting efforts 
have improved.'' As Secretary of State, how do you think civilian 
casualties impact our ability to help negotiate a political resolution 
to the Yemen crisis?

    Answer. We take all credible reports of civilian casualties 
seriously and are proactively engaging with the Coalition to assist it 
in reducing the likelihood of harm to civilians and civilian 
infrastructure. We continue to press Saudi-led Coalition partners at 
the highest levels to mitigate the conflict's impact on civilians. 
Civilian casualties feed a cycle of violence between the parties, 
worsening the crisis. Ending the conflict in Yemen is in the national 
security interests of the United States and is the Administration's 
ultimate goal. To that end, the United States firmly believes that the 
only solution to the conflict in Yemen is a negotiated political 
settlement under U.N. auspices.

    Question. Do you agree that these casualties put America's 
reputation at risk? How would you suggest the U.S. address this risk?

    Answer. We take all credible reports of civilian casualties 
seriously and are proactively engaging with the Coalition to reduce the 
likelihood of harm to civilians and civilian infrastructure. We have 
delivered courses for the Royal Saudi Air Force (RSAF) that 
specifically include training on law of armed conflict and air-to-
ground targeting processes. The Saudi Ministry of Defense has committed 
to fund training for the RSAF from U.S. forces on minimizing civilian 
casualties, including as part of a $750 million, multi-year Foreign 
Military Sales training case. We continue to urge the Coalition and all 
parties to the conflict to allow full access for humanitarian relief 
and commercial goods to address Yemen's humanitarian crisis.

    Question. What steps are you taking to ensure a political 
resolution to this crisis?

    Answer. The Administration strongly supports and is working closely 
with U.N. Special Envoy to Yemen Martin Griffiths to revive political 
negotiations on an accelerated timeline. Our support is not passive. I, 
along with Secretary Mattis and senior White House officials, have met 
with the Special Envoy. I offered him our full support and will 
continue to engage with key regional partners, including the Saudis and 
Emiratis, to reinforce the Envoy's work. All sides, including the 
Houthis, will also have to make compromises in order to reach a 
political solution.

    Question. What is the status of the Administration's review of the 
Gaza humanitarian funding that was allowed for by the Taylor Force act?

    Answer. U.S. assistance to the Palestinians remains under review. I 
can assure you that Congress will receive briefings on the conclusions 
of the review when it is complete.

    Question. What is the prospect for restarting the Israeli-
Palestinian peace process?

    Answer. The Administration is committed to achieving a lasting and 
comprehensive peace agreement and remains optimistic that progress can 
be made.

    Question. Do you expect the Administration to lay out its peace 
plan in the near future? Are you involved in those discussions? If so, 
what can you tell me about them?

    Answer. The Administration is hard at work on a plan that would 
offer a brighter future to both Israel and the Palestinians. That plan 
will be presented to the parties when the time is right.

    Question. How can we improve the situation for the majority of 
people in Gaza who simply want peace, security and prosperity?

    Answer. On March 13, the White House hosted a conference on Gaza 
with representatives from 20 countries, including Israel and many Arab 
states. Participants discussed a series of concrete proposals and 
projects that would address the urgent challenges faced by Palestinians 
in Gaza, including chronic shortages of electricity and water. Hamas 
has consistently put its own destructive priorities above those of 
Gaza's population. Despite that, the United States will continue to 
work with our partners to find ways improve the lives of the people of 
Gaza.

    Question. Anti-Semitism: There has been an acute global increase in 
anti-Semitic incidents over the last year, often taking place in the 
form of violent attacks, bomb threats, vandalism, and hateful rhetoric 
spanning all levels of society. It is critical that the United States 
lead with action to combat anti-Semitism at home and abroad. Last week, 
41 Senators sent a letter to President Trump urging him to appoint a 
Special Envoy to Monitor and Combat Anti-Semitism at the U.S. 
Department of State. The position has been vacant for over 15 months. 
Do you believe this is an important position within the State 
Department? If so, when do you expect to fill the position?

    Answer. The Trump administration considers the Special Envoy to 
Monitor and Combat Anti-Semitism to be an important position in 
documenting abuses against members of international Jewish communities 
and developing and implementing policies to combat global anti-
Semitism. Combating anti-Semitism internationally is a critical human 
rights issue, and is a priority for this administration. I share your 
deep concern about rising anti-Semitism in Europe and elsewhere and I 
agree with you that the United States must continue to lead on 
combating this scourge.
    I am working to get a Special Envoy to Monitor and Combat Anti-
Semitism appointed as soon as possible. Meanwhile, Ambassador at Large 
for International Religious Freedom Sam Brownback and his team at the 
Office of International Religious Freedom have been meeting with Jewish 
leaders to hear their concerns, and urging governments in Europe and 
elsewhere to condemn anti-Semitism, provide appropriate levels of 
security to Jewish communities, and prosecute attacks on Jewish 
communities and individuals around the world.

    Question. Rule of Law: The Wilson Center recently published a 
report on the rule of law that calls for more U.S. government strategic 
investment and coordination of our rule of law programming across the 
interagency process. The report made clear that we must do more on this 
effort, because rule of law issues have an impact our national 
security. Leadership at the State Department on this issue is not in 
place. When can we expect to see the president nominate an Under 
Secretary for Civilian Security, Democracy, and Human Rights at the 
State Department?

    Answer. Filling vacant leadership positions is a top priority of 
mine, and I am working closely with the White House to fill this and 
other leadership positions.

    Question. Rule of Law: The Wilson Center recently published a 
report on the rule of law that calls for more U.S. government strategic 
investment and coordination of our rule of law programming across the 
interagency process. The report made clear that we must do more on this 
effort, because rule of law issues have an impact our national 
security. Leadership at the State Department on this issue is not in 
place. How does this the budget address this issue? Does the budget 
prioritize rule of law, governance, and anticorruption programing?

    Answer. Democracy, human rights, and governance (DRG) assistance, 
including rule of law, good governance, and anti-corruption programming 
are critical for defending national security, fostering economic 
opportunities for the American people, and asserting U.S. leadership 
and influence. The National Security Strategy (NSS) makes clear that 
respect for human rights, democracy, and the rule of law is more likely 
to produce peace, stability, and prosperity at home and abroad and is 
therefore integral to our national security. The President's FY 2019 
Request includes $1.4 billion for DRG assistance, including $392.1 
million for rule of law and human rights and $615.9 million for good 
governance programming. The FY 2019 Request factors in the 
Administration's commitment to restraining overall non-defense 
discretionary spending, including foreign assistance resources. 
Therefore, the FY 2019 budget request is a reflection of U.S. national 
priorities while remaining within an overall budget topline.

    Question. Addressing Violent Conflict/atrocities: The 2018 
Worldwide Threat Assessment of the Intelligence Community found that 
``poor governance, weak national political institutions, economic 
inequality, and the rise of violent non-state actors all undermine 
states' abilities to project authority and elevate the risk of 
violent--even regime-threatening--instability and mass atrocities.'' 
How does this budget prioritize efforts to address the root causes of 
violent conflict like poor rule of law, governance, weak political 
institutions, and economic inequality? What tools are your employing to 
prevent atrocities that would impact our national security interests?

    Answer. I believe it is in our national interest to work with 
partners to mitigate conflict and prevent mass atrocities around the 
world. These conflicts not only have dire consequences for the people 
living in the affected regions but also impose a significant security 
and financial burden on Americans and the international community. U.S. 
foreign assistance programs, particularly when combined with diplomatic 
efforts, can effectively help to mitigate and respond to these threats. 
Our budget request includes dedicated funding to advance ongoing 
conflict mitigation and stabilization efforts in key countries such as 
Libya, Nigeria, and Iraq.

    Question. The Department of State has a pivotal role in 
implementing the Global Magnitsky Human Rights Accountability Act, the 
United States' most cost-effective, far-reaching, and powerful tool for 
keeping human rights abusers and corrupt officials out of our country 
and financial system. Individuals sanctioned under this law have their 
dollar-denominated assets frozen and are banned from entering the 
United States. This enhances national security and increases deterrence 
against these crimes. It also shows solidarity with those fighting for 
human rights and democracy around the world by denying legitimacy to 
their tormentors. Do you agree that it is critical to designate funding 
towards implementing the Global Magnitsky Human Rights Accountability 
Act?

    Answer. Yes. The Department of State's role in the implementation 
of Global Magnitsky encompasses every embassy, regional bureau, and 
many of our functional bureaus as well. Global Magnitsky is a powerful 
sanctions program, and no individual or region is immune from being 
held accountable for human rights abuse or corruption. The 
Administration appreciates continued Congressional support for this 
versatile tool.

    Question. I was pleased to see your statement last week marking the 
International Day Against Homophobia, Transphobia and Biphobia that the 
administration U.S. ``opposes criminalization, violence and serious 
acts of discrimination'' against LGBTI persons. I also appreciated the 
administration using the Global Magnitsky law to sanction officials 
responsible for the gruesome pogrom against gay men in Chechnya last 
December. Over the last year, in a number of places around the globe, 
LGBTQ people have been targeted, rounded up, tortured and even killed, 
just for being who they are. We've seen it not just in Chechnya, but 
also Egypt, Azerbaijan, Indonesia, Bangladesh and other places. Based 
on that, what specifically will you commit to do to help LGBTQ people 
in Chechnya, Egypt and other places to ensure they are not targeted for 
abuse? What will you do to make your commitments a reality on a day-to-
day basis?

    Answer. The horrible treatment of LGBTI persons is truly 
despicable. As my statement for the International Day Against 
Homophobia, Transphobia and Biphobia confirmed, ``the United States 
stands with people around the world in affirming the dignity and 
equality of all people regardless of sexual orientation, gender 
identity or expression, or sex characteristics. Human rights are 
universal, and LGBTI people are entitled to the same respect, freedoms, 
and protections as everyone else.'' Under my leadership, the Department 
will continue to use a range of public and private actions to counter 
violence and severe discrimination against LGBTI persons including 
through bilateral and multilateral channels, by offering emergency 
assistance to LGBTI persons and organizations at risk, and by imposing 
visa restrictions and economic sanctions, as appropriate, against those 
who violate their human rights.

    Question. As you know, the Bureau of Population, Refugees and 
Migration (PRM) plays a critical role at the State Department. The 
Department of State's efforts to respond to crises includes efforts to 
address refugee flight and solutions require the integration of 
diplomatic engagement and assistance. Moreover, most of the State's 
provision of humanitarian assistance are through investments in a 
network of international organizations, and the State Department's 
strong role in governing bodies like UNHCR and ICRC, for example, 
provide the United States with crucial influence over how those 
institutions operate in areas of concern to the U.S. government. Will 
you support the important work of the PRM bureau at the State 
Department, including both the humanitarian responsibilities as well as 
refugee resettlement?

    Answer. I support the important work of the Bureau of Population, 
Refugees, and Migration (PRM). PRM fulfills a critical role in 
providing humanitarian aid and other assistance for refugees, conflict 
victims, and stateless people around the world and is an integral part 
of U.S. foreign policy efforts to prevent and respond to crises and 
conflict and to promote regional stability. PRM's work strengthens our 
worldwide diplomatic influence and gives the United States great impact 
in shaping global humanitarian responses to conflict.

    Question. We are hearing that USAID continues to experience unusual 
program and funding delays. Confusion caused by the President's Budget 
request and bureaucratic delays at the State Department risk rendering 
aid less effective and causing increased suffering for people on the 
ground. As a former Member of Congress, do you believe that when 
Congress appropriates funds that those be spent as set forth in the 
mandate in the Appropriations bills?

    Answer. The Department and USAID will use the funds appropriated by 
Congress consistent with the appropriations acts and other relevant 
statutes. The Department of State and USAID will continue to work 
diligently to ensure that funds appropriated by Congress are approved 
and obligated as quickly as possible while assuring compliance with 
applicable legal and other requirements.

    Question. What are the challenges you face in ensuring that the 
funds appropriated by Congress are moving quickly to the Missions to 
help deliver assistance to those in need?

    Answer. The Department of State and USAID work diligently to ensure 
that funds appropriated by Congress move as quickly as possible to 
embassies and missions to help them deliver assistance to those in 
need. We will continue to look for opportunities to improve the 
timeliness of this process while assuring compliance with applicable 
legal and other requirements.

    Question. What are your views on the Department spending $12 
million on consultants for the 'redesign' process, while refusing to 
spend funds appropriated for critical programs, like democracy and 
governance funding, for example?

    Answer. The Administration is committed to restraining overall non-
defense discretionary spending, including for the State Department and 
USAID. I understand the Redesign surfaced a number of proposals 
designed to improve efficiency and strengthen the tools available to 
our staff, consistent with the President's Management Agenda. This 
contract for analytical support was funded from the Department's 
operating resources and had no effect on funding for democracy and 
governance programs since they are funded from separate accounts. The 
Department remains committed to ensuring effectiveness of U.S. taxpayer 
dollars, driving efficiencies, and working on behalf of the American 
people to advance national security objectives and foreign policy 
goals. I look forward to continuing discussions with Congress on 
funding for our diplomacy and foreign assistance programs.

    Question. The President's budget request will leave the Department 
of Defense without strong U.S. diplomatic or development partners. 
Given the importance of cultivating institutional development expertise 
within our civilian workforce, I am deeply concerned about the proposed 
budget cuts to the State Department and USAID and the ongoing staffing 
vacancies. Now that the State Department-imposed hiring freeze has been 
lifted, are you confident that you will be able to put in place the 
21st-century workforce your agency needs and demands?

    Answer. The Department's workforce is our most valuable asset, 
which is why on May 15 I lifted the Department's hiring freeze on the 
Foreign Service and Civil Service and authorized the Department of 
State to hire to the funded levels as determined by The Consolidated 
Appropriations Act of 2018. This will result in hiring at or above 
attrition levels for the remainder of FY 2018. It is essential we 
ensure that our domestic bureaus and overseas missions have the 
flexibility to hire the most qualified people for positions that are 
essential to promoting the Department's mission and the foreign policy 
goals of the United States.

    Question. After almost a decade of transparency from bipartisan 
administrations (9 years) about country-by-country allocations for 
foreign assistance, there will be no such information submitted by the 
Administration as part of its FY19 budget request. The Administration 
has put forth a 43% cut to development programs but failed to share how 
various development sectors and priorities will be impacted by this and 
other cuts. As the Administration targets specific countries to be 
strategically transitioned away from foreign assistance this 
information is absolutely critical to congressional oversight.
    When will Congress have access to this information? We expect this 
Administration to maintain some commitment to transparency.

    Answer. The FY 2019 Congressional Budget Justification and the 
accompanying appendices and supplementary tables include country-by-
country allocations for foreign assistance, as they have in previous 
years. Please see web address for the documents here: https://
www.state.gov/s/d/rm/c6112.htm.
    Please note that funds previously requested under the Development 
Assistance (DA) and Economic Support Fund (ESF) accounts are being 
requested as part of the Economic Support and Development Fund (ESDF) 
account. The ESDF account is requested in the FY 2019 budget in an 
effort to streamline accounts and ensure the most effective use of 
foreign assistance funding. The ESDF account will continue to support 
select programs and activities previously requested under the ESF and 
DA accounts, allowing the Department and USAID to better assess, 
prioritize, and target development-related activities in the context of 
broader U.S. foreign policy objectives and partnerships around the 
world.

    Question. Are the State Department and USAID capable of submitting 
country-by-country allocations for topline development and security 
assistance accounts for the record? If yes, we formally request that be 
submitted for the record.

    Answer. The FY 2019 Congressional Budget Justification and the 
accompanying appendices and supplementary tables include country-by-
country allocations for foreign assistance, including for development 
and security assistance. Please see the web address for the documents 
here: https://www.state.gov/s/d/rm/c6112.htm.
    Please note that funds previously requested under the Development 
Assistance (DA) and Economic Support Fund (ESF) accounts are being 
requested as part of the Economic Support and Development Fund (ESDF) 
account. The ESDF account is requested in the FY 2019 budget in an 
effort to streamline accounts and ensure the most effective use of 
foreign assistance funding. The ESDF account will continue to support 
select programs and activities previously requested under the ESF and 
DA accounts, allowing the Department and USAID to better assess, 
prioritize, and target development-related activities in the context of 
broader U.S. foreign policy objectives and partnerships around the 
world.

    Question. Which countries are being strategically transitioned away 
from development assistance and under what timeline? How do these 
timelines align, if at all, with the FY19 budget request?

    Answer. The Administration is assessing how to optimize U.S. 
foreign assistance, including how to reorient development around the 
concept of ``self-reliance''--the ability for countries to plan, 
finance, and implement solutions to solve their own development 
challenges. USAID has identified a set of objective, third-party 
metrics to help assess its partner countries' relative levels of self-
reliance. For the most self-reliant partners, USAID plans to have 
conversations about a strategic transition toward a partnership beyond 
the traditional donor-recipient paradigm. A strategic transition is not 
the immediate closeout of a mission--it means making data-informed and 
thoughtful decisions about the right role and footprint for USAID in 
that country. The process will include consultations with the inter-
agency, Congress, the host country, and key stakeholders, which will 
guide the selection of target countries and subsequent design of the 
new partnership with selected countries. At present, in consultation 
with the Department of State, USAID is examining countries for possible 
strategic transitions. For example, one country selected is Albania, 
where State and USAID are working closely on a plan.
    The FY 2019 budget request was completed independently of this 
broader effort around self-reliance strategic transition. USAID intends 
to use the funding provided by Congress to advance self-reliance in all 
the countries in which it operates and prepare for strategic 
transitions in the ones deemed ready for a new type of partnership.

    Question. I am deeply concerned by what appears to be drastic cuts 
from FY18's budget request for funding for gender programs. These are 
critical investments to ensure that development is effective, and that 
women and girls are also included and respected. How do you justify 
shrinking the request by 52% from last year, which was already a large 
cut from FY17?

    Answer. Societies that empower women to participate fully in civic 
and economic life are more prosperous and peaceful. The United States 
will continue to support efforts to advance women's equality, protect 
the rights of women and girls, and promote women and girls' empowerment 
programs across the globe. I look forward to leading the Department as 
it continues to address critical issues including women's access to 
finance and protection from violence. Even as we have to make difficult 
trade-off decisions in a challenging budget environment, funding for 
gender programs remain a priority.
    The State-USAID's FY 2018 request for gender programs (including 
all women's leadership; gender-based violence; women, peace, and 
security; and women's economic empowerment programs) totaled just over 
$781 million. The State-USAID FY 2019 request for the same array of 
programs comes to over $875 million, reflecting a 12 percent increase. 
We look forward to continuing to empower and protect the rights of 
women and girls around the world through these invaluable programs.

    Question. With the recent CDC directive to focus on national health 
interests and the decision to not request any additional global health 
security funds once the Ebola funds expire, it seems that the State 
Department and USAID will need to do more to ensure HIV/AIDS and global 
health security programs will continue to prevent the spread of 
disease. With cuts to global health funding how do you plan to ensure 
that HIV/AIDS and global health security programs will continue in a 
robust manner?

    Answer. The Department of State and USAID are committed to ensuring 
that U.S. HIV/AIDS assistance and our global health security programs 
continue to stem the spread of disease. This commitment is reflected in 
the FY 2019 President's Budget, which requests significant funding for 
the President's Emergency Plan for AIDS Relief and other U.S. global 
health programs and proposes to redirect funding for global health 
security from remaining FY 2015 Ebola supplemental funds. The request 
for health assistance accounts for 25 percent of the Department of 
State's and USAID's total foreign assistance request.
    The United States will continue to lead international efforts that 
support global health security and control the HIV/AIDS epidemic, but 
these health challenges should not just be met by contributions from 
the United States. U.S. assistance programs will continue leveraging 
our dollars to ensure that other donor countries and local partners are 
contributing their fair share.

    Question. Just last week, the Democratic Republic of Congo declared 
a new outbreak of Ebola, with dozens of suspected cases and 17 deaths 
so far. Yet on the same day, the White House released its rescissions 
package, which included the rescission of $252 million for critical 
Ebola funding reserved for emergencies such as this. What message does 
this rescissions package send regarding U.S. leadership in global 
health, especially at a time of increasing global health crises and 
humanitarian conflicts that threaten America's national security 
interests?

    Answer. The Administration has taken swift action in response to 
the current Ebola outbreak in the Democratic Republic of the Congo 
(DRC). On May 22, the Administration announced that USAID is 
contributing $8 million towards interventions to help prevent the 
spread of this deadly disease, including $5 million I released from the 
international health emergency reserve fund. We commend the efforts of 
the Congolese and our international partners to confront this outbreak 
and help prevent a global health crisis and welcome future 
contributions from international partners and other countries toward 
this effort as well as long-term global health security efforts aimed 
at preventing future crises. With respect to the proposed $252 million 
rescission for Ebola, these funds were targeted for the West Africa 
Ebola crisis, which the WHO declared to be over in 2016. Separate from 
the funds being proposed for rescission, Congress has generously 
provided other funds, including the emergency reserve fund, which 
enable us to respond appropriately to emergency needs like the current 
DRC outbreak, if needed.

    Question. I was very concerned that this year's human rights report 
failed to offer a complete picture of the abuses that women face by 
censoring descriptions of reproductive rights violations. This year's 
human rights report details only cases of coercion, such as forced 
abortions or sterilizations--serious incidents that absolutely belong 
in the report, but far from the full range of reproductive rights 
violations that women face. Do you believe that denying women access to 
contraception--which could help them to plan their families and reduce 
maternal and infant deaths--is also violation of their rights?

    Answer. I support the Administration's efforts to address the 
maternal health and voluntary family planning needs of women around the 
world. Enabling couples to determine whether, when, and how often to 
have children is vital to safe motherhood and healthy families. The 
U.S. Agency for International Development (USAID) finances programs 
that help individuals make a free and informed choice about having 
children by providing access to and information about a variety of 
voluntary family planning options. The United States remains the 
largest donor to women's health around the world, and the President's 
Budget Request for FY 2019 includes $302 million for voluntary family-
planning programs.

    Question. The White House has indicated that it will propose a 
package of rescissions targeting funds appropriated by the FY18 Omnibus 
bill at some point this year. I am concerned that, given the 
Administration's recent budget proposals, these cuts will fall 
disproportionately on the State Department and USAID, which make up 
just over 1% of all federal spending. I am also concerned that the 
submission of multiple rescissions packages is meant to, in part, 
significantly delay FY 2018 appropriated funding.
    Can you assure us that, as budget discussions in the Administration 
move forward, you will advocate for State and USAID to receive the 
funding they need to carry out their multifarious mandates?

    Answer. As I said in my testimony before the House Foreign Affairs 
Committee on May 23, I will ensure that the State Department has every 
dollar it needs to achieve its mission around the world. The Department 
remains committed to ensuring effectiveness of U.S. taxpayer dollars; 
driving efficiencies; and working on behalf of the American people to 
advance national security objectives and foreign policy goals.

    Question. Will you commit to ensuring operating plans mandated by 
law are transmitted to Congress in an expeditious matter and not slow-
walked under the guise of being part of potential future rescissions 
packages?

    Answer. Yes. The Department will seek to provide the operating 
plans required under the annual appropriations act in a timely manner.

    Question. U.N. peacekeeping operations have been shown to be more 
cost-effective than other forms of military intervention. A report 
published by the Government Accountability Office (GAO) in February 
2018 compared the cost of the current U.N. peacekeeping mission in the 
Central African Republic (MINUSCA) with a hypothetical operation 
undertaken by the U.S. military. Overall, the GAO analysis showed that 
peacekeeping is eight times less expensive for U.S. taxpayers than the 
U.S. going it alone, while also highlighting the positive burden-
sharing elements of U.N. peace operations. Isn't this an example of 
what the Administration is repeatedly calling for--cost effective 
investments in the U.N., which other countries participate in and 
advance U.S. interest? Will you commit to taking the views of our 
military into consideration with regards to future decisions you make 
regarding U.N. peacekeeping operations?

    Answer. U.N. peacekeeping is a powerful tool to share the burden of 
addressing global challenges to international peace and security and 
provides a collective benefit to the entire international community. 
However, reform is necessary to achieve smarter peacekeeping operations 
that can more effectively and efficiently address conflicts, support 
political solutions, and meet the needs of people on the ground. I will 
continue to work closely with Secretary Mattis on decisions regarding 
the future of U.N. peacekeeping.

    Question. In December 2017, the General Assembly approved the 2018-
2019 U.N. Regular Budget, which covers the organization's core 
activities and expenses. Overall, the budget for this 2-year cycle 
totals $5.397 billion, a reduction of $285 million (5%) from the final 
2016-2017 appropriation. These savings are significant, and wouldn't 
have been possible without strong U.S. engagement and creative 
diplomatic maneuvering. However, despite the fact that the U.S. is 
getting a lot of what it wants out of these budget negotiations, the 
Administration's FY19 request fails to fully fund our Regular Budget 
assessments. What message does it send to other countries--including 
our allies--when they agree to cuts proposed by the U.S. and we then 
fail to pay our bills?

    Answer. The Administration proposed reductions in U.S. 
contributions to the United Nations and other international 
organizations. This is consistent with the stated objective of 
achieving greater burden-sharing by other countries. The actual 
contributions that the Department will pay depend on the amounts of 
funding that Congress appropriates and any conditions or restrictions 
that apply to those funds.

    Question. Don't you think it makes it harder for us to generate the 
goodwill necessary to push forward on our U.N. reform agenda over the 
long term?

    Answer. The President's budget proposal for FY 2019 reflects the 
U.S. commitment to spur long-needed reforms and more equitable burden-
sharing among U.N. member states. As President Trump told U.N. Security 
Council ambassadors on April 24, 2017, ``the United Nations has 
tremendous potential,'' but ``for the United Nations to play an 
effective role in solving challenges, big reforms will be required.'' 
By demanding fiscal discipline, the United States is leading the United 
Nations to become more effective and efficient in achieving its mission 
and reducing conflict and violence around the world.

    Question. Earlier this year, the Administration announced that it 
is withholding the bulk--approximately 83 percent--of the U.S.'s annual 
contribution to the U.N. Relief and Works Agency for Palestine Refugees 
(UNRWA). Established by the U.N. General Assembly in 1949, UNRWA 
provides an array of critical services to Palestinian refugees in the 
West Bank, Gaza, Jordan, Lebanon, and Syria. As the U.S. has 
traditionally seen it to be directly in our national interest and that 
of Israel, we have been UNRWA's largest financial contributor. The loss 
of U.S. funding puts all of these programs in jeopardy, threatening a 
humanitarian crisis and leaving a vacuum that could fuel instability 
and boost extremist groups like Hamas. How could such outcomes possibly 
be positive for our national security interests in the region?

    Answer. We are committed to promoting security and stability in the 
Middle East, including the security of our allies Israel and Jordan. 
The Administration regularly reviews our foreign assistance to identify 
how to leverage it to achieve our policy objectives, including global 
and regional security, and to ensure that it is providing value to the 
U.S. taxpayer. The ongoing review of our assistance to the 
Palestinians, including the United Nations Relief and Works Agency for 
Palestine Refugees in the Near East (UNRWA), is no different. The State 
Department looks forward to briefing you when the review is completed.
    The United States remains committed to addressing the needs of the 
most vulnerable, as demonstrated by our voluntary contribution of $60 
million to UNRWA in January; however, as across the U.N., the United 
States should not be asked to bear a disproportionate share of UNRWA's 
costs. The State Department has called on others donors to do their 
part to advance regional security and stability.
                                 ______
                                 

      Responses of Secretary of State Michael Pompeo to Questions 
                    Submitted by Senator Todd Young

    Question. What is your assessment of Iran's current activities in 
Syria (e.g. size, disposition, activities)?

    Answer. Iran views Syria and its relationship with the Assad regime 
as crucial to its supplying of weapons to Lebanese Hizballah and as key 
to its regional influence. Iran supports the brutal Assad regime in 
Syria with weapons, financing, and training. This assistance has 
prolonged the conflict that has killed hundreds of thousands of 
Syrians. Iran has funneled large numbers of Iraqi, Afghan, Pakistani, 
and other foreign Shi'a fighters to the battlefield to support the 
Syrian regime and has sent members of the Islamic Revolutionary Guard 
Corps-Quds Force to Syria as ``advisors,'' many of whom have taken part 
in direct combat operations. Iran's continued support to the Assad 
regime has enabled it to avoid seeking a constructive, negotiated end 
to the conflict.

    Question. How do those Iranian activities in Syria threaten Israel, 
the United States, and our interests?

    Answer. In Syria, Iranian-backed forces are perpetuating the Assad 
regime's brutality against the Syrian people and contributing to 
instability that spills into neighboring countries and floods Europe 
with refugees. We are deeply concerned that Iran and Lebanese Hizballah 
seek a long-term presence in Syria to threaten Israel and other 
regional states. Their network to transfer arms from Tehran to 
Hizballah increases the risk of war and contravenes several U.N. 
Security Council resolutions. We are equally committed to ensuring that 
Iran and Hizballah do not establish a presence in Syria from which to 
threaten Israel. Our commitment to Israel's security remains rock 
solid, as it has for decades.

    Question. Does Iran rely on a logistical pipeline to sustain its 
activities in Syria?

    Answer. Iran continues to provide arms, financing, and training to 
the Syrian regime and has sent large numbers of foreign fighters, 
advisors, and weapons to assist in the fighting. Iran has also provided 
financial support to Hizballah, which fuels Hizballah's extensive role 
in the conflict. Iran's assistance has served to prolong the fighting 
in Syria and impeded attempts at a lasting peace settlement. Iran has 
utilized both an overland supply line and an air route to provide 
support to its allies in Syria and the Levant.

    Question. Can you describe that Iranian logistical pipeline to 
Syria? Is it via ground routes through Iraq? Is it air or sea routes?

    Answer. Iran continues to provide military equipment, financing, 
and training to the Assad regime via several ground supply routes and 
an air route over Iraq's air space.

    Question. What more can the U.S. and our partners do to make it 
more difficult for Iran to logistically support its malign activities 
in Syria?

    Answer. We will continue to work with key partners to prevent Iran 
from establishing permanent overland routes through Iraq to supply its 
allies in Syria. We continue to support Iraq's government in 
implementing its plan to right-size, integrate, and professionalize the 
Popular Mobilization Forces. We are working to help Iraq restore a 
capable border security presence at Iraq's borders in an effort to 
limit Iran's ability to transport material and manpower to the Syrian 
regime and its allies.

    Question. Consistent with international and U.S. law, precedent, 
and Supreme Court rulings, in order to keep enemy combatants off the 
battlefield and to gather necessary intelligence, do you agree that it 
is important for the United States to have the means to conduct law of 
war detention of enemy combatants for the duration of the military 
conflict?

    Answer. I believe the United States must have the means to conduct 
law-of-war detention of enemy combatants. As the Supreme Court has 
stated, the capture and detention of enemy belligerents to prevent 
their return to the battlefield has long been recognized as an 
``important incident[s] of war''. Today, the United States remains 
engaged in an armed conflict with al-Qa'ida, the Taliban, and 
associated forces, including with the Islamic State of Iraq and Syria. 
Law-of-war detention and criminal prosecutions are important tools in 
preventing members of these armed groups from returning to the 
battlefield.
                                 ______
                                 

      Responses of Secretary of State Michael Pompeo to Questions 
                     Submitted by Senator Tom Udall

    Question. You stated that the State Department is using resources 
to work with the Commerce Department on this issue. Please describe how 
much of the budget and which offices within the State Department are 
currently working with the Commerce Department to address the ZTE 
issue.

    Answer. The Department does not have a budget devoted to ZTE. Our 
work with the Department of Commerce on ZTE issues is spread across 
multiple bureaus as part of regular Department and embassy staff work. 
Department of State bureaus with expertise on ZTE issues include 
Economic and Business Affairs, East Asian and Pacific Affairs, Legal 
Adviser, Intelligence and Research, and International Security and 
Nonproliferation.

    Question. Would the State Department be open to a dialogue with 
Cuban officials to help improve air safety and upgrade aircraft to 
avoid another catastrophe? Are you currently or planning to work with 
the FAA and commercial aerospace companies to address aviation safety 
shortfall in order to avoid another tragedy in Cuba?

    Answer. The National Security Presidential Memorandum 
``Strengthening the Policy of the United States Toward Cuba'' announced 
by President Trump in June 2017 specifically identifies civil aviation 
as a national interest for bilateral engagement with Cuba. The 
Department therefore continues to support ongoing dialogues between 
U.S. civil aviation technical agencies--such as the Federal Aviation 
Administration (FAA) and the Transportation Security Administration--
and Cuban counterparts to improve the safety and security of air travel 
to and from Cuba. In addition, the National Transportation Safety Board 
and the FAA have been working closely, and successfully, with Cuban 
authorities on the May 18 B-737 crash investigation in Cuba.
    I understand the Department of Commerce's Bureau of Industry and 
Security, which administers the Export Administration Regulation, 
generally approves license applications for the export to Cuba of items 
necessary to ensure the safety of civil aviation and the safe operation 
of commercial aircraft engaged in international air transportation, 
including the export of aircraft leased to Cuban state-owned 
enterprises. I am also aware the Cuban Assets Control Regulations, 
administered by the Department of the Treasury's Office of Foreign 
Assets Control, authorize the provision of civil aviation safety-
related services to Cuba and Cuban nationals, wherever located, to 
ensure the safety of civil aviation and the safe operation of 
commercial aircraft.

    Question. I want to express my strong support for Peace Colombia. I 
had a productive discussion with the Colombian Ambassador recently, and 
feel strongly that we need to ensure funding is robust to continue the 
peace process and prevent a return to fighting in the region. Do you 
plan to keep our agreements with the Colombian government and continue 
our strong partnerships as part of this budget agreement?

    Answer. The United States strongly supports Colombia's efforts to 
secure a lasting peace. Colombia remains one of the United States' 
strongest partners in the region, and successful implementation of the 
peace accord is in the national interest of both nations. U.S. 
assistance plays a key role in supporting implementation. The FY 2019 
request provides important and necessary funds to advance U.S. 
interests in Colombia, particularly on peace accord implementation and 
counternarcotics. I will continue to work with the Colombian government 
to support the implementation of the peace accord, strengthen rule of 
law, and reverse the alarming growth in coca cultivation and cocaine 
production in Colombia.

    Question. You were not part of the decision to cut humanitarian 
assistance when this budget was first announced. So will you support 
Congressional efforts to increase these accounts to better meet the 
humanitarian needs of displaced people around the world?

    Answer. In FY 2017 and FY 2018, Congress generously provided 
significant resources to respond to humanitarian challenges and the 
tremendous growth in needs. However, this rate of growth is not 
sustainable within broader fiscal constraints. We have worked to ensure 
significant support for humanitarian assistance by keeping our 
humanitarian assistance request proportionally the same amount as it 
was in FY 2017 (25 percent) as in FY 2019 (24 percent). Over the last 
10 years (FY 2008-FY 2017), funding for humanitarian assistance has 
grown by $5.3 billion (almost 130 percent) while the rest of the 
foreign assistance budget has not been able to keep pace, particularly 
funding for our development efforts to prevent humanitarian crises from 
occurring in the first place.
    America will continue to show leadership on humanitarian response; 
however, in a context of fiscal constraints and competing priorities 
across the federal budget, it is imperative that others step up, do 
more, and share this burden.
    The State Department and USAID will continually use all resources 
made available to support populations with the greatest humanitarian 
need while also focusing on improving the efficiency and effectiveness 
of humanitarian operations, both by the U.S. agencies and implementing 
partners, including international organizations.

    Question. You stated that the sonic attack reported in China 
against a U.S. government employee was quote ``very similar'' and 
``entirely consistent'' with the reported sonic attacks against 
diplomats in Havana. The State Department's rush to judgment in Cuba 
led to a cut in embassy staff in Cuba which ultimately hurts U.S. 
citizens and companies visiting the island. Is the State Department 
prepared to do the same in China, or are such rash decisions only 
reserved for our dealings with Cuba? Yes or no?

    Answer. The Department is taking this incident very seriously and 
is working to determine the cause, scope, and impact of the incident. 
We have stressed our concern to the Chinese government, which has 
offered initial support. The Department has undertaken a government-
wide effort to find the cause behind this incident.

    Question. Taking an expansive view of what we approved after 9/11, 
the political objective is to stop terrorism at a broad level. However, 
a more restrictive view--and the view that was sold to the Congress 
when I voted in favor of the 9/11 AUMF--was that we aimed to punish and 
deter the perpetrators of the 9/11 attacks, specifically Al Qaeda and 
the Taliban. Which view do you believe is the appropriate political 
objective for today, or is there something in between that the Congress 
should consider?

    Answer. Our most important obligation is to defend the Homeland, 
including from terrorist attack. The President has said that we must 
ensure the enduring defeat of terrorist organizations that threaten the 
United States, including ISIS and al-Qa'ida. As the National Security 
Strategy states, we will work to disrupt plots, take direct action, 
eliminate safe havens, sever terrorists' sources of strength, combat 
terrorist radicalization and recruitment, and we will work with our 
partners to share the responsibility in fighting these barbaric groups.

    Question. In your opinion, do you believe that the 12 points you 
laid out earlier this week represent political objectives worthy of 
war?

    Answer. The Administration is committed to using diplomacy to help 
solve the greatest challenges our nation faces, even with our 
staunchest adversaries. The Administration is fully aware of Iran's 
destabilizing behaviors in Syria and elsewhere in the region, which 
includes providing arms, financing, and training to the regime, and 
funneling foreign fighters, including Hizballah, to support the Assad 
regime. Through diplomatic and economic pressures, the Administration 
has strengthened its comprehensive strategy to counter malign Iranian 
influence in the region including sanctions on the Islamic 
Revolutionary Guard Corps-Quds Force, countering Iran's cyber 
aggression, and asking countries to pressure Iran to end its 
destabilizing activities.

    Question. Should the United States send its sons and daughters to 
war to coerce Iran to capitulate on these demands if President Trump's 
violation of the JCPOA fails to garner worldwide support?

    Answer. The Administration is committed to using diplomacy to help 
solve the challenges facing our nation. The President said he is ready, 
willing, and able to negotiate a new deal with Iran. But the deal is 
not the objective. Our goal is to protect the American people.

    Question. As a matter of sequence, should the President seek the 
assent of Congress before engaging in hostilities inside countries, 
especially where such actions could lead to a wider conflict, such as 
in Syria or Iran? Isn't that the role for Congress the Constitution 
calls for?

    Answer. I respect Congress's role in authorizing the use of 
military force and in providing oversight on these issues. Generally, I 
think the interests of the nation are best served when the President 
and the Congress act together to provide a clear and unambiguous legal 
authorization to support the military as they defend our national 
security interests.
    The efforts of the U.S.-led Global Coalition to Defeat ISIS in 
Syria aim to defeat ISIS. The legal authority to use military force 
against ISIS in Syria includes the 2001 Authorization to Use Military 
Force.
    The United States does not seek to fight Iran. The Trump 
administration is committed to using diplomacy to help solve the 
greatest challenges our nation faces, even with our staunchest 
adversaries.

    Question. In your view, does the 2002 or 2001 AUMF provide 
President Trump with Congressional authorization to use military force 
against Iranian militias present in Iraq or Syria? I'm not referring to 
a situation in which U.S. troops find themselves under attack and 
clearly have the authority to fire back at their attackers.

    Answer. The efforts of the U.S.-led Global Coalition to Defeat ISIS 
aim to defeat ISIS in Iraq and Syria. The United States does not seek 
to fight the Syrian government or pro-Syrian-government forces, 
including Iran.
    While I am not in a position to speculate about how the authorities 
provided in the 2001 and 2002 Authorizations to Use Military Force 
(AUMFs) may apply to hypothetical situations, the Administration has 
been clear that the 2001 AUMF authorizes the use of force against al-
Qa'ida and associated forces, including against ISIS, including in Iraq 
and Syria. We have also been clear in indicating that the 2001 AUMF 
also provides authority to use force to defend U.S., Coalition, and 
partner forces engaged in the campaign to defeat ISIS to the extent 
such use of force is a necessary and appropriate measure in support of 
these counter-ISIS operations.

    Question. In withdrawing from the Joint Comprehensive Plan of 
Action (JCPOA), President Trump asserted that Iran ``supports terrorist 
proxies and militias'' including ``the Taliban, and al-Qa'ida.'' 
Moreover, in your speech announcing a new strategy for Iran, you stated 
that Iran ``continues to serve as sanctuary for al-Qa'ida.'' It is my 
belief that neither the 2001 nor 2002 authorizations to use military 
force, each passed over 15 years ago to deal with threats posed by al-
Qa'ida and the government of Iraq, do not authorize any future military 
action against the government of Iran nor any Iranian governmental 
entities in any way, shape of form. Is it the administration's view 
that the 2001 or 2002 authorizations give the administration 
authorization to use military force against Iran under any 
circumstances? I'm not referring to a situation in which U.S. troops 
find themselves under attack and clearly have the authority to fire 
back at their attackers.

    Answer. The Trump administration is committed to using diplomacy to 
help solve the greatest challenges our nation faces, even with our 
staunchest adversaries.
    While I am not in a position to speculate about how the authorities 
provided in the 2001 and 2002 AUMFs may apply to hypothetical 
situations, the Administration has been clear that the 2001 AUMF 
authorizes the use of force against al-Qa'ida and associated forces, 
including against ISIS, including in Iraq and Syria. We have also been 
clear in indicating that the 2001 AUMF also provides authority to use 
force to defend U.S., Coalition, and partner forces engaged in the 
campaign to defeat ISIS to the extent such use of force is a necessary 
and appropriate measure in support of these counter-ISIS operations.

    Question. You have repeatedly expressed your confidence that 
governments in Europe and Russia would eventually join the U.S. in an 
anti-Iran coalition, but our European allies have sharply criticized 
Trump's decision to withdraw from the Iran deal. How do you envision 
getting our allies to support the U.S. by honoring new U.S. sanctions?

    Answer. The United States and Europe agree on the full range of 
threats Iran poses to our collective interests, including aggressive 
ballistic missile development and proliferation; support for terrorism, 
extremism, and regional proxies; destabilizing behavior in the region; 
and, human rights abuses against the Iranian people. Since the 
President's announcement of U.S. withdrawal from the JCPOA, we have and 
will continue to increase our engagement with our friends and allies in 
Europe, believing our shared values and commitment to confront common 
challenges should transcend any disagreements over the JCPOA. We 
anticipate that our cooperative efforts to address Iran's destabilizing 
behavior and its threats to regional stability will not only continue 
but also expand. This is a period of real opportunity for the United 
States and Europe to address our fundamental difficulties with the 
Iranian government and together seek a new, stable security 
architecture in the region.

    Question. John Bellinger, who testified before this committee last 
week wrote during the last Presidential campaign that, quote ``Trump 
has urged other policies that are dangerous, if not illegal, from a 
national security perspective.'' The President said he would target the 
families of ISIS terrorists, threatening: ``you have to take out their 
families.'' Targeting civilians not engaged in hostilities is a war 
crime. The President's rhetoric is not only anti-American, but could be 
used by other countries to justify torture. Secretary Pompeo, given 
this rash rhetoric, should a new authorization for military force 
specifically restrict the President from taking illegal action against 
non-combatants, and ensure that basic legal rights are protected?

    Answer. I firmly believe that the U.S. armed forces must comply 
with the law of armed conflict and are fully committed to doing so. The 
United States is also clear that torture and cruel, inhuman, or 
degrading treatment or punishment are categorically prohibited under 
domestic and international law, including international human rights 
law and the law of armed conflict, and that these prohibitions exist 
everywhere and at all times. I do not think it would be necessary or 
appropriate for any new authorization for use of military force to 
contain the restrictions you have described.

    Question. We face legitimate terrorist threats and terrorist groups 
that are continually evolving. How can the United States gather 
intelligence on these groups and attack when necessary to protect the 
homeland without placing us in increased danger or without authorizing 
any president to take action against a country that could lead to wider 
war? Can and should this be done utilizing air, space, sea-based, and 
intelligence assets without placing troops directly into hostilities 
that can spiral out of control?

    Answer. The U.S. government's Intelligence Community (IC) marshals 
the intelligence resources to monitor, evaluate, and analyze intentions 
and capabilities of a variety of malign actors to provide warning, and 
to assist in countering global threats. The Bureau of Intelligence and 
Research, as the IC element within the Department of State, is charged 
with ensuring foreign policy and international security equities are 
appropriately represented within IC priorities. Issues regarding the 
broader allocation and utilization of IC resources would be more 
appropriately addressed by the Office of the Director of National 
Intelligence.
                                 ______
                                 

      Responses of Secretary of State Michael Pompeo to Questions 
                   Submitted by Senator John Barrasso

    Question. Yesterday, the State Department issued a warning to 
Americans in China after a possible sonic attack against a U.S. 
government employee. Media reports indicate that one U.S. government 
employee in China reported ``subtle and vague, but abnormal, sensations 
of sound and pressure.'' This sounds very similar to the medical issues 
experienced by U.S. government personnel in Cuba, which resulted in 
serious health problems for individuals. I am concerned about the 
health, safety, and well-being of our Embassy diplomats and personnel. 
When did the U.S. employee in China first report the medical problem? 
Please describe the timeline of events and actions taken to respond to 
the attack.

    Answer. The health, safety, and well-being of U.S. government 
employees and their family members are our greatest concern. In March, 
an employee at the U.S. Consulate General in Guangzhou reported 
experiencing a variety of physical symptoms. The employee was screened 
by consulate medical personnel and in April went to the United States 
for further examination. On May 16, medical personnel informed the 
State Department that the clinical findings were consistent with 
previous cases from the U.S. Embassy in Havana.
    After coordination within the State Department and between the 
State Department and Mission China, on May 23 Mission China published a 
notice to employees and a consular alert, and convened ``town hall'' 
meetings for employees.

    Question. Do we know the cause or source of the attack?

    Answer. The Department has undertaken a government-wide effort to 
find the cause behind this incident. We currently do not know the 
underlying source of the incident.

    Question. Have there been any other reports from Americans?

    Answer. We have no verified reports that private U.S. citizens have 
experienced these phenomena. The Department of State issued a Health 
Alert on May 23, 2018. We disseminate alerts to inform U.S. citizens of 
specific safety and security concerns in a country, such as health 
conditions, and provide clear actions U.S. citizens should take if they 
travel or reside there. We urge all travelers to review our information 
on travel.state.gov before they travel. We will provide additional 
updates as they are available.

    Question. Who do we believe is responsible for the incidents in 
China?

    Answer. The Department is taking this incident very seriously and 
is working to determine the cause and impact of the incident. We are 
working with the Chinese government to look into this situation and 
have no further information to provide at this time.

    Question. What is the U.S. government's determination of the cause 
and entity responsible for the sonic attacks that occurred in Cuba?

    Answer. Criminal and medical investigations into the attacks in 
Cuba are ongoing as part of a government-wide effort, but to date, we 
have been unable to make a determination regarding the cause and 
perpetrators of the attacks. We continue to demand Cuba fulfill its 
obligations under the Vienna Conventions to take all appropriate steps 
to protect our diplomats in Havana.

    Question. The Palestinian Authority Foreign Minister submitted a 
request to the International Criminal Court (ICC) to immediately open 
an investigation against Israel dealing with the situation on the Gaza 
border last week. Under a U.S. law enacted in 2015, the PLO office in 
the United States must be closed if the Palestinians try to influence 
the ICC to initiate a judicially authorized investigation or actively 
support such an investigation that subjects Israeli nationals to an 
investigation for alleged crimes against Palestinians. What is the 
current status of the PLO office in Washington, DC?

    Answer. The Secretary of State has been delegated authority to make 
certain statutory certifications to waive restrictions on the PLO 
Office in Washington. Following statements about the ICC made by 
Palestinian leadership, a new waiver was not issued in November at the 
time that the most recent waiver lapsed. The Department of State 
advised the PLO Office to limit its activities to those related to 
efforts to achieve a lasting, comprehensive peace between the Israelis 
and Palestinians, and to not make any new long-term commitments such as 
leases or contracts. The status of the PLO Office has not changed since 
November. The Administration continues to evaluate the situation and 
will determine next steps accordingly.

    Question. Does the Administration plan to take action to close the 
PLO office because the Palestinian Authority requested an investigation 
against Israel at the ICC?

    Answer. This Administration firmly opposes Palestinian actions 
against Israel at the International Criminal Court (ICC), which are 
counterproductive to the cause of peace. We have made our position 
clear to the Palestinians and to members of the international 
community. We do not believe the Palestinians were eligible to accede 
to the Rome Statute and join the ICC. The Administration continues to 
evaluate the situation and will determine next steps accordingly.

    Question. Are the Palestinians engaging in direct and meaningful 
negotiations with Israel?

    Answer. The Palestinians are not currently engaging in direct and 
meaningful negotiations with Israel. The Administration is firmly 
committed to pursuing a comprehensive peace between Israelis and 
Palestinians, and remains optimistic that progress can be made. We 
continue to urge the Palestinians to engage constructively. The 
Administration remains hard at work on a plan that would offer a 
brighter future to both Israel and the Palestinians, and will present 
that plan when the time is right.

    Question. I appreciate the efforts of the United States to support 
a stable, peaceful and prosperous Africa . . . . How does the State 
Department manage its engagement on emerging threats and security 
issues with African governments while also ensuring the same 
governments are addressing the needs of their people, including the 
rule of law, human rights and individual freedoms?

    Answer. There is a critical link between democracy, human rights, 
and governance (DRG) and peace and security within Africa. Without a 
sustained diplomatic effort and programs emphasizing critical human 
rights norms, democratic processes, and good governance, peace and 
security in the region will remain unattainable. The State Department 
and USAID continue to support core DRG programming in the region. The 
Administration also seeks to address the underlying drivers of conflict 
and hunger through programs including food security and resilience work 
under USAID's Food for Peace, the U.S. Global Food Security Strategy, 
implemented by Feed the Future, as well as other programs.
    The Departments of State and Defense also recognize that human 
rights-sensitive security assistance is important to efforts to 
strengthen democracy and governance in Africa. Continued engagement 
with our security partners enhances our ability to mitigate human 
rights abuses and security force overreach by emphasizing professional, 
human rights-respecting security forces and civil control of the 
security sector. It also allows for an ongoing dialogue, and frank 
conversations, about shared goals and objectives at high levels of 
government that are often otherwise closed to international engagement 
and cooperation.

    Question. In 2012, the United States joined leaders of the Western 
Hemisphere in committing to an initiative called ``Connecting the 
Americas 2022.'' The initiative's aim was to achieve universal access 
to electricity through enhanced electrical interconnection by 2022. 
What is the status of this initiative and what progress has been made 
in reaching the initiative's goals?

    Answer. The Department continues to promote efforts under 
Connecting the Americas 2022 through the U.S. Strategy for Central 
America, which supports advancing electricity integration in the region 
to help build stronger economies, as well as addressing the underlying 
economic conditions contributing to illegal immigration and illicit 
trafficking. U.S. engagement since 2012 has accelerated regional energy 
integration, strengthened Central America's power sector, and advanced 
electricity integration efforts with Mexico and between Andean region 
countries. The Department will continue advancing efforts through 
energy diplomacy and foreign assistance, which have helped promote 
opportunities that created new markets for U.S. energy companies.

    Question. What kind of technical assistance and capacity building 
programs is the United States currently providing to strengthen 
regional electricity market, power generation, and regulatory 
institutions in Central America, the Caribbean, and the Andean region?

    Answer. The Department manages a number of assistance programs in 
the region. In Central America, U.S. programs aim to strengthen power 
sector governance, regulation, and technical efficiency to strengthen 
natural gas use and regional electricity integration. In the Caribbean, 
we support efforts to reduce financial reliance on Venezuela, including 
through the development of resilient and cost-effective power systems 
in hurricane-impacted nations and development of geothermal power 
generation in St. Kitts and Nevis. In the Andes, we continue to develop 
a regional electricity market, including assessments of regional 
interconnections and power market structures among Argentina, Chile, 
and Peru.
                                 ______
                                 

      Responses of Secretary of State Michael Pompeo to Questions 
                    Submitted by Senator Cory Booker

    Question. ENVOY TO SUDAN AND SOUTH SUDAN: Mr. Secretary, I shared 
with you my concerns about the dismantling of key positions and offices 
in the State Department under this Administration. One such office that 
has been unstaffed in this Administration is the Special Envoy for 
Sudan and South Sudan. Since the start of the civil war in 2013, 50,000 
people have been killed, 4 million people have been displaced, 7 
million--over half the country have needed humanitarian assistance just 
this year and 5 million are on the brink of starvation. Women and girls 
continue to suffer the worst of the conflict. A report by the 
International Rescue Committee and George Washington University found 
up to 65 percent of women and girls said they had experienced sexual or 
physical violence. The war in South Sudan is influenced by Kenya, 
Uganda, and Ethiopia. This transnational nature of the crisis requires 
a diplomat who has the mandate to work across borders. A Special Envoy 
can bring the much needed focus and leadership to the crisis that would 
be nearly impossible for the U.S. Ambassador to South Sudan. I 
appreciated your commitment to give the issue serious consideration to 
appointing a Special Envoy to Sudan and South Sudan during the hearing. 
Now that you have had a chance to review these issues, can you commit 
to appointing a special envoy for Sudan and South Sudan?

    Answer. The people of South Sudan deserve a government that is able 
and willing to lead the country to a stable future. The United States 
supports regional efforts toward a negotiated arrangement for an 
inclusive transitional government that reflects South Sudan's diversity 
and provides checks and balances on political and economic power. I am 
committed to analyzing the diplomatic tools available to achieve this 
goal effectively and efficiently, including by analyzing the value and 
impact of a special envoy.

    Question. RESCISSION AND EBOLA: This month, the Democratic Republic 
of Congo declared a new outbreak of Ebola, with dozens of suspected 
cases and 28 deaths so far. Yet at on the same day as we learned about 
this global health emergency, the White House released its rescissions 
package, which included the rescission of $252 million for critical 
Ebola funding reserved for an emergency such as this. What message does 
this rescissions package send regarding U.S. leadership in global 
health, especially at a time of increasing global health crises and 
humanitarian conflicts that threaten America's national security 
interests?

    Answer. The Administration has taken swift action in response to 
the current Ebola outbreak in the Democratic Republic of the Congo. On 
May 22, Secretary of Health and Human Services Alex Azar II announced a 
contribution of $8 million towards interventions to help prevent the 
spread of this deadly disease, including $3 million from Global Health 
Security Agenda funds at USAID and $5 million I released from the 
Emergency Reserve Fund for Contagious Infectious-Disease Outbreaks. We 
commend the efforts of the Congolese and our international partners to 
confront this outbreak to prevent a global health emergency and welcome 
immediate contributions from other donors, as well as long-term 
investments under the Global Health Security Agenda aimed at preventing 
future crises. With respect to the proposed $252 million rescission, 
Congress directed these funds for the West Africa Ebola crisis, which 
the World Health Organization declared over in 2016. Congress has 
generously provided other resources, separate from the funds proposed 
for rescission, including the Emergency Reserve Fund, which enable us 
to respond quickly to emergency needs like the current outbreak in the 
DRC, if needed.

    Question. In 2014, the Ebola epidemic cost the international 
community around $4 billion, of which the U.S. contributed $2.5 
billion. $252 million seems like a drop in the bucket compared to the 
billions that will be needed if there is another major outbreak. If 
this Administration is as concerned about making sure that we are using 
our aid money efficiently, does it not make sense to maintain focus on 
our response capabilities so that Congress is not back here approving 
billions of dollars in an emergency supplemental?

    Answer. We are committed to preventing, detecting, and responding 
to emerging global health threats posed throughout the world, including 
the Ebola outbreak in the Democratic Republic of the Congo (DRC). The 
U.S. Agency for International Development (USAID) and the Department of 
Health and Human Services (HHS) have been working on global health 
security and emerging health threats for many years. USAID and HHS have 
excellent scientific and technical staff devoted to this work, 
including experts deployed now to the DRC, and will continue to lead 
efforts that support global health security. These investments have 
already increased the ability of host-government partners to prepare 
for and respond to dangerous infectious diseases, as evidenced by the 
professional and coordinated response led by the Congolese government 
to this and previous Ebola outbreaks. U.S. assistance programs will 
continue to leverage our dollars to ensure other donor countries and 
local partners are contributing to these truly global challenges.

    Question. SYRIA: Last month, the President announced he would 
freeze $200 million in stabilization assistance. Stabilizing gains 
against ISIS through targeted programs to remove mines and explosive 
devices, deploy electricity, and provide basic services is essential to 
getting displaced Syrians back to their homes and to dealing the final 
blow to ISIS. The military recognizes the critical role that these 
programs play. U.S. Central Command Commander General Joseph Votel said 
during a January visit to Raqqa that stabilizing areas formerly 
controlled by ISIS, ``is also about removing the conditions that lead 
to things like insurgency, that lead to instability. So, from a 
military standpoint we're very keen to make sure that the follow-
through in our operations is completed as effectively as the military 
operation.'' Freezing this funding also puts our approximately 2,000 
troops in Syria and 8,000 troops in Iraq at greater risk. If ISIS 
regains strength in Syria, its reach will quickly spread across the 
porous Syria/Iraq border. Additionally, the absence of U.S. leadership 
to help stabilize areas cleared of ISIS control could result in 
others--including Russia, Iran, and the Assad regime--filling the 
vacuum to the detriment of our national security objectives in Syria 
and the region. What are your objectives for stabilization in Syria?

    Answer. The United States is working with our partners in the 
Global Coalition to Defeat-ISIS to support immediate stabilization and 
early recovery efforts in areas liberated from ISIS control, including 
Explosive Remnants of War (ERW) removal, the restoration of essential 
services and building local capacity to support longer-term 
sustainability. Our stabilization activities help ensure the lasting 
defeat of ISIS through support for representative, legitimate local 
governance and service provision in liberated areas. The Administration 
has repeatedly emphasized that we are committed to completing the fight 
against ISIS and rooting out its remaining havens.

    Question. SYRIA: Last month, the President announced he would 
freeze $200 million in stabilization assistance. Stabilizing gains 
against ISIS through targeted programs to remove mines and explosive 
devices, deploy electricity, and provide basic services is essential to 
getting displaced Syrians back to their homes and to dealing the final 
blow to ISIS. The military recognizes the critical role that these 
programs play. U.S. Central Command Commander General Joseph Votel said 
during a January visit to Raqqa that stabilizing areas formerly 
controlled by ISIS, ``is also about removing the conditions that lead 
to things like insurgency, that lead to instability. So, from a 
military standpoint we're very keen to make sure that the follow-
through in our operations is completed as effectively as the military 
operation.'' Freezing this funding also puts our approximately 2,000 
troops in Syria and 8,000 troops in Iraq at greater risk. If ISIS 
regains strength in Syria, its reach will quickly spread across the 
porous Syria/Iraq border. Additionally, the absence of U.S. leadership 
to help stabilize areas cleared of ISIS control could result in 
others--including Russia, Iran, and the Assad regime--filling the 
vacuum to the detriment of our national security objectives in Syria 
and the region. Does the Administration plan to continue to withhold 
this funding?

    Answer. In line with the President's request to review all 
bilateral foreign assistance for Syria, we continually reevaluate 
stabilization assistance levels and their optimal utilization. We 
conduct reevaluations on an ongoing basis, as we do elsewhere around 
the world. The Department of State and USAID continue to work with the 
international community, members of the Global Coalition to Defeat-
ISIS, and our partners on the ground to provide much-needed 
stabilization support to vulnerable areas in Syria.

    Question. SYRIA: Last month, the President announced he would 
freeze $200 million in stabilization assistance. Stabilizing gains 
against ISIS through targeted programs to remove mines and explosive 
devices, deploy electricity, and provide basic services is essential to 
getting displaced Syrians back to their homes and to dealing the final 
blow to ISIS. The military recognizes the critical role that these 
programs play. U.S. Central Command Commander General Joseph Votel said 
during a January visit to Raqqa that stabilizing areas formerly 
controlled by ISIS, ``is also about removing the conditions that lead 
to things like insurgency, that lead to instability. So, from a 
military standpoint we're very keen to make sure that the follow-
through in our operations is completed as effectively as the military 
operation.'' Freezing this funding also puts our approximately 2,000 
troops in Syria and 8,000 troops in Iraq at greater risk. If ISIS 
regains strength in Syria, its reach will quickly spread across the 
porous Syria/Iraq border. Additionally, the absence of U.S. leadership 
to help stabilize areas cleared of ISIS control could result in 
others--including Russia, Iran, and the Assad regime--filling the 
vacuum to the detriment of our national security objectives in Syria 
and the region. How does this funding freeze bolster Iranian and 
Russian influence in Syria?

    Answer. The hold on the approximately $200 million does not bolster 
Iranian and Russian influence in Syria. The Administration has made 
clear to President Putin that if Russia is serious about ending the 
Syrian conflict, it must stop fueling Assad's ruthless assault on his 
own people. However, we remain realistic regarding Russia's ability and 
willingness to do this. The Administration also remains focused on 
neutralizing Iran's threatening influence in Syria. Iran is subject to 
a variety of U.S. sanctions, including a broad U.S. embargo on trade 
with Iran, and we have used and continue to use targeted authorities to 
impose sanctions related to Iran's support for terrorism, ballistic 
missile program, and human rights abuses.

    Question. PAKISTAN: After a New Year's Day tweet by President Trump 
accusing Pakistan of ``deceit'' and of harboring terrorists, the State 
Department caught up to the President's policy pronouncement a few days 
later that the U.S. will suspend most security assistance to Islamabad. 
Have there been any changes in behavior by the Pakistanis as a result 
of withholding security assistance?

    Answer. We have made clear both publicly and directly to the 
highest levels of Pakistan's government that the Taliban, the Haqqani 
Network, and other militant and terrorist groups must not be allowed to 
use Pakistan's soil to plan or launch attacks against neighboring 
countries. Our suspension of security assistance and security-related 
payments to Pakistan reflected our assessment that, while Pakistan has 
taken some initial constructive steps, we have not yet seen decisive, 
sustained action on these requests. Our assessment has not changed. We 
continue to engage with Pakistan's leadership in private and will use 
the full range of tools at our disposal to encourage Pakistan to take 
action against all militant and terrorist groups operating on its soil.

    Question. Can you comment on whether the escalating violence in 
Afghanistan is a signal from elements in Pakistan displeased by the 
withholding of security assistance?

    Answer. This year's level of violence in Afghanistan has been 
broadly consistent with previous fighting seasons and is driven by a 
range of factors, including the Taliban's Al Khandaq offensive, high 
profile terrorist attacks by ISIS-Khorasan Province, local grievances, 
and criminality. We see no evidence suggesting a linkage between the 
levels of violence in Afghanistan and the withholding of security 
assistance to Pakistan.
    The President's South Asia strategy, announced last summer, 
prioritized the bilateral security relationship between Afghanistan and 
Pakistan as well as the need for Pakistan to take active measures in 
support of peace and reconciliation in Afghanistan and regional 
security. During an April 6 visit to Afghanistan, Pakistan's prime 
minister affirmed his commitment to an Afghan peace process, saying 
there was no military solution to the ongoing Afghan conflict and that 
a political solution was the best option to stop the Taliban's violent 
campaign. We continue to encourage Pakistan to take concrete steps to 
support an Afghan-led, Afghan-owned peace and reconciliation process 
that yields a negotiated settlement that will end the conflict and 
ensure lasting stability in Afghanistan and the region.

    Question. Earlier this month, The Daily Beast reported on a joint 
operation of U.S. and Somali Special Forces in the Somali village of 
Ma'alinka that resulted in several civilian casualties. This is now at 
least the third reported incident of possible non-combatant casualties 
in Somalia in which the U.S. military was involved. The first was in 
August 2016 when an airstrike killed local militia forces instead of a 
convoy of Al-Shabab militants that was the presumed target. The second 
was in August of last year, where locals allege that civilians were 
killed in a raid in Barire. Again, The Daily Beast, among other media 
sources, reported that 10 civilians were killed. AFRICOM is yet to 
release its assessment of what took place there and who was killed. 
With Somalia's complex local dynamics, there is often a question of who 
is and who isn't Al Shabab, and local rivalries complicate the 
situation. Do you believe that there should be an independent auditor 
that can provide an independent oversight review mechanism to look at 
incidents of civilian casualties and its impacts?

    Answer. We respectfully defer to the Department of Defense 
regarding this matter.

    Question. What role did the Chief of Mission have in approving the 
May 10 mission in Ma'alinka? Do you believe he had adequate information 
about what has been approved by the military chain of command and was 
fully briefed in advance of the operation?

    Answer. The Chief of Mission at the U.S. Mission to Somalia was 
fully consulted on and concurred with regarding the May 10 operation in 
which U.S. forces accompanied and assisted Somali partner forces. 
Coordination between the Chief of Mission and U.S. military forces in 
Somalia is excellent.

    Question. What role do State Department personnel play in seeking 
to avoid civilian casualties in U.S. strikes or U.S. ``accompany'' 
operations?

    Answer. American values and U.S. legal imperatives guide U.S. 
forces in the protection of civilians. Protecting civilians is 
fundamentally consistent with mission accomplishment and the legitimacy 
of U.S. counterterrorism operations. As such, the U.S. government takes 
extraordinary measures to minimize harm to civilians. While authorities 
for U.S. military operations fall under the responsible Combatant 
Commander or his designee, Chiefs of Mission in countries where U.S. 
military operations occur are in regular communication with military 
representatives on a wide variety of issues, including on how 
significant military operations can best support foreign policy 
objectives.

    Question. What role does the Chief of Mission play in approving 
U.S. forces ``accompanying'' partner forces on operations where they 
may come in contact with Al Shabaab?

    Answer. The Chief of Mission's role in DoD operations depends on 
the specific legal authorities and policies in play. In all cases, 
under presidential directive, Chiefs of Mission and Geographic 
Combatant Commanders must keep each other mutually informed and 
cooperate on all matters of mutual interest. Legislation, presidential 
directive, or DoD policy may also require Chief of Mission concurrence 
before an operation can occur. In Somalia, our Chief of Mission is in 
regular and frequent communication with military representatives, 
including with respect to all military operations.

    Question. SOMALIA--AIR STRIKES: Following up on Somalia, just a few 
years ago, in 2014 and 2015, there were just three U.S. strikes per 
year in Somalia, according to the Bureau of Investigative Journalism. 
Because these strikes were so limited, our intelligence networks were 
notionally able put a lot of effort into providing reliable information 
on high value targets. In 2017, that number was over 30--a ten-fold 
escalation in strikes (see graphic). It is important to remember that 
there have been no changes to the authorities granted by Congress for 
the use of military force in Somalia during this period. There have, 
however, been changes made by the Executive in its justification for 
the use of force in Somalia, and decisions to deploy U.S. forces to 
accompany Somali partners on combat missions and expand the area of 
``active hostilities.'' Should Congress have a role in approving 
significant changes to the basis for the use of lethal force, such as 
in Somalia, where operations have increasingly expanded since 2015 to 
support and defend African partner forces?

    Answer. The Department of State respects Congress' role in 
authorizing the use of military force and in providing oversight on 
these issues. The President has directed operations against al-Shabaab 
and ISIS in Somalia pursuant to the domestic legal authority provided 
by the 2001 Authorization for Use of Military Force (AUMF). The 
Administration has sufficient legal authority to implement this 
campaign and is not seeking any new or additional authority to use 
military force.

    Question. Are we ``at war'' in countries like Somalia in which the 
existing or proposed AUMF grants authority for the use of force against 
associated forces of Al Qaeda and ISIS?

    Answer. The President has directed operations against al-Shabaab 
and ISIS in Somalia pursuant to the domestic legal authority provided 
by the 2001 AUMF. U.S. forces have countered the terrorist threat by 
conducting a number of airstrikes against al-Shabaab as well as ISIS. 
U.S. forces also advise, assist, and accompany regional forces during 
counterterrorism operations, including those from Somalia and the 
African Union Mission in Somalia (AMISOM).

    Question. Is there a whole-of-government strategy for Somalia that 
includes adequate emphasis on diplomacy and development? What are our 
main diplomatic and development goals in Somalia and how do U.S. troops 
support those goals?

    Answer. Diplomacy and development are an integral part of the U.S. 
government's whole-of-government approach in Somalia. Our primary 
diplomatic and development goals are to assist Somali-led efforts to: 
(1) build security forces that can combat terrorism and provide 
stability; (2) advance the federalism and political reconciliation 
processes, including completing the constitutional review and preparing 
for one-person, one-vote elections in 2020/21; (3) promote economic 
growth and job creation; and (4) provide lifesaving humanitarian 
assistance while building resilience among Somalis to withstand future 
shocks. U.S. military efforts in Somalia directly support these goals 
by strengthening security and stability, which are fundamental to 
opening up space for political and development efforts.

    Question. NIGER-UNINTENDED CONSEQUENCES: I am concerned that under 
the current legal framework for the use of military force against 
terrorist targets abroad, the executive branch is able to justify 
military strikes against nearly any armed group operating in the Sahel 
by asserting that such group is an ``element of'' ISIS or Al Qaeda, 
even if these groups have primarily local aims and do not present a 
clear threat to the U.S. homeland. In the past few months, the 
Administration has reached agreement with the government of Niger to 
arm the U.S. drones stationed in that country--and in March, DoD 
reportedly used a Niger-based drone to carry out a strike against a 
terrorist target in southern Libya. What is your view of the potential 
for regional blowback, mission creep, or any other negative unintended 
consequence to emerge from the expanding U.S. military mission-set in 
the Sahel region?

    Answer. The State Department, including Chiefs of Mission, and the 
DoD work closely to anticipate and mitigate risks associated with 
military activities in the Sahel. We remain committed to minimizing the 
U.S. military presence in the Sahel while focusing on building security 
sector capacity among partner governments in Africa and supporting 
their efforts to counter terrorism and other security threats. We also 
recognize that our European partners, particularly France, play a lead 
role in providing donor support for West African security activities. 
The United States works with partners in Europe and Africa to identify 
areas where we can provide unique expertise and capabilities. We are 
focused on building security sector institutional capacity and 
professionalism, and we intend for our ongoing work with militaries on 
human rights and accountability to also minimize the risks of negative 
repercussions.

    Question. What would be the consequences of any future U.S. 
unilateral strike in Niger, Mali, or Burkina Faso?

    Answer. It is impossible to anticipate all the hypothetical 
situations where military action may be taken.

    Question. What role is the State Department--including our 
embassies in the region--playing in shaping or constraining the U.S. 
military footprint in the Sahel?

    Answer. The State Department and Department of Defense coordinate 
closely with each other and participate in the interagency process to 
determine regional strategies in the Sahel. Such exchanges occur both 
ad hoc and through more formal mechanisms, including the Trans-Sahara 
Counterterrorism Partnership, Sahel Maghreb Deputy Assistant 
Secretaries' Committee, Africa Strategic Dialogue, Africa Strategic 
Integration Conference, and others. Our ambassadors and country teams 
in the field communicate daily and share policy guidance with the 
defense attaches and other military personnel.

    Question. What is the larger U.S. foreign policy strategy toward 
the Sahel, to which these military activities are contributing?

    Answer. Security, development, and political processes are linked 
and must be part of our efforts to stabilize the Sahel. We strongly 
support the Group of Five Sahel (G5) as a regional African-led solution 
for security and development. Our significant and longstanding 
development assistance through USAID continues to address root causes 
of conflict. We will continue to coordinate closely with our 
international partners in considering support to G5 initiatives in non-
security sectors. Improved governance--including respect for human 
rights, anti-corruption initiatives, and accountability for security 
forces--is an essential part of the solution across the region. We 
remain strongly engaged in the Mali peace process to promote a 
sustainable and lasting peace. We also seek to stop the flow of funds 
to terrorist groups and recover hostages, including U.S. citizen 
Jeffery Woodke.

    Question. NIGER-ASSOCIATED FORCES: I would like to better 
understand how the Administration makes determinations about 
``associated forces'' or separate organizations. I am concerned that 
the executive branch is currently able to justify military strikes 
against nearly any armed group operating in the Sahel by asserting that 
such group is an ``element of'' ISIS or Al Qaeda, even if these groups 
have primarily local aims and do not present a clear threat to the U.S. 
Homeland.
    How does the Administration define what constitutes a separate 
organization, versus an ``element'' of a global organization such as 
ISIS or Al Qaeda, or a regional organization such as AQIM?

    Answer. A determination of whether a group is covered by the 2001 
AUMF is made at the most senior levels of the U.S. government after a 
careful evaluation of the intelligence concerning each group's 
organization, links with al-Qa'ida or the Taliban, and participation in 
al-Qa'ida's or the Taliban's ongoing hostilities against the United 
States or its coalition partners.
    The U.S. government's definition of associated forces remains 
unchanged from the prior administration. To be considered an associated 
force, an entity must: (1) be an organized, armed group that has 
entered the fight alongside al-Qa'ida or the Taliban; and (2) be a co-
belligerent with al-Qa'ida or the Taliban in hostilities against the 
United States or its coalition partners. Thus, a group is not an 
associated force simply because it aligns with al-Qa'ida or the Taliban 
or embraces their ideology. Merely engaging in acts of terror or merely 
sympathizing with al-Qa'ida or the Taliban is not enough to bring a 
group within the scope of the 2001 AUMF.

    Question. What precludes the Administration from adding associated 
forces that may have some vague relationship with a designated group or 
its existing associated forces without coming back to Congress?

    Answer. The U.S. government's definition of associated forces 
remains unchanged from the prior Administration. To be considered an 
associated force, an entity must: (1) be an organized, armed group that 
has entered the fight alongside al-Qa'ida or the Taliban; and (2) be a 
co-belligerent with al-Qa'ida or the Taliban in hostilities against the 
United States or its coalition partners. Thus, a group is not an 
associated force simply because it aligns with al-Qa'ida or the Taliban 
or embraces their ideology. Merely engaging in acts of terror or merely 
sympathizing with al-Qa'ida or the Taliban is not enough to bring a 
group within the scope of the 2001 AUMF.

    Question. WEST BANK AND GAZA ASSISTANCE: With the ongoing 
Administration review of Economic Support Funds to the West Bank and 
Gaza, different humanitarian programs, programs that were explicitly 
allowed under the Taylor Force Act, are currently suffering from the 
lack of obligated funds especially in the context of the worsening 
situation in Gaza. Is the review connected to the release of the 
Administration's peace plan?

    Answer. U.S. assistance to the Palestinians remains under review. 
The Administration routinely conducts reviews of our foreign assistance 
in order to ensure it is meeting our national security interests, 
achieving our policy objectives, and providing value to U.S. taxpayers. 
The Department of State looks forward to briefing Congress on the 
conclusions of the review. Separately, the Administration continues to 
work hard on a plan for peace that offers a brighter future to both 
Israel and the Palestinians.

    Question. If it is, does this mean if the time is not right 
political to release the plan that the assistance to the West Bank and 
Gaza could be held indefinitely?

    Answer. U.S. assistance to the Palestinians is under review. I will 
ensure that Congress receives briefings on the conclusions of that 
review upon completion and that the Department of State obligates 
funding appropriated by Congress consistent with applicable law.

    Question. If the review is not connected to the Administration's 
peace plan, can you commit that the review will be finished in time for 
Congressional notifications can be made for the remaining of FY17 
funding to ensure that humanitarian programs, people-to-people 
programing and other programs permitted under the Taylor Force Act can 
be obligated before the end of the fiscal year given the time taken for 
Congressional oversight of these programs?

    Answer. The Administration strongly supported the Taylor Force Act, 
which also enjoyed strong bipartisan support in Congress. U.S. 
assistance to the Palestinians is under review. I can assure you that 
Congress receives briefings upon conclusion of the review and that the 
Department of State will obligate funding appropriated by Congress 
consistent with applicable law.
                                 ______
                                 

                 Statement From Refugees International

    Refugees International (RI) remains alarmed by the significant 
budget cuts proposed in the President's Fiscal Year (FY) 2019 budget, 
which was released on February 12, 2018. Budgets define priorities and 
this budget proposal, if approved by Congress, would be devastating to 
lifesaving humanitarian work across the globe.
    The FY 2019 budget request calls for major cuts to key humanitarian 
accounts when compared to the FY 2018 omnibus funding levels. These 
cuts will significantly undermine the capacity of the United States to 
save lives and meet pressing humanitarian needs around the world. 
Further, there is a very real danger that the proposed cuts would 
amount to an abdication of U.S. global leadership in humanitarian 
affairs.
    Specifically, Refugees International is deeply concerned about the 
proposed reductions in the FY 2019 budget to the following accounts: 
Migration and Refugee Assistance (MRA) cut by 17 percent; International 
Disaster Assistance (IDA) cut by 40 percent; Peacekeeping Operations 
(PKO) cut by 46 percent; and Contributions to International 
Peacekeeping Activities (CIPA) cut by 13 percent. The FY 2019 budget 
also calls for the elimination of the Emergency Refugee and Migration 
Assistance account (ERMA) and P.L. 480 Title II (Food for Peace) as 
well as major cuts to global health programs and climate change 
initiatives.
    The impact of such dramatic funding cuts would put vulnerable 
populations at risk. From U.N. peacekeeping mission support in Sub-
Saharan Africa to food assistance for communities still reeling from 
famine-related drought impacts to natural disaster response capacity 
and disaster risk reduction projects to global health support for women 
and girls, such cuts would have severe consequences.
    RI is a non-profit, non-governmental organization that advocates 
for lifesaving assistance and protection for displaced people in parts 
of the world impacted by conflict, persecution and forced displacement. 
There are currently over 65 million people displaced, the most ever 
recorded. Protracted crises, such as the horrors of Syria, and new 
crises, such as the flight of hundreds of thousands of Rohingya 
refugees from Myanmar to Bangladesh in 2017, make the maintaining of 
robust U.S. assistance essential. Humanitarian and protection needs 
demand U.S. leadership and engagement. And any effort to downplay the 
humanitarian imperative of refugee resettlement, a fundamental 
protection program, is unconscionable.
    But the ability to assist and protect those in need isn't just 
about funding. The State Department and USAID's organizational 
structures, designated responsibilities, stated policy priorities, and 
capacity is equally important. The ultimate result of a State 
Department redesign will likely have significant consequences for U.S. 
assistance and diplomacy.
    RI convened a group of leading experts and former senior U.S. 
government officials that published an August 2017 report on U.S. 
government reorganization. The group recommended that the State 
Department and USAID should retain essential functions while enhancing 
``jointness,'' complementarity and coordination as opposed to 
consolidation. The report underscored the key role of the State 
Department's Bureau of Population, Refugees and Migration (PRM). PRM's 
unique blend of senior diplomatic engagement and humanitarian 
assistance has served to elevate the plight of the displaced and 
directly benefited the lives of countless refugees. The bureau's 
leadership has also been essential in addressing broader protection 
challenges and supporting refugee resettlement.
    Congress absolutely has an important role to play in any redesign 
effort. The lack of transparency about the State Department's redesign 
process to policy makers, NGOs, and key partners, as well as limited 
substantive consultations with stakeholders, raise further questions 
about the ultimate goals, particularly as key diplomatic posts remain 
unfilled and troubling staffing gaps continue. Congress must hold the 
administration accountable for the lack of senior appointments at the 
State Department.
    We thank the Congress for continued bipartisan efforts to support 
lifesaving humanitarian assistance at this critical time of 
international need and remain grateful that Congress previously 
rejected similarly proposed cuts in the President's FY 2018 budget. 
This aid is making a difference on the ground, as RI regularly 
witnesses during our frequent field assessments. Members should be 
proud of longstanding U.S. support of humanitarian and development 
actors who are admirably working in difficult and insecure environments 
to assist the world's most vulnerable populations. The only response to 
this irresponsible and dangerous budget proposal is to ensure that 
significant U.S. support must be and will be maintained and 
strengthened.
                                 ______
                                 

   Statement From Catholic Relief Services OPED in the HILL Newspaper

u.s. aid is critical to survival in gaza: lift the hold on humanitarian 
                                funding
 by sean callahan and bishop gregory j. mansour, opinion contributors--
                        05/03/18 11:30 a.m. edt
    For the past month, the desperation and volatility that 
characterize activity in the Gaza Strip have been evident in clashes 
between Palestinian protesters and Israeli security forces. These 
clashes have left more than 40 Palestinians dead and thousands injured.
    For more than a decade, an air, land and sea blockade has choked 
commerce and trapped roughly 2 million people in the area, which is 
about half the size of New York City. On most days in Gaza, the 
electricity lasts four hours or less. Ninety-five percent of the water 
is contaminated. Without power to operate treatment facilities, people 
dump raw sewage into the sea on a regular basis, raising the risks of a 
cholera outbreak.
    Gaza has an unemployment rate of 42 percent, which is among the 
highest in the world, and a staggering 60 percent unemployment rate 
among youths. It is no wonder that 80 percent of the population relies 
on humanitarian aid for survival. With the blockade still in place, 
this is not the time to pull back assistance.
    U.S. funding in Gaza, which has been critical to providing 
opportunities and hope to those in a desperate situation, is on hold 
pending a policy review process by the Trump administration. While the 
United States isn't the only country providing aid to the people of 
Gaza, it is the largest, and any interruption of U.S. funding is 
noticed in the daily lives of the most vulnerable Gazan families.
    We see the good that the U.S. assistance has done for the people of 
Gaza. With a grant from the U.S. government, Catholic Relief Services, 
the international humanitarian agency of the U.S. Catholic Church, runs 
a program--suspended at the moment--that has helped thousands of Gazans 
find work. On a recent visit, we met with a man in his 50s who, through 
the program, gained employment as a cleaner. He had been out of work 
for more than a decade and was so proud to show us his worker ID badge 
and excited to come to work each day.
    One woman used the money she earned during a teaching internship to 
start her own tutoring business. The mother of two young girls, she 
hopes the self-confidence she has gained will be passed on to her 
daughters. These people exemplify so many of the Gazans we've 
encountered--eager to work, hopeful for a better future, and yearning 
for a chance to support themselves and their families.
    If the administration decides to end assistance to Palestinians, 
the decision will impact not only these employment services but also 
food distributions, schools and health services. All these things, 
supported by U.S. aid, will be in jeopardy.
    On Christmas Day, Pope Francis said that we see Jesus in the 
children of the Middle East who continue to suffer because of 
continuing tensions between Israelis and Palestinians. As Christians, 
we are called to do what we can to end suffering and to preserve the 
dignity of all people, no matter where they live. For our Palestinian 
brothers and sisters, that means ensuring they have what they need to 
survive, and giving them the means to provide for themselves and their 
families.
    Policymakers on both sides of the aisle long have recognized that 
desperate conditions in Gaza are bad for Israeli security, and that 
American aid plays an important role in stabilizing a tenuous 
environment. We remain hopeful there will come a time when Gaza no 
longer needs international aid, but we know that time will not come 
about until the blockade of Gaza is lifted.
    Until then, aid is the only way for the people of Gaza to survive, 
and the United States must continue to do its part in keeping the 
peace.
    Sean Callahan is president and CEO of Catholic Relief Services, the 
international humanitarian and development agency for the Catholic 
community in the United States. Bishop Gregory J. Mansour is board 
chairman for Catholic Relief Services.

                                ------                                


   Letter Submitted by Senator Young to the Appropriations Committee 
 Reiterating Bipartisan Support for the Fiscal Year 2019 International 
                             Affairs Budget

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                                  [all]
</pre></body></html>
